<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's Note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2005 
Energy and Water Development Appropriations Act.]

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                           Corps of Engineers

     Prepared Statement of the City of Los Angeles Board of Harbor 
                 Commissioners and Port of Los Angeles
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to submit testimony in support of the Channel Deepening 
Project at the Port of Los Angeles, the largest container seaport in 
the United States. Our testimony speaks in support of an fiscal year 
2005 appropriation of $35 million for the Federal share of continued 
construction of the Channel Deepening Project at the Port of Los 
Angeles. This critical Federal navigation improvement project underpins 
the United States' decisive role in international trade. Consistent 
with the goals and priorities of the administration and Congress, the 
Channel Deepening Project will provide immediate and significant 
economic return to the Nation, fulfill the commitment to environmental 
stewardship, and foster positive international relations. We 
respectfully request the subcommittee to fully fund our fiscal year 
2005 appropriation request of $35 million.
    The Corps of Engineers recently revised the cost of the Channel 
Deepening Project, and the Federal share, to account for credits for 
in-kind services provided by the Port and other project modifications. 
The Corps issued these credits before the Port and Corps' execution of 
the Project Cooperation Agreement. The modifications include 
adjustments to the disposal costs for dredged material, adjustments for 
construction contract changes, and project administration costs. The 
Corps' revised cost is now $222,000,000, representing a Federal share 
of $72,000,000 and a local share of $150,000,000. Furthermore, in 
fiscal year 2003, we experienced a funding shortfall challenging the 
Port to meet construction contract earnings. As such, under authority 
provided by Section 11 of the Rivers and Harbors Act of 1929, the Port 
of Los Angeles advanced more than $13,000,000 to the Corps of Engineers 
to cover the shortfall, and avoid costly construction shutdown or debt 
service due to interest accruals. Similarly, fiscal year 2004 funding 
shortfalls may also prove to be insufficient to meet construction 
contract earnings and could significantly slow the current construction 
schedule for this year. Mr. Chairman, while we are so grateful that the 
President's fiscal year 2005 budget includes $23 million for the 
Channel Deepening Project, the previous funding shortfalls and the 
increased project costs compel us to request the higher funding level. 
As you may be aware, the Corps of Engineers reprogrammed $23 million 
from the South Pacific Division last year without allocating any 
portion of those dollars to the Channel Deepening project that is 
performing well.
    Dramatic increases in Pacific Rim and Latin American trade volumes 
have made infrastructure development at the Port of Los Angeles more 
critical than ever, with more than 42 percent of containerized cargo 
entering the United States through the San Pedro Bay port complex. The 
Port of Los Angeles, alone, handled more than 7.2 million 20-foot 
equivalent units of containers (TEUs) in calendar year 2003 (a 20 
percent increase over 2002), representing ongoing unprecedented growth 
for any American seaport. This burgeoning trade has resulted in the 
manufacture of larger state-of-the-art container ships. As such, the 
Port embarked upon the Channel Deepening Project--along with its 
Federal partner, the Army Corps of Engineers--to deepen its Federal 
channel from -45 feet to -53 feet. Currently, more than 50 of these 
state-of-the-art container ships are on order to serve the United 
States West Coast container fleet. The first of these deeper-draft 
ships is scheduled to call at the Port of Los Angeles in August of this 
year, carrying 8,000 TEUs and drafting at -50 feet.
    As we have testified before, cargo throughput for the San Pedro 
Bay--and the Port of Los Angeles in particular--has a tremendous impact 
on the United States economy. We at the Port of Los Angeles cannot over 
emphasize this fact. The ability of the Port to meet the spiraling 
demands of this phenomenal growth in international trade is dependent 
upon the speedy construction of sufficiently deep navigation channels 
to accommodate the new container ships. These new ships provide greater 
efficiencies in cargo transportation, carrying more than 8,000 TEUs and 
one-third more cargo and making available to the American consumers 
more product inventory at lower prices on imported goods. In addition, 
exports from the United States become more competitive in foreign 
markets. However, for American seaports to keep up, they must, 
immediately, make the necessary infrastructure improvements that will 
enable them to participate in this rapidly changing global trading 
arena.
    Mr. Chairman, these state-of-the-art container ships represent the 
new competitive requirements for international container shipping 
efficiencies in the 21st Century, as evidenced by the increased volume 
of international commerce and the new deeper-draft container ships now 
on order for service at ports across the United States within the next 
few years. It is imperative that Congress appropriates the requested 
funding that will enable the Channel Deepening Project to continue on 
schedule through the project's anticipated completion in 2006 to meet 
these new efficiencies.
    The Channel Deepening Project is clearly a commercial navigation 
project of national economic significance and one that will yield 
exponential economic and environmental returns to the United States 
well into the future. The national economic benefits are evidenced by 
the creation of more than 1 million permanent well-paying jobs across 
the United States; more than $1 billion in wages and salaries, as well 
as local, State and Federal sales and income tax revenues deposited 
into the Federal treasury. As an aside, the 7.2 million TEUs handled by 
the Port of Los Angeles in 2003 had a commercial value of more than 
$300 billion in container cargo, with significant tax revenues accruing 
to the Federal Government. Similarly, according to the U.S. Customs 
Service, users of the Port pay approximately $12 million a day in 
Customs duties, with the Los Angeles Customs District leading the 
Nation in total duties collected for maritime activities. As you can 
see, the return on the Federal investment at the Port of Los Angeles is 
real and quantifiable, and we expect it to surpass the cost-benefit 
ratio as determined by the Corps of Engineers' project Feasibility 
Study many times over. The Federal investment in the Channel Deepening 
Project will ensure that the Port of Los Angeles, the Nation's largest 
container seaport, remains at the forefront of the new international 
trade network well into the 21st Century. The Channel Deepening Project 
marks the second phase of the 2020 Infrastructure Development Plan that 
begun with the Pier 400 Deep-Draft Navigation and Landfill Project. The 
Port of Los Angeles is moving forward with the 2020 Plan designed to 
meet the extraordinary infrastructure demands placed on it in the face 
of the continued explosion in international trade. Mr. Chairman, the 
Port of Los Angeles respectfully urges your subcommittee to include an 
earmark of $35 million for fiscal year 2005 to support the U.S. Army 
Corps of Engineers' continued construction of the Channel Deepening 
navigation project on behalf of the Port of Los Angeles.
    Thank you, Mr. Chairman, for the opportunity to submit this 
testimony in support of continued Congressional support of the Channel 
Deepening Project at the Port of Los Angeles. The Port has long valued 
the support of your subcommittee and its appreciation of the port 
industry's importance to the economic vitality of the United States, 
and, in particular, the role of the Port of Los Angeles in contributing 
to this country's economic strength.
                                 ______
                                 

              Prepared Statement of the City of Stillwater

    Chairman Domenici and members of the Energy and Water Development 
Subcommittee, I thank you for the opportunity to submit this testimony 
requesting the $1.8 million needed to construct Stage 3 of the 
Stillwater, Minnesota flood control project. In 2001, the City 
experienced its seventeenth flood since 1941, immediately after the 
Corps completed construction work on Lock and Dam No. 3 20 miles South 
of the convergence of the Mississippi River and the St. Croix River.
    The first two stages of the project have been completed, and 
Congress appropriated $2.3 million in the fiscal year 2002 
Appropriations Bill to begin construction the critical Stage 3 of the 
project. The $1.5 million in Federal funds requested this year, plus 
State appropriated, and local funds should be sufficient to complete 
the $13.2 million project.
    The project is divided into three stages. Stage 1 included the 
repair and reconstruction of the existing retaining wall which extends 
1,000 feet from Nelson Street on the South to the gazebo on the North 
end of the levee wall system. Stage 2 consists of the extension of the 
levee wall about 900 feet from the gazebo North around Mulberry Point.
    The completion of Stage 2 was delayed by floods of 1997, costing 
the City and the Federal Government nearly a half million dollars. 
After the waters subsided, it was discovered that the soil beneath the 
planned levee extension was very unstable, requiring a revision of 
plans, and the addition of another stage in the construction process.
    The flood waters of the St. Croix River did not recede until August 
of 1997. The construction area remained under water preventing 
construction work to proceed as scheduled. Lowell Park, which extends 
the full length of the levee wall system, several structures, and the 
emergency roadway which is used to provide emergency medical assistance 
for those using the recreational St. Croix River, and as a water source 
for local fire departments, were all either under water or 
inaccessible.
    Phase I, the repair and reconstruction of the original levee wall, 
was completed in the Summer of 1998. Work on Stage 1 was completed in 
late Summer of 1997, and additional soil borings were taken for Stage 
2. The soil was found to be very unstable, and unable to support the 
levee system designed for Stage 2 of the project. The construction of 
Stage 2 required remedial action, and was been designated as Stage 2S. 
A contract was awarded for Phase 2S in November, 1998, and was 
completed in 1999. Phase 2 was begun in the late Fall of 1999, and the 
major construction work was completed at the end of the year 2000. Only 
some landscaping, and finishing work on the levee wall system remains 
to be done. The Design Memorandum schedule calls for the construction 
of Stage 3 in fiscal year 2002, and to be completed in fiscal year 
2003, according to the Corps schedule.
    Stage 3 expands the flood protection system by constructing a 3 
foot flood wall, and driving sheet piling below the surface to reduce 
seepage and to provide a base for the wall. The flood wall will be 
constructed about 125 feet inland from the riverbank. Stages 1 and 2 
were critical to the protection of the fragile waterfront, and also, to 
prevent minor flooding on the North end of the riverfront. Stage 3 is 
the component that provides the flood protection for the City. The 
rising elevation of the terrain, the flood wall, and minimal emergency 
measures are designed to provide the City with up to 100 year flood 
protection.
    The Mayor, City Council Members, and Engineering staff all 
understand that Stage 3 of the flood control project is essential for 
the protection of life and property of the citizens, that the Stage 3 
flood wall is a critical phase of the project, and that the project 
must be completed at the earliest possible date. The Corps acknowledged 
the necessity for all three stages of the project when the Design 
Memorandum included plans for all three stages.
    The U.S. Congress directed the Secretary of the Army acting through 
the Chief of Engineers to proceed with the design and construction to 
complete the Stillwater Levee and Flood Control Project under Section 
124 of the Omnibus Appropriations Act for fiscal year 2005. The City 
and the State of Minnesota have allocated matching funds for this work, 
and it is in an escrow account for that purpose. The Corps of Engineers 
have said the monies appropriated to begin this work on Stage 3 have 
been redirected, and Federal funds are not available.
    This fact is born out by the support of the Minnesota Department of 
Natural Resources, the Governor of Minnesota, and the State 
Legislature. The Minnesota Department of Natural Resources made funds 
available based on this premise. The State has appropriated half of the 
Non-Federal matching funds needed to complete Stage 3 of the project, 
as well as for Stages 1 and 2. The City has provided the remainder of 
the required matching funds, consequently, only the Federal share is 
missing to complete the project.
                  stillwater--a national historic site
    The City of Stillwater is recognized for the 66 historic sites on 
the National Register of the U.S. Department of Interior, as well as 
other historic structures. Many of these sites are located in the flood 
plain of the St. Croix River. Designated the ``Birthplace of 
Minnesota,'' the City of Stillwater was founded in 1843.
    When Wisconsin became a State in 1848, a portion of land West of 
the St. Croix and Mississippi Rivers, including much of what is now the 
Twin Cities of Minneapolis and St. Paul, was excluded. The prominent 
citizens of the excluded area convened in Stillwater on August 26, 
1848, passed a resolution to be presented to Congress asking that a 
``new territory be formed,'' and that the territory be named 
``Minnesota.'' Henry Sibley carried the petition to Washington, DC, and 
in March, 1849, Minnesota Territory was established. Stillwater then 
became the only city in the Nation to become the county seat of two 
different territories, St. Croix County in Wisconsin, and Washington 
County, Minnesota. The Stillwater Convention firmly established 
Stillwater as the ``Birthplace of Minnesota.''
    Stillwater grew and prospered as the Lumber Capitol of the Midwest. 
Billions of feet of timber was cut, and floated down the St. Croix to 
the nine sawmills that were located on the riverbank of the St. Croix 
at Stillwater between 1848 and 1914. More logs were carried through the 
boom site North of Stillwater than any other place in the United 
States. Three billion feet of lumber was produced by the nine lumber 
mills in the 1880's alone. All nine lumber mills wee located on the 
riverfront The lumber from the Stillwater mills were the primary source 
of wood-constructed buildings throughout the Midwest.
    Much of the lumber was carried down the St. Croix to the 
Mississippi River, and on to St. Louis, the ``jumping off'' point for 
the Westward movement. Sawdust and wood debris from these mills helped 
created the fragile riverbank that the levee wall system protects 
today.
    Later in the 19th Century, five railroads carried lumber from 
Stillwater Westward to Nebraska, North and South Dakota, and points 
West, as the Nation expanded beyond the Mississippi River into the 
plains States. Many of the Midwest's oldest buildings still carry the 
mark of the Stillwater mills.
    As a result of Stillwater's place in the history of the Midwest, 
the lumber industry, the unique homes built by Minnesota's first 
millionaires, and the birthplace of both Minnesota Territory and the 
State of Minnesota, 66 sites are included on the National Register of 
Historic Places. All of the downtown area, which is located in the 100-
year flood plain, is included in this recognition.
         the impact of lock and dam no. 3 on floods--stillwater
    The Lock and Dam No. 3 was constructed in 1937-38 on the 
Mississippi River at Red Wing, Minnesota. The Lock and Dam construction 
raised the level of the St. Croix at Stillwater by 8 to 10 feet. It has 
made the City of Stillwater vulnerable during periods of high water and 
flooding of the St. Croix since that time. Records prove that the lock 
and dam construction, raising the water levels of both the Mississippi 
and the St. Croix River, has markedly increased the incidence of 
flooding at Stillwater. The culpability of the Corps is clearly 
evident.
    The Mississippi and the St. Croix Rivers merge about 14 miles South 
of Stillwater. When constructing the Lock and Dam at Red Wing in 1938, 
the Federal officials recognized that detaining the flow of the 
Mississippi would back up the water in the St. Croix at Stillwater. A 
1,000 foot levee wall system was constructed at Stillwater by the WPA 
under the supervision of the Corps to protect the fragile waterfront.
    From 1850 to 1938, the 88 years prior to the construction of Lock 
and Dam No. 3, only four floods were reported by historians. None were 
the result of Spring snow melts. The 1852 flood was the result of a 
cloudburst, the destruction of a dam built on McKusick Lake above the 
City, and was not the result of the flooding of the St. Croix River. 
The floods of June 14, 1885, and May 9, 1894, as well as the 1852 
flood, were all the result of cloudbursts in or above Stillwater. These 
floods resulted in both loss of life and significant property losses in 
the City.
    Since the completion of the Lock and Dam 60 years ago, the St. 
Croix has flooded on 17 occasions, and only four times in the 90 years 
preceding the construction of the Lock and Dam. None of the four were 
the result of high water on the St. Croix River. Four floods were 
recorded in the 1940's, immediately after the completion of the lock 
and dam at Red Wing. The 1952, 1965, and 1969 floods were record-
breaking floods, the result of a heavy snow fall, and early Springs 
rainfall, coupled with warm weather. Record flooding was avoided in 
1997, by the early planning of City officials, the construction of a 
huge emergency levee requiring thousands of truck loads of clay and 
sand, the work of hundreds of volunteers, and luck in the avoidance of 
a severe rainstorm in or around the flood event.
    The 2001 flood was second worst flood in the 160 year history of 
the City. It was only topped only by the flood of 1965. The careful 
planning and preparation by the City, hundreds of volunteer workers 
included high school students and younger, local citizens from 
Minnesota and Wisconsin, and dozens of inmates from the near-by State 
prison were given credit for preventing a major catastrophe for the 
City. The water pump rental, thousands of yards of sand and fill, and a 
``round the clock'' line up of trucks, cost the Federal, State, and 
local governments nearly $1.3 million.
    The planning and preparation of City officials, and adequate lead 
time have allowed the construction of levees high enough to avoid 
massive flooding in the historic section of the City during most of the 
floods, and to prevent further loss of life. However, a 4-5 inch 
rainfall during high water levels would be devastating to the City. 
Such rainfalls are not infrequent in the St. Croix Valley, and can not 
be anticipated. A major concern is the safety of the volunteers. 
Working around heavy equipment and massive trucks, day and night, and 
on top of 20 foot emergency levees over swirling flood waters, it is 
only a matter time until we have serious injuries or loss of life.
    A wet Fall that saturates the soil, heavy snows during the Winter, 
extended warm spells in the Spring, coupled with persistent Spring 
rains, and cloudbursts as experienced in the past, will all come 
together in the same year at some point in time. At that point, the 
City's emergency responses to flood control will not be sufficient to 
cope with the flood waters.
    History bears out the City's contention that the raising of the 
river levels by ten feet in 1938, when Lock and Dam No. 3 was 
constructed, greatly increases the flooding potential faced by the City 
during the past 60 years. On this basis alone, the Federal Government 
must share in the responsibility for providing a remedy. The 
construction of the Stage 3 flood wall at Stillwater will provide this 
safety.
               environment threatened during flood events
    The St. Croix River was designated as one of the first Wild and 
Scenic Rivers by Congress and is protected under both Federal and State 
laws, as well as by local ordinances. The St. Croix River is carefully 
monitored by the Federal Government, an Interstate Commission, and the 
DNR's by both the States of Wisconsin and Minnesota.
    The City's concern is the trunk sanitary sewer line and pumping 
stations for the City of Stillwater. The sewer line runs adjacent to 
the riverfront and is frequently under water during major flood events. 
More than 2 million gallons of raw sewage is handled daily by the sewer 
line and pumping stations that follow the riverfront. Engineers have 
advised the City that extended flooding of the flood plain could result 
in the rupturing of the trunk line or the surcharging of the pumping 
stations.
    Either of these event would result in the direct flow of raw sewage 
into the St. Croix River. It would be impossible to repair the system 
during the high water of a flood event. During the 1997 floods, one 
pumping station and a portion of the trunk sewer line remained under 
water for 95 days, and required careful monitoring by the City workers.
    The protection of the river is not only the dominant theme of the 
State and Federal governments, but also by the counties and 
municipalities that line the riverbanks of the St. Croix. However, the 
greatest protectors of the river are the citizens themselves who take 
advantage of the crystal blue waters of the St. Croix for fishing, 
boating, and other recreational and scenic purposes.
    The topography of the City of Stillwater requires the location of 
the trunk sanitary sewer line and pumping stations at the base of the 
City's hub, adjacent to the riverfront. The City is built on two hills 
that slope toward the river, abruptly interrupted by sandstone bluffs 
extending 50-75 feet high above the river level. The sanitary sewer 
system serving the 16,000 Stillwater residents flows into the trunk 
sewer line that runs parallel to the riverfront. It can not be moved. 
The 2 million gallons of raw sewage handled by the system each day, is 
gathered in the trunk sewer line and pumped Southward to the water 
treatment plant.
    According to engineering studies, the trunk line and the pumping 
stations are both susceptible to rupture or surcharging during periods 
of flooding. Little could be done to stop the flow of raw sewage into 
the St. Croix until the water receded. During recent floods, it is not 
unusual for high water levels to persist for as much as 2-5 months. 
Such an event could release 120 million gallons of raw sewage into one 
of America's most pristine rivers over that period of time. If for no 
other reason than the protection of the river, the City believes the 
Stage 3 flood wall must be constructed with no delay.
                         legislative background
    The Stillwater Flood Control and Retaining Wall project first was 
authorized in section 363 of the Water Resources Development Act (WRDA) 
of 1992. An allocation of $2.4 million was made in the Energy and Water 
Development Appropriations Act of 1994.
    A Committee Report described the project in three parts--to repair, 
extend, and expand the levee wall system on the St. Croix River at 
Stillwater, Minnesota:
  --``To repair'' (Stage 1) the original existing levee wall system 
        constructed in 1936;
  --``To extend'' (Stage 2) the original wall by approximately 900 feet 
        to prevent the annual flooding that occurs at that location; 
        and
  --``To expand'' (Stage 3) the system by constructing the flood wall 
        about 125 feet inland from the levee wall system to protect the 
        downtown and residential section in the flood plain.
    In 1995, the Design Memorandum confirmed the cost estimate for the 
project was much too low, and the project was reauthorized for $11.6 
million by Congress in the 1996 WRDA legislation. In 2001, the Corps 
estimated the Federal cost at $9.86 million, the non-Federal cost at 
$3.29 million, and the total cost of the project to be $13.15 million. 
Congress appropriated $2 million in fiscal year 2002 for the 
construction of the Stage 3 flood wall. The Corps chose not to use 
these funds for that purpose, and were redirected to other projects. 
Congress then directed the Corps to design and construct the Stage 3 
flood wall in Section 124 of the Omnibus Appropriations Act for fiscal 
year 2005. While the Corps has now met with the City, and appears 
willing to move ahead as Congress as instructed, we are awaiting Corps 
action to prepare a Project Cooperation Agreement for all to sign.
    Since the reauthorization of the project 5 years ago, and the 
completion of the feasibility study, both Stage 1 and 2 have been 
completed. Only the completion of Stage 3 will provide the City with 
the flood protection that is critically needed. The reconstruction of 
the existing levee wall system, the extension of the levee wall, and 
the construction of the flood wall are all critical to the safety of 
the citizens, the protection of property, and the preservation of 
historic sites that contributed to the growth and expansion of the 
Midwest in the last half of the 19th Century.
                                summary
    The Mayor and Council for the City of Stillwater, Washington County 
Officials, the Governor and Minnesota State Legislature, and bipartisan 
support of Minnesota Representatives and Senators in Congress, all 
recognize the significant importance of completing this project by 
constructing the Stage 3 flood wall on the St. Croix River at 
Stillwater. They are committed to the completion of the Flood Wall 
Project at Stillwater. It is critical to the protection of property, 
the preservation of our history, the respect of historic Indian sites, 
and the safety of our citizens and their homes and business.
    We respectfully urge the Energy and Water Development Subcommittee 
for Appropriations to allocate the $1.8 million needed to begin 
construction of the Stage 3 flood wall in the fiscal year 2005 
Appropriations Bill. If you have questions or would like additional 
information regarding this project, please call on us.
                                 ______
                                 

       Prepared Statement of the City of Granite Falls, Minnesota

    Chairman Domenici and members of the Appropriations Subcommittee, I 
appreciate the opportunity to submit this testimony on behalf of the 
City Council and the citizens of Granite Falls, Minnesota. We are 
requesting $1.2 million in Federal funds for the development of the 
Detailed Design Report (DDR) plans and specifications, and critical 
preventative measures to protect the city from future flooding of the 
Minnesota River.
    This request is based on the ``Supplement to the Locally Preferred 
Plan for Flood Damage Reduction, January, 2002'' prepared on behalf of 
FEMA, the City, and information from the U.S. Army Corps of Engineers, 
Section 205 study not yet completed. This project was authorized in the 
Transportation and Infrastructure Committee bill, the Water Resources 
Development Act of 2003. The project has now been authorized for $8 
million in Federal funds in H. Res. 2557, Sec. 3061 as a Section 205 
project, in accordance with the Water Resources Development Act of 1986 
(100 Stat. 4184) as needed.
    The problems confronting the City require a carefully planned 
project. The geological features of the terrain discourages the 
construction of diversion channels due to the granite subsurface of the 
soil. Homes and businesses are being relocated using FEMA, State and 
local resources. The existing uncertified and inadequate levee system 
will be improved to provide adequate protection for the communities, 
and the Municipal Power Plant adjacent to the Minnesota River will 
require relocation.
                       the city of granite falls
    The City of Granite Falls is a community of slightly more than 
3,000 citizens, is located in West Central Minnesota about 122 miles 
west of St. Paul. The Minnesota River runs through the northern and 
eastern portions of the City, and is directly adjacent to the downtown 
area. The majority of the City's residential and commercial properties 
are located on the west bank of the Minnesota River in Yellow Medicine 
County. Low-lying residential areas on the north end of the City, 
structures in the commercial business district along the river, and 
residences located next to the secondary river channels in the 
southwest part of the City are especially vulnerable to flooding.
                            recent disasters
    While the river represents a valuable resource to the community, it 
has taken a severe toll on residents and businesses during Spring 
floods. The 1997 floods which devastated much of Western Minnesota and 
North Dakota did not spare Granite Falls. The Flood drove many from 
their homes and their downtown businesses, and resulted in millions of 
dollars in damages. Virtually every downtown business was flooded. More 
than $850,000 was spent by the city, and another $175,000 by the Corps 
of Engineers to fight the flood.
    Hundreds of volunteers from Granite Falls area and the State 
prevented further devastation as the Minnesota River has a peak 
discharge of 53,000 cubic feet per second. That's more than 3 million 
cubic feet of flood water per minute. The rushing water was within 
inches of the top of the temporary dike as volunteers continued to 
stack sand bags. If the water had topped the dike, literally dozens of 
the workers' lives would have been severely endangered. Total costs and 
damages exceeded $5 million.
    In July of 2000, the city was hit by an F-4 tornado. An F-5 tornado 
is the top of the scale. One person was killed, 14 badly injured, and 
325 homes were either totally destroyed or severely damaged. The 
tornado caused more than $26 million in damages in the community.
    The following year, 2001, the City was again hit by another record 
flood event. Though not as severe as the 1997 flooding, damage was 
reduced significantly by careful City planning and preparation with 
Federal and State governmental units. Even so, the costs to fight the 
flood exceeded half a million dollars for the City and the Corps of 
Engineers, and much of the downtown commercial area was evacuated.
    Other significant floods have occurred in 1951, 1952, 1965, 1969, 
and 1994. While floods have cost the community millions of dollars in 
extensive property damage and economic hardship, the primary concern is 
the significant risk to the hundreds of volunteers whose work is 
required building levees during flood events to protect the homes and 
business.
    Preparation for fighting disaster costs have reached nearly $4 
million in the past 4 years. That amounts to thousands of dollars to 
every property owner in the City. Other significant flood events have 
occurred in 1951, 1962, 1965, 1969, and 1994.
    While floods have cost the community millions of dollars in 
extensive property damage and economic hardship, the primary concern is 
the significant risk to the hundreds of volunteers whose work is 
required building levees during flood events to protect the homes and 
businesses. Total flood damages and costs are more than $30 million 
from 1997 through 2001.
    Granite Falls has received financial support from FEMA, the Corps 
of Engineers, and the State of Minnesota to clean up after the 
disasters and to repair damages. Funds have been received to repair 
streets, housing rehabilitation and construction, economic development, 
and special services. All the help has been directed toward restoration 
after the floods and tornado event, but no funds have been available to 
prevent future flooding.
                  corps of engineers section 205 study
    Following the 1997 flood, the Corps of Engineers initiated a 
Section 205 study in May, 1998, to evaluate the extent of the flooding 
problem in Granite Falls, and to explore possible remedies. The study 
is essentially complete, but has not been released to date. The major 
problems of cost and funding level addressed in the 205 study have been 
resolved in the project authorization in H. Res. 2557.
                           studies conducted
    The City, through a FEMA project grant under the direction of the 
Minnesota Department of Natural Resources MN/DNR, conducted a study of 
the flood problems confronting Granite Falls. The overall objective of 
the study was to evaluate hazards for the Granite Falls area, and to 
develop preliminary evaluation and prioritization for those hazards.
    The Report states, ``Because of the tremendous impacts of flooding 
on the Granite Falls community, and the relative frequency of flooding 
events, the report begins with an all hazard evaluation, but then 
focuses on flood hazards, and presents mitigation options and 
preliminary costs for implementing those options.''
    The Report evaluated each area of the community, determined the 
risk factors, and suggested options available to protect the area 
against flooding. In the conclusion of the Report, it was recommended 
the most economical solution to provide the necessary protection was 
buy out many of the properties and move them to a location outside the 
flood plain. This work is currently in progress.
    The elevation of other areas would have to be raised, pump stations 
would need to be installed, some levees constructed, and the sanitary 
lift station and the water plant would need to be relocated. It is 
estimated the cost of this work would be approximately $12 million.
    The Supplement to the Locally Preferred Plan (SLPP) provides a 
level of flood protection for flood events up to the 500-year event. 
The 1998 Corps of Engineers 205 study indicates the 500-year level of 
protection is about the same as the 100-year flood plus 3 feet of 
freeboard. This level of protection is necessary as the result of a 
reevaluation by FEMA which indicated that the current level of 
protection for Granite Falls was violated in both the 1997 and the 2001 
flood events.
    The SLPP identifies seven areas severely impacted by flooding, 
suggests the remedial action needed, and the cost of such work. 
Relocation costs are not included in this report. The City believes 
that with the financial assistance received from FEMA to relocate many 
of the structures in low lying areas, the remaining project needs are 
appropriately addressed under flood protection programs administered by 
the Corps of Engineers.
    The Locally Preferred Plan includes the removal of about 41 
structures in the lower areas of the City, including several in the 
commercial district. FEMA has provided the funds for 25 structure 
moves, leaving only 15 additional structures to be moved as a part of 
the project.
                         appropriation request
    The city requests $1.2 million from the committee for the purpose 
of the development of the Detailed Design Report, preparation of plans 
and specifications, and the placement of pumps stations at two of three 
critical locations in the city. These pump stations will provide some 
immediate flood relief during an emergency, but are also needed 
permanently as a part of the total project.
    Thank you for your consideration of this request. And may I also 
take this opportunity to express our appreciation to the St. Paul 
District Office of the Army Corps of Engineers for their help and 
assistance during the crisis we have experienced in recent years. We 
will be happy to respond to any questions you may have regarding the 
needs of the city, and the flood protection project.
                                 ______
                                 

         Prepared Statement of the City of Crookston, Minnesota

    Chairman and members of the Appropriations Subcommittee, I 
appreciate the opportunity to submit this testimony on behalf of the 
City Council and the citizens of Crookston, Minnesota. We are 
requesting $1.2 million in Federal funds for the development of the 
supplement to the environmental assessment study, to prepare the 
design, and to initiate construction work in the fiscal year 2004 
Appropriations Bill. The purpose of this request is to provide flood 
protection for the Chase/Loring and Sampson neighborhoods in the City. 
This request is based on the Feasibility Report Supplement: Local Flood 
Control completed on April 30, 2002.
    First, we would like to thank you and the members of this committee 
for the $2.202 million appropriation you provided for the Crookston 
Flood Control Project in the fiscal year 2003 Appropriation Conference 
Report. These funds made it possible to complete the work on Stage 2 of 
the project.
    Stages 1 and 2 of the project has provided 100-year flood 
protection for Thorndale, Woods, and Downtown/Riverside neighborhoods. 
This is a tremendous step forward, and we are very appreciative of the 
support given us by this committee and the Army Corps of Engineers. 
However, the project still leaves two of our most vulnerable 
neighborhoods, Sampson and Chase/Loring, fully susceptible to future 
flooding when the Red Lake River again leaves its banks.
    The City of Crookston is located in the Red River Valley of Western 
Minnesota, in Polk County, 25 miles East of Grand Forks, North Dakota. 
The Red Lake River winds its way through the City from its source at 
the Upper and Lower Red Lakes, and flows into the Red River at Grand 
Forks. The early settlers in Crookston built their homes in the crooks 
of the river to be close to the water supply vital to their existence. 
As a result, five neighborhoods were established that became the City 
of Crookston. The population of the City has remained constant over the 
past decade at about 8,200 citizens.
    The community was settled in 1872, when the first railroad route 
was announced crossing the Red Lake River where Crookston now stands, 
and later, extending to Canada. The economy of Crookston is based 
primarily on agriculture. It is the home of the University of Minnesota 
Crookston, a technology oriented school with a full academic program 
enrolling approximately 2,500 students.
    The City of Crookston has two recent major flood events--1997 and 
again in 2001. The flood of record was at a stage of 27.3 feet in 1969, 
and the 1997 flood exceeded it with a stage of 28.6. The 2001 flood on 
the Red Lake River at Crookston was 26.38 feet or 11 feet above flood 
stage. For both flood events, the city was able with the help of the 
Corps of Engineers and the State of Minnesota to take extreme emergency 
actions to prevent catastrophic losses throughout the community.
    The 1997 flood came within inches of inundating the community with 
huge potential for loss of life. This flood further emphasized the need 
for a long-term flood damage reduction project to protect the citizens 
and the community.
    These floods also demonstrated that flood damage reduction must be 
at a 100-year level, consistent with the authorized project, and needs 
to be looked at from a total community perspective. ``Piecemealing'' a 
project, by protecting only certain areas, will not eliminate the need 
for significant federally subsidized flood emergency reimbursements in 
the future. Not including State and local expenditures, use of 
resources, and purchase of materials, the Federal costs alone incurred 
in 1997, totaled nearly $1.5 million. State and local costs were 
estimated at a similar amount, whereby, the 1997 flood costs totaled 
nearly $3 million.
    Both floods contributed to the progressive deterioration of the 
emergency levee system. The reliability of this system is now much 
worse than what was reported in the pre-flood 1997 feasibility report. 
The recent flood and the documented and visual impact of the 1997 flood 
at Grand Forks, ND, and East Grand Forks, MN demonstrated that failure 
of the emergency system would be catastrophic. Not only would many 
structures incur irreparable damage, the social and economic impact 
from the loss of property value/tax base and cohesion would devastate 
the community, potentially threatening the long-term viability and 
survival of Crookston.
    Due to recent flood events, the views of the City and its 
residents, the emphasis of the State of Minnesota Department of Natural 
Resources through the flood mitigation program, an efforts of the 
Minnesota Flood Relief Task Force, there is a renewed commitment to 
provide long-term flood damage reduction for the three remaining 
neighborhoods.
    The reason that these areas were not included in the 1997 
feasibility study was because these areas were incorrectly considered 
independent, and concern that the overall benefits may not cover the 
costs to provide protection. The primary reason was a low cost-to-
benefit ratio was real estate costs. There were too many structures 
that needed to be relocated or purchased.
    Reassessing earlier alternative flood damage reduction plans, there 
are further justifications for protecting a larger portion of 
Crookston, and ways to reduce costs, while continuing to maintain the 
necessary degree of flood damage reduction. Likewise, the benefits in 
some of these areas increased, based on new benefit categories 
identified in the Grand Forks, ND, and East Grand Forks, MN December 
1997 feasibility study. The State of Minnesota has already committed to 
full protection for all of the six neighborhoods in the City of 
Crookston.
    The cost/benefit ratio for the three stages of the project is 1.03. 
Evaluation by the Corps of Engineers determined a cost benefit ratio 
for the Chase/Loring and Sampson authorized in the House WRDA at 1.25. 
Continuing assessment of the project plans will increase the project 
benefits even further. The City believes that the project should not be 
assessed incrementally, but as a total project as were other 
communities severely affected by the 1997 and 2001 floods in the Red 
River Valley.
    All of the property owners in Crookston have assessed themselves 
flood protection fees for the past 11 years to provide the local funds 
needed to make their families safe during flood events. Without 
providing the protection needed for the Sampson and Chase/Loring 
Neighborhoods, the work is only half done. Since all of the citizens 
have been paying these assessments, it is not right that the Crookston 
Flood Control Project would protect only half the community.
                      conditions change since 1997
    Since the completion of the feasibility report in early 1997, 
events have greatly impacted flood damage reduction for the city. The 
floods of 1997 and 2001 have been a wake up call regarding the 
vulnerability of the City and its residents. There is no way that the 
1997 feasibility study could have predicted these events. They 
demonstrated the extent of the deterioration of the existing emergency 
system, and new thinking on how to more cost effectively reduce flood 
damages in unprotected areas. The replacement of the city dam is now 
underway.
    The revised engineering assessment of the trunk sanitary sewer 
system located in the Sampson addition, and the electrical distribution 
substation located in the Chase/Loring addition. Although, not a 
change, the revised engineering assessment of the sanitary sewer system 
found conditions that were slightly different from the analysis in the 
1997 feasibility report. Several key essential features of the sanitary 
sewer system for the entire community are located in the Sampson 
neighborhood. Losses to these features would certainly cause the system 
to fail, including the system located in areas protected by the Federal 
project.
    Similarly, the electrical distribution substation located in the 
Chase/Loring neighborhood services those areas protected by Stages 1 
and 2 of the project. The loss of the substation would at least affect 
most of the neighborhoods, including those protected by the original 
authorized project. It would at least temporarily result in a loss of 
power, and the loss of critical flood damage reduction measures (i.e. 
pump stations) of the permanent project and to the sanitary sewer 
system.
                    flooding events and their causes
    Floods occurring over the past 40 years have created significant 
damage to homes and businesses, and have resulted in the loss of lives 
as well. They include the flood events of 1965, 1966, 1967, 1969, 1978, 
1979, 1996, and 1997. Floods have been documented at Crookston as early 
as 1887. The 1950 flood, though not the maximum flood of record, 
created the most damage to the City and resulted in the deaths of two 
citizens from the community.
    Between 1950 and 1965, clay levees were constructed through local 
efforts in an attempt to ameliorate the damages from the flooding of 
the Red Lake River. The floods of 1965, however, demonstrated these 
efforts were not adequate to hold back the torrents of water during 
significant flood events. While certain areas of the City received some 
flood protection, severe damages occurred in the South Main Street 
area. This section of the City has since been totally cleared.
    The 1969 flood established new high water marks, and again, it was 
necessary to carry out extreme emergency measures. These efforts were 
successful in protecting the community from severe damages. Recognizing 
the need for more protection, another locally financed project was 
initiated, extending, enlarging, and raising the height of the levee 
wall system.
    The flood of 1997, was the ``grandaddy'' of all floods. It 
established the highest water mark in recorded history when the Red 
Lake River crested at 28.6 feet above flood stage, the equivalent of a 
three-story building. It is described as a 500-year flood event.
    Only the careful planning and preparation by City officials in 
cooperation with the Corps of Engineers, the State of Minnesota, FEMA, 
the National Guard, and many private citizens, were damages reduced, 
and fortunately, no lives were lost. Prior to the crest of the flood, 
the City of Crookston completed the work of adding two feet of clay and 
sandbags to the entire levee system throughout the town. The Corps of 
Engineers constructed clay dikes as a second line of defense, 
sacrificing a few homes for the good of many others. As a precautionary 
measure, 400 residents evacuated from their homes during the height of 
the flood. These efforts spared Crookston from the devastation 
experienced by neighboring towns, allowing the City to provide for 
8,000 persons evacuated from their homes in nearby communities, But 
this disaster and the potential devastation that such floods can bring, 
emphasized the critical importance of replacing the temporary earthen 
and clay dikes with a well-planned, permanent flood control system.
    There are several causative factors that have created flood 
conditions for the Red River Valley and the City of Crookston. The Red 
River of the North did not carve out the valley, it merely meanders 
back and forth through the lowest parts of the floor of the ancient 
Glacial Lake Agassiz.
    With no definitive flood plain to channel flood torrents, the slow-
moving flood waters quickly overrun the shallow river banks and spread 
out over the flat floor of the former glacial lake bed. The small 
river's gradient is on one-half foot per mile, as opposed to areas in 
Southwestern Minnesota where in one instance, the gradient establishes 
a 19 foot drop in one mile. Both extremes have created problems.
    The Red Lake River flows into Crookston from the Northeast, winds 
it way through the City, and flows out of the City, turning in a 
Northwesterly direction toward its confluence with the Red River at 
Grand Forks, North Dakota. The merged rivers then flow due North into 
Winnipeg, Manitoba, Canada. As the snow melts in the Southern portion 
of the valley, ice often remains in the channel to the North. Ice and 
other debris flowing North pile up against the river ice creating ice 
dams. These barriers back up the water and increase the flood crest 
upstream.
    The extremely level terrain also creates a phenomenon during the 
Spring thaw which is called ``overland flooding.'' As the snow melts, 
the huge volume of water can overwhelm the network of shallow ditches 
and creeks. Unable to enter the choked stream channels, the water 
travels overland until it meets small terrain barriers such as railroad 
beds and road grades, creating huge bodies of water.
    In addition to the topography of the area, a combination of factors 
such as agricultural drainage, the loss of wetlands, the Federal 
governments work in the Red River Basin, and the construction of the 
county ditch systems, all these factors have contributed to the 
vulnerability of the area.
                   key points of project development
    1992--Feasibility Cost Share Agreement signed.
    1997--Feasibility Report and Environmental Assessment completed.
    1997--National Economic Development optimizational analysis waived 
to provide the entire project with 100-year flood protection.
    1998--Preconstruction engineering and design efforts begun.
    1999--Project authorized for construction in the Water Resource 
Development Act of 1999.
    2000--Plans, specifications, and design work for Stage 1 completed.
    2000--Congress appropriates $1 million for Stage 1 construction.
    2000--Plans and Specifications for Stage 2 commenced.
    2001--Corps of Engineers total cost estimates for the project to be 
$10.8 million.
    2001--Congress provides $2 million for the construction of Stage 2 
of the Crookston Flood Control Project in the fiscal year 2002 Energy 
and Water Appropriations Bill.
    2002--Bids were accepted and construction contract awarded for 
Stage 2 work.
    2002--Congress provides $3.202 million to complete Stage 2 
construction work.
    2002--The Feasibility Report Supplement was completed.
    2003--Construction work continues on Stage 2.
    2003--House Transportation and Infrastructure Committee 
reauthorizes Crookston Flood Control Project to include Sampson and 
Chase/Loring neighborhoods.
    2003--Request made to Congress for $1.2 million to provide flood 
protection for the Sampson and Chase/Loring neighborhoods.
    2003--Senate delays passage of the Water Resources Development Act 
until 2004.
    2004--Senate Environment and Public Works schedule WRDA mark-up for 
Spring, 2004.
                non-federal contributions to the project
    The citizens of Crookston have demonstrated their commitment to the 
project each year since 1997. Every year for since 1997, they have 
voted to assess themselves a flood control project fee, over and above 
their property taxes. This action by the community has resulted in 
raising about $1.4 million up to the present time. One third of these 
local funds were used to meet part of the 50 percent match for the $1.2 
million feasibility study, and the remainder will be used as a part of 
the non-Federal match for the construction Stages of the flood control 
project.
    The State of Minnesota has also made a significant contribution to 
the project. They have appropriated $3.3 million for the dual purpose 
of providing funds to match the Federal contribution, and to buy out 
homes that have been lost in the construction of the flood control 
measures. Nineteen families were required to lose their homes to the 
project, including one farm. The State funds were used both for the 
purchase of the homesteads, and the relocation of the affected 
families.
    For these reasons, we respectfully request this subcommittee to 
appropriate $1.2 million of Federal funds in the fiscal year 2004 
Appropriations Act to be used for the environmental assessment, 
preconstruction costs, and immediate work on the protection of the 
electrical substation and the pumping stations to avoid severe 
personal, ecological and environmental disasters in the Community. The 
committee's favorable response to this request will prevent any delays 
affecting the completion of the project, and avoid cost overruns that 
inevitably occur when construction is delayed.
    In closing, I would like to say there is nothing more important to 
me as Mayor, and to each Member of the Crookston City Council, than the 
safety of our citizens, and the protection of their homes and property. 
We can not give them this assurance until we have completed this flood 
control project. May I also say that our association with the St. Paul 
District of the Army Corps of Engineers throughout this process has 
been outstanding. They are an extraordinary organization, working on 
the scene during flood conditions, and assisting us as we attempt to 
resolve this problem that threatens our citizens. We could not ask for 
a better partner in this project.
    Thank you for the opportunity to bring this important matter to 
your attention through this statement. I will be delighted to respond 
to any questions you may have about the project.
                                 ______
                                 

  Prepared Statement of the Southeastern Federal Power Customers, Inc.

    Mr. Chairman and members of the subcommittee, on behalf of the 
Southeastern Federal Power Customers, Inc. (``SeFPC''), I am pleased to 
provide testimony in reference to the administration's fiscal year 2005 
budget request for the Army Corps of Engineers (``Corps''). My 
testimony will focus primarily on the budget request for the Corps' 
South Atlantic Division (``SAD'') and the Nashville District of the 
Great Lakes and Ohio River Division (``LRD''). In addition, the SeFPC 
customers would like to express our interests related to proposed 
legislation that would authorize direct funding for Corps' Operations 
and Maintenance (``O&M'') activities at Federal hydropower projects.
    The SeFPC has enjoyed a long and successful relationship with the 
Corps' SAD and LRD offices that has greatly benefited the approximately 
5.8 million customers of the SeFPC members. As the subcommittee is 
aware, the Corps is responsible for operating and maintaining Federal 
hydropower generating facilities. The Southeastern Power Administration 
(``SEPA'') then markets the energy and capacity that is generated from 
the Federal projects in the Southeast. The SeFPC represents some 238 
rural cooperatives and municipally owned electric systems in the States 
of Alabama, Georgia, Mississippi, Kentucky, North Carolina, South 
Carolina, Florida, and Virginia, which purchase power from SEPA. In 
some cases, SEPA supplies as much as 25 percent of the power and 10 
percent of the energy needs of SeFPC customers, who greatly rely on 
this power.
                   drastic cuts in the corps' budget
    The SeFPC membership is dedicated to providing reliable and 
economic power for its consumers. We therefore are concerned that the 
President has proposed a 13 percent reduction in the Corps' budget for 
fiscal year 2005. With these reductions in funding, the Corps will not 
be able to undertake the O&M and Renewals and Replacements (``R&R'') 
work necessary to ensure the long-term reliability of the Southeastern 
Federal hydropower facilities. We are particularly concerned about the 
effects of the proposed budget cuts on ongoing O&M work on 
infrastructure of hydropower projects whose output is marketed by SEPA. 
The proposed reductions will particularly impede the Corps' work in the 
following SEPA projects: Walter F. George, J. Strom Thurmond, John H. 
Kerr, Allatoona, and Carters.
    We also are concerned the President's budget request has zeroed out 
funds for construction at many of the projects operated by the Corps. 
We remain especially troubled by the badly needed rehabilitation of 
generating facilities in the Cumberland River System operated and 
maintained by LRD, as well as other Federal hydropower generating 
facilities throughout the Southeast. The age of many of the 
hydroelectric generating facilities in SEPA's service area is nearing 
the 50-year mark, when major rehabilitations are critical if the 
projects are to continue. Regrettably, the fiscal year 2005 budget 
request does not place a high priority on these critical needs.
    When a generating unit becomes inoperable, SEPA may be forced to 
pursue the purchase of expensive replacement power; this could result 
in a reduction of energy and capacity, forcing the SeFPC members to 
purchase expensive capacity elsewhere. This has occurred so frequently 
in the last several years that the new SEPA rate design now includes a 
charge by customers to cover this replacement power. Such a result is 
inappropriate because preference customers already have contributed to 
the Corps' O&M and R&R expenses, in essence double-charging the 
customers and their consumers. In fact, revenue from the rates paid by 
the preference customers has enabled SEPA to repay on time the original 
investment incurred to construct these projects. However, when 
generating units deteriorate, reliability decreases, and O&M expenses 
greatly increase.
    We are working on a long-term customer funding proposal that would 
facilitate this badly needed R&R work at hydroelectric facilities in 
the LRD. We anticipate, however, that this long-term initiative will 
not be finalized for a number of years. In the meantime, some of these 
facilities will not be able to continue generating without Federal 
funds.
          administration's proposal for direct funding of o&m
    It is important to note that the relationship of the Corps, SEPA, 
and the SeFPC, forged pursuant to the Federal Power Marketing Program, 
is separate and distinct from other Corps' activities. The Federal 
Power Marketing Program is designed to pay for itself--consumers are 
responsible for repaying the Federal taxpayer investment in the Corps' 
multi-purpose hydroelectric facilities. In the rates charged by SEPA to 
preference customers, a portion of each rate is devoted to future O&M 
and R&R activities at these facilities. In turn, these revenues are 
deposited in the U.S. Treasury and used to reimburse Congressionally 
appropriated funds for O&M and R&R expenses at the Corps' hydropower 
facilities. Funds collected from consumers may also be used for the 
hydropower share of joint costs of dam activities that also benefit 
recreation, navigation and flood control. To date, preference customers 
have paid in SEPA rates over $114 million in excess of amounts spent by 
the Corps on O&M and R&R.
    The administration's fiscal year 2005 budget request proposes to 
alter this funding arrangement. This year's budget includes a provision 
from the President's fiscal year 2003 and fiscal year 2004 requests 
calling for direct funding of routine O&M for hydropower facilities 
marketed by SEPA and the other Federal PMAs. While we support the 
concept of direct funding for O&M expenses, we want to ensure that any 
direct funding legislation would include safeguards to prevent the 
Corps from utilizing an alternative source of funding that could lead 
to significant rate increases. Specifically, we believe the PMAs must 
have the final say in determining the amount of funding available for 
the Corps each year. In this regard, funds provided for Corps' O&M 
should under this new mechanism have a neutral effect on rate levels. 
Also, the Corps and the PMAs must consult with the PMA customers 
regarding amounts the PMAs will collect for O&M activities. Finally, 
the Corps must be prohibited statutorily from reprogramming funds 
provided by the PMAs under this direct funding mechanism.
    In advancing the direct funding proposal, the administration has 
reduced funds in the Corps' O&M budget by $150 million. Therefore, in 
the event the proposed legislation is not enacted, this funding should 
be restored to the Corps' O&M budget.
    Thank you in advance for your consideration of our comments on the 
administration's fiscal year 2005 budget request for the Corps.
                                 ______
                                 

          Prepared Statement of the City of Flagstaff, Arizona

    Chairman Domenici, Ranking Member Reid, and distinguished members 
of the subcommittee, thank you for allowing me to testify on behalf of 
the City of Flagstaff, Arizona in support of $10 million in the Army 
Corps of Engineers budget for the Rio de Flag flood control project in 
fiscal year 2005. I believe this project is critically important to the 
City, to northern Arizona, and, ultimately, to the Nation.
    As you may know, Mr. Chairman, with this subcommittee's help last 
year, Rio de Flag received $3.5 million to continue construction on 
this important project. We are extremely grateful that the subcommittee 
boosted this project well above the president's request, and we would 
appreciate your continued support for this project in fiscal year 2005.
    Like many other projects under the Army Corps' jurisdiction, Rio de 
Flag received no funding in the president's fiscal year 2005 budget, 
although the Corps has expressed capability of $10 million to continue 
construction on the project. We are hopeful that the subcommittee will 
fund the Rio de Flag project at $10 million when drafting its bill in 
order to keep the project on an optimal schedule.
    Flooding along the Rio de Flag dates back as far as 1888. The Army 
Corps has identified a Federal interest in solving this long-standing 
flooding problem through the Rio de Flag, Flagstaff, Arizona--
Feasibility Report and Environmental Impact Study (EIS). The 
recommended plan contained in this feasibility report was developed 
based on the following opportunities: (1) flood control and flood 
damage reduction; (2) environmental mitigation and enhancement; (3) 
water resource management; (4) public recreation; and (5) redevelopment 
opportunities. This plan will result in benefits to not only the local 
community, but to the region and the Nation.
    The feasibility study by the Corps of Engineers has revealed that a 
500-year flood could cause serious economic hardship to the City. In 
fact, a devastating 500-year flood could damage or destroy 
approximately 1,500 structures valued at more than $395 million. 
Similarly, a 100-year flood would cause an estimated $95 million in 
damages. In the event of a catastrophic flood, over half of Flagstaff's 
population of 57,000 would be directly impacted or affected.
    In addition, a wide range of residential, commercial, downtown 
business and tourism, and industrial properties are at risk. Damages 
could also occur to numerous historic structures and historic Route 66. 
The Burlington Northern & Santa Fe Railway (BNSF), one of the primary 
east-west corridors for rail freight, could be destroyed, as well as 
U.S. Interstate 40, one of the country's most important east-west 
interstate links. Additionally, a significant portion of Northern 
Arizona University (NAU) could incur catastrophic physical damages, 
disruptions, and closings. Public infrastructure (e.g., streets, 
bridges, water, and sewer facilities), and franchised utilities (e.g., 
power and telecommunications) could be affected or destroyed. 
Transportation disruptions could make large areas of the City 
inaccessible for days.
    Mr. Chairman, the intense wildfires that have devastated the West 
during the last several years have only exacerbated the flood potential 
and hazard in Flagstaff. An intense wildfire near Flagstaff could strip 
the soil of ground cover and vegetation, which could, in turn, increase 
runoff and pose an even greater threat of a catastrophic flood.
    In short, a large flood could cripple Flagstaff for years. This is 
why the City believes it is important to ensure that this project 
remains on schedule and that the Corps is able to maximize its 
capability of $10 million in fiscal year 2005 for construction of this 
flood control project.
    In the City's discussions with the Corps, both the central office 
in Washington and its Los Angeles District Office also believe that the 
Rio de Flag project is of the utmost importance and both offices 
believe the project should be placed high on the subcommittee's 
priority list. We are hopeful that the subcommittee will consider this 
advice and also place the project high on its priority list and fully 
fund the project at $10 million for fiscal year 2005.
    As you may know, project construction and implementation of Rio de 
Flag was authorized in the Water Resources Development Act (WRDA) of 
2000. The total project cost is estimated to be $30,000,000 in and 
above the reconnaissance study or the feasibility study. The Non-
Federal share is currently $10,500,000 and the Federal share is 
currently $19,500,000. Final project costs must be adjusted based on 
Value Engineering and final design features. It is important to note 
the City of Flagstaff has already committed more than $10,500,000 to 
this project, and an additional $2,000,000 in excess of its cost share 
agreement. This clearly demonstrates the City's commitment to 
completing this important project.
    The City of Flagstaff, as the non-Federal sponsor, is responsible 
for all costs related to required Lands, Easements, Rights-of-Way, 
Relocations, and Disposals (LERRD's). The City has already secured the 
necessary property rights to begin construction in 2004. Implementation 
of the City's Downtown and Southside Redevelopment Initiatives 
($100,000,000 in private funds) are entirely dependent on the success 
of the Rio de Flag project. The Rio de Flag project will also provide a 
critical missing bike/pedestrian connection under Route 66 and the BNSF 
Railroad to replace the existing hazardous at grade crossings.
    Both design and construction are divided into two phases. Phase I 
construction will commence in 2004. Phase II of the project is 
scheduled to commence in April of 2005.
    Mr. Chairman, the Rio de Flag project is exactly the kind of 
project that was envisioned when the Corps was created because it will 
avert catastrophic floods, it will save lives and property, and it will 
promote economic growth. In short, this project is a win-win for the 
Federal Government, the City, and the surrounding communities.
    Furthermore, the amount of money invested in this project by the 
Federal Government--approximately $19 million--will be saved 
exponentially in costs to the Federal Government in the case of a large 
and catastrophic flood, which could be more than $395 million. It will 
also promote economic growth and redevelopment along areas that are 
currently underserved because of the flood potential.
    In conclusion, the Rio de Flag project should be considered a high 
priority for this subcommittee, and I encourage you to support full 
funding of $10 million for this project in the fiscal year 2005 Energy 
and Water Development Appropriations bill. Thank you in advance for 
your consideration.
                                 ______
                                 
        Prepared Statement of the Fifth Louisiana Levee District
    In order to continue the essential level of construction on the 
Mississippi River and Tributaries Project (MR&T), and to provide proper 
maintenance of the completed portions, it is crucial that the $450 
million, as requested by the Mississippi Valley Flood Control 
Association for fiscal year 2005 (copy attached), be appropriated for 
the MR&T Project.
    Less than $10 billion has been invested in the MR&T Project since 
its authorization following the great flood of 1927, but even in its 
incomplete stage, the MR&T project has prevented over $180 billion in 
flood damages and makes possible about $900 million in navigation 
benefits each year.
    Levee enlargements have been completed along most of the 
Mississippi River Levee, with one exception being portions of the 
system in Louisiana where people and property remain vulnerable to a 
Levee that is the lowest in the MR&T system, even though it conducts to 
the Gulf 41 percent of the total water runoff of the Nation. It is 
imperative that construction of these Levees remain a top priority for 
the administration and U.S. Army Corps of Engineers and that adequate 
funding be provided.
    We urge Congress to increase the $4.21 billion contained in the 
President's Budget Request for the entire Corps of Engineers' Works 
Program. At least $6.00 billion is required in order that the Corps not 
halt or delay contracts, shut down facilities, or otherwise disrupt the 
economic well-being of this Nation. Failure to provide this much needed 
additional funding will have a serious detrimental effect on the 
economic conditions in our already depressed area.
    We continue to emphasize our objection to dividing the U.S. Army 
Corps of Engineers into separate, smaller entities and transferring to 
the administration of other established departments. It is vital to the 
people of Louisiana and to the Nation that the Mississippi River and 
Tributaries Project be completed as designed and as quickly as 
possible. To transfer any part of the Civil Works mission, or to ``out-
source'' or contract-out positions in the Corps' Civil Works 
organization, as proposed by the Secretary of The Army, will wreck the 
current construction and maintenance time table and eliminate 
approximately 32,000 current employees.
    We urge your support for protection of the structure of the U.S. 
Army Corps of Engineers as it currently exists.
    We respectfully request that funds be increased for the Corps of 
Engineers' Works Program and $450 million be appropriated for the MR&T 
Project for the coming fiscal year.

  MISSISSIPPI VALLEY FLOOD CONTROL ASSOCIATION--FISCAL YEAR 2005 CIVIL
   WORKS REQUESTED BUDGET--MISSISSIPPI RIVER AND TRIBUTARIES PROJECT--
                               MAINTENANCE
------------------------------------------------------------------------
                                            President's
                 Project                      Budget       MVFCA Request
------------------------------------------------------------------------
Wappapello Lake, MO.....................      $4,046,000      $6,352,000
Mississippi River Levees................       7,665,000      14,915,000
Dredging................................      20,515,000      20,515,000
Revetment and Dikes.....................      48,760,000      48,760,000
Memphis Harbor, TN......................       1,205,000       2,010,000
Helena Harbor, TN.......................         385,000         510,000
Greenville Harbor, MS...................          29,000         412,000
Vicksburg Harbor, MS....................          32,000         345,000
St. Francis River & Tribs, AR...........       6,080,000       8,805,000
White River Backwater, AR...............       1,316,000       2,260,000
North Bank, Arkansas River, AR..........         146,000         146,000
South Bank, Arkansas River, AR..........         122,000         122,000
Boeuf & Tensas Rivers, LA...............       2,160,000       2,160,000
Red River Backwater, LA.................       3,083,000       7,390,000
Yazoo Basin, Sardis Lake, MS............       7,046,000      19,322,000
Yazoo Basin, Arkabutla Lake, MS.........       5,710,000      12,900,000
Yazoo Basin, Enid Lake, MS..............       4,954,000      13,679,000
Yazoo Basin, Grenada Lake, MS...........       5,553,000      10,101,000
Yazoo Basin, Greenwood, MS..............         585,000       2,035,000
Yazoo Basin, Yazoo City, MS.............         729,000         729,000
Yazoo Basin, Main Stem, MS..............       1,013,000       3,966,000
Yazoo Basin, Tributaries, MS............         923,000         923,000
Yazoo Basin, Whittington Aux Channel, MS         400,000         400,000
Yazoo Basin, Big Sunflower, MS..........         139,000       2,139,000
Yazoo Basin, Yazoo Backwater, MS........         440,000         926,000
Lower Red River, South Bank, LA.........         105,000         105,000
Bonnet Carre, LA........................       2,310,000       3,100,000
Old River, LA...........................       7,350,000      29,900,000
Atchafalaya Basin, LA...................      13,000,000      25,000,000
Atchafalaya Basin Floodway, LA..........       2,775,000       4,200,000
Baton Rouge Harbor Devil's Swamp, LA....          14,000         300,000
Miss Delta Region, LA...................         588,000         588,000
Bayou Cocodrie & Tribs, LA..............          65,000          65,000
Inspection of Completed Works...........       1,500,000       1,700,000
Mapping.................................       1,112,000       1,325,000
                                         -------------------------------
      Total MR&T Maintenance............     151,855,000     248,105,000
------------------------------------------------------------------------


  MISSISSIPPI VALLEY FLOOD CONTROL ASSOCIATION--FISCAL YEAR 2005 CIVIL
WORKS REQUESTED BUDGET--MISSISSIPPI RIVER AND TRIBUTARIES APPROPRIATIONS
------------------------------------------------------------------------
                                            President's
            Project and State                 Budget       MVFCA Request
------------------------------------------------------------------------
Surveys, Continuation of Planning and
 Engineering & Advance Engineering &
 Design:
    Memphis Harbor, TN..................  ..............  ..............
    Germantown, TN......................         $27,000         $27,000
    Millington, TN......................         100,000         100,000
    Fletcher Creek, TN..................          93,000          93,000
    Memphis Metro Storm Water             ..............         100,000
     Management, TN.....................
    Bayou Meto, AR......................  ..............       2,447,000
    Germantown, TN......................  ..............         200,000
    Southeast Arkansas..................  ..............         600,000
    Coldwater Basin Below Arkabutla              203,000         750,000
     Lake, MS...........................
    Quiver River, MS....................  ..............         100,000
    Spring Bayou, LA....................         500,000         600,000
    Point Coupee to St. Mary Parish, LA.  ..............         100,000
    Atchafalaya Basin Floodway System,           100,000         100,000
     LA*................................
    Alexandria, LA to the Gulf of Mexico         435,000         435,000
    Morganza, LA to the Gulf of Mexico..       1,500,000      10,000,000
    Donaldsonville, LA to the Gulf of            800,000       1,200,000
     Mexico.............................
    Tensas River, LA....................  ..............         500,000
    Donaldsonville Port Development, LA.  ..............         100,000
    Collection & Study of Basic Data....         700,000         700,000
                                         -------------------------------
      Subtotal, Surveys, Continuation of       4,458,000      18,152,000
       Planning & Engineering & Advance
       Engineering & Design.............
                                         ===============================
Construction:
    St. John's Bayou-New Madrid                8,300,000       8,300,000
     Floodway, MO.......................
    Eight Mile Creek, AR................       1,357,000       3,293,000
    Helena & Vicinity, AR...............  ..............  ..............
    Grand Prairie Region, AR............  ..............      20,000,000
    Bayou Meto, AR......................  ..............      18,000,000
    West Tennessee Tributaries, TN......  ..............         700,000
    Nonconnah Creek, TN.................       2,153,000       2,753,000
    Wolf River, Memphis, TN.............  ..............       2,400,000
    August to Clarendon Levee, Lower      ..............       2,000,000
     White River, AR....................
    St. Francis Basin, MO & AR..........       3,000,000       9,500,000
    Yazoo Basin, MS.....................       5,850,000      62,775,000
    Atchafalaya Basin, LA...............      22,495,000      32,500,000
    Atchafalaya Basin Floodway, LA......       7,200,000      10,000,000
    MS Delta Region, LA.................       1,800,000       4,700,000
    Horn Lake Creek, MS.................  ..............         203,000
    MS & LA Estaurine Area, MS & LA.....  ..............          50,000
    Channel Improvements, IL, KY, MO,         36,882,000      44,082,000
     AR, TN, MS & LA....................
    Mississippi River Levees, IL, KY,         38,960,000      54,800,000
     MO, AR, TN, MS & LA................
                                         -------------------------------
      Subtotal, Construction............     127,997,000     276,056,000
      Subtotal, Maintenance.............     151,855,000     248,105,000
                                         -------------------------------
      Subtotal, Mississippi River &          284,310,000     542,313,000
       Tributaries......................
      Less Reduction for Savings &           -14,310,000      92,313,000
       Slippage.........................
                                         -------------------------------
      Grand Total, Mississippi River &       270,000,000     450,000,000
       Tributaries......................
------------------------------------------------------------------------

                                 ______
                                 

 Prepared Statement of the Louisiana Department of Transportation and 
                              Development

    On behalf of the State of Louisiana and its twenty levee boards, we 
present recommendations for fiscal year 2005 appropriations for U.S. 
Army Corps of Engineers Civil Works Projects in Louisiana.
    Louisiana contains the terminus of the Mississippi River, third 
largest drainage basin in the world, draining 41 percent, or 1\1/4\ 
million square miles, of the contiguous United States and parts of two 
Canadian provinces. When combined with the other interstate rivers 
flowing through the State, almost 50 percent of the contiguous land 
mass of this Nation drains through Louisiana. This same river drainage 
system forms the backbone of the federally constructed Inland Waterway 
System that provides our heartland cost effective access to the global 
marketplace via the 230 mile deepwater channel of the lower Mississippi 
River from Baton Rouge to the Gulf. This strategic gateway to 
international markets is the largest port complex in the world ranking 
Louisiana first in the Nation in volume of waterborne traffic. We are 
distressed that the Administration's budget proposals in recent years 
indicate a lack of concern for the preservation and efficient operation 
of this system. The Inland Waterway System--the whole system--allowed 
industrial facilities scattered throughout the central portion of the 
Nation to obtain raw materials and fuel from distant locations and to 
reach worldwide markets. These industries, and most of the agricultural 
industries in mid-America, are heavily dependent on the federally 
maintained navigable waterways to remain globally competitive in 
transporting their products. To consider maintenance of only the main-
stem portion of the waterway system at the expense of the connector 
branches will wreak havoc on the economies of all the communities 
located on these so-called low-use branch waterways.
    A comprehensive and extensive flood control system is required to 
protect the landside facilities and related industries supporting that 
waterborne commerce. In Louisiana there are almost 3,000 miles of 
levees (1,500 in the MR&T system) constructed jointly by Federal, State 
and local entities that provide protection from riverine and tidal 
flooding. Louisiana's 20 levee boards are responsible for the 
maintenance and upkeep of these levees which allow one-third of 
Louisiana to be habitable year-round. The petrochemical, oil and gas 
industries in Louisiana that contribute to the economic well being of 
the Nation are almost totally dependent on the federally constructed 
flood control system to protect their facilities. But these same levees 
and channel improvements that benefit the entire Nation have been 
blamed for the rapid deterioration of our coastal wetlands. The loss of 
these wetlands is adversely impacting both the area's natural resources 
and the effectiveness of our hurricane protection system. These 
wetlands are not Louisiana's alone; they constitute 40 percent of the 
Nation's wetlands and their restoration must be considered a national 
priority.
    The Mississippi River and Tributaries Project (MR&T) has been 
underway since 1928 and isn't scheduled for completion until beyond 
2031. The Administration's proposed budget of $270 Million for fiscal 
year 2005 is totally unacceptable. We strongly support the Mississippi 
Valley Flood Control Association's request for $450 Million for the 
MR&T Project. We urge support of this requested level of funding.
    In making the following funding recommendations for Louisiana 
projects regarding specific construction, studies, and operation and 
maintenance items, the State of Louisiana would hope that Congress and 
the Administration will honor their prior commitments to infrastructure 
development and continue to fund our requests. It is appropriate that 
the Federal Government has committed to providing combined flood 
control and navigation measures that benefit the economy of both 
Louisiana and the rest of the Nation. We believe these types of water 
resources projects are the most cost effective projects in the Federal 
budget, having to meet stringent economic criteria not required by 
other programs.
    We wish to express our thanks to the Appropriations Subcommittees 
on Energy and Water Development of the House and Senate for allowing us 
to present this brief on the needs of Louisiana for fiscal year 2005. 
We solicit your favorable consideration and request this statement be 
included in the formal hearing record.
    The State of Louisiana requests funding for the following projects 
that differs from what is in the fiscal year 2005 Administration Budget 
or is a project of particular importance for the State. Those items 
that the State of Louisiana believes have been appropriately funded 
have not been included.

    FLOOD CONTROL, NAVIGATION, HURRICANE PROTECTION & WATER RESOURCES
   PROJECTS SUMMARY OF RECOMMENDED APPROPRIATIONS FISCAL YEAR 2005 FOR
                                LOUSIANA
------------------------------------------------------------------------
                                          Administrative     Louisiana
                Louisiana                     Budget          Request
------------------------------------------------------------------------
GENERAL INVESTIGATIONS:
    STUDIES:
        Amite River-Ecosystem                   $250,000        $250,000
         Restoration, LA................
        Amite River & Tributaries, LA--          100,000       1,000,000
         Bayou Manchac..................
        Atchafalaya River, Bayous Chene,         350,000         800,000
         Boeuf & Black, LA..............
        Calcasieu Lock, LA..............         200,000       1,000,000
        Calcasieu River Basin, LA.......         350,000         350,000
        Calcasieu River Pass Ship                 50,000         500,000
         Channel Enlargement, LA........
        Hurricane Protection, LA........  ..............         200,000
        LCA--Ecosystem Restoration, LA..       8,000,000      12,000,000
        Mississippi River Gulf Outlet,           225,000         225,000
         LA.............................
        Plaquemines Parish, LA..........         300,000         500,000
        Port of Iberia, LA..............         350,000         730,000
        St. Bernard Parish Urban Flood           300,000         550,000
         Control, LA....................
        St. Charles Parish Urban Flood           300,000         800,000
         Control, LA....................
        St. John the Baptist Parish, LA.  ..............         600,000
        Southwest, AR (AR, LA)..........  ..............         427,000
        Bossier Parish Levee & FC.......  ..............         385,000
        Cross Lake Water Supply.........  ..............         500,000
        JBJWW...........................  ..............         100,000
        Pearl River, MS & LA............  ..............         100,000
        Pearl River, Bogalusa (MS)......  ..............         100,000
PED:
    Bayou Sorrel Lock, LA...............         550,000         550,000
    Lafayette Parish, LA................  ..............         327,000
    West Shore--Lake Pontchartrain, LA..  ..............         400,000
    West Baton Rouge Parish, LA.........  ..............         500,000
NEW STUDIES:
    Bayou Nezpique Watershed, LA........  ..............         100,000
    Millennium Port, LA.................  ..............         100,000
    Port Fourchon Enlargement, LA.......  ..............         100,000
    Port of West St. Mary...............  ..............         100,000
    Southwest La Multi-Purpose Water      ..............         100,000
     Resources, LA......................
    Tangipahoa River Ecosystem            ..............         100,000
     Restoration, LA....................
CONSTRUCTION GENERAL:
    Comite River, LA....................       1,500,000       9,900,000
    East Baton Rouge Parish, LA.........  ..............       8,000,000
    Grand Isle, LA......................  ..............       1,900,000
    Inner Harbor Navigation Canal Lock,       10,000,000      24,000,000
     LA (IWWTF & CG)....................
    Lake Pontchartrain, LA..............       3,937,000      22,500,000
    Larose to Golden Meadow, LA.........         583,000       1,500,000
    New Orleans to Venice, LA...........       2,965,000       6,600,000
    Southeast, LA.......................      30,000,000      78,000,000
    West Bank and Vicinity, New Orleans,      37,000,000      59,800,000
     LA.................................
    Red River Below Den Dam (AR, LA)....  ..............       7,000,000
    Red River Emergency (AR, LA)........  ..............      10,000,000
    J Bennett Johnston Waterway, MS            4,000,000      20,000,000
     River to Shreveport................
    Ouachita River Levees...............  ..............       3,800,000
OPERATIONS & MAINTENANCE GENERAL:
    Atchafalaya River, Bayous Chene,          13,813,000      26,600,000
     Boeuf & Black......................
    Barataria Bay Waterway..............  ..............       4,600,000
    Bayou Lacombe.......................  ..............         860,000
    Bayou Lafourche.....................  ..............       1,100,000
    Bayou Segnette......................  ..............       1,400,000
    Bayou Teche.........................  ..............         300,000
    Calcasieu River & Pass..............      13,285,000      21,800,000
    (T) Chefuncte River.................  ..............         800,000
    Freshwater Bayou....................       1,678,000       3,700,000
    Grand Isle, LA & Vicinity...........  ..............         800,000
    Gulf Intracoastal Waterway..........      17,476,000      27,300,000
    Houma Navigation Canal..............       3,070,000       3,300,000
    Mermentau River.....................       4,410,000       6,500,000
    Mississippi River, Baton Rouge to         59,125,000      74,400,000
     the Gulf...........................
    Mississippi River--Gulf Outlet......      13,004,000      45,000,000
    Mississippi River, Outlets at Venice         424,000       3,700,000
    Tangipahoa River....................  ..............         800,000
    Waterway Empire to the Gulf.........  ..............         240,000
    Waterway Intracoastal Waterway to     ..............         200,000
     Bayou Dulace.......................
    Ouachita & Black Rivers (AR, LA)....       1,974,000      18,123,000
    Bayou Bodcau........................         776,000         776,000
    Caddo Lake..........................         182,000         182,000
    Wallace Lake........................         290,000         290,000
    Bayou Pierre........................          28,000          28,000
    J Bennett Johnston Waterway.........      10,600,000      18,098,000
    Lake Providence Harbor..............          38,000         451,000
    Madison Parish Port.................          20,000        120,000
------------------------------------------------------------------------
Note.--The projects listed above are only those in Louisiana (except
  where noted) and directly affect the State.


 MISSISSIPPI RIVER AND TRIBUTARIES SUMMARY OF RECOMMENDED APPROPRIATIONS
                     FISCAL YEAR 2005 FOR LOUISIANA
------------------------------------------------------------------------
                                          Administrative     Louisiana
                Louisiana                     Budget          Request
------------------------------------------------------------------------
FC, MR&T GENERAL INVESTIGATIONS:
    Alexandria to the Gulf..............        $435,000        $435,000
    Donaldsonville to the Gulf..........         800,000       1,200,000
    Morganza to the Gulf, PED...........       1,500,000      10,000,000
    Collection & Study Data.............         200,000         200,000
    Collect & Study of Basic Data (AR,           300,000         300,000
     LA, MS)............................
    Spring Bayou Area, LA...............         500,000         600,000
    Tensas River Basin, LA..............               0         500,000
NEW STUDIES: Atchafalaya Basin Floodway                0         100,000
 System Land Study, LA..................
FC, MR&T CONSTRUCTION:
    Atchafalaya Basin...................      22,495,000      32,500,000
    Atchafalaya Basin Floodway System...       7,200,000      10,000,000
    Channel Improvement.................      10,105,000      10,105,000
    Mississippi Delta Region (FED)......       1,800,000       4,700,000
    Mississippi River Levees, LA........       2,680,000       2,680,000
    MS--LA Estuarine Area...............               0          50,000
    Mississippi River Levees (AR, LA,         20,850,000      30,850,000
     MS)................................
    Channel Improvement (AR, LA, MS)....      13,582,000      16,782,000
FC, MR&T MAINTENANCE:
    Atchafalaya Basin...................      13,000,000      25,000,000
    Atchafalaya Basin Floodway System...       2,775,000       4,200,000
    Baton Rouge Harbor (Devil's Swamp)..          14,000         300,000
    Bayou Cocodrie and Tributaries......          65,000          65,000
    Bonnet Carre Spillway...............       2,310,000       3,100,000
    Channel Improvement.................      15,675,000      15,675,000
    Dredging............................         700,000         700,000
    Inspection of Completed Works.......         383,000         383,000
    Mapping.............................         396,000         396,000
    MS Delta Region.....................         588,000         588,000
    Mississippi River Levees, LA........         790,000       5,200,000
    Old River...........................       7,350,000      29,900,000
    Mississippi River Levees (AR, LA,          2,670,000       3,270,000
     MS)................................
    Revetments & Dikes (AR, LA, MS).....      13,400,000      13,400,000
    Dredging (AR, LA, MS)...............       6,265,000       6,265,000
    Mapping (AR, LA, MS)................         329,000         329,000
    Inspection of Completed Works (AR,           338,000         338,000
     LA, MS)............................
    Boeuf & Tensas Rivers...............       2,160,000       2,160,000
    Red River Backwater.................       3,083,000       7,390,000
    Lower Red River.....................         105,000         105,000
------------------------------------------------------------------------
Note.--The projects listed above are only those in Louisiana (except
  when noted) and directly affect the State. We realize that there are
  other projects in the Valley. We endorse the recommendations of the
  Mississippi Valley Flood Control Association.

                                 ______
                                 

  Prepared Statement of the Association of State Dam Safety Officials

    Chairman Domenici and members of the subcommittee, the Association 
of State Dam Safety Officials is pleased to offer this testimony on the 
President's proposed budget for the U.S. Army Corps of Engineers 
(USACOE) fiscal year 2005. The Association's testimony includes issues 
related to the safety and security of the dams owned or operated by the 
USACOE and in support of the National Inventory of Dams (NID) 
authorized by the Dam Safety and Security Act of 2002.
    The Association of State Dam Safety Officials is a national non-
profit organization of more than 2000 State, Federal and local dam 
safety professionals and private sector individuals dedicated to 
improving dam safety through research, education and communications. 
Our goal simply is to save lives, prevent damage to property and to 
maintain the benefits of dams by preventing dam failures. Several 
dramatic dam failures in the United States called attention to the 
catastrophic consequences of failures. The failure of the federally-
owned Teton Dam in 1976 caused 14 deaths and over $1 billion in 
damages, and is a constant reminder of the potential consequences 
associated with dams and the obligations to assure that dams are 
properly constructed, operated and maintained.
                       national inventory of dams
    The National Inventory of Dams is a computer database, maintained 
by the USACOE, that houses vital information of Federal and non-Federal 
dams across the United States. The database tracks information about 
the dam's location, size, use, type, proximity to nearest town, hazard 
classification, age, height and many other technical data fields. The 
database can be used for States or Federal agencies to access 
comprehensive information for planning, security alerts or to use 
within a Graphic Information System (GIS) vital in tracking lifeline 
systems and responding to emergency events through using the geographic 
and mapping abilities along with the engineering information within the 
NID database.
    The NID can be used by policy makers as a tool when evaluating 
national or local dam safety issues. For example, it is extremely 
useful in establishing the average age of the dams in the United 
States, or identifying the number and location of a particular type of 
dam construction (i.e. the number and location of ``thin arch'' dams 
greater than 100 feet in height). In addition, the Federal Emergency 
Agency uses this data to compute State grant assistance funds, in 
accordance with the National Dam Safety Program and to assess the 
status of Federal and non-Federal dams.
    There are over 78,000 dams on the National Inventory of Dams in the 
country. It is essential that this data be current and accurate in 
order to have access to this critical data when needed and to be able 
to track trends in assessing dam safety improvements. The NID can meet 
this need, but it is only as accurate as the last update. The NID has 
not been updated since 2000. The database must be continually updated 
as the dam information is constantly changing (i.e. new ownership, 
major repairs, removal of dams, increasing the height and storage, 
additional downstream development or changes to the dam's hazard 
classification). This data is now even more important as the 
intelligence community and Federal law enforcement agencies have 
identified dams as a specific target of potential terrorists attacks. 
The data can also be of tremendous benefit to Federal agencies such as 
FEMA, NWS, USGS and the new Department of Homeland Security for 
locating large dams, for watershed planning, flood control planning or 
emergency response to failures or extreme storm events.
    Correct and timely data is vital to the national effort to assess 
and protect our critical infrastructure, including dams, from 
intentional acts of terrorists. The Homeland Security Presidential 
Directive No. 7 requires the Federal Government to ``protect critical 
infrastructure and key resources'' and includes a ``strategy to 
identify, prioritize and coordinate the protection of critical 
infrastructure.'' This cannot be accomplished without an accurate NID.
    Continuing updates and improvements to this database resource 
should be a higher priority. Federal agencies that own dams as well as 
State dam safety programs provide updated information and corrections 
to the data fields, which provides for accurate and current data. The 
NID is also an integral part of the biennial report to Congress which 
evaluates the performance of the National Dam Safety Program and status 
of the safety of the Nation's dams.
    The Association respectfully requests that the subcommittee 
recognize the importance of this national dam database and increase the 
appropriation amount from the proposed funding level in the President's 
budget of $222,000 to the full authorized funding amount of $500,000.
          dam safety, security, and operation and maintenance
    The USACOE is recognized as a national leader in dam construction 
and dam safety. The USACOE currently owns or operates 700 dams in the 
United States, and these dams, like other critical components of the 
national infrastructure are aging and the require vigilant inspection 
as well as routine maintenance. In addition, the security of our 
Nation's infrastructure is a major concern. Dams, especially the large 
federally-owned dams are a potential target for terrorists attacks.
    The USACOE dams are typically very large, provide flood protection, 
water supply, hydropower, recreation and many are critical to the 
waterway navigation on the Nation's major rivers. The consequences of a 
failure or misoperation of one of these dams can cause enormous loss of 
life and property damage, as well as the loss of the benefits provided 
by the dam. Therefore, the Association strongly supports appropriations 
necessary to make needed repairs, to conduct security assessments and 
improvements wherever necessary. The Association believes that 
operation and maintenance are critical to the continued safe 
performance of the dams. Too often deferred maintenance causes a small 
problem to become larger and more costly; and if left unattended, may 
cause the dam to become more susceptible to failure.
    The Association applauds the administration's recognition of the 
importance and value of the USACOE's Dam Safety Program and the need to 
fund dam maintenance of USACOE dams. ASDSO respectfully asks that the 
subcommittee recognize that inspections, safety repairs, security and 
routine maintenance are all essential to assure the safety and the 
continuing benefits of USACOE dams.
    The Association specifically requests that the subcommittee:
  --Support the administration's increase in appropriations for the 
        USACOE Dam Safety Program non-project management funds at 
        $250,000;
  --Increase in appropriations for the USACOE Dam Security Program non-
        project management funds to $100,000 from the proposed $30,000 
        to include assistance to the State dam safety programs in 
        conducting security vulnerability assessments and for training 
        in the dam security assessment tools such as RAM-D;
  --Restore the USACOE ``Planning Assistance to States Program'' to the 
        $6,500,000 of fiscal year 2004 from the proposed $4,650,000 to 
        provide much needed assistance to the States to cost-share 
        dambreak modeling, flood studies, developing emergency 
        evacuation plans and to jointly conduct security vulnerability 
        assessments; and
  --Support the administration's fiscal year 2005 budget for 
        $35,000,000 for emergency maintenance/repairs.
    Finally, while the security of the USACOE dams is currently a major 
priority, the continued safety, repair and maintenance of the USCOE 
dams should also continue as a major appropriations priority and not be 
diminished. Improved security on an unsafe dam may deter an attack, but 
it still leaves the lives and property downstream at an unnecessary 
risk.
    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to provide this testimony in support of safe dams. We look 
forward to working with the subcommittee and staff on this important 
national issue.
                                 ______
                                 
  Prepared Statement of the Arkansas River Basin Interstate Committee
    Mr. Chairman and members of this distinguished committee, my name 
is Lew Meibergen. I am Chairman of the Board of Johnston Enterprises 
headquartered in Enid, Oklahoma. It is my honor to serve as Chairman of 
the Arkansas River Basin Interstate Committee, members of which are 
appointed by the governors of the great States of Arkansas, Colorado, 
Kansas, Missouri, and Oklahoma.
    In these times of war on terrorism, homeland defense and needed 
economic recovery, our thanks go to each of you, your staff members and 
the Congress. Your efforts to protect our Nation's infrastructure and 
stimulate economic growth in a time of budget constraints are both 
needed and appreciated.
    Our Nation's growing dependence on others for energy, and the need 
to protect and improve our environment, make your efforts especially 
important. Greater use and development of one of our Nation's most 
important transportation modes--our navigable inland waterways--will 
help remedy these problems. At the same time, these fuel-efficient and 
cost-effective waterways keep us competitive in international markets. 
In this regard, we must maintain our inland waterway transportation 
system. We ask that the Congress restore adequate funding to the Corps 
of Engineers budget--$5.5 billion in fiscal year 2005--to keep the 
Nation's navigation system from further deterioration. If this 
catastrophic problem is not addressed immediately, we are in real 
danger of losing the use of this most important transportation mode.
    As Chairman of the Interstate Committee, I present this summary 
testimony as a compilation of the most important projects from each of 
the member States. Each of the States unanimously supports these 
projects without reservation. I request that the copies of each State's 
individual statement be made a part of the record, along with this 
testimony.
Backlog of Channel Structure Maintenance McClellan-Kerr Arkansas River 
        Navigation System
    A $10 million Congressional add to the fiscal year 2005 Operation 
and Maintenance budget is urgently needed for critical repairs to 
damaged and deteriorated dikes and revetments to maintain channel 
alignment and provide original channel configuration while reducing the 
need for dredging.
Equus Beds Aquifer--Kansas
    Equus Beds Aquifer Storage and Recovery Project.--Continuation of a 
City of Wichita, Groundwater Management District No. 2 and State of 
Kansas project to construct storage and recovery facilities for a major 
groundwater resource supplying water to more than 20 percent of Kansas 
municipal, industrial and irrigation users. The project will capture 
and recharge in excess of 100 million gallons per day and will also 
reduce on-going degradation of the existing groundwater by minimizing 
migration of saline water. Federal authorization of the project and 
continued Federal funding is requested in the minimum amount of $1.5 
million for fiscal year 2005.
Arkansas River System Operations Feasibility Study, Arkansas and 
        Oklahoma
    This study will evaluate how to optimize the reservoirs in Oklahoma 
and Arkansas that provide flows into the river with a view toward 
improving the number of days per year that the navigation system will 
accommodate tows. It will also investigate the impacts of deepening and 
widening the navigation channel. We request funding in the amount of 
$1.253 million to complete the study in fiscal year 2005. This is 
$735,000 above the President's budget request of $500,000.
    The testimony we present reveals our firm belief that our inland 
waterways and the Corps of Engineers' efforts are especially important 
to our Nation in this time of trial. Transportation infrastructure like 
the inland waterways, need to be operated and maintained for the 
benefit of the populace. Without adequate annual budgets, this is 
impossible.
    Mr. Chairman, members of this committee, we respectfully request 
that you and members of your staff review and respond in a positive way 
to the attached individual statements from each of our States which set 
forth specific requests pertaining to those States.
    We sincerely appreciate your consideration and assistance.
                                arkansas
     prepared statement of paul latture, ii, chairman for arkansas
    Mr. Chairman and members of the committee, thank you for the 
opportunity to present testimony to this most important committee. I 
serve as Executive Director for the Little Rock Port Authority and as 
Arkansas Chairman for the Interstate Committee. Other committee members 
representing Arkansas, in whose behalf this statement is made, are 
Messrs. Wally Gieringer of Hot Springs Village, retired Executive 
Director of the Pine Bluff-Jefferson County Port Authority; Scott 
McGeorge, President, Pine Bluff Sand and Gravel Company, Pine Bluff; 
Barry McKuin of Morrilton, President of the Conway County Economic 
Development Corporation; and N.M. ``Buck'' Shell, CEO, Five Rivers 
Distribution in Van Buren and Fort Smith, Arkansas.
    We call to your attention three projects on the McClellan-Kerr 
Arkansas River Navigation System (the ``System'') that are especially 
important to navigation and the economy of this multi-State area: 
Backlog of Channel Structure Maintenance, Maintenance Dredging, and 
Ark-White Cutoff as related to the Arkansas River.
Backlog of Channel Structure Maintenance
  --A $10 million Congressional Add to the fiscal year 2005 Operation 
        and Maintenance Budget is urgently needed for critical repairs 
        to damaged and deteriorated dikes and revetments to maintain 
        channel alignment and provide original channel configuration 
        while reducing the need for dredging.
  --More than a decade of neglect to our navigation structures while 
        funding the construction of Montgomery Point Lock & Dam has 
        created a critical backlog of channel structure work that 
        threatens the viability of the McClellan-Kerr Arkansas River 
        Navigation System.
  --Current grain prices offer a rare potential for our farming mid-
        section of the Nation yet a failure to deliver these 
        commodities to market due to neglect of our transportation 
        system would have serious economic impacts rippling through the 
        entire Arkansas River Basin.
Maintenance Dredging
  --A $3 million Congressional Add is needed for Maintenance Dredging 
        in known problem areas with siltation capable of restricting or 
        closing the navigation channel.
  --A closure of the System for even a short period would create 
        transportation problems with devastating economic impacts on 
        Arkansas and our Nation at a time when commodity shipments are 
        at record levels.
  --These funds will help ensure the System remains open and allow 
        users to maximize tonnage by preventing the need for light 
        loading.
Ark-White Cutoff
  --A cutoff is developing between the Arkansas and White Rivers which, 
        if not corrected, could have dramatic adverse effects on the 
        navigation system as well as significant bottomland hardwoods 
        and pristine environment that provides unique wildlife habitat 
        in southeast Arkansas.
  --Unless corrected, it is inevitable that a major cutoff will occur 
        negatively impacting navigation on the river, significantly 
        increasing siltation and dredging requirements and, at worst, 
        cutting off the lower end of the Navigation System from the 
        Mississippi River.
  --Therefore, a $2 million Congressional Add is needed to further the 
        study of this area and lead to a solution, which will prevent 
        erosion, cutoffs, and detrimental siltation.
    In addition to these three vital requests, we urge you to continue 
to support funding for the Construction, and Operation and Maintenance 
of the McClellan-Kerr Arkansas River Navigation System which provides 
low-cost and dependable transportation for farm products, construction 
aggregates, raw materials and finished products important to our 
Nation's economic recovery.
    It is also most important that you continue construction authority 
of the McClellan-Kerr Project until remaining channel stabilization 
problems identified by the Little Rock District Corps of Engineers have 
been resolved. The Corps needs to develop a permanent solution to the 
threat of cutoffs developing in the lower reaches of the navigation 
system and to use environmentally sustainable methods under the 
existing construction authority.
    Mr. Chairman, we appreciate the work of this essential committee 
and thank you for your efforts that contribute so much to the social 
and economic well-being of the United States of America.
    We fully endorse the statement presented to you today by the 
Chairman of the Arkansas River Basin Interstate Committee and urge you 
to favorably consider these requests that are so important to the 
economic recovery of our region and Nation.
                                colorado
      prepared statement of james broderick, chairman for colorado
    Mr. Chairman and members of the committee, we greatly appreciate 
the opportunity to present testimony before this committee. My name is 
James Broderick, I am the Executive Director of the Southeastern 
Colorado Water Conservancy District and serve as Colorado Chairman for 
the Interstate Committee.
    The critical water resource projects in the Colorado portion of the 
Arkansas River Basin are summarized below. The projects are 
environmental and conservation oriented and have regional and multi-
State impact. We are grateful for your leadership and your past 
commitment to our area.
    This request is for two projects $554,000 to provide for:
  --Design, installation, and operation of weighing lysimeters at the 
        Colorado State University Agricultural Experiment Station at 
        Rocky Ford, Colorado ($422,000).--Install and operate a set of 
        three monolithic continuous weighing (direct load cell) 
        lysimeters to accurately measure evapotranspiration of a 
        reference crop and of production crops under a variety of field 
        conditions typical of the lower Arkansas River Valley in 
        Colorado.
  --Enhancement of the CoAgMet Electronic Weather Station Network in 
        the Lower Arkansas River Basin ($132,000).--Enhance and improve 
        the existing and new Colorado Agriculture Meteorological 
        (CoAgMet) weather in the Lower Arkansas River Basin and provide 
        for its adequate operation and maintenance in order to provide 
        accurate data for predicting evapotranspiration using the 
        Penman-Monteith method.
    In recent litigation the Penman Monteith method has been recognized 
as the preferred procedure for calculating crop water use, replacing 
the Blaney-Criddle method historically used in Colorado. The importance 
of this change is that the Penman Monteith method, requires more data 
and information than Blaney-Criddle in order to be used properly. The 
Penman-Monteith method will increasingly be used to calculate crop 
consumptive use to determine the transferable consumptive use for 
changes of agricultural water rights to municipal use in the Arkansas 
River Basin and elsewhere in the State.
    We fully endorse the statement presented to you today by the 
Chairman of the Arkansas River Basin Interstate Committee. We 
appreciate the opportunity to provide testimony to your most important 
subcommittee and urge you to favorably consider our request for needed 
infrastructure investments in the natural and transportation resources 
of our Nation.
                                 kansas
      prepared statement of gerald h. holman, chairman for kansas
    Mr. Chairman and members of the committee, I am Gerald H. Holman, 
Senior Vice President of the Wichita Area Chamber of Commerce, Wichita, 
Kansas and Chairman of the Kansas Interstate Committee for the Arkansas 
Basin Development Association (ABDA). I also serve as Chairman of ABDA.
    The Kansas ABDA representatives join with our colleagues from the 
other Arkansas River Basin States to form the multi-State Arkansas 
Basin Development Association. We fully endorse the summary statement 
presented to you by the Chairman of the Arkansas River Basin Interstate 
Committee.
    We are pleased to report that the Montgomery Point Lock and Dam 
Project will be operational by July 2004 and that a formal dedication 
ceremony is scheduled for July 16, 2004. Completion of this critical 
project through your support will maintain viable navigation for 
commerce on the McClellan-Kerr Navigation System. This inland waterway 
is vital to the economic health of our multi-State area. The Federal 
Government invested $1.3 billion in the project. Other public and 
private investment totals in excess of $4.2 billion and over 50,000 
jobs have been created. Increasing the depth of the navigation channel 
to 12 feet will increase the performance of the navigation system by 
allowing shippers to move one-third more cargo per barge. We request 
funding in the amount of $1.235 million to complete Phase II of the 
Arkansas River System Operations Feasibility Study which will examine 
the feasibility of increasing the channel depth.
    The critical water resources projects in the Kansas portion of the 
Arkansas River Basin are identified below. The projects are safety, 
environmental and conservation oriented and all have regional and/or 
multi-State impact. We are grateful for your past commitment to 
critical needs in Kansas.
    We ask for your continued support for this important Bureau of 
Reclamation project on behalf of the Wichita/South Central Kansas area:
    Equus Beds Aquifer Storage and Recovery Project.--This is the 
continuation of a Bureau of Reclamation project jointly endorsed by the 
City of Wichita, Groundwater Management District No. 2 and the State of 
Kansas. This model technology has proven the feasibility of recharging 
a major groundwater aquifer supplying water to nearly 600,000 
irrigation, municipal and industrial users. The demonstration project 
has successfully recharged more than one billion gallons of water from 
the Little Arkansas River. The project is essential to help protect the 
aquifer from on-going degradation caused by the migration of saline 
water.
    The State of Kansas supports this much-needed project in order to 
secure the quality of life and economic future for more than 20 percent 
of the State's population. The project is included within the Kansas 
Water Plan. All interested parties fully support the project as the 
needed cornerstone for the area agricultural economy and for the 
economy of the Wichita metropolitan area.
    The demonstration project has confirmed earlier engineering models 
that the full scale aquifer storage and recovery project is feasible 
and capable of meeting the increasing water resource needs of the area 
to the mid-21st century. Presently, the Equus Beds provide 
approximately half of the Wichita regional municipal water supply. The 
Equus Beds are also vital to the surrounding agricultural economy. 
Environmental protection of the aquifer, which this strategic project 
provides, has increasing importance to ensure quality water for the 
future since south central Kansas will rely to an even greater extent 
on the Equus Beds aquifer for water resources.
    The aquifer storage and recovery project is a vital component of 
Wichita's comprehensive and integrated water supply strategy. The full 
scale design concept for the aquifer storage and recovery project calls 
for a multi-year construction program. Phase One is estimated to cost 
$17.1 million. The total project involving the capture and recharge of 
more than 100 million gallons of water per day is estimated to cost 
$110 million over 10 years. This is substantially less costly, both 
environmentally and economically, when compared with reservoir 
construction or other alternatives.
    We are grateful for your previous cost share funding during the 
demonstration phase, as a compliment to funds provided by the City of 
Wichita. As we enter the construction phase, we request continued 
Congressional support:
  --by authorizing as a Federal project, the Aquifer Storage and 
        Recovery Project and directing the Bureau of Reclamation to 
        participate in its final design and construction to completion; 
        and
  --through continued cost share funding of the full-scale Aquifer 
        Storage and Recovery Project in the minimum amount of 
        $1,500,000 for fiscal year 2005.
    Many of our agricultural communities have historically experienced 
major flood disasters, some of which have resulted in multi-State 
hardships involving portions of the State of Oklahoma. The flood of 
1998 emphasized again the need to rapidly move needed projects to 
completion. Major losses also took place in the Wichita metropolitan 
area. Projects in addition to local protection are also important. Our 
small communities lack the necessary funds and engineering expertise 
and Federal assistance is needed. This committee has given its previous 
support to Corps of Engineers projects in Kansas and we request your 
continued support for the following:
  --Arkansas City, Kansas Flood Protection.--Unfortunately, this 
        project was not completed prior to the flood of 1998. The flood 
        demonstrated again the critical need to protect the 
        environment, homes and businesses from catastrophic damages 
        from either Walnut River or Arkansas River flooding. When the 
        project is complete, damage in a multi-county area will be 
        eliminated and benefits to the State of Oklahoma just a few 
        miles south will also result. The Secretary of the Army was 
        authorized to construct the project in fiscal year 1997. The 
        project is slated for completion in fiscal year 2005 but the 
        funding is not adequate in the President's budget. We request 
        your continued support in the amount of $3.619 million, which 
        is $2.619 million above the President's budget request so the 
        Corps of Engineers can complete this project.
  --Walnut River Basin, Kansas Feasibility Study.--This basin including 
        the Whitewater and Little Walnut Rivers is located in south 
        central Kansas. The feasibility study will identify ecosystem 
        resources, evaluate the system qualities, determine past losses 
        and current needs, and evaluate potential restoration and 
        preservation measures. The non-Federal sponsor is the Kansas 
        Water Office who believes that environmental restoration is a 
        primary need in the basin. Environmental restoration features 
        may also stabilize and protect streambanks from erosion and 
        improve the water quality in the basin. The need for fiscal 
        year 2005 is $305,000 which is $86,000 more than the 
        President's budget request.
  --Silver-Grouse Creek Reconnaissance Study.--The Silver-Grouse Creek 
        area in south central Kansas is a location of natural geologic, 
        archaeological and biologic attributes of the watershed. 
        Periodic flooding downstream of the reconnaissance area impacts 
        neighboring Oklahoma. Smaller Kansas communities without 
        technical, financial and managerial capacities are all 
        investigating future sources of water supply which potentially 
        could be satisfied through impoundment of water. A 
        reconnaissance study will identify water resource, flooding and 
        ecosystem restoration issues and will also establish whether 
        there is Federal interest in feasibility level studies. The 
        Cowley County Commission has requested a feasibility study be 
        conducted by the Corps. The Lt. Governor of Kansas has 
        requested an evaluation through the State Water Planning 
        Process and the Kansas Water Authority has supported this 
        request. Funding is requested in the amount of $100,000 for 
        fiscal year 2005.
  --Grand Lake Feasibility Study.--A need exists to complete evaluation 
        of water resource problems in the Grand-Neosho River basin in 
        Kansas and Oklahoma to evaluate solutions to upstream flooding 
        problems associated with the adequacy of existing real estate 
        easements necessary for flood control operations of Grand Lake, 
        Oklahoma. A study authorized by the Water Resources Development 
        Act of 1996 was completed in September of 1998 and determined 
        that if the project were constructed based on current criteria, 
        additional easements would be required. Section 449 of WRDA 
        2000 directed the Secretary to evaluate backwater effects 
        specifically due to flood control operations on land around 
        Grand Lake. That study indicated that Federal actions have been 
        a significant cause of the backwater effects and according to 
        WRDA 2000, the feasibility study should be 100 percent 
        federally funded. A Feasibility study is necessary to determine 
        the most cost-effective solution to the real estate 
        inadequacies. Changes in the operations of the project or other 
        upstream changes could have a significant impact on flood 
        control, hydropower, and navigation operations in the Grand 
        (Neosho) River system and on the Arkansas River basin system, 
        as well. We request funding in the amount of $450,000 in fiscal 
        year 2005 to fully fund Feasibility studies evaluating 
        solutions to upstream flooding associated with existing 
        easements necessary for flood control operations of Grand Lake. 
        Although this has been a Congressional add for the past 2 
        years, no money was made available in the fiscal year 2005 
        President's budget request.
  --Grand (Neosho) Basin Reconnaissance Study.--A need exists for a 
        basin-wide water resource planning effort in the Grand-Neosho 
        River basin, apart from the issues associated with Grand Lake, 
        Oklahoma. A federal interest has been determined from the 
        reconnaissance study as a result from a Congressional add in 
        fiscal year 2003 and another add appropriated in fiscal year 
        2004. Additional funds are needed to continue the feasibility 
        stage of the project. The study would focus on the evaluation 
        of institutional measures needed to improve the quality of the 
        aquatic and terrestrial habitat in the basin and to assist 
        communities, landowners, and other interests in southeastern 
        Kansas and northeastern Oklahoma in the development of non-
        structural measures to reduce flood damages. We request funding 
        in the amount of $225,000 in fiscal year 2005.
  --Continuing Authorities Programs.--We support funding of needed 
        programs including the Small Flood Control Projects Program 
        (Section 205 of the 1948 Flood Control Act, as amended), 
        Aquatic Ecosystem Restoration (Section 206 of the 1996 Water 
        Resources Development Act, as amended), Ecosystem Restoration 
        (Section 1135 of the 1986 Water Resources Development Act, as 
        amended) as well as the Emergency Streambank Stabilization 
        Program (Section 14 of the 1946 Flood Control Act, as amended). 
        Smaller communities in Kansas (Iola, Liberal, McPherson, 
        Augusta, Parsons, Altoona, Kinsley, Newton, Arkansas City, 
        Coffeyville and Medicine Lodge) have previously requested 
        assistance from the Corps of Engineers under the Section 205 
        and Section 14 programs. The City of Wichita is also requesting 
        funding through these programs to address flooding problems. We 
        urge you to support an increase of these programs to a $65 
        million programmatic limit for the Small Flood Control Projects 
        Program, $35 million for Aquatic Ecosystem Restoration, $35 
        million for the Ecosystem Restoration Program and $25 million 
        for the Emergency Streambank Stabilization Program.
      The Ecosystem Restoration Programs are relatively new programs 
        which offer the Corps of Engineers a unique opportunity to work 
        to restore valuable habitat, wetlands, and other important 
        environmental features which previously could not be 
        considered. Preliminary Restoration Plan studies are underway 
        at Newton, Garden City and Neosho County.
      The Planning Assistance to States Program under section 22 of the 
        Water Resources Development Act of 1974, as amended, provides 
        federal funding to assist the States in water resource 
        planning. The State of Kansas is grateful for previous funding 
        under this program which has assisted small Kansas communities 
        in cost sharing needed resource planning as called for and 
        approved in the Kansas State Water Plan. We request continued 
        funding of this program at the $10 million programmatic limit 
        which will allow the State of Kansas to receive the $500,000 
        limit.
    Finally, we are very grateful that both the Corps of Engineers and 
Bureau of Reclamation have the expertise needed for the development and 
protection of water resources infrastructure. It is essential to have 
the integrity and continuity these agencies provide on major public 
projects. Your continued support of these vital agencies, including 
funding, will be appreciated. Our infrastructure must be maintained and 
where needed, enhanced for the future.
    Mr. Chairman and members of these committees, we thank you for the 
dedicated manner in which you have dealt with the Water Resources 
Programs and for allowing us to present our funding requests.
    Thank you very much.
                                oklahoma
   prepared statement of james m. hewgley, jr., chairman for oklahoma
    Mr. Chairman and members of the committee, I am James M. Hewgley, 
Jr., Oklahoma Chairman of the Arkansas River Basin Interstate 
Committee, from Tulsa, Oklahoma.
    It is my privilege to present this statement on behalf of the 
Oklahoma Members of our committee in support of adequate funding for 
water resource development projects in our area of the Arkansas River 
Basin. Other members of the committee are: Mr. Ted Coombes, Tulsa; Mr. 
A. Earnest Gilder, Muskogee; Mr. Terry McDonald, Tulsa; and Mr. Lew 
Meibergen, Enid, who also serves as Chairman of the combined Arkansas 
River Basin Interstate Committee.
    Together with representatives of the other Arkansas River Basin 
States, we fully endorse the statement presented to you by the Chairman 
of the Arkansas River Basin Interstate Committee. We appreciate the 
opportunity to present our views of the special needs of our States 
concerning several studies and projects.
    Montgomery Point Lock and Dam--Montgomery Point, Arkansas.--We have 
come to you with requests for funding for this much-needed project for 
many years now. We are pleased to tell you this year we will not ask 
for additional funds for this project as it is due to be operational by 
July. We will have a formal dedication on July 16, 2004 at the site. We 
are very grateful for your help and support to see this project through 
to its completion.
    There may well be some funds needed for final cleanup and 
additional maintenance and operational equipment. In that event the 
Corps of Engineers should be able to schedule those funds from their 
regular appropriations.
    Mr. Chairman, it is my pleasure to point out to this distinguished 
committee that this navigation system has brought low cost water 
transportation to Oklahoma, Arkansas and the surrounding States. There 
has been over $5.5 billion invested in the construction and development 
of the McClellan-Kerr Arkansas River Navigation system by the Federal 
Government ($1.3 billion) and the public and private ($4.2 billion+) 
sector, resulting in the creation of over 50,000 jobs in this partnered 
project.
    Maintenance of the navigation system.--We request additional 
funding in the amount of $2 million, over and above normal funding, for 
deferred channel maintenance. These funds would be used for such things 
as repair of bank stabilization work, needed advance maintenance 
dredging, and other repairs needed on the system's components that have 
deteriorated over the past three decades.
    In addition to the system-wide needed maintenance items mentioned 
above, the budget for the Corps of Engineers for the past several years 
has been insufficient to allow proper maintenance of the McClellan-Kerr 
Arkansas River Navigation System--Oklahoma portion. As a result, the 
backlog of maintenance items has continued to increase. If these 
important maintenance issues are not addressed soon, the reliability of 
the system will be jeopardized. The portion of the system in Oklahoma 
alone is responsible for returning $2.6 billion in annual benefits to 
the regional economy. We therefore request that $3.8 million be added 
to the budget to accomplish the critical infrastructure maintenance 
items following: Repair weir at L&D 14; repair tainter gates at L&D 17; 
upgrade gate motor controls at L&D 14; dewater, inspect, repair Locks 
14, 15, & 16; repair tainter gates at L&D 18; L&D 14-18--remote control 
tainter gates; R.S. Kerr--repair miter gates; R.S. Kerr--repair Lock 15 
support cell; replace pole lighting--Locks 14-18; replace tainter gate 
limit switches--R.S. Kerr. These are the very worst of the needed 
repairs of the many awaiting proper preventive maintenance and repair.
    Tow Haulage Equipment--Oklahoma.--We also request funding of $2.5 
million to initiate the installation of tow haulage equipment on the 
locks located along the Arkansas River Portion of the McClellan-Kerr 
Arkansas River Navigation System. Total cost for these three locks is 
$4.7 million. This project will involve installation of tow haulage 
equipment on W.D. Mayo Lock and Dam No. 14, Robert S. Kerr Lock and Dam 
No. 15, and Webbers Falls Lock and Dam No. 16, on the Oklahoma portion 
of the waterway. The tow haulage equipment is needed to make 
transportation of barges more efficient and economical by allowing less 
time for tows to pass through the various locks.
    Arkansas River System Operations Feasibility Study, Arkansas and 
Oklahoma.--We are especially pleased that the budget includes funds to 
continue the Arkansas River Navigation Study, a feasibility study which 
is examining opportunities to optimize the Arkansas River system. The 
system of multipurpose lakes in Arkansas and Oklahoma on the Arkansas 
River and its tributaries supports the McClellan-Kerr Arkansas River 
Navigation System, which was opened for navigation to the Port of 
Catoosa near Tulsa, Oklahoma, in 1970. The navigation system consists 
of 445 miles of waterway that passes through the States of Oklahoma and 
Arkansas. This study would optimize the reservoirs in Oklahoma and 
Arkansas that provide flows into the river, with a view toward 
improving the number of days per year that the navigation system would 
accommodate tows. Phase II of this study will also examine the 
feasibility of increasing the depth of the navigation channel to 12. 
This will allow the shippers to move one-third more cargo per barge 
drafting 11\1/2\ at near the current rate for 8\1/2\ draft barges. 
This study could have significant impact on the economic development 
opportunities in the States of Oklahoma, Arkansas and the surrounding 
States. Due to the critical need for this study, we request funding of 
$1.235 million, which is greater than shown in the budget, to complete 
feasibility studies in fiscal year 2005.
    The Power Plant at Webbers Falls Lock and Dam on the Arkansas River 
has suffered from greatly reduced reliability due to turbine design 
problems. Because this is a run-of-the-river facility with no storage, 
energy spilled due to off-line units is energy that is lost forever. A 
feasibility study recommending major rehabilitation of this unit has 
been approved by the office of the Chief of Engineers.
    Similar problems have been experienced at Ozark-Jeta Taylor Lock 
and Dam on the Arkansas River in Arkansas. Congress approved a new 
start and funding to begin the major rehabilitation of the Ozark 
powerhouse in fiscal year 2003. The administration's fiscal year 2005 
budget request includes $5 million in Construction General funding to 
continue this major rehabilitation.
    The turbines at the Ozark project are identical to the slant-shaft 
turbines employed at Webbers Falls. The major rehabilitation plans for 
both projects call for bidders to submit plans for new turbine designs, 
with the two best bidders selected to proceed to model testing of their 
designs before choosing the best and winning bid. By combining the 
design selection for both projects into a single bid selection process 
the Corps estimated that millions of dollars could be saved. To achieve 
these savings, Congress would have to approve a new construction start 
and initial funding for the major rehabilitation of the Webbers Falls 
powerhouse. We respectfully urge the committee to approve the new start 
and provide $4 million in initial Construction, General funding for the 
appropriations bill. Please know that every dollar appropriated to this 
project, plus interest, will be repaid to the U.S. Treasury through the 
rates charged for the sale of this hydroelectricity.
    Miami, Oklahoma and Vicinity Feasibility Study.--We request funding 
of $750,000 to move into the feasibility stage for the vicinity in 
Ottawa County including and surrounding Miami, Oklahoma in the Grand 
(Neosho) Basin. Water resource planning-related concerns include 
chronic flooding, ecosystem impairment, poor water quality, subsidence, 
chat piles, mine shafts, health effects, and Native American issues. 
The State of Oklahoma's desire is to address the watershed issues in a 
holistic fashion and restore the watershed to acceptable levels. Study 
alternatives could include structural and non-structural flood damage 
measures, creation of riverine corridors for habitat and flood storage, 
development of wetlands to improve aquatic habitat and other measures 
to enhance the quality and availability of habitat and reduce flood 
damages.
    Oologah Lake Watershed Feasibility Study.--We request funding of 
$326,000 which is $129,000 more than the President's budget request for 
ongoing feasibility studies at Oologah Lake and in the upstream 
watershed. The lake is an important water supply source for the City of 
Tulsa and protection of the lake and maintaining and enhancing the 
quality of the water is important for the economic development of the 
City. Recent concerns have been expressed by the City of Tulsa and 
others regarding potential water quality issues that impact water 
users, as well as important aquatic and terrestrial habitat. Concerns 
are related to sediment loading and turbidity, oilfield-related 
contaminants and nutrient loading.
    Illinois River Watershed Reconnaissance Study.--We request funding 
in the amount of $100,000 to conduct a reconnaissance study of the 
water resource problems of the Illinois River Basin. The Illinois River 
watershed is experiencing continued water resource development needs 
and is the focus of ongoing Corps and other agency investigations. 
However, additional flows are sought downstream of the Lake Tenkiller 
Dam and there are increasing watershed influences upstream of Lake 
Tenkiller which impact on the quality of water available for fish and 
wildlife, municipal and industrial water supply users, and recreation 
users of the Lake Tenkiller and Illinois River waters.
    Grand (Neosho) Basin Reconnaissance Study.--We request funding in 
the amount of $225,000 to conduct a feasibility study of the water 
resource problems in the Grand (Neosho) Basin in Oklahoma and Kansas. 
There is a need for a basin-wide water resource planning effort in the 
Grand-Neosho River basin, apart from the issues associated with Grand 
Lake, Oklahoma. The reconnaissance study indicated that there is a 
Federal interest in this project and the feasibility will focus on the 
evaluation of institutional measures which could assist communities, 
landowners, and other interests in northeastern Oklahoma and 
southeastern Kansas in the development of non-structural measures to 
reduce flood damages in the basin. The reconnaissance study was a 
Congressional add new start, but no funding was put into the fiscal 
year 2005 President's budget request to continue into the feasibility 
stage.
    Grand Lake Feasibility Study.--A need exists to evaluate water 
resource problems in the Grand-Neosho River basin in Kansas and 
Oklahoma to evaluate solutions to upstream flooding problems associated 
with the adequacy of existing real estate easements necessary for flood 
control operations of Grand Lake, Oklahoma. A study authorized by the 
Water Resources Development Act of 1996 was completed in September of 
1998 and determined that if the project were constructed based on 
current criteria, additional easements would be required. Section 449 
of WRDA 2000 directed the Secretary to evaluate backwater effects 
specifically due to flood control operations on land around Grand Lake. 
That study indicated that Federal actions have been a significant cause 
of the backwater effects and according to WRDA 2000, the feasibility 
study should be 100 percent federally funded. A Feasibility study is 
necessary to determine the most cost-effective solution to the real 
estate inadequacies. Changes in the operations of the project or other 
upstream changes could have a significant impact on flood control, 
hydropower and navigation operations in the Grand (Neosho) River system 
and on the Arkansas River Basin system, as well. We urge you to provide 
$450,000 to fund feasibility studies for this important project in 
fiscal year 2004 and to direct the Corps of Engineers to execute the 
study at full Federal expense. This project has been a Congressional 
add for the past 2 years, but there are no funds in the fiscal year 
2005 President's budget request to continue this project.
    Tenkiller Dam Safety Project.--We are pleased that the President's 
budget includes funds to advance work for Flood Control and other water 
resource needs in Oklahoma. Of special interest to our committee is 
funding for the Tenkiller Ferry Lakes Dam Safety Assurance Project in 
Oklahoma. This project is slated to be complete in fiscal year 2006 and 
continued funding is necessary for safety purposes and economic 
efficiencies. We would like to see Tenkiller funded at the $4.4 million 
level, which is the Corps' capability for fiscal year 2005.
    Canton Dam Safety.--We request that funding in the amount of $5.0 
million be provided to continue the Canton Lake Dam Safety Project. The 
stability of the existing spillway requires restrictions on the flood 
control pool. The flood pool can only be held to a 17-year flood event. 
Installation of steel anchors is required to stabilize the existing 
spillway so that the project can be operated as originally designed. 
Funds were provided by Congress in the fiscal year 2004 Appropriations 
Bill to work on this important project, but the administration has not 
included any funds in the fiscal year 2005 President's budget.
    Section 205.--Although the Small Flood Control Projects Program 
addresses flood problems which generally impact smaller communities and 
rural areas and would appear to benefit only those communities, the 
impact of those projects on economic development crosses county, 
regional and sometimes State boundaries. The communities served by the 
program frequently do not have the funds or engineering expertise 
necessary to provide adequate flood damage reduction measures for their 
citizens. Continued flooding can have a devastating impact on community 
development and regional economic stability. The program is extremely 
beneficial and has been recognized nationwide as a vital part of 
community development, so much so in fact that there is currently a 
backlog of requests from communities who have requested assistance 
under this program. There is limited funding available for these 
projects and we urge this program be increased to an annual limit of 
$65 million.
    We also request your continued support of the Flood Plain 
Management Services Program (Section 206 of the 1960 Flood Control Act) 
which authorizes the Corps of Engineers to use its technical expertise 
to provide guidance in flood plain management matters to all private, 
local, State and Federal entities. The objective of the program is to 
support comprehensive flood plain management planning. The program is 
one of the most beneficial programs available for reducing flood losses 
and provides assistance to officials from cities, counties, States and 
Indian Tribes to ensure that new facilities are not built in areas 
prone to floods. Assistance includes flood warning, flood proofing, and 
other flood damage reduction measures, and critical flood plain 
information is provided on a cost-reimbursable basis to home owners, 
mortgage companies, realtors and others for use in flood plain 
awareness and flood insurance requirements.
    We also request your support of the Planning Assistance to States 
Program (Section 22 of the 1974 Water Resources Development Act) which 
authorizes the Corps of Engineers to use its technical expertise in 
water and related land resource management to help States and Indian 
Tribes solve their water resource problems. The program is used by many 
States to support their State Water Plans. As natural resources 
diminish, the need to manage those resources becomes more urgent. We 
urge your continued support of this program as it supports States and 
Native American Tribes in developing resource management plans which 
will benefit citizens for years to come. The program is very valuable 
and effective, matching Federal and non-Federal funds to provide cost-
effective engineering expertise and support to assist communities, 
States and tribes in the development of plans for the management, 
optimization and preservation of basin, watershed and ecosystem 
resources. The Water Resources Development Act of 1996 increased the 
annual program limit from $6 million to $10 million and we urge this 
program be fully funded to the programmatic limit of $10 million.
    We strongly urge the Appropriations Committee to raise the Corps of 
Engineers' budget to $5 billion to help get delayed construction 
projects back on schedule and to reduce the deferred maintenance 
backlog which is out of control. This will help the Corps of Engineers 
meet the obligations of the Federal Government to people of this great 
country.
    Concerning another related matter, we have deep concerns about the 
attempt to re-authorize the Endangered Species Act without significant 
beneficial reforms. If a bill is passed through without reforms, it 
will be devastating to industry and the country as a whole. We strongly 
urge you to take a hard look at any bill concerning this re-
authorization and insure that it contains reasonable and meaningful 
reforms. We urge the re-authorization of the act with reforms at the 
earliest possible time.
    Mr. Chairman, we appreciate this opportunity to present our view on 
these subjects.
                                 ______
                                 

  Prepared Statement of the Tennessee-Tombigbee Waterway Development 
                               Authority

    Mr. Chairman, I am Donald G. Waldon, Administrator of the 
Tennessee-Tombigbee Waterway Development Authority. I am honored to 
submit the authority's recommendations to you and your committee 
concerning fiscal year 2005 funding needs for the operation and 
maintenance of the Tenn-Tom Waterway and the Tennessee River system as 
well as construction of new locks at Kentucky and Chickamauga Dams. 
This is the 44th consecutive year the waterway compact has provided its 
recommendations to the U.S. Congress.
    The Tennessee-Tombigbee Waterway Development Authority is a Federal 
interstate compact ratified in 1958 by the Congress to promote the 
development of the Tenn-Tom and its economic and commerce potential. It 
is comprised of the States of Alabama, Kentucky, Mississippi, and 
Tennessee.
    We, like most other water resources development interests, are most 
concerned if not alarmed about the Office of Management and Budget's 
continued indifference to ports and waterways as a national budget 
priority. The proposed budget for fiscal year 2005 for these and other 
programs of the U.S. Army Corps of Engineers is no exception. While the 
proposed budget adequately funds construction of some new locks it 
woefully under funds others, such as Kentucky and Chickamauga Locks on 
the Tennessee River. However, the proposed budget's most serious 
deficiency is its inability to adequately fund the operation and 
maintenance of completed projects. More Federal investments in the 
Nation's infrastructure, including its ports and waterways, will help 
stimulate our economy and create more job opportunities. Yet the 
administration's budget if approved will result in further 
deterioration of locks and other waterway structures, many that were 
built over 50 years ago, resulting in more closures and disruption of 
commercial shipments and less economic growth. Given the importance of 
these projects for helping the Nation to achieve full economic 
recovery, we recommend that the Congress increase the Corps' total 
funding next year to $5.5 billion or about $600 million more than that 
available this year.

                                     TENNESSEE-TOMBIGBEE WATERWAY, AL AND MS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                Fiscal      Fiscal         Fiscal Year 2005
                                                               Year 2003   Year 2004 ---------------------------
                                                                Approp.     Approp.      Bud. Req.      Recomm.
----------------------------------------------------------------------------------------------------------------
Operation & Maintenance.....................................        24.0        22.5          22.254        25.6
Wildlife Mitigation Payments To Alabama and Mississippi.....         2.0         1.5           2.0           2.0
----------------------------------------------------------------------------------------------------------------


    We greatly appreciate the support your committee and the Congress 
have given to the Tenn-Tom in the past. The waterway saves shippers 
some $90 million in transportation costs each year. It has helped 
attract over $5 billion in new private investments since its 
completion, creating over 50,000 new jobs in the waterway region. Its 
attractive recreational facilities draw nearly 3 million visitors 
annually. Your continued strong support is critically important in 
fiscal year 2005 if the waterway is to continue to generate economic 
benefits at this level.
    The proposed budget will not provide sufficient funds for the Corps 
to adequately maintain the navigation channel. Three locks are 
scheduled for closure and repairs this fall that will cost over $1.5 
million. With no increase in funding provided, this extraordinary 
expense will preclude other important maintenance activities such as 
dredging and resource management.
    We are pleased that $2 million has been budgeted to reimburse the 
States of Alabama and Mississippi to manage nearly 126,000 acres of 
wildlife habitat that is part of the Tenn-Tom Wildlife Mitigation 
Project. These funds are sufficient for the management of these lands. 
However, no funds are available for the Corps to manage some 46,000 
acres of other Federal lands that are an important part of the 
mitigation project.
    The $25.6 million recommended for the operation and maintenance of 
the Tenn-Tom will ensure the waterway is adequately maintained during 
2005 and generates its expected benefits. While there are other needs, 
the recommended increase of $3,246,000 is important to keep the 
waterway channel open to commercial navigation, the Corps' top priority 
program as shown below:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
Provide adequate capacity of upland disposal areas to              1.0
 accept dredged materials..................................
Additional dredging needed to keep channel open to commerce        1.3
Determine measures to limit shoaling in Aberdeen Lake, the         0.5
 waterway's most costly silting problem....................
Initiate corrective measures to eliminate a serious safety         0.3
 problem at Bevill Lock and Dam............................
Eradicate noxious aquatic weeds in lakes and channels (the         0.146
 public's No. 1 complaint about the waterway...............
                                                            ------------
      Total................................................        3.246
------------------------------------------------------------------------

    The Corps of Engineers could efficiently use an additional $10 
million to begin addressing some of the $12 million of urgently needed 
but indefinitely deferred repairs to the waterway's facilities that 
have accumulated due to of severe budget constraints since fiscal year 
1997.
Tennessee River, TN, AL, MS, and KY
    The administration's budget does not provide sufficient funds to 
adequately maintain the commercial navigation features of the Tennessee 
River system. Funds are not available to make scheduled repairs at most 
all of the nine locks. Maintenance dredging needed at public ports at 
Florence and Decatur, AL will be deferred as well as replacement of a 
mobile crane needed at Nickajack Lock, TN.
    We recommend that $21,449,000 or an increase of $6,239,000 be 
appropriated to fund the above activities. This recommended increase 
includes $350,000 and $200,000 to dredge the public ports at Florence 
and Decatur, AL, respectively. The Tennessee River is one of the 
busiest waterways in the Nation.
Kentucky Lock, KY
    Completion of a new lock to replace the nearly 60-year-old, 
outmoded lock at Kentucky Dam will eliminate one of the most costly 
bottlenecks on the entire waterway system. A commercial tow now waits 
an average of 4 hours to transit the lock. These delays continue to 
worsen as commerce grows each year. We are very disappointed the 
proposed budget effectively mothballs construction of this most 
important waterway improvement. The proposed budget of $25,000,000 not 
only precludes award of any new contracts it is $10,000,000 short of 
that needed to reimburse contractors for work now underway. Such a 
budget decision is unconscionable.
    We recommend that $55,000,000 be appropriated to keep construction 
of this high priority project on a more reasonable and efficient 
schedule. This level of funding will maintain a schedule in fiscal year 
2005 that will enable the lock to be completed in fiscal year 2013 
compared to 2023 or 10 years later based on a schedule anticipated by 
the administration budget. This is unacceptable, especially when the 
commercial users are paying for one-half of the new lock's cost.
Chickamauga Lock, TN
    We greatly appreciate the Congress authorizing construction of a 
new lock to replace the old and deteriorating chamber at Chickamauga 
Dam in last year's bill. The $5,400,000 appropriated this year will 
permit the Corps of Engineers to initiate construction and continue the 
detailed design needed for the new 110  600 lock. Regrettably, the 
proposed budget does not provide any funds for construction in 2005, 
effectively delaying start of construction until at least 2006. Unless 
work begins soon, the new lock will not be available when the old 
structure is taken out of operation during the next decade because of 
safety concerns. This closure would land lock 175 miles of the 
Tennessee River, crippling industries, including defense-related, and 
other shippers, located in east Tennessee.
    We respectfully urge the committee to provide $17,000,000 to 
continue construction of this much needed lock replacement. It is also 
recommended that $1,480,000 be provided to allow the Corps to continue 
repairs to the existing lock to ensure its continued operation until 
the new lock is completed.
    Thank you again for allowing the Tennessee-Tombigbee Waterway 
Development Authority to submit these recommendations to you for your 
consideration.
                                 ______
                                 

              Prepared Statement of Kansas City, Missouri

    Mr. Chairman, the City of Kansas City, Missouri, welcomes this 
opportunity to provide written testimony to the Subcommittee on Energy 
and Water Development regarding appropriations for fiscal year 2005 and 
requests that this written testimony be included in the formal hearing 
record.
    The City of Kansas City, Missouri, in cooperation with the Corps of 
Engineers, presently have six major flood damage reduction projects 
underway. All of these projects are essential to the sustainment and 
revitalization of prominent and long-standing commercial, business and 
industrial communities in this region, and when complete will provide 
substantially increased levels of flood protection. Some of these 
projects are located on urban streams subject to severe flash flooding, 
which run along major roadways, resulting in an extremely hazardous 
threat to public safety.
Blue River Channel, Kansas City, Missouri--$8,000,000; Continue 
        Construction
    The Blue River Channel project, currently under construction, 
represents our most pressing need and for fiscal year 2005 we are 
requesting that this project be appropriated $8,000,000. This will 
allow the Corps to complete work that is already under construction, 
and to make some progress on the next phase of the Blue River project, 
which includes a grade control structure. That structure is necessary 
to drop the flow line of the existing channel bed to that of the newly 
deepened channel downstream, which prevents the flow in the stream from 
eroding the channel bed upstream.
    The Blue River Channel project when complete will significantly 
reduce the flood threat to inhabitants of the Blue Valley. 
Additionally, the river winds through a long-standing business district 
that, after much severe flooding, has now been partially abandoned. The 
channel improvement will bring many of these sites out of the 
floodplain and will reduce flooding depths by 6 to 8 feet. This will 
serve as a means to help reclaim Brownfield sites in the valley for 
redevelopment and help to rebuild a once thriving Blue Valley 
community.
Turkey Creek Basin, Kansas and Missouri--$2,500,000; Continue 
        Construction
    Another very important project in the Kansas City region is the 
Turkey Creek Basin, Kansas and Missouri. As mentioned above this area 
suffered a devastating flood in 1998, which is typical every 3 to 5 
years. Providing flood protection for this highly traveled business 
corridor has proven to be very complex and that problem had been 
studied for nearly 35 years. Finally in 2003 the project received 
reauthorization at a total cost of $74,000,000, with a defined cost 
share of $46,000,000 Federal and $28,000,000 local. Major features of 
the Federal project include channel widening, a levee, hillside 
interceptors, and modifications to the Turkey Creek tunnel.
    Funding is requested in the amount of $2,500,000 to continue 
construction of a flood damage reduction project that will serve to 
protect the community along Southwest Blvd. in the Kansas City 
metropolitan area of both Kansas and Missouri. In the alternative, if 
an amount less than that requested can be appropriated, language is 
requested such that ``The non-Federal Interest shall receive credit 
toward the non-Federal share of project costs for construction work 
performed by the non-Federal interest before execution of the project 
cooperation agreement if the Secretary finds that the work performed by 
the non-Federal interest is integral to the project.''
    This language will allow for the Unified Government of Kansas City, 
Kansas and Wyandotte County, and the City of Kansas City, Missouri to 
proceed with the Turkey Creek Tunnel modifications identified in the 
Final Report of the Chief of Engineers. These modifications are 
necessary to insure that the increased flow carried to the tunnel by 
the widened channel upstream can be safely passed through the tunnel to 
the Kansas River. This channel widening was designed by the Corps of 
Engineers and included in the Chief's report, and is currently under 
construction by the Kansas Department of Transportation.
Blue River Basin, Kansas City, Missouri--$4,000,000; Continue 
        Construction
    The Blue River Basin, Kansas City, Missouri project, commonly known 
as the Dodson Industrial District Levee, is also located along the Blue 
River. Construction is currently underway on the floodwall portion and 
associated work, which is scheduled to be complete in 2005. Funding is 
required to pay for this work already under contract. The project 
requires modification of two major 96-inch diameter sewer structures in 
order for the levee-floodwall to function properly. The work on these 
elements needs to proceed in such a manner to assure that these 
facilities are protected during construction, are able to continue to 
function properly, and are not unnecessarily exposed to damage during 
an extended construction schedule.
    The City has been working aggressively to honor our commitments to 
this project, and supports it moving forward in the most expeditious 
manner possible in order that this flood protection, which is essential 
to our having safe emergency access to a large portion of the City 
south of the Missouri River during flooding situations, can be 
maintained via access from the newly completed midtown expressway known 
as Bruce R. Watkins Drive. The City has programmed $5 million over 3 
years to meet our local sponsor cost share. The project consists of a 
$17 million levee that will protect $240 million in property investment 
from the 500-year flood.
Kansas Citys, Kansas and Missouri--$650,000; Continue Feasibility Study
    Study area encompasses two major rivers and seven levee units, and 
has four local sponsors. The levees are located along the Missouri and 
Kansas Rivers through the heart of the Kansas City metropolitan area, 
and protect its most densely developed business regions from floods. 
The 1993 flood came within inches of topping the Central Industrial 
District Levee, evidencing a need to evaluate how the seven levee units 
comprising the flood protection system for the Kansas City area 
functions as a whole, and to determine inadequacies and inconsistencies 
in the levels of protection. The units are Argentine, Armourdale, and 
Fairfax-Jersey Creek, all in Kansas; Central Industrial District, in 
Kansas and Missouri; and North Kansas City, Birmingham and East 
Bottoms, all in Missouri. Construction of these levees began in the 
1940's and was completed in 1980. The Feasibility Study began in 
September 2000, with an estimated cost of $2,782,323 cost shared 50 
percent Federal--50 percent local funds. Funding is requested to 
continue the Feasibility Study to develop and study possible project 
alternatives, perform environmental studies, and select the plan 
recommended for construction. The 1970 Flood Control Act, Section 216, 
provides a continuing authority to reexamine completed Federal 
projects.
Brush Creek Basin, Kansas and Missouri--$200,000; Continue 
        Reconnaissance Study
    Because this project provides the mechanism by which the region can 
work cooperatively using a watershed based approach to achieve the 
allied purposes of flood damage reduction, ecosystem restoration and 
other purposes, it is important that adequate funding be provided to 
collect the relevant data, coordinate among the many stakeholders, and 
establish cost sharing relationships needed to move forward. The City 
of Kansas City, Missouri and Johnson County, Kansas have committed 
significant local resources toward the completion of the flood 
mitigation and stream restoration work along Brush Creek, and are 
committed to continuing to support this effort and working together 
with the Mid-America Regional Council, Corps of Engineers, 
Environmental Protection Agency, Brush Creek Community Partners, and 
other stakeholders to achieve the goals established and agreed upon as 
part of the Brush Creek Basin Wide Study. Brush Creek is known as the 
``Cultural Corridor'' in Kansas City and serves as a highly traveled 
business, residential and recreational corridor. This study effort 
aligns with the goals established by the residents, corporations, 
cities and other stakeholders along the creek.
Swope Park Industrial Area, Kansas City, Missouri--$200,000; Continue 
        Design
    Development of the 53-acre Industrial Park was substantially 
completed prior to enactment of the Federal Flood Insurance Act, and 
the entire area is now located within the 100-year floodplain as 
currently mapped by FEMA, and is largely within the floodway. The Swope 
Park Industrial Area has limited access, one-way in and out, with an 
active railroad track crossing near the entrance to the Park, in any 
given year there is a 1 in 5 chance that flooding will interrupt 
roadway access to the Park, and an approximately 1 in 7 chance that 
buildings will be flooded. Especially hazard flood conditions, and a 
threat to public safety, exist as people and businesses must decide 
whether to evacuate the Park during the initial stages of flooding, or 
risk being stuck with no surface means of egress if the water continues 
to rise.
Main Street Sewer Outfall/Riverfront Heritage Trail/Missouri River Bank 
        Stabilization--$7,000,000; Continue Construction
    We are also seeking funding for these projects to provide a safe 
and viable Kansas City Riverfront. This Missouri Riverfront project is 
comprised of five components being accomplished through a coordinated 
effort by public, private and non-profit organizations including Kansas 
City River Trails, Inc., the Port Authority of Kansas City, United 
States Corps of Engineers and the City of Kansas City, Missouri. 
Funding to complete this essential link between development both East 
and West of the project site is being sought from a variety of public 
and private sources to create a revitalized riverfront.
    The bank of the Missouri River collapsed in May of 2003 causing 
significant damage to the Main Street Sewer Outfall that drains a large 
portion of the downtown Kansas City basin. The City is in the process 
of constructing repairs for the sewer outfall and some slope 
stabilization. This East/West trail connector is a vital segment of the 
Kansas City Riverfront Heritage Trail system within the Riverfront West 
area, and when constructed it will complete a bi-State bicycle, 
pedestrian and green space trail system stretching from the Richard L. 
Berkley Riverfront Park and Isle of Capri Casino at the east to the 
original settlement of the Town of Kansas and the Indian Cemetery in 
Kansas City, Kansas at the west. The Trail includes a series of 
interpretive artworks, kiosks and signs commemorating Lewis and Clark's 
Corps of Discovery journey and Kansas City's relationship to its 
rivers. The Habitat Restoration will be constructed by the U.S. Corps 
of Engineers in corporation with the Port Authority of Kansas City 
Missouri. Project estimates and funding availabilities are shown in the 
table below.

----------------------------------------------------------------------------------------------------------------
                                                                                      Funding
                        Project Component                            Estimate        Available    Funding Sought
----------------------------------------------------------------------------------------------------------------
Main Street Sewer Outfall.......................................      $3,500,000        $220,000      $3,280,000
Slope Stabilization.............................................       2,400,000         380,000       2,020,000
East-West Trail Connection......................................       1,750,000          30,000       1,720,000
Interpretive Center.............................................       1,600,000         200,000       1,400,000
Habitat Restoration.............................................       2,500,000         500,000       2,000,000
                                                                 -----------------------------------------------
      Total.....................................................      11,750,000       1,330,000      10,420,000
----------------------------------------------------------------------------------------------------------------

    The City of Kansas City, Missouri appreciates the past assistance 
we have received with local water resource projects. We are prepared to 
provide our share of funding in the future, and respectfully request 
that Federal funding adequate to keep these very important projects 
moving toward the soonest possible completion be appropriated in the 
upcoming year.
                                 ______
                                 

  Prepared Statement of the Upper Mississippi River Basin Association

                        [In millions of dollars]
------------------------------------------------------------------------
                                            President's        UMRBA
                                              Request     Recommendation
------------------------------------------------------------------------
Construction General:
    Upper Miss. River System                      28.000          33.250
     Environmental Mgt. Program.........
    Major Rehabilitation of Locks and             13.600          13.600
     Dams 19 and 24.....................
    Major Rehabilitation of Locks and     ..............          21.700
     Dams 3, 11, and 27.................
    Continuing Authorities (Section               13.500          25.000
     1135)..............................
    Continuing Authorities (Section 206)          10.000          25.000
Operation and Maintenance:
    O&M of the Upper Mississippi                 167.733         231.759
     Navigation System..................
General Investigations:
    Upper Mississippi and Illinois        ..............          18.000
     Waterway Navigation and Ecosystem
     Improvements PED...................
    Upper Mississippi River                         .994           1.400
     Comprehensive Plan.................
    Research and Development............          20.800          20.800
    Stream Gaging (U.S. Geological                  .600            .600
     Survey)............................
------------------------------------------------------------------------

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
river-related State programs and policies and for collaborating with 
Federal agencies on regional issues. As such, the UMRBA works closely 
with the Corps of Engineers on a variety of programs for which the 
Corps has responsibility. Of particular interest to the basin States 
are the following:
                          construction general
Environmental Management Program
    For the past 17 years, the Upper Mississippi River System 
Environmental Management Program (EMP) has been the premier program for 
restoring the river's habitat and monitoring the river's ecological 
health. As such, the EMP is key to achieving Congress' vision of the 
Upper Mississippi as a ``nationally significant ecosystem and a 
nationally significant commercial navigation system.'' Congress 
reaffirmed its support for this program in the 1999 Water Resources 
Development Act by reauthorizing the EMP as a continuing authority and 
increasing the annual authorized appropriation to $33.52 million. The 
UMRBA is pleased that the administration has requested $28 million for 
the EMP in fiscal year 2005. The fact that the administration has 
identified the EMP as one of eight Corps projects ``that are the 
highest priorities in the Nation,'' is tribute to the EMP's success. 
Yet annual appropriations for the EMP have fallen short of the 
authorized funding levels for the past 8 years and the program is still 
suffering from the dramatic 40 percent cut it suffered in fiscal year 
2003. Thus, the UMRBA strongly urges Congress to appropriate full 
funding of $33.52 million for the EMP in fiscal year 2005.
    EMP habitat restoration projects include activities such as 
building and stabilizing islands, controlling water levels and side 
channel flows, constructing dikes, and dredging backwaters and side 
channels. At the administration's funding level of $28 million, 
approximately $17.7 million would be allocated to the planning, design, 
and construction of such habitat projects. In particular, this level of 
investment will support planning and design for 20 projects and 
construction work on 18 projects, bringing construction to completion 
on 5 of these projects. Approximately $8.7 million would be devoted to 
the EMP Long Term Resource Monitoring program (LTRMP) under an EMP 
budget of $28 million. This funding is critical to the future viability 
of the EMP's monitoring component, which has suffered from funding 
shortfalls in recent years. Data collection related to water quality, 
sediment, fish, invertebrates, and vegetation has been reduced or 
suspended; bathymetric surveys have been eliminated; laboratory 
analysis has been cut back; data analyses and science planning has been 
curtailed; and land cover mapping has been postponed. Planning is 
currently underway to restructure and redesign the program to enhance 
its ability to meet increasing demands for information with decreasing 
resources. But it is essential that funding be increased in fiscal year 
2005 to revive many of the essential functions that have been 
eliminated or deferred.
    Meeting the ecological restoration and monitoring needs on the 
Upper Mississippi River with renewed commitment and enhanced investment 
is critical. Within the next few months, the Corps is expected to 
release the draft feasibility report from its Navigation Study on the 
Upper Mississippi River and Illinois Waterway System, including a 
recommended plan for improving both the navigation infrastructure and 
ecosystem. Yet, without a strong EMP program as one of the tools to 
meet river environmental needs, it is unlikely that the plan can be 
successfully implemented. The UMRBA thus strongly urges that the EMP be 
fully funded at $33.52 million in fiscal year 2005.
Major Rehabilitation of Locks and Dams
    Given that most of the locks and dams on the Upper Mississippi 
River System are over 60 years old, they are in serious need of repair 
and rehabilitation. For the past 18 years, the Corps has been 
undertaking major rehabilitation of individual facilities throughout 
the navigation system in an effort to extend their useful life. This 
work is critical to ensuring the system's reliability and safety.
    The UMRBA supports the Corps' fiscal year 2005 budget request for 
major rehabilitation work at Lock and Dam 19 ($4.8 million) and Lock 
and Dam 24 ($8.8 million). Lock and Dam 19, at Keokuk, Iowa, is in 
particular need of rehabilitation given the deterioration of its gates, 
resulting in dangerous conditions. Lock and Dam 24, located near 
Clarksville, Missouri, is nearing completion of the first phase of its 
$87 million rehabilitation. Lock wall concrete repairs are underway and 
expected to be completed in fiscal year 2005. In addition, fiscal year 
2005 funding will support continued dam tainter gate rehabilitation.
    The UMRBA also supports funding for major rehabilitation of Lock 
and Dam 3 ($5 million), Lock and Dam 11 ($10.9 million), and Locks 27 
($5.8 million), none of which are currently funded in the 
administration's fiscal year 2005 budget request. In the case of Lock 
and Dam 11, the lack of funding is particularly problematic because 
work is already underway. Continued funding is needed in fiscal year 
2005 to proceed with bulkhead construction and installation and lock 
repair. With regard to Lock and Dam 3, funds are needed in fiscal year 
2005 to complete the reevaluation report and begin plans and 
specifications for correcting safety problems at this facility. Lock 
and Dam 3, near Red Wing, Minnesota is located on a bend in the river, 
which causes an outdraft current that tends to sweep down-bound tows 
toward the gated dam. A related problem is maintaining the structural 
integrity of a set of three earthen embankments connecting the gated 
dam to high ground on the Wisconsin side. Rehabilitation of Locks 27 is 
also critical, given its location at a critical juncture in the inland 
waterway system, through which traffic on the Mississippi, Illinois, 
and Missouri Rivers passes. The rehabilitation plan calls for 
rehabilitation of various structural, electrical, and mechanical 
components of this structure, which is over 50 years old.
Continuing Authorities (Section 1135 and 206)
    The Corps of Engineers' Section 1135 and Section 206 continuing 
authorities provide an important tool for addressing ecosystem 
restoration needs, particularly in riverine environments. The three 
Corps Districts in the Upper Mississippi River Basin have undertaken 
many such projects over the past few years. While some projects are on 
the Mississippi River, others are located on tributaries, wetlands, and 
watersheds throughout the basin. There are currently more projects than 
can be supported with the limited funding proposed in fiscal year 2005. 
While the Section 1135 and Section 206 programs are each authorized to 
be funded at $25 million annually, the President's fiscal year 2005 
budget requests only $13.5 million for Section 1135 and $10.0 million 
for Section 206. Given that this relatively small amount is intended to 
support projects nationwide, it is not surprising that many projects in 
the 5 States of the Upper Mississippi River Basin remain unfunded. For 
example, in the Rock Island District alone, there are 5 new and 15 on-
going Section 206 projects and 2 on-going Section 1135 projects that 
could utilize funding in fiscal year 2005. The total costs of the 
Section 206 projects in this one district far exceed the funding for 
Section 206 nationwide. Thus, the UMRBA supports funding for both the 
Section 1135 and Section 206 programs at their fully authorized amount 
of $25 million.
                       operation and maintenance
Operation and Maintenance (O&M) of the Upper Mississippi River 
        Navigation System
    The Corps of Engineers is responsible for operating and maintaining 
the Upper Mississippi River System for navigation. This includes 
channel maintenance dredging, placement and repair of channel training 
structures, water level regulation, and the routine operation of 29 
locks and dams on the Mississippi River and 7 locks and dams on the 
Illinois River. The fiscal year 2005 budget totals approximately $169 
million for O&M of this river system, which includes $111.410 million 
for the Mississippi River between Minneapolis and the Missouri River, 
$21.236 million for the Mississippi River between the Missouri River 
and Ohio River, and $35.087 million for the Illinois Waterway.
    These funds are critical to the Corps' ability to maintain a safe 
and reliable commercial navigation system. In addition, these funds 
support a variety of activities that ensure the navigation system is 
maintained while protecting and enhancing the river's environmental 
values. For example, O&M funds support innovative environmental 
engineering techniques in the open river reaches such as bendway weirs, 
chevrons, and notched dikes that maintain the navigation channel in an 
environmentally sensitive manner. In addition, water level management 
options for a number of pools in the impounded portion of the river are 
being evaluated under the O&M program. Pool level management, such as 
that being tested in Pool 8 and evaluated other upper river pools, is a 
promising new approach for enhancing aquatic plant growth and 
overwintering conditions for fish, without adversely affecting 
navigation.
    The UMRBA is pleased that the President's fiscal year 2005 funding 
request for O&M of the Upper Mississippi River System is above fiscal 
year 2004 appropriations for some of the river reaches. Unfortunately, 
the request is well below what is needed. In particular, there is a 
growing backlog of maintenance needs as a result of historically flat 
line budgets. In addition, as a result of unusual funding constraints 
in the St. Paul District in fiscal year 2004, that District is 
deferring contractor payments and all new contract awards.
    Unmet needs include such items as major maintenance at Lock and Dam 
5, land acquisition for dredged material disposal sites, replacement of 
dam gates and lift gates, repair of operating components, and lockwall 
resurfacing.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year                     Fiscal Year
           Upper Mississippi River System O&M Accounts                 2004         Fiscal Year      2005 Full
                                                                  Appropriations   2005 Request     Capability
----------------------------------------------------------------------------------------------------------------
Mississippi River Between MO River and Minneapolis:
    St. Paul District (MVP).....................................          36.056          51.030          61.340
    Rock Island District (MVR)..................................          45.000          42.473          53.287
    St. Louis District (MVS)....................................          18.000          17.907          25.916
Mississippi River Between Ohio and MO Rivers....................          18.099          21.236          31.793
Illinois Waterway:
    Rock Island District (MVR)..................................          25.726          33.273          57.274
    St. Louis District (MVS)....................................           1.889           1.814           2.149
----------------------------------------------------------------------------------------------------------------

    The UMRBA supports increased funding for O&M of the Upper 
Mississippi and Illinois River System to meet routine on-going 
operations and maintenance needs, and to begin to address the growing 
unfunded maintenance backlog. Full capability funding in fiscal year 
2004 for all three Upper Mississippi River districts totals $231.7 
million.
                         general investigations
Upper Mississippi River System Navigation and Ecosystem PED
    The Upper Mississippi River and Illinois Waterway Navigation Study, 
which began in 1993 is nearing completion. The draft feasibility report 
is scheduled for release April 30, 2004 and the final Chief's Report is 
expected in November 2004. Since the study was restructured in 2001, it 
is designed to yield an integrated plan, incorporating both navigation 
improvements and ecosystem restoration. It has also been a truly 
collaborative process involving five Federal agencies, five States, and 
representatives from a broad spectrum of stakeholder groups. The 
recommendations resulting from this extraordinarily complex planning 
process promise to be the most important investment for the future of 
the Upper Mississippi River that this region has had in decades.
    The President's fiscal year 2005 budget request includes no funding 
for this critically important planning effort. While the feasibility 
study phase will be essentially complete by fiscal year 2005, there 
will be on-going planning and design needs. Thus, the UMRBA supports 
funding of $18 million, which we understand is the Corps' capability, 
to advance the planning and initiate design. Such funding would enable 
significant progress to be made on both the navigation and ecosystem 
improvements, including planning and design work for switch boats, 
mooring cells, locks, system mitigation, and ecosystem restoration 
projects.
Upper Mississippi River Comprehensive Plan (Flood Damage Reduction)
    Section 459 of the Water Resources Development Act of 1999 
authorized the Corps to develop what is termed the ``Upper Mississippi 
River Comprehensive Plan,'' the primary focus of which is systemic 
flood damage reduction and flood protection. Since planning began in 
December 2001, funding shortfalls have been significant and the study 
has been suspended a number of times. In addition, only $944,000 has 
been requested in fiscal year 2005. It is thus doubtful that the study 
will be completed within the 3-year time frame Congress directed when 
the study was first authorized in WRDA 1999, and later reaffirmed in 
WRDA 2000.
    Although the assessment of alternative plans is underway, 
substantial work remains to be done, including completing that 
alternatives evaluation and conducting public meetings. Of particular 
interest to the States, is development and evaluation of an ``Emergency 
Action Scenario'' that will help the Corps and State agencies 
understand the implications of decisions they may be faced with making 
when fighting a flood such as the one in 1993. Such ``what if'' 
analysis, in combination with the evaluation of structural and 
nonstructural systemic flood damage reduction options, is critical. 
Thus, the UMRBA supports funding of $1.4 million for the Upper 
Mississippi River Comprehensive Plan in fiscal year 2005.
Research and Development
    The President's fiscal year 2005 budget request for Research and 
Development includes funding to support the Navigation Economic 
Technologies (NETS) research program. NETS is working to develop a 
standardized and defensible suite of economic tools to evaluate 
navigation improvements. The goal is to develop simulation models and 
data gathering techniques that are reasonably transparent and 
computationally accurate, yield nationally consistent results, and are 
acceptable to outside peer review. The need for such research has 
become increasingly obvious over the past few years, as the Corps has 
struggled to address the economic complexities and uncertainties 
associated with navigation improvements on the Upper Mississippi and 
Illinois Rivers. Significant advances in economic modeling have been 
made as part of that feasibility study. Yet additional work is needed 
to help inform future decisions. Thus, the UMRBA strongly supports 
funding for the NETS program, which is programmed for $2.5 million in 
fiscal year 2005 under the Corps' Research and Development budget.
Stream Gaging
    The Corps of Engineers, in cooperation with the USGS, operates 
approximately 150 stream gages in the Upper Mississippi River Basin. In 
fiscal year 2004, the Corps' share of the cost of these gages is $1.946 
million. Most of these stream gages are funded through the Corps' O&M 
account for the specific projects to which the gages are related. 
However, there are a number of gages that are not associated with a 
particular project. Thus, UMRBA supports the $600,000 requested under 
General Investigations to support the Corps' share of non-project USGS 
stream gages, many of which are located in the five States of the Upper 
Mississippi River Basin. In fiscal year 2004, approximately $108,000 
was provided by these ``General Coverage Funds'' for gages in the St. 
Paul and Rock Island Districts.
                                 ______
                                 

            Prepared Statement of the Ventura Port District

    The Ventura Port District respectfully requests that the Congress:
  --Support the administration's request for $2,910,000 to be included 
        in the fiscal year 2005 Energy and Water Development 
        Appropriations Bill for the U.S. Army Corps of Engineers 
        maintenance dredging of the Ventura Harbor Federal channel and 
        sand traps.
  --Include $300,000 in the fiscal year 2005 Energy and Water 
        Development Appropriations Bill to complete a cost shared 
        Feasibility Study to determine the advisability of modifying 
        the existing Federal navigation project at Ventura Harbor to 
        include a sand bypass system.
                               background
    Ventura Harbor, homeport to 1,500 vessels, is located along the 
Southern California coastline in the City of San Buenaventura, 
approximately 60 miles northwest of the City of Los Angeles. The harbor 
opened in 1963. Annual dredging of the harbor entrance area is usually 
necessary in order to assure a navigationally adequate channel. In 
1968, the 90th Congress made the harbor a Federal project and committed 
the U.S. Army Corps of Engineers to provide for the maintenance of the 
entrance structures and the dredging of the entrance channel and sand 
traps.
    The harbor presently generates more than $40 million in gross 
receipts annually. That, of course, translates into thousands of both 
direct and indirect jobs. A significant portion of those jobs are 
associated with the commercial fishing industry (the harbor is 
consistently amongst the top ten commercial fishing ports in the United 
States), and with vessels serving the offshore oil industry. 
Additionally, the headquarters for the Channel Islands National Park is 
located within the harbor, and the commercial vessels transporting the 
nearly 100,000 visitors per year to and from the Park islands offshore, 
operate out of the harbor. All of the operations of the harbor, 
particularly those related to commercial fishing, the support boats for 
the oil industry, and the visitor transport vessels for the Channel 
Islands National Park are highly dependent upon a navigationally 
adequate entrance to the harbor.
                     operations & maintenance needs
Maintenance Dredging
    It is estimated that $2,910,000 will be required to perform routine 
maintenance dredging of the harbor's entrance channel and sand traps 
during fiscal year 2005. This dredging work is absolutely essential to 
the continued operation of the harbor.
                              study needs
    It is estimated that $300,000 will be required during fiscal year 
2005 to complete a cost shared Feasibility Study to determine the 
advisability of modifying the existing Federal navigation project at 
Ventura Harbor to include a sand bypass system. Given the continuing 
need for maintenance dredging, it is appropriate to determine if a sand 
bypass system or other measures can accomplish the maintenance of the 
harbor in a manner that is more efficient and cost effective than the 
current contract dredging approach.
                                 ______
                                 

              Prepared Statement of the Port of Garibaldi

    Mr. Chairman and members of the subcommittee, my name is William 
Schrieber. I am an elected Commissioner of the Port of Garibaldi, 
Oregon, located on Tillamook Bay on the Oregon Coast. We are thankful 
for the support provided by the committee for fiscal year 2002, 2003 
and 2004, and we also appreciate the opportunity to present our views 
on fiscal year 2005 appropriations issues.
                         appropriations request
    The Port of Garibaldi requests a $2,600,000 appropriation for 
operations and maintenance (O&M) of Tillamook Bay and Bar, Oregon. 
These funds will allow the U.S. Army Corps of Engineers' (Corps) 
Portland District continue the protection, restoration and repair of 
the Tillamook Bay North and South Jetties. Specifically, the funds will 
allow the Corps to build a revetment near the North jetty root, and 
perform additional restoration and repair work on the South jetty.
    The Committee provided an additional $200,000 for a Major 
Maintenance Report in fiscal year 2002, $300,000 for Plans and 
Specifications in fiscal year 2003, and $300,000 to begin construction 
of the revetment in fiscal year 2004. The final amount provided by 
Congress for fiscal year 2004 was $400,000. These appropriations were 
made above the administration's budget requests for the project. The 
Major Maintenance Report was completed in December 2003. The total cost 
to build the revetment and 100 ft. caps at the North and South Jetty 
heads will be approximately $16,700,000. These have been identified by 
the Portland District of the U.S. Army Corps of Engineers as among the 
minimum and necessary repairs to achieve a stable project. To undertake 
all necessary repairs would cost approximately $41,300,000. The 
administration did not request funding for this project for fiscal year 
2005.
                report on the tillamook bay jetty system
    There are serious problems with both jetties. The Corps' ongoing 
engineering analysis demonstrates that erosion on the north side of the 
North Jetty continues at a highly accelerated rate. Frequently, the 
U.S. Coast Guard (USCG) pulls its crew members out of the tower located 
near the root of the North Jetty because of the threat of a jetty 
breach at that site during periods of high seas. Should the breach 
occur, shellfish beds, a county park and a State highway would sustain 
severe damage. The USCG has also determined that deterioration of the 
South Jetty has created a dangerous threat to navigation safety.
    A functional Tillamook Bay Jetty System is key to maintaining 
navigation safety, protecting both public and private property and the 
environment, and preserving the economic vitality of the Oregon Coast.
    In December 2003, the Corps completed a Major Maintenance Report 
for the Tillamook North and South Jetties. The following paragraphs are 
included in the executive summary of the report.

    ``The north and south jetties at the entrance to Tillamook Bay have 
experienced damage to both jetty heads, trunks, and north jetty root. A 
recent apparent increase in the Pacific Ocean wave climate has exposed 
both jetties to more extreme storm waves, especially the south jetty 
which is more exposed to southwesterly storm events. In addition to the 
increases concern regarding jetty stability, there is concern that 
further recession of the jetty heads will contribute to already 
hazardous navigation conditions over the ebb tital shoal or bar.
    ``Erosion of the shoreline along the north jetty is a major concern 
in terms of a potential breach at the jetty root. The jetty root has a 
smaller cross-section and the proximity of the deep channel (40 ft. in 
depth) to this section of jetty is of increasing concern. The 
increasingly severe shore erosion at the north jetty root appears to be 
related to the north jetty head recession.
    ``The north jetty has lost 384 ft. of jetty from the seaward end of 
its 5,700 ft. authorized length. The south jetty has lost 666 ft. from 
the seaward end of its 8,025 ft. authorized length. By 2006, at 
historical jetty head recession rates, the north jetty will be 480 ft. 
shorter than the authorized length. The south jetty will be 890 ft. 
shorter than the authorized length. The south jetty has never been 
repaired since its construction in 1969 to 1979 (25 to 35 years). The 
north jetty damage reach includes 1,050 ft. that has not been repaired 
since construction in 1918 (86 years).''

    Background.--Since settlement in the 1800's, Tillamook County's 
primary industries have been dairy, water and timber oriented. 
Tillamook Bay and the five rivers which feed it have historically 
furnished an abundance of shellfish, salmon and other species of fresh-
water and ocean food fish. Over the past century the area has become 
renowned as one of the West's premier sport fishing locations.
    Tillamook County's economy has always depended on prime conditions 
in Tillamook Bay, its estuary and watershed for cultivation and use of 
these natural resources. However, human activities including forestry, 
agriculture and urban development have adversely impacted the entire 
Bay area by increasing erosion rates and landslide potential in the 
forest slopes and significantly reducing wetland and riparian habitat. 
All five rivers entering Tillamook Bay now exceed temperature and/or 
bacteria standards established by the Oregon Department of 
Environmental Quality. The installation of a north jetty on Tillamook 
Bay begun in 1912 caused increased erosion of the Bay's westerly land 
border, Bayocean Spit, on the ocean side. The Spit breached in 1950. 
This allowed the Bay to fill with ocean sands on its southern and 
western perimeters and caused a major reduction in shellfish habitat, 
sport-fishing area, and an increase in the cross-section of the bar. A 
south jetty begun in 1969 helped stabilize the Spit and created the 
navigation channel presently in use.
                        economic characteristics
    The following was also included in the Corps December 2003 Major 
Maintenance Report.

    ``Entrance and Port Usage.--The Tillamook entrance is one of the 
most heavily used on the Oregon Coast and recent surveys indicate than 
the Port of Garibaldi is the third busiest recreational port in Oregon, 
behind the Port of Brookings and the Port of Umpqua. Total visitation 
to the Port of Garibaldi was 64,350 (Party Days) in 2002. Visitors in 
the area spent $6,747,000 on trip related expenditures to the port. 
Sixty-nine percent of this spending was captured by local economy 
yielding $4,666,000 in direct sales to tourism related firms. These 
sales generated $1,847,000 in direct personal income and supported 118 
direct jobs. With multiplier effects, visitor spending resulted in 
$6,446,000 total sales, $2,543,000 in total personal income, and 
supported 143 jobs.
    ``Port Fleet Considerations.--Total number of boats associated with 
the Port of Garibaldi was 619 in 2002. Boat owners in this area spent 
$1,127,000 on boat related annual and fixed expenditures in the region. 
Thirty-nine percent of this spending was captured by local economy 
yielding $434,000 in direct sales to related industries. These sales 
generated $168,000 in direct personal income and supported 08 direct 
jobs. With multiplier effects, visitor spending resulted in $589,000 
total sales, $223,000 in total personal income, and supported 11 jobs. 
The Port of Garibaldi is also an active commercial fishing port. 
Garibaldi's total landing volume and value in the year 2000 was 1.7 
million pounds and $2.0 million. The share of landing volume for 
groundfish was 16 percent. There were a total of 1,548 fishing trips 
made by 92 different vessels in the year 2000. There were nine 
different processors, buyers, restaurants, etc. issuing more than 
$10,000 in fish tickets.
    ``Marine Facilities.--The Port of Garibaldi has over 300 slips 
available, with 60 slips available for vessels over 40 feet in length. 
The port also has 300 feet of dock available for transient vessels. The 
Coast Guard Tillamook Bay Station reports search and rescue cases 
annually. From 1995 to 2001, the station reported an average of 215 
cases each year, with a high of 282 cases in 1999 and, a low of 152 
cases in 2000.''
                               conclusion
    On behalf of the Port of Garibaldi and Tillamook County, I thank 
the committee for giving me this opportunity to provide testimony on 
the Tillamook Bay Jetty System.
                                 ______
                                 
 Prepared Statement of the Louisiana Governor's Task Force on Maritime 
                                Industry
the lower mississippi river and connecting waterways and the j. bennett 
                           johnston waterway
    Mississippi River Ship Channel, Gulf to Baton Rouge, LA.--Recommend 
the Corps be funded $537,000 (Construction General) to perform required 
work on the saltwater intrusion Phase 1 mitigation plan and to prepare 
a report on deepening the river to its authorized depth of 55-foot 
depth.
    Mississippi River, Baton Rouge to the Gulf--Maintenance Dredging.--
The President's Fiscal Year 2005 Budget is $59,125,000 under O&M 
General. Recommend that the Corps be funded $74,400,000 to construct 
foreshore rock dike, repair South Pass jetties, and to repair Southwest 
Pass pile dike and tie-in.
    Mississippi River Gulf Outlet (MRGO), LA--Maintenance Dredging.--
The President's Fiscal Year 2005 Budget is $13,004,000 under O&M 
General. Recommend that the Corps be funded $38,400,000 for maintenance 
dredging and bank stabilization.
    Inner Harbor Navigation Canal (IHNC) Lock, LA.--The President's 
Fiscal Year 2005 Budget is $10,000,000 in Construction General funds. 
Recommend that the Corps be funded $24,000,000 to continue 
construction, design and mitigation for the IHNC Lock replacement.
    Mississippi River Outlets at Venice, LA.--The President's Fiscal 
Year 2005 Budget is $424,000 under O&M General. Recommend that the 
Corps be funded $3,700,000 to perform critical maintenance dredging and 
to repair jetties.
    Bayou Sorrel Lock, LA.--The President's Fiscal Year 2005 Budget is 
$550,000 under General Investigation Studies to advance pre-engineering 
design for the replacement of Bayou Sorrel Lock on the Gulf 
Intracoastal Waterway (GIWW), Morgan City-to-Port Allen alternate 
route.
    Gulf Intracoastal Waterway, LA and TX.--The President's Fiscal Year 
2005 Budget is $17,476,000 under O&M General. Recommend that the Corps 
be funded $27,300,000 to perform critical maintenance at the navigation 
locks.
    MRGO Reevaluation Study, LA.--The President's Fiscal Year 2005 
Budget is $225,000 (General Investigation) to initiate an ecosystem 
restoration study of the MRGO.
    J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
LA.--The President's Fiscal Year 2005 Budget is $4,000,000 
(Construction General) and $10,600,000 (O&M General). Recommend that 
the Corps be funded $20,000,000 (Construction General) and $18,000,000 
(O&M, General) to initiate new work and complete work already underway.
    As Chairman of the Louisiana Governors Task Force on Maritime 
Industry, I hereby submit testimony to the Senate Subcommittee on 
Energy and Water Development on behalf of the ports on the lower 
Mississippi River and the J. Bennett Johnston Waterway and the maritime 
interests related thereto of the State of Louisiana relative to 
congressional appropriations for fiscal year 2005.
    The U.S. Army Corps of Engineers reports that in 2002 a total of 
421.1 million tons of foreign and domestic waterborne commerce moved 
through the consolidated deepwater ports of Louisiana situated on the 
lower Mississippi River between Baton Rouge and the Gulf of Mexico. 
Deepening of this 232-mile stretch of the River to 45 feet has been a 
major factor in tonnage growth at these ports. Due in large part to the 
efforts of Congress and the New Orleans District of the Corps, 
Louisiana's ports and the domestic markets they serve can compete more 
productively and effectively in the global marketplace. Ninety-one 
percent of America's foreign merchandise trade by volume (two-thirds by 
value) moves in ships, and 20.5 percent of the Nation's foreign 
waterborne commerce passes through Louisiana's ports. Given the role 
foreign trade plays in sustaining our Nation's growth, maintaining the 
levels of productivity and competitiveness of Louisiana's ports is 
essential to our Nation's continued economic well-being.
    In terms of transportation services and global access, Louisiana 
ports enjoy a distinct competitive advantage. Hundreds of barge lines 
accommodate America's waterborne commerce on the lower Mississippi 
River. The high level of barge traffic on the river is indicated by the 
passage of more than 293,000 barges through the Port of New Orleans 
annually. In 2002, 1,967 ocean-going vessels operated by more than 100 
steamship lines serving U.S. trade with more than 150 countries called 
at the Port of New Orleans. The Port's trading partners include: Latin 
America (40.5 percent); Asia (28.7 percent); Europe (20 percent); 
Africa (9.4 percent) and North America (1.4 percent). During the same 
year, 5,448 vessels called at Louisiana's lower Mississippi River 
deepwater ports.
    The foreign markets of Louisiana's lower Mississippi River ports 
are worldwide; however, their primary domestic market is mid-America. 
This heartland region currently produces 60 percent of the Nation's 
agricultural products, one half of all of its manufactured goods and 90 
percent of its machinery and transportation equipment.
    The considerable transportation assets of Louisiana's lower 
Mississippi River ports enable mid-America's farms and industries to 
play a vital role in the international commerce of this Nation. In 
2002, the region's ports and port facilities handled 227.5 million tons 
of foreign waterborne commerce. Valued at $39.2 billion, this cargo 
accounted for 18.1 percent of the Nation's international waterborne 
trade and 27 percent of all U.S. exports. Bulk cargo, primarily 
consisting of tremendous grain and animal feed exports and petroleum 
imports, made up 88.3 percent of this volume. Approximately 50.2 
million tons of grain from 17 States, representing 62.4 percent of all 
U.S. grain exports, accessed the world market via the 10 grain 
elevators and midstream transfer capabilities on the lower Mississippi 
River. This same port complex received 91.2 million short tons of 
petroleum and petroleum products, 15.9 percent of U.S. waterborne 
imports of petroleum products.
    In 2002, public and private facilities located within the 
jurisdiction of the Board of Commissioners of the Port of New Orleans, 
the fifth largest port in the United States, handled a total of 85 
million tons of international and domestic cargo. International general 
cargo totaled 9.6 million tons. Although statistically dwarfed by bulk 
cargo volumes, the movement of general cargo is of special significance 
to the local economy because it produces greater benefits. On a per ton 
basis, general cargo generates spending within the community more than 
three times higher than bulk cargo. Major general cargo commodities 
handled at the Port include: iron and steel products; coffee; forest 
products; copper; aluminum products; and natural rubber.
    Fostering the continued growth of lower Mississippi River ports is 
necessary to maintain the competitiveness of our Nation's exports in 
the global marketplace and, consequently, the health of the Nation's 
economy. Assuring deep-water access to ports has been a priority of our 
trading partners around the world. Moreover, an evolving maritime 
industry seeking greater economies of scale continues to support 
construction of larger vessels with increased draft requirements. 
Because it facilitated the provision of deepwater port access, passage 
of the Water Resources Development Act of 1986, played a most 
significant role in assuring the competitiveness of ports on the lower 
Mississippi river and throughout the United States.
    By December 1994, the Corps completed dredging of the 45-foot 
channel from the Gulf of Mexico to Baton Rouge, LA (Mile 233 AHP). 
Mitigation features associated with the first phase of the channel-
deepening project in the vicinity of Southwest Pass of the river, 
accomplished in 1988, are nearing completion. We urge the continued 
funding for this work in fiscal year 2005 to complete construction of 
improvements to the Belle Chasse water treatment plant. This will 
complete the approximate $15 million in payments to the State of 
Louisiana for construction of a pipeline and pumping stations to 
deliver potable fresh water to communities affected by saltwater 
intrusion. We further urge that the Corps be provided funding to 
proceed with design studies for Phase III, which will allow deepening 
of the river to the 55-foot authorized depth.
    Along with the Port of New Orleans, the Port of South Louisiana, 
the Nation's largest port with 216.4 million tons of foreign and 
domestic cargo in 2002, and the Port of Baton Rouge, the Nation's ninth 
largest port with 60.6 million tons of foreign and domestic cargo in 
2002, and other lower Mississippi River ports are dependent upon timely 
and adequate dredging of Southwest Pass to provide deep draft access to 
the Gulf of Mexico. The President's Fiscal Year 2005 Budget is 
$59,125,000 under O&M General. We, however, strongly recommend that the 
Corps be funded $74,400,000 to repair and construct foreshore dikes, 
lateral dikes and jetties.
    Maintenance of adequate depths and channel widths in the 
Mississippi River Gulf Outlet Channel (MRGO) is also of great concern. 
This channel provides deep draft access to the Port of New Orleans 
container and cold storage facilities and generates significant 
economic impact for the region. In 2002, 374 general cargo vessels 
calling on the Port's MRGO terminals accounted for 31.5 percent of the 
general cargo tonnage handled over public facilities at the Port and 70 
percent of Louisiana's containerized cargo.
    Because of the MRGO's demonstrated vulnerability to coastal storm 
activity, annual channel maintenance dredging and bank stabilization 
are essential to assure unimpeded vessel operations. The President's 
Fiscal Year 2005 Budget is $13,004,000 under O&M General. We, however, 
strongly recommend that the Corps be funded $38,400,000 for maintenance 
dredging and bank stabilization.
    We recognize the need for the Corps to evaluate the feasibility of 
continuing the maintenance of a deep draft channel in the MRGO because 
of increased maintenance costs and environmental impacts. We strongly 
recommend that the Corps complete the MRGO Reevaluation Study. It is 
important to note that although the Port of New Orleans plans to 
relocate much of its container terminal capacity to the Mississippi 
River, a determination to discontinue maintenance of the MRGO's deep 
draft channel must be preceded by completion of the IHNC Lock 
replacement project to assure continued deep draft access to the many 
businesses serviced by the MRGO.
    The Inner Harbor Navigation Canal (IHNC) Lock is a critical link in 
the U.S. Inland Waterway System as well as the Gulf Intracoastal 
Waterway (GIWW), and provides a connection between the Port of New 
Orleans Mississippi River and IHNC terminals. In 1998, the Corps 
approved a plan for replacement of this obsolete facility. The Corps 
estimates that the lock replacement project will have a cost-benefit 
ratio of 2.1 to 1 and will provide $110 million annually in 
transportation cost savings. To minimize adverse impacts to adjacent 
neighborhoods, the project includes a $37 million Community Impact 
Mitigation Program. The President's Fiscal Year 2005 Budget of 
$10,000,000 for the IHNC Lock Replacement will pay for engineering and 
design work, construction, and the mitigation program, all on a delayed 
basis. We, therefore, strongly recommend that the Corps be funded 
$24,000,000 to advance engineering and design, levee contracts, and 
mitigation measures.
    Operation and maintenance of the Mississippi River Outlets at 
Venice, LA are essential to providing safe offshore support access to 
energy-related industries. In 2002, these channels accommodated cargo 
movements exceeding 2.6 million tons. In addition to routine traffic, 
shallow draft vessels use Baptiste Colette Bayou as an alternate route 
between the MRGO, GIWW and the Mississippi River. The President's 
Fiscal Year 2005 Budget is $424,000 under O&M General. We, however, 
strongly recommend that the Corps be funded $3,700,000 to perform 
critical maintenance dredging.
    More than 72.4 million tons of cargo transverse the GIWW in the New 
Orleans District annually. The President's Fiscal Year 2005 Budget is 
$17,476,000 under O&M General. We, however, strongly recommend that the 
Corps be funded $27,300,000 to perform critical maintenance at the 
navigation locks.
    The President's Fiscal Year 2005 Budget for the Bayou Sorrel Lock, 
LA project is $500,000 in GI funds. To assure the efficient flow of 
commerce on the GIWW, we urge that the Corps be funded $500,000 to 
advance the completion of the pre-engineering design for replacement of 
the Bayou Sorrel Lock, Morgan City-to-Port Allen alternate route. We 
further recommend that the Corps be funded $1,000,000 in GI funds to 
advance the completion of the feasibility phase of the study to replace 
Calcasieu Lock on the GIWW.
    One additional project warrants consideration. The J. Bennett 
Johnston Waterway, Mississippi River to Shreveport, LA Project provides 
236 miles of navigation improvements, 225 miles of channel 
stabilization works and various recreational facilities. Project 
completion will stimulate economic growth along the Red River Basin and 
increase cargo flows through the deep draft ports on the lower 
Mississippi River. The President's Fiscal Year 2005 Budget is 
$4,000,000 (Construction General) and $10,600,000 (O&M General). We, 
however, strongly recommend that the Corps be funded $20,000,000 
(Construction General) and $18,100,000 (O&M, General) to complete work 
already underway.
    The need and impetus to reduce the Federal budget is certainly 
acknowledged; however, reduced funding on any of the above projects 
will result in decreased maintenance levels that will escalate 
deterioration and, ultimately, prevent them from functioning at their 
full-authorized purpose. Reduction in the serviceability of these 
projects will cause severe economic impacts not only to this region, 
but also to the Nation as a whole that will far outweigh savings from 
reduced maintenance expenditures. Therefore, we reiterate our strong 
recommendation that the above projects be funded to their full 
capability.
    Supporting statements from Mr. Gary P. LaGrange, Executive Director 
of the Port of New Orleans; Mr. Joseph Accardo, Jr., Executive Director 
of the Port of South Louisiana; Mr. Roger Richard, Executive Director 
of the Greater Baton Rouge Port Commission; Mr. Channing Hayden, 
President of the Steamship Association of Louisiana; Capt. A. J. Gibbs, 
President of the Crescent River Port Pilots Association and Capt. 
Michael R. Lorino, Jr., President, Associated Bar Pilots are attached. 
Please make these statements along with my statement part of the 
record. Supplemental graphics relating to my statement have been 
furnished separately for staff background use. Thank you for the 
opportunity to comment to the subcommittee on these vital projects.

         PRESIDENT'S BUDGET REQUEST & RECOMMENDED FUNDING LEVELS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                            President's     Recommended
                 Project                  Budget Request  Funding Levels
------------------------------------------------------------------------
Mississippi River Ship Channel Gulf to    ..............             537
 Baton Rouge, LA (Construction General).
Mississippi River, Baton Rouge to the             59,125          74,400
 Gulf, Maintenance Dredging &
 Stabilization (O&M General)............
Mississippi River-Gulf Outlet (MR-GO),            13,004          38,400
 LA (O&M General).......................
Inner Harbor Navigation Canal Lock, LA            10,000          24,000
 (Construction General).................
Mississippi River Outlets at Venice, LA              424           3,700
 (O&M General)..........................
Bayou Sorrel Lock, LA (GI Funds)........             550             550
Gulf Intracoastal Waterway LA & TX (O&M           17,476          27,300
 General)...............................
MRGO Reevaluation Study, LA (General                 225             225
 Investigation).........................
J. Bennett Johnston Waterway                       4,000          20,000
 (Construction General).................
J. Bennett Johnston Waterway (O&M                 10,600          18,100
 General)...............................
                                         -------------------------------
      TOTAL.............................         115,404         207,212
------------------------------------------------------------------------

                                 ______
                                 
        Prepared Statement of the Port San Luis Harbor District
    On December 22, 2003, a magnitude 6.5 earthquake jolted the central 
California coast. The epicenter was about 40 miles northeast of the 
Port San Luis Harbor federally-owned breakwater. This earthquake caused 
significant damage to the structure, which prior to that date, had been 
in good condition. Based on its preliminary survey, the U.S. Army Corps 
of Engineers (USACE) estimated that repairs will cost $4 million. USACE 
owns and is responsible for maintaining this breakwater. President Bush 
declared our region a disaster area (DR 1505) on January 13, 2004; 
however, FEMA does not provide financial assistance to other Federal 
agencies.
                                history
    Construction of a breakwater at Port San Luis was authorized by 
Congress in 1888 and USACE began construction in 1893. The Federal 
breakwater was completed in 1913. It was destroyed by severe storms in 
1923, and redesigned and rebuilt to the current specifications in 1927.
    USACE has repaired damages to the breakwater three times:
  --In 1935 after storms from earlier years.
  --In 1984 after severe 1982 El Nino storms that also sunk 27 vessels 
        and destroyed 2 piers.
  --In 1992 after 1991 El Nino storms. (Port San Luis Harbor District 
        was the local sponsor and contributed in-kind services for 
        maintenance and repair.)
                         national significance
    A small local government, Port San Luis Harbor District has limited 
funds. We have made the breakwater repair project our highest priority 
because of its significant regional, State, and national importance for 
the following reasons.
  --Port San Luis Harbor is the nearest safe harbor of refuge to Point 
        Conception, the ``Cape Horn of the Pacific.''
  --Port San Luis Harbor is a U.S. Customs and Border Protection (CBP), 
        Port of Entry station. A Port of Entry is a designated place 
        where a CBP officer is authorized to accept entries of 
        merchandise, collect duties, and enforce the various provisions 
        of the customs and navigation laws (19 CFR 101.1).
  --Port San Luis Harbor is the closest port to the Diablo Canyon 
        Nuclear Power Plant. The land entrance to the power plant is at 
        Port San Luis; our Security personnel are on the frontline 
        monitoring threats to homeland security. The harbor is used to 
        receive and transport heavy equipment for the nuclear power 
        plant. Two 120-ton rotors are scheduled for delivery through 
        Port San Luis in 2006 and 2008. Calm water is essential to 
        offload this equipment. There is also the matter of 
        transferring spent nuclear fuel from the power plant to a 
        Federal depository sometime in the future. As currently 
        proposed by the Department of Energy (DOE), this high level 
        nuclear waste will either be barged out of Port San Luis or 
        shipped by road. Either way, without the breakwater, access to 
        the harbor by road or ship will be severely restricted.
  --Port San Luis is home to the California Polytechnic State 
        University's Center for Coastal Marine Science (CCMS) Pier 
        located on the former Unocal Oil Pier. This Pier Structure is 
        valued at $23 million. Agencies currently providing funding to 
        the CCMS are: California Department of Health Services, 
        National Air Space Administration, National Oceanic and 
        Atmospheric Administration, National Science Foundation, Office 
        of Naval Research; Naval Surface Warfare Center, The National 
        Oceanographic Partnership Program, California Regional Water 
        Quality Control Board, National Estuary Program/EPA, and Unocal 
        Corporation.
  --In 2000 the California legislature designated Port San Luis Harbor 
        one of several ports along the California coast as a harbor of 
        safe refuge. This legislation recognizes the critical role our 
        harbor plays in affording a safety zone for commercial and 
        industrial vessels transiting the California coast. U.S. Coast 
        Guard vessels, scientific research vessels, oil-industry 
        related vessels and other large vessels stop at the Port, 
        especially during storms, to find calm water protected by the 
        Federal breakwater.
  --Port San Luis is one of the primary facilities on the central 
        California coast used by fiber optic cable ships to install and 
        repair transpacific fiber optic cables. Several cable landings 
        are in waters near the port and are serviced by large cable-
        laying ships. This international communication support facility 
        (harbor) is critical to the national security and global 
        commerce. A safe harbor to resupply and moor cable-laying ships 
        and associated watercraft is critical.
  --The Port is home to 240 commercial and recreational fishing vessels 
        that contribute to the economy and job markets in central 
        California. The supporting landside businesses are dependent on 
        the local fleet to generate jobs and revenue producing goods 
        and services--including ships chandleries, vessel haul-out and 
        repair facilities, fueling stations, seafood buying stations, 
        and ancillary services.
    For these reasons, we request a congressional ``add'' of $4 million 
to the fiscal year 2005 Budget to repair the earthquake damage to the 
Federal breakwater.
                                 ______
                                 

Prepared Statement of the Coosa-Alabama River Improvement Association, 
                                  Inc.

    Mr. Chairman and distinguished committee members, I request the 
President's fiscal year 2005 Budget be adjusted to reflect 
appropriations to U.S. Army Corps of Engineers civil works projects on 
the Alabama River as follows:

------------------------------------------------------------------------
                                                   Amount
------------------------------------------------------------------------
Alabama-Coosa....................  $4,549,000 (add of $4,000,000).
Millers Ferry L&D................  4,863,000 (add of $320,000).
Robert F. Henry L&D..............  4,890,000 (add of $300,000).
------------------------------------------------------------------------

    I make these requests as President of an Association formed in 1890 
to promote commercial navigation on the Coosa and Alabama Rivers. Our 
members are the cities, counties, businesses, and individuals from 
Rome, Georgia to Mobile, Alabama. We value our inland waterways and are 
very distressed that the President's proposed cuts on our projects are 
being done with no thought as to consequences to the citizens of this 
river basin.
    Alabama-Coosa.--The President's Budget proposal for fiscal year 
2005 eliminates funding for dredging the Alabama River navigation 
channel as well as for maintaining the lock at Claiborne Dam. Not 
funding these projects will close the Alabama River navigation channel, 
sever the only waterway link between the capital city of Montgomery and 
the Port of Mobile, and isolate three-fourths of the river basin from 
the Gulf of Mexico.
    Severing the channel will have major negative economic effects in 
central Alabama, an area bustling with expansion of new industries and 
subsidiaries. Hyundai Motor Company located its first American-based 
automobile manufacturing plant, a $1 billion investment, in the 
Montgomery area because of the available infrastructure, including the 
waterway. Hyundai has plans this calendar year and in 2005 to move 
several pieces of outsized equipment, weighing up to 125,000 pounds 
each and part of a $20 million stamping press, to its plant via the 
Alabama River, the only transportation artery capable of safely moving 
equipment of that size. The channel is essential to Hyundai operations.
    The Gulf Logistics and Projects Company of Houston, Texas, which 
will be a major transporter of raw materials to Hyundai, indicates that 
closing the navigation channel will cause ``painful economic distress 
if the barge delivery system is denied to foreign manufactures (sic) 
trying to relocate their factories into the United States, near 
Montgomery, Alabama . . . Without the Alabama River, quantity raw 
materials movements may become too expensive and production be 
curtailed.'' This is a strong statement from a Korean firm planning to 
establish an office in Mobile just to support Hyundai, and I believe is 
a compelling argument to keep the navigation channel fully operational.
    Another major industry that will be hard hit is Alabama River Pulp 
Company of Perdue Hill, Alabama, a $1.4 billion investment and one of 
the largest paper manufacturing plants in the world. Alabama River Pulp 
receives fuel oil via barge. If the channel closes, that fuel oil will 
have to be trucked in at an additional annual cost of $1.5 million 
while putting 2500 additional trucks of fuel oil on Alabama's highways. 
Why would we want to do that?
    Closing Claiborne Lock has other consequences for ARP, which is 
located only about three miles downstream of Claiborne Dam and is 
heavily reliant on predictable and controlled flows and river levels. 
Not funding the lock operation means the personnel operating that lock 
and who also control the dam flow control gates would be cut, 
imperiling the flow control procedures on which ARP relies to provide 
cooling water to its plant. ARP strongly objects to any cuts that 
jeopardize that flow management.
    Closing the channel is a direct threat to some sand and gravel 
companies. Two companies that currently move approximately 100,000 tons 
on the Alabama annually have the resources to move over 300,000 tons, 
but are stymied because reduced dredging the past 2 years has allowed 
the river to silt in, causing severe navigation safety problems. Couch 
Ready Mix USA, which has a $5 million investment on the river near 
Montgomery, has stated in writing that, if the channel were fully 
maintained, it alone has an annual capacity of over 300,000 tons to 
move on the river to the Gulf of Mexico.
    One of the major benefits of barge transportation is its 
contribution to traffic and pollution safety. A May 2001 Latin American 
Trade and Transportation Study, sponsored by the Southeastern 
Transportation Alliance, predicts that imports into the Gulf of Mexico 
from Latin America will triple by 2020. It is reasonable to assume that 
the Port of Mobile will get its fair share of that increased traffic, 
much of which will be containers. Those commodities will have to move 
out of Mobile by rail, road, or waterway. Rail is limited in its 
capacity to absorb these increases. Truck congestion on the highway 
system leading out of Mobile will be intolerable, as should be the 
additional pollution. (Per ton-mile, barges emit only 10 percent of 
emissions produced by trucks and 25 percent of that produced by rail.) 
It makes sense, from economic, environmental, and safety views, to move 
some of that cargo, including containers, onto the waterways, including 
the Alabama River, an option not available if the waterway is closed.
    The proposal to close Claiborne Lock alone has dire consequences 
beyond the effect on commercial navigation. The Alabama River is the 
only waterway connecting the capital city of Montgomery to the Gulf of 
Mexico. Severing the channel will stop ever-increasing recreational 
traffic from Montgomery to the Gulf. Eighty percent of the vessels 
locking through Claiborne are recreational craft. There is a strong 
move within the basin to develop a system of marinas to support 
recreational vessels from bass boats to 80-foot cruisers. Wilcox 
County, one of the least developed and highest unemployment (16.4 
percent) counties in the State, is planning to construct a full-service 
marina and lodging facility on the Alabama to attract and serve 
recreational craft of all sizes, a facility that will provide jobs 
Closing the navigation channel will kill that project as well as well 
as projected revenue for this depressed area.
    Millers Ferry Lock and Dam and Robert F. Henry Lock and Dam.--The 
President's Budget also eliminates funding to maintain several of the 
Corps' recreational areas along the Alabama River. Over 3 million 
people visited these sites last year and spent over $60 million within 
30 miles of the facilities, 66 percent of which was a direct input into 
the local economy. With proposed cuts in maintenance of $320,000 at 
Millers Ferry and $300,000 at Robert F. Henry, the Mobile District will 
be forced to scale back maintenance at all sites, close three of the 
six campgrounds 6 months out of the year, reassign park rangers, and 
drop contracted maintenance.
    Without maintenance, these facilities will deteriorate. 
To``save''$620,000, the administration is willing to sacrifice a strong 
economic multiplier in an economically-depressed area of the country. 
This kind of ``saving'' doesn't make economic sense.
    Attached is a list of businesses, individuals, and local and State 
government agencies expressing concern about these proposed cuts in the 
Alabama River civil works projects. To a person, these citizens view 
the proposed cuts as ``devastating for industrial development in the 
State of Alabama.'' Any ``savings'' from the proposed cuts will be a 
Pyrrhic victory, dwarfed by staggering losses to the State of Alabama.
    In summary, the President's Budget proposal for fiscal year 2005 
will be a major economic blow to Central Alabama. For the appearance of 
``savings'', the administration is willing to eliminate an important 
transportation asset for the State of Alabama and put in jeopardy 
businesses sorely needed in an economically depressed area with 
unemployment up to 15 percent. I request funding be placed into the 
fiscal year 2005 Energy and Water Appropriations Act to allow the Corps 
of Engineers to maintain the authorized navigation channel on the 
Alabama River and to keep the recreation areas open year around for the 
benefit of our citizens.

             LETTERS SUPPORTING CARIA STATEMENT--MARCH, 2004
------------------------------------------------------------------------
 ------------------------------------------------------------------------
The Honorable Otha Lee Biggs....  Monroe County       Monroeville, AL.
                                   Commission.
The Honorable Jim Byard.........  Mayor, City of      Prattville, AL.
                                   Prattville.
Mr. F. Slaton Crawford..........  Dir, Wilcox County  Camden, AL.
                                   C of C.
Mr. Elton N. Dean...............  Montgomery County   Montgomery, AL.
                                   Commission.
Mr. Ken Fairly..................  Alabama River Pulp  Monroeville, AL.
                                   Company.
The Honorable Anne Farish.......  Mayor, City of      Monroeville, AL.
                                   Monroeville.
Mr. Trey Glenn..................  Alabama Office of   Montgomery, AL.
                                   Water Resources.
The Honorable Sue Glidewell.....  Mayor, City of      Rainbow City, AL.
                                   Rainbow City.
Mr. Lynn A. Gowan...............  Montgomery County   Montgomery, AL.
                                   Commission.
Mr. Robert F. Henry, Jr.........  Robert F. Henry     Montgomery, AL.
                                   Tile Co..
Mr. Slade Hooks, Jr.............  Waterways Towing &  Mobile, AL.
                                   Offshore Svcs.
The Honorable John W. Jones, Jr.  Dallas County       Selma, AL.
                                   Probate Judge.
Mr. Wm. F. Joseph, Jr...........  Montgomery County   Montgomery, AL.
                                   Commission.
Captain Jeong Dae Kim...........  Gulf Logistics &    Houston, TX.
                                   Projects.
Mr. James Lyons.................  Alabama State       Mobile, AL.
                                   Docks.
Ms. Ellen McNair................  Montgomery Area C   Montgomery, AL.
                                   of C.
Mr. Donald L. Mims..............  Montgomery County   Montgomery, AL.
                                   Commission.
The Honorable James Perkins.....  Mayor, City of      Selma, AL.
                                   Selma.
Mr. Phillip A. Sanguinetti......  The Anniston Star.  Anniston, AL.
Mr. Steven D. Shaw..............  Couch Ready-Mix     Dothan, AL.
                                   USA.
Ms. Sandy Smith.................  Monroeville Area C  Monroeville, AL.
                                   of C.
Mr. J. Craig Stepan.............  Warrior & Gulf      Mobile, AL.
                                   Navigation.
Mrs. Anne Henry Tidmore.........  ..................  Montgomery, AL.
Mr. Wayne Vardaman..............  Selma & Dallas      Selma, AL.
                                   County Cntr. for
                                   Co..
Mr. Jiles Williams, Jr..........  Montgomery County   Montgomery, AL.
                                   Commission.
Mr. Sam H. Wingard..............  Montgomery County   Montgomery, AL.
                                   Commission.
------------------------------------------------------------------------

                                 ______
                                 

   Prepared Statement of the Board of Mississippi Levee Commissioners

    Mr. Chairman and members of the committee, this statement is 
prepared by James E. Wanamaker, Chief Engineer for the Board of 
Mississippi Levee Commissioners, Greenville, Mississippi, and submitted 
on behalf of the Board and the citizens of the Mississippi Levee 
District. The Board of Mississippi Levee Commissioners is comprised of 
seven elected commissioners representing the counties of Bolivar, 
Issaquena, Sharkey, Washington, and parts of Humphreys and Warren 
counties in the Lower Yazoo Basin in Mississippi. The Board of 
Mississippi Levee Commissioners is charged with the responsibility of 
providing protection to the Mississippi Delta from flooding of the 
Mississippi River and maintaining major drainage outlets for removing 
the flood waters from the area. These responsibilities are carried out 
by providing the local sponsor requirements for the Congressionally 
authorized projects in the Mississippi Levee District.
    It is apparent that the administration loses sight of the fact that 
the Mississippi River & Tributaries Project provides protection to the 
Lower Mississippi Valley from flood waters generated across 41 percent 
of the Continental United States. These flood waters flow from 31 
States and 2 provinces of Canada and must pass through the Lower 
Mississippi Valley on its way to the Gulf of Mexico. We will remind you 
that the Mississippi River & Tributaries Project is one of, if not the 
most cost effective project ever undertaken by the United States. The 
foresight used by the Congress and their authorization of the many 
features of this project is exemplary.
    The many projects that are part of the Mississippi River & 
Tributaries Project not only provides protection from flooding in the 
area, but the award of construction contracts throughout the Valley 
provides assistance to the overall economy to this area that is also 
encompassed by the Delta Regional Authority. The employment of the 
local workforce and purchases from local venders by the contractors 
help stabilize the economy in one of the most impoverished areas of our 
country. The Mississippi Valley Flood Control Association will be 
submitting a general statement in support of an appropriation of $450 
million for fiscal year 2005 for the Mississippi River & Tributaries 
Project. This is the minimum amount that we consider necessary to allow 
for an orderly completion for the remaining work in the Valley and to 
provide for the operation and maintenance as required to prevent 
further deterioration of the completed flood control and navigation 
work.
    Thanks to the additional funding over and above the 
administration's budget that has been provided by the Congress over the 
last several years, work on the Mainline Mississippi River Levee 
Enlargement Project is continuing. This funding has resulted in having 
7.6 miles of work completed and returned to the Levee Board for 
maintenance, and 24.4 miles are currently under contract. Right of way 
is being acquired on the next 3.4 miles with the contract being 
scheduled for award in September of this year. This will result in over 
half of the deficient 69 miles in our District being completed or under 
contract. We are requesting $54.8 million for construction on the 
Mainline Mississippi River Levees in the Mississippi Valley Division 
which will allow the Vicksburg and Memphis districts to keep existing 
contracts on schedule and award contracts to avoid any unnecessary 
delays in completing this vital project. We are all well aware that the 
Valley some day will have to endure a Project Flood, we just don't know 
when. We must be prepared.
    Three projects in Mississippi are on the list included in the 
administration's budget targeted for cancellation by the Office of 
Management and Budget. These are all projects authorized and funded so 
wisely by the Congress. The administration's proposal includes language 
to return unobligated funds to the Treasury. This action is especially 
difficult to understand during a time when our Nation needs an economic 
boost. All of these projects are encompassed in the footprint of the 
Delta Regional Authority, an area recognized by the Congress as 
requiring special economic assistance to keep pace with the rest of our 
great Nation. We can not lose sight of the fact that all of these 
projects are required to return more than a dollar in benefits for each 
dollar spent. No project authorized and funded by the Congress should 
be indiscriminately terminated without the benefit of having the 
opportunity to complete with the study process and subsequent 
construction after complying with the Corps Policy and Guidelines.
    One of the projects on this list will provide benefits to parts of 
six counties in the south part of the Mississippi Delta who continue to 
patiently wait for the completion of the Yazoo Backwater Project. This 
work authorized by the Congress to provide protection from higher 
stages on the Mississippi River resulting from changes made to the 
Mississippi River and Tributaries Project, must safely pass flood water 
from 41 percent of the continental United States. Also, the same change 
in the flow line of the Mississippi River that is requiring the 
Enlargement of the Mainline Mississippi River Levee will also increase 
stages in the South Delta. The Corps and EPA have made an extraordinary 
effort to resolve differences in wetland impacts resulting from the 
construction of the Corps recommended plan for this project. This plan 
has received the support of all six county Boards of Supervisors in the 
project area. We are requesting this project be funded by the Congress 
in the amount of $12 million. These funds will allow the Corps to begin 
acquisition of the reforestation easements and initiate the award of 
the pump supply contract.
    Another project on the administration's hit list is the Big 
Sunflower River Maintenance Project. The first item of work has been 
completed and right-of-way has been acquired for the next item of work. 
Our request for $2.139 million will allow right-of-way acquisition to 
continue and for the award of the first dredging contract. The 
residents in South Washington County continue to suffer damages from 
flooding while they continue to wait for this maintenance project to 
reach their area.
    The third project in Mississippi targeted by the administration for 
cancellation is the Delta Headwaters Project, formerly the 
Demonstration Erosion Control Project. Work carried out as part of this 
project has proven effective in reducing sediments to downstream 
channels. To discontinue this project will only increase sediment in 
downstream channels, reducing the level of protection to the citizens 
of the Delta and increasing required maintenance. We are requesting $25 
million to continue this project.
    The Upper Yazoo Project is critical to the Delta. The Corps of 
Engineers operates 4 major flood control reservoirs on the bluff hills 
overlooking the Mississippi Delta. These reservoirs hold back heavy 
spring rains and must have adequate channel capacity to pass this 
excess runoff during the summer and fall months. Without completion of 
the Upper Yazoo Project, the Corps is forced to hold flood water from 
the previous spring, thereby reducing the ability to provide protection 
from the current year's flood water. The administration's budget of 
$3.85 million will require the Vicksburg District to suspend 
construction of three ongoing contracts. We urge the Congress to 
provide additional funds to increase the budget amount to $20 million 
allowing construction to continue and the award of additional channel 
items that will extend construction upstream to Glendora, Mississippi.
    Maintenance of completed works can not be over looked. The four 
flood control reservoirs over looking the Delta have been in place for 
50 years and have functioned as designed. Required maintenance must be 
performed to avoid any possibility of failure during a flood event. The 
recent dam failure in south Mississippi less than 2 weeks ago can only 
magnify the need to adequately maintain our infrastructure. We are 
asking for $12.9 million for Arkabutla Lake, $19.322 million for Sardis 
Lake, $13.679 million for Enid Lake, and $10.101 million for Grenada 
Lake. Additional funding will be used to replace rip rap at all 4 
reservoirs, repair the spillways at Arkabutla and Sardis, and upgrade 
other infrastructure around all the lakes.
    We are requesting $14.915 million for Maintenance of the Mainline 
Mississippi River Levees which will provide for repair of levee slides, 
slope repair, and repair of the gravel maintenance roadway which is so 
vital to access during high water.
    Other Mississippi projects that require additional funding to keep 
on schedule include:

                        [In thousands of dollars]
------------------------------------------------------------------------
                            Project                               Amount
------------------------------------------------------------------------
Big Sunflower River (Upper Steele Bayou).......................    5,000
Yazoo Basin Reformulation Unit.................................      450
Yazoo Basin Main Stem..........................................       25
Yazoo Backwater (Greentree Reservoirs).........................      300
------------------------------------------------------------------------

    I have reviewed a great deal of information regarding the needs of 
providing flood protection to our area. Another major feature of the 
Mississippi River & Tributaries Project relates to navigation interest 
along the Mississippi River. Several of our ports have been informed 
that the President's budget does not include funding for Critical 
Harbor Dredging necessary to keep these harbors opened for navigation. 
Our port commissioners have been notified that lack of dredging will 
cause these ports to be shut down and be a hazard to navigation. This 
will impact the movement of over 4.5 million tons of cargo being 
shipped on our waterways annually from these ports. This equates to an 
additional 180,000 truck loads of products on our highways. It is 
imperative that funding be made available for Critical Harbor Dredging 
to allow continued operation of these facilities, which are key 
features to the economic growth of the region.
    As members of the Congress representing the citizens of our Nation 
who live with the Mississippi River everyday, you clearly understand 
both the benefits provided by this resource, and the destructive force 
that must be controlled during a flood. On behalf of the Mississippi 
Levee Board, I can not express enough, our appreciation for your 
efforts in providing adequate funding over the last several years that 
has allowed construction to continue on our much needed projects.
                                 ______
                                 
           Prepared Statement of the Blue Valley Association
    The Blue Valley Association has 164 members representing thousands 
of employees in the Blue Valley industrial area. These high paying jobs 
have been put at risk from past flooding in the valley. Since 1920 the 
association has been dedicated to improving our industrial area and 
maintaining jobs. Continued funding of the Blue River Project is 
essential to this goal.
    The project, which began in 1983, is located along the Blue River 
from its mouth at the Missouri River continuing approximately 12 miles 
upstream to 63rd Street, running through an industrial area of Kansas 
City, which is a long-standing business district employing 12,000 
people, and containing many residential neighborhoods.
    The progress made to date has provided significant benefits to 
those businesses downstream. But much work remains. Delays in funding 
will increase the risk of flooding as rapid development of the 
watershed in the State of Kansas increases the run off. Increased 
flooding has forced many businesses to abandon the valley and relocate 
to new ``Greenfields''. The project's completion date has already been 
delayed from 1998 to 2008.
    This is an economically sound project with a benefit to cost ratio 
of 3 to 1. Therefore, we urge you to provide the $8,000,000 in funding 
needed to continue this project.
                                 ______
                                 

              Prepared Statement of the Mo-Ark Association

    Mr. Chairman, the Mo-Ark Association welcomes this opportunity to 
provide written testimony to the Subcommittee on Energy and Water 
Development regarding appropriations for fiscal year 2005 and requests 
that this written testimony be included in the formal hearing record.
    The Mo-Ark Association is a long-standing organization that 
promotes beneficial use of water and land related resources in the 
Missouri and portions of the Arkansas River Basins, primarily within 
the States of Kansas and Missouri. We have advocated for flood damage 
reduction projects in our region since severe flooding ravaged the 
Midwest in 1951.
    The Mo-Ark Association requests the following General Investigation 
and Construction General Funding for Corps of Engineers' Water Resource 
projects underway in our region. Our fiscal year 2005 Federal 
appropriations request for these projects is presented in the following 
table, together with the activity to be performed with those funds by 
the Corps of Engineers. The projects with the highest priority are 
shown in cap type.

------------------------------------------------------------------------
                                     Fiscal Year
              Project                    2005            Activity
                                       Request
------------------------------------------------------------------------
BLUE RIVER CHANNEL.................   $8,000,000  CONTINUE CONSTRUCTION.
TURKEY CREEK BASIN.................    2,500,000  CONTINUE CONSTRUCTION.
Brush Creek Basin..................      200,000  Complete Study Effort.
BLUE RIVER BASIN...................    4,000,000  CONTINUE CONSTRUCTION.
SWOPE PARK INDUSTRIAL AREA.........      600,000  COMPLETE DESIGN.
Kansas Citys (7 Levees)............      650,000  Continue Feasibility
                                                   Study.
Upper Turkey Creek.................      500,000  Continue Feasibility.
St. Joseph Levee...................      250,000  Complete Feasibility.
Topeka Levee.......................      100,000  Complete Feasibility.
Jefferson City Levee L-142.........    6,200,000  Begin Construction.
RIVERSIDE LEVEE L-385..............   12,000,000  COMPLETE CONSTRUCTION.
Missouri River Mitigation..........   20,000,000  Design & Construction.
Missouri River Bank Stabilization &    5,000,000  Rehabilitation &
 Navigation Support.                               Construction.
MISSOURI RIVER CHANNEL DEGRADATION       500,000  BEGIN STUDY.
 STUDY.
------------------------------------------------------------------------

    Mo-Ark also requests that the several key programs which provide 
Federal assistance for water related projects continue to be made 
available to local communities and that they are supported with annual 
appropriations. Among these: Small Flood Control Authority, Section 205 
of the 1948 Flood Control Act as amended; Flood Plain Management 
Services, Section 206 of the 1960 Flood Control Act; Planning 
Assistance to States, Public Law 93-251; and Emergency Bank 
Stabilization, Section 14 of the 1946 Flood Control Act as amended. 
Communities in our region have made use of these programs in the past 
and will continue to seek out beneficial uses for them in the future.
                                 ______
                                 
        Prepared Statement of the Kansas City Industrial Council
    The Kansas City Industrial Council (KCIC) supports the U.S. Army 
Corps of Engineers and local sponsor, Kansas City, Missouri, in the 
completion of the Feasibility Report on the Swope Park Industrial Area. 
We encourage the approval of this report as urgently as possible.
    The safety of many lives is directly affected by the Blue River as 
experienced in the May 15, 1990, flooding in the Swope Park Industrial 
Park. The Feasibility Report accurately defines this unique area by 
having only one way to enter and exit, land being surrounded by river 
and railroad tracks. This report also accurately depicts that the 
business owners and managers of Swope Park Industrial Park have 
continued to maintain property and employment while keeping flood 
protection the number one priority for employee safety.
                                 ______
                                 
               Prepared Statement of DECO Companies, Inc.
    DECO Companies, Inc. has 90 employees currently in the Blue River 
Valley. Our affiliate companies have ownership of over a million square 
feet of industrial space leased to small ``Started Businesses''. To 
keep these businesses, valuable property and employees safe from floods 
continued funding of the Blue River project is essential.
    The project, which began in 1983, is located along the Blue River 
from its mouth at the Missouri River continuing approximately 12 miles 
upstream to 63rd Street, running through an industrial area of Kansas 
City, which is a long-standing business district employing 12,000 
people, and containing many residential neighborhoods.
    The progress made to date has provided significant benefits to 
those businesses downstream. But much work remains. Delays in funding 
will increase the risk of flooding as rapid development of the 
watershed in the State of Kansas increases the run off. Increased 
flooding has forced many businesses to abandon the valley and relocate 
to new ``Greenfields''. The project's completion date has already been 
delayed from 1998 to 2008.
    This is an economically sound project with a benefit to cost ratio 
of 3 to 1. Therefore, we urge you to provide the $8,000,000 in funding 
needed to continue this project.
                                 ______
                                 
               Prepared Statement of Vance Brothers Inc.
    On behalf of the 200 employees of Vance Brothers Inc., I am 
requesting that you provide the funding necessary to continue the Blue 
River Channel Project.
    In 1993 and again in 1995 the water was so high that we had to 
initiate our Emergency Flood Plan. Besides costing thousands of 
dollars, it put employees out of work for several days.
    Because of the residential and commercial development of the upper 
Blue River basin in the State of Kansas, along with their paved parking 
lots and new storm sewer systems, we had up to 8 feet of water in our 
plant in 1990.
    Increased flooding has forced many businesses to abandon the 
valley. Delays in funding will increase the risk of flooding as rapid 
development of the watershed in the State of Kansas increases the run 
off. The project's completion date has already been delayed from 1998 
to 2008.
    This project will benefit the workers in our area creating good 
paying jobs.
    This is an economically sound project with a benefit to cost ratio 
of 3 to 1. Therefore, we urge you to provide the $8,000,000 in funding 
needed to continue this project.
                                 ______
                                 
               Prepared Statement of Warehouse One, Inc.
    On behalf of the 55 associates of Warehouse One, Inc., and the 
thousands of other Kansas City workers and residents in the Blue 
Valley, I am requesting that you provide the $8,000,000 in funding 
necessary to continue the Blue River Channel Project.
    The Blue River flows through the historical and industrial heart of 
Kansas City with its lower stretch in the Enterprise Zone. Increased 
flooding from upstream development has forced many businesses to 
abandon the valley at a cost of thousands of jobs and lowered property 
values. The Army Corps of Engineers' revised completion date has now 
been extended from 1998 to 2008. This delay will only cause more 
companies and residents to leave our neighborhoods.
    In areas where the project has been completed, redevelopment is 
significant. Hundreds of millions of dollars of public and private 
money have been invested to reclaim abandoned properties providing 
jobs, homes, and tax dollars.
    The Blue River Channel Project, with a benefit to cost ratio of 3 
to 1 has already proven to be economically sound. I urge you to provide 
the $8,000,000 in funding to continue the project.
                                 ______
                                 
      Prepared Statement of the Bi-State Turkey Creek Association
    We received a NEW START APPROPRIATION in the Fiscal Year 2004 
Appropriations Bill and construction is underway.
    We MUST have funds to continue this project which affects hundreds 
of privately held company and thousands of employees.
    Major Interstate Highways 35 and 635 flood along with U.S. Highways 
69 and 169. The Main Lines of the Burlington-Northern and Santa-Fe 
railroads flood.
    We request that $2,500,000 be appropriated for fiscal year 2005 for 
continued construction.
                                 ______
                                 
              Prepared Statement of the Livers Bronze Co.
    Livers Bronze Co. moved into Swope Industrial in 1999. We purchased 
two buildings that house our lifetime investments and the futures for 
many families. Coming into this we needed FEMA flood insurance but also 
knew there was a project under way to give us flood protection which at 
some point would eliminate this costly insurance. We have an active 
association and go to regular meetings with the U.S. Corps of Engineers 
and our sponsor, Kansas City, MO. At this time we have completed both 
Reconnaissance and Feasibility studies.
    The Blue River has a history of flooding in Kansas City. Downstream 
of 63rd Street the work has nearly been finished; the Bannister project 
at 95th Street has completed and the Dodson project at 85th Street has 
just started. This leaves the Swope project at 75th Street in between, 
not started and could possibly put us at higher risk during high water 
events. The Swope project is truly the last piece of the Blue River 
puzzle with regard to the flood protection of industrial sites along 
the Blue in Kansas City.
    We request that the $600,000 be appropriated to complete the design 
phase of the Blue River, Swope Industrial project. The ongoing expenses 
and threats of future floods in our park are detrimental to the 
different industries in our park. Without your help, our businesses and 
the lives of our employees and associates will always have the threats 
of flooding in our future. Please help us complete this last segment of 
the Blue River project.
                                 ______
                                 
               Prepared Statement of The Salvajor Company
    The Swope Park Industrial Association member companies have 
collectively worked for flood protection for many years, even prior to 
our flooding in 1990. We have met many times with our sponsor, Kansas 
City, MO, and the U.S. Army Corps of Engineers, and have completed both 
Reconnaissance and Feasibility studies.
    Our location is separate of the Blue River Channel project that is 
from the mouth of the Blue River upstream to 63rd Street. As you know 
there are two other projects on the Blue River, the completed Bannister 
project at 95th Street and the newly under construction, Dodson project 
at 85th Street. Our location on 75th Street is between Bannister/Dodson 
and Blue River Channel projects. This location, between two active 
projects, puts us at higher risk than any other industrial area on the 
Blue River during high water events. Our project, when constructed, 
will complete the protection of industrial sites on the Blue River--the 
last piece of the puzzle.
    Even though we continue to work for the protection of our employees 
and the preservation of our business, we are now mostly concerned about 
continued funding of our project. We are a small project, and the only 
industrial area on the Blue River with the risk of not realizing 
construction since our project is still in design phase, a phase that 
is in most risk of not being funded for the upcoming year.
    Without funding, Swope Park Industrial area companies will 
definitely lose investments in property and jobs that were created here 
long before we were designated flood plains. We realize we are only one 
of many projects that need funding, but our project is unique in our 
location, our size, and we are the key to completion of a great program 
that has already shown positive results in retaining business and 
reducing blight in the completed areas. We request that the $600,000 be 
appropriated to complete the design phase of the Blue River; Swope Park 
Industrial project.
                                 ______
                                 
    Prepared Statement of the Clay and Bailey Manufacturing Company
    On behalf of the 60 employees of Clay & Bailey Manufacturing 
Company, I am requesting that you provide the $8,000,000 in funding 
necessary to continue the Blue River Channel Project.
    Our company, like many others in the valley, were ``high & dry'' in 
the record floods of 1961 and 1977. However, because of the residential 
and commercial development of the upper Blue River basin in the State 
of Kansas, along with their paved parking lots and new storm sewer 
systems, we had 5 feet of water in our plant in 1990. The $1.5 million 
in damages almost closed us down.
    The rainfall in 1990 was considerably less than in 1977, yet the 
extent of the flooding throughout the lower valley was much more 
severe. In 1993 and again in 1995 the water was so high that we had to 
initiate our Emergency Flood Plan. This involves shutting down, raising 
motors and moving material. Besides costing thousands of dollars, it 
put employees out of work for several days.
    The Blue River flows through the industrial heart of Kansas City 
with most of the lower stretch in the Enterprise Zone. Increased 
flooding over the years has forced many industries to abandon the 
valley. The Army Corps of Engineers' new estimated completion date has 
been extended from 1998 to 2008. The delay will cause more companies to 
move out of the valley either because they see the risk as unacceptable 
or they are washed away by a flood that should have been prevented. 
Likewise redevelopment of abandoned properties continues to be delayed.
    Meanwhile, remediation and redevelopment in the areas where the 
project is complete has been tremendous. Hundreds of millions of 
dollars of private money has already been expended to recover the 
abandoned industrial properties providing jobs and tax dollars.
    This is an economically sound project with a benefit to cost ratio 
of 3 to 1. Again we urge you to provide the $8,000,000 in funding to 
continue the project.
                                 ______
                                 

 Prepared Statement of the Board of Levee Commissioners For the Yazoo-
                           Mississippi Delta

    This statement, made on behalf of the citizens represented by the 
Yazoo-Mississippi Delta Levee Board (YMD), is not only in support of 
the funding requests contained herein, but also for the general funding 
testimony offered for Fiscal 2005 by the Mississippi Valley Flood 
Control Association. I would ask that this statement be made part of 
the record.
    The Mississippi Valley Flood Control Association is requesting of 
Congress funding in the amount of $450 million for the Mississippi 
River and Tributaries Project (MR&T), an amount based on the 
association's professional assessment of the capabilities of the U.S. 
Army Corps of Engineers, Mississippi Valley Division.
    While we recognize that this is a time when the Federal budget is 
being inordinately strained by both a slowly recovering economy, the 
continued hostilities in Iraq and the ongoing war against terrorism, we 
also recognize both the Nation's economy and the lives and livelihoods 
of its citizen's rests upon the continued provision of adequate flood 
control for its heartland.
    In the aftermath of the devastating and historic Great Flood of 
1927, the Flood Control Act of 1928 established as national priority, 
the development of a comprehensive flood control plan to reduce the 
likelihood of such a horrific events ever happening again in the Lower 
Mississippi Valley. As we look back, the MR&T has returned $284180 
billion in benefits for the $11.90 billion invested--truly an American 
public works success story.
    However, much work remains uncompleted, and if the MR&T success 
story is to continue, Congress must give it a higher priority than has 
the administration in its budget. For the totality of the MR&T, the 
president proposes only $270 million, an amount which we find 
critically austere.
    The YMD Levee Board urges the Congress to provide funding at a 
level which will allow the MR&T to continue at a pace commensurate with 
the national priority to protect people and property from the ravages 
of flooding. We urge Congress to provide funding in the amount of $450 
million so that this national promise can be kept.
    A line item chart reflecting existing and needed funding levels for 
MR&T projects in the Lower Mississippi Valley follows, with special 
emphasis herein given to those projects most critical to our levee 
district:
    Mississippi River Levees.--Life as we know it simply could not 
continue in the Lower Mississippi Valley without its levee system. The 
need to keep our levee system strong and secure must be given a top 
priority. The administration's budget earmarks only $7.665 million to 
maintaining our levees and we ask Congress to allocate $14.915 million 
for this critical need.
    Upper Yazoo Projects (UYP).--The top priority for the YMD Levee 
Board, the Upper Yazoo Projects, was conceived in 1936. The overall 
project includes a system of flood control reservoirs which discharge 
into a system of channels and levees intended to safely convey 
headwater from the hills into the Mississippi River. Perhaps the least 
contentious major flood control project in the country, the UYP is 
progressing smoothly, with virtually no public opposition. However, the 
proposed budget funds this project at only $3.850 million and we urge 
Congress to fully fund at the capability of the Corps of Engineers--$20 
million--so that it might progress and the following be accomplished:
  --Complete Channel Item 5B;
  --Complete Item 7A and 7B structures;
  --Purchase project and mitigation lands;
  --Continue Channel Items 6A and 6B and;
  --Initiate bridge relocation.
    Delta Headwaters Project.--Formerly known as the Demonstration 
Erosion Control Project, this is a proven concept which works, and 
should continue, yet is unfunded and would be phased out. We urge 
Congress not to allow this. Vast amounts of sediments which would be 
controlled by this project would in its absence end up within the 
Coldwater/Tallahatchie/Yazoo river system. We urge Congress to 
appropriate $25 million for this badly needed effort.
    Yazoo Headwater Flood Control Reservoirs.--Four major flood control 
reservoirs exist in Mississippi to control the release of headwater 
into the Yazoo River system--Sardis, Arkabutla, Enid and Grenada. These 
have prevented significant flood damages by allowing excess waters to 
be released at controlled rates. All four are aging and require both 
routine maintenance and upgrading and we ask that the Congress do so at 
the following levels:
  --Arkabutla--$12.9 million;
  --Sardis--$19.322 million;
  --Enid--$13.679 million;
  --Grenada--$10.101 million.
    Big Sunflower River.--We ask that Congress fund at the level of $5 
million so that Item 66 A/B at Swan Lake Levee might be completed and 
that, the purchase of mitigation lands mitigation and reforestation 
might continue.
    Big Sunflower River Maintenance Project.--We request Congress fund 
at the level of $2.139 million so that Items 2 and 4 might be initiated 
and design might continue.
    Yazoo Backwater Pumps.--Of critical concern to South Delta 
residents and our sister levee board, the Mississippi Levee Board; this 
project would alleviate backwater flooding. We support that effort and 
join in requesting funding at a level of $12 million so that planning 
and acquisition may continue and a pump supply contract might be 
initiated.
    Yazoo Backwater.--We ask Congress to appropriate $300,000 to 
continue pump operations at Greentree reservoirs and to appropriate 
$926,000 to rehabilitate bulkheads and provide environmental 
mitigation.
    Main Stem.--We seek $3.966 million to rehabilitate and replace 
drainage structures and we request $25,000 to monitor Sheley Bridge 
bank stabilization.
    Coldwater Basin.--We ask $750,000 so that a feasibility study might 
continue.
    Quiver River.--We seek $100,000 to continue a reconnaissance phase 
of this effort.
    Reformulation Unit.--We request $450,000 to complete reform of the 
backwater unit and continue work in the tributaries phase of this 
project.
    Finally, in an overall statement on proposed Peer Review Policy 
within the Corps of Engineers, we would prefer that any such reviews be 
mandated by Congress to take place only during the study phase of 
projects and not when actual work has begun.
                                 ______
                                 
     Prepared Statement of the Green Brook Flood Control Commission
    Mr. Chairman and members of the subcommittee, my name is Vernon A. 
Noble, and I am the Chairman of the Green Brook Flood Control 
Commission. I submit this testimony in support of the Raritan River 
Basin--Green Brook Sub-Basin project, which we request be budgeted in 
fiscal year 2005 for $10,000,000 in Construction General funds.
    As you know from our previous testimony, a tremendous flood took 
place in September of 1999. Extremely heavy rainfall occurred, 
concentrated in the upper part of Raritan River Basin. As a result, the 
Borough of Bound Brook, New Jersey, located at the confluence of the 
Green Brook with the Raritan River, suffered catastrophic flooding. 
Water levels in the Raritan River and the lower Green Brook reached 
record levels.
    There were tremendous monetary damages, and extensive and tragic 
human suffering.
    The flooding of September 1999 is not the first bad flood to have 
struck this area. Records show that major floods have occurred here as 
far back as 1903.
    Disastrous flooding took place in the Green Brook Basin in the late 
summer of 1971. That flood caused $304,000,000 in damages (April 1996 
price level) and disrupted the lives of thousands of persons.
    In the late summer of 1973, another very severe storm struck the 
area, and again, thousands of persons were displaced from their homes. 
$482,000,000 damages was done (April 1996 price level) and six persons 
lost their lives.
    The first actual construction of the Project began in late fiscal 
year 2001, in which an old bridge over the Green Brook, connecting the 
Boroughs of Bound Brook and Middlesex, was replaced with a new and 
higher bridge. That work is now complete.
    The second construction contract, known as Segment T, began in 
2002, and is now nearing completion. This work will complete the 
protection for the eastern portion of Bound Brook Borough.
    The next following segment of the Project is planned for 
construction to begin this year. This next construction, known as 
Segment U, will begin the protection for the western portion of Bound 
Brook Borough.
    When Congress authorized the Project for construction, it did so 
only for the lower and Stony Brook portions. This was the result of the 
objections raised in 1997 by the Municipality of Berkeley Heights, 
located in the highest elevation portion of the Green Brook Basin.
    In 1998 a Task Force was formed to seek a new consensus for 
protection of the upper portion of the Basin.
    Following the recommendations of the Task Force, in calendar year 
2003, Resolutions of Support for protection of the upper portion of the 
Basin were adopted, along the lines of the recommendations of the Task 
Force. These new Resolutions of Support for the protection of the upper 
portion of the Basin, principally the Municipalities of Plainfield and 
Scotch Plains, were adopted by those Municipalities, and by the two 
affected Counties of Union and Somerset.
    A final design for a new plan to protect these upper basin 
Municipalities remains to be done. This work will involve a new effort 
by the Corps of Engineers, and of course will require that the Corps of 
Engineers enlist technical support for surveying, environmental 
investigations, and design studies, by the placing of appropriate 
contracts with qualified outside consulting engineering firms.
    This work will require many months, and contracts for actual 
construction of these protective measures for the upper portion of the 
region are not likely to be ready until several more years. It is 
understood that when these studies have been completed, it will be 
necessary for Congress to specifically authorize the final design of 
the recommended plan. That likely cannot happen until fiscal year 2006, 
or later.
    Meantime, it is essential that this preparatory work continue. And 
it is thus essential that the Corps of Engineers be authorized and 
allowed to place contracts for environmental and engineering studies in 
order to develop an acceptable plan for the protection of the upper 
portion of the Green Brook Basin.
    It is understood that specific action by the Congress is required 
at this time to authorize the Corps of Engineers to continue this work 
in fiscal year 2005 and beyond. It is also understood that before final 
design for protection of the upper portion of the Green Brook Basin can 
proceed, it will be necessary that a Project Cooperation Agreement be 
entered into between the Corps of Engineers and the State of New 
Jersey. Presumably, this Project Cooperation Agreement will be similar 
to the Agreement now in force between the Corps of Engineers and the 
State of New Jersey, which was made for the lower and Stony Brook 
portions of the Green Brook Basin.
    Page one of the Syllabus contained in the approved Final General 
Re-evaluation Report of May 1997 contains the following:

    ``Accordingly, this final document is considered a decision 
document for construction of the lower and Stony Brook portions of the 
Basin, with continued planning and engineering of the separable upper 
portion of the Basin. The decision to construct the upper portion 
features will be deferred until such time that evaluations of 
additional information and views are completed and local interests have 
the opportunity to review findings.''

    To carry this work forward, it is essential that the Corps of 
Engineers be authorized, within the funds appropriated to them in 
fiscal year 2005, to place contracts for engineering and environmental 
studies pertaining to the protection of the upper portion of the Basin.
    It is to be noted that the Estimated Damages caused by the Flood of 
1973, in the upper portion Municipalities only, reported in the final 
GRR of May 1997, page 33, showed that Estimated Damages in Plainfield, 
Scotch Plains and Watchung (the upper portion of the Basin) amounted to 
an estimated $357 million.
    We urge the members of Congress to direct the Corps of Engineers, 
within the funds made available to them for fiscal year 2005, to 
continue the necessary investigations and studies, and to authorize the 
Corps of Engineers to place contracts for such investigations as may be 
necessary, so that the preparatory work for the ultimate protection of 
the people and property within the upper portion of the Basin can be 
carried forward.
    The Green Brook Flood Control Commission is made up of appointed 
representatives from Middlesex, Somerset and Union Counties in New 
Jersey, and from the 13 Municipalities within the Basin. This 
represents a combined population of about one-quarter of a million 
people.
    The Members of the Commission are all volunteers, and for 33 years 
have served, without pay, to advance the cause of flood protection for 
the Basin. Throughout this time, the Corps of Engineers, New York 
District, has kept us informed of the progress of their work, and a 
representative from the Corps has been a regular part of our monthly 
meetings.
    We believe that it is clearly essential that the Green Brook Flood 
Control Project be carried forward, and pursued vigorously, to achieve 
protection at the earliest possible date. This Project is needed to 
prevent loss of life and property, as well as the trauma caused every 
time there is a heavy rain.
    New Jersey has programmed budget money for its share of the Project 
in fiscal year 2005.
    We urgently request an appropriation for the Project in fiscal year 
2005 of $10,000,000.
    With your continued support, the Green Brook Flood Control 
Commission is determined to see this Project through to completion.
    Thank you, Mr. Chairman, and members of the subcommittee, for your 
vitally important past support for the Green Brook Flood Control 
Project; and we thank you for the opportunity to submit this Testimony.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

         Prepared Statement of the Moss Landing Harbor District

    Mr. Chairman and members of the subcommittee, on behalf of the 
chairman and members of the Board of Harbor Commissioners, thank you 
for the opportunity for me, Russell Jeffries, as President of the Board 
of Harbor Commissioners of Moss Landing Harbor District in California 
to submit prepared remarks to you for the record in support of the 
fiscal year 2005 energy and water regular appropriations measure.
    The commission recognizes and expresses its gratitude to our two 
senators, the Honorable Dianne Feinstein, a valuable member of this 
committee, and the Honorable Barbara Boxer for their continued 
assistance and support on our behalf.
    We express our profound appreciation to the subcommittee and full 
committee for its inclusion of $600,000 in fiscal year 2004 
appropriated funds for the preparation of a screening level Ecological 
Risk Assessment under U.S. Army Corps of Engineers Waterways Experiment 
Station supervision. The assessment was recently critiqued by a 
preeminent peer group of experts scholars representing a broad cross 
section of professional disciplines.
    This sets the stage--with the committee's support--for the 
preparation of a first-ever Dredged Material Management Plan (DMMP) for 
the Harbor District in order to plan for orderly maintenance dredging 
of the Federal channel and local berths next year and over the next 20 
or more years. This effort is supported by a working group organized 
under national dredging team local planning guidance, including 
representatives of the Federal, State and local agencies, and other 
stakeholder and public interest groups with an interest in dredging 
activities.
    To put our needs in proper perspective, our geographical location 
and marine ecosystem is unique in that the Harbor District is located 
at the confluence of the Pajaro and Salinas rivers in between two 
national treasures--the Monterey Bay National Marine Sanctuary and the 
Elkhorn Slough National Estuarine Research Reserve--precluding most 
potential upland disposal sites for contaminated dredged material. The 
SF-12 aquatic disposal site is grandfathered for sanctuary purposes. It 
is located 50 yards offshore at the apex of the Monterey Bay Submarine 
Canyon which plunges to a depth of 8,000 feet in less than 1 mile. 
Every year. Periodic deposition, erosion, and flushing cycles transport 
thousands of tons of sedimentary material down the canyon like a 
chute--so much so that our dredged material is a miniscule amount 
measured against the total annual flushing event.
    Periodic El Nino events deposit trace elements of DDT in our harbor 
sediments traced to Salinas Valley Agriculture--America's Salad Bowl--
as a natural sink. With no realistic long term alternative--including 
upland disposal--to continued use of our current disposal site, our 
very livelihood as the largest fishing port on the central coast and 
largest concentration of marine scientific research south of Seattle, 
is at stake.
    Of amounts previously appropriated, approximately $2.4 million has 
been expended for maintenance dredging to date and $600,000 has been 
expended to begin the ERA process. Most of that was transferred to the 
Corps of Engineers Waterways Experiment Station (WES) to prepare a 
preliminary Ecological Risk Assessment (ERA). Previously appropriated 
operations and maintenance funds have already been expended to 
reimburse the San Francisco district for program management costs, 
conduct of the required economic analysis (including a finding of a 
very favorable current project benefit cost ratio of 1.7 to 1), DMMP 
plan formulation and project scoping including alternative upland 
disposal site analysis), and technical support to WES.
    The most significant findings of the screening comparative ERA were 
that in most cases the environmental impacts associated with periodic 
maintenance dredging and disposal at the SF-12 site were less than the 
no action alternative as periodic dredging removes the accumulation of 
contaminated material in the first few centimeters thereby reducing its 
bioavailability to benthic organisms at the base of the food web 
thereby precluding its absorption in the lipid tissue of higher trophic 
level organisms.
    With the committee's support 2 years we completed a periodic 
dredging cycle of the Federal channel work and the Inner Harbor using a 
combination of beach replenishment and ocean disposal at the SF-12 
historic disposal site for the first time in a decade. We anticipate 
that next year we will finally returned to a normal 3-year maintenance 
cycle of the Federal channel while local berth dredging of our all-
important commercial fishing and oceanographic vessel berths continues 
on an annual basis.
    During the next year we will be analyzing exiting data from a 
variety of sources including USGS, Moss Landing Marine Laboratory, and 
the Naval Post Graduate School among others filling in identified data 
gaps in the screening ERA to drive the WES model, as necessary 
completing complementary local site-specific scientific studies, and 
integrating all those results into the DMMP process.
    To this end we request the subcommittee's approval of $600,000 in 
appropriations from the Operations and Maintenance General account in 
fiscal year 2004 in order to complete the ecological risk assessment 
and dredged material management plan so that the process is completed 
and plan implemented prior to the next periodic maintenance event 
scheduled to occur in fiscal year 2006.
    With the assistance of the local scientific community, we are 
fortunate to have as much as 3 years of scientific data in the form of 
benthic community biomass and tissue sampling, and first-ever near-
shore state-of-the-art bathymetric survey of the disposal site and 
Monterey Bay Canyon. These efforts should prove invaluable in measuring 
before and after direct impacts of dredged material disposal at the 
disposal site.
    With the assistance of the San Francisco district, we were able to 
take advantage of last year's dredging episode to do before and after 
measurement of both sedimentary transport at the disposal site and to 
measure any direct impacts on benthic communities--the source of any 
bioaccumulation of contaminated sediments in trace amounts.
    Despite the drastic differences between the use of the WES ERA 
model adapted from aquatic Mississippi River application and our unique 
submarine canyon ecosystem and volume of material, a tracer study using 
European technology was synchronized with the last disposal event that 
demonstrated the rapid dispersion of dredged material at the SF-12 
site. We are confident that on the basis of our preliminary review--and 
that of the peer group--of the screening level ERA supported by local 
site specific analysis of data already collected and focused studies to 
augment the WES risk assessment model, the end result will be a 
document that will ultimately prove persuasive and compelling to the 
greater scientific community, Federal and State regulatory agencies, 
and an informed and involved public in our community.
    We now know that there is a considerable body of unpublished 
relevant data concerning the Monterey Bay Canyon and the impact, fate 
and effect of sedimentary material transport in the hands of the local 
scientific community that must be collected, catalogued, analyzed, and 
used both as input data and for comparison with the WES model so that 
each can operate as an invaluable countercheck on the output results of 
the other in predicting and directly measuring the impacts of dredged 
material disposal at our ocean disposal site.
    Based upon our experience thus far, the funds expended completing 
the DMMP/ERA process in developing a persuasive case to the various 
constituencies and decision document supporting continued aquatic 
disposal for all but a very small fraction of total dredged material in 
exceptional circumstances over a 20 year span of the study will save 
significant amounts of scarce Federal and local dollars in the future.
    That said, we sincerely hope our experience in this effort will:
    (1) produce both a useful and practical multidisciplinary decision 
document for those agencies exercising regulatory or oversight 
jurisdiction over dredging in both our and other settings; and
    (2) serve as a model for collaborative effort in dredged material 
disposal consensus decision-making in unique situations such as for 
other Corps districts and local sponsors seeking to balance required 
maintenance dredging to support navigation with the corresponding need 
to protect environmentally sensitive areas, in this instance the unique 
Monterey Submarine Canyon located at the heart of the Monterey Bay 
Marine Sanctuary.
    I am prepared to supplement my prepared remarks for the record in 
response to any questions that the chair, subcommittee members, or 
staff may wish to have me answer. Thank you Mr. Chairman and members of 
the subcommittee. This concludes my prepared remarks.
                                 ______
                                 
  Joint Prepared Statement of The Port Commerce Department, The Port 
  Authority of New York & New Jersey; New Jersey Maritime Resources, 
    Department of Transportation, State of New Jersey; Empire State 
Development Corporation, State of New York; and New York City Economic 
                        Development Corporation
    On behalf of the Port of New York and New Jersey, we thank you for 
your continued support of the Nation's navigation system. We appreciate 
the consistent level of funding that the committee has provided this 
bi-State gateway that we are preparing for tomorrow's commerce in 
partnership with the Federal Government. We were very pleased that 
Chairman David Hobson and Rep. Rodney Frelinghuysen were able to visit 
the port earlier this year. We would welcome all members of the 
subcommittee to get a first-hand look at the harbor and its role in the 
U.S. transportation system.
    We are gratified that in the fiscal year 2005 budget the 
administration maintains the deepening of the Port's main system of 
channels as a priority. As such, we strongly endorse the President's 
request for $103,000,000 for the NY & NJ Harbor Deepening Project. As 
pleased as we are with that, we also share the concerns of many in the 
national water resources sector that the overall civil works program is 
shrinking. That is happening even as demand for navigation and other 
water resource projects remains high. Our transportation and economic 
systems will remain strong as long as the Nation's infrastructure is up 
to the task and natural resources are in good condition. The long-term 
capacity of the Corps of Engineers to help non-Federal governments 
tackle infrastructure needs depends on strong funding.
    Business in the Port of NY/NJ continues to increase at a strong 
pace, lending credence to the government's view that investing in port 
channels is good for the Nation. In 2003, our region's marine terminals 
handled a record 4 million TEUs, an increase of roughly 300,000 TEUs 
over 2002. More steamship lines are starting all-water service to the 
East Coast to reduce costs and their reliance on ports of only one U.S. 
coast. This continuing trend promises greater cargo throughput in the 
years ahead. The Port and industry are preparing for the influx with a 
$1.46 billion redevelopment program that includes underwater, terminal, 
and access improvements. That public/private investment illustrates the 
partnership between the Federal and non-Federal investors in the 
Nation's economic future. The bi-State Port supports almost 40,000 
terminal-based jobs and over 189,000 off-terminal positions, but the 
benefits are not limited to our region. Nationwide, almost 186,000 
additional jobs are supported by the Port. The Port directly serves the 
Northeast and Midwest as well as most States in the continental United 
States. The channel projects will improve transportation efficiency 
that will benefit those markets and our national defense.
    Crucial to the Port redevelopment program is the support of 
Governor James McGreevey and Governor George Pataki. They made strong 
commitments to investing Port Authority and other resources to make the 
Port and regional freight transportation more efficient, and the Port's 
natural resources healthier. We are proud of the support that 
businesses, labor, local government and others, listed at the top of 
this statement, have given to this most productive port on the Atlantic 
Ocean.
    Below are our comments on the fiscal year 2005 budget request. We 
enthusiastically support the administration's request with respect to 
the Harbor Deepening Project and respectfully request that the 
subcommittee appropriate funds at higher levels for select projects as 
noted and discussed below. Projects in bold lettering are requests 
beyond the fiscal year 2005 budget levels.

------------------------------------------------------------------------
                                              Budget       Port Request
------------------------------------------------------------------------
Construction: New York & New Jersey         $103,000,000    $103,000,000
 Harbor.................................
                                         -------------------------------
Surveys (Studies):
    Hudson-Raritan Estuary, NY & NJ.....         450,000       2,500,000
    Hudson-Raritan Estuary, Lower                 50,000       1,500,000
     Passaic River, NJ..................
    Hudson-Raritan Estuary, Gowanus              150,000       1,500,000
     Canal, NY..........................
    Hudson-Raritan Estuary, Meadowlands,         100,000         850,000
     NJ.................................
                                         -------------------------------
      TOTAL.............................         750,000       6,350,000
                                         -------------------------------
Operation and Maintenance:
    Buttermilk Channel, NY..............       1,030,000       1,030,000
    East River, NY......................         370,000         370,000
    East Rockaway Inlet, NY.............       2,100,000       2,100,000
    Flushing Bay & Creek, NY............  ..............      11,000,000
    Hudson River Channel................  ..............       4,500,000
    Jamaica Bay, NY.....................       2,200,000       2,200,000
    New York Harbor, NY & NJ Drift             5,414,000       5,914,000
     Removal............................
    New York Harbor, NY.................       4,235,000       4,235,000
    New York & New Jersey Channels......       5,700,000       7,000,000
    Newark Bay, Hackensack & Passaic             120,000       3,000,000
     Rivers, NJ.........................
    Project Condition Surveys, NJ.......       1,670,000       1,670,000
    Project Condition Surveys, NY.......       1,075,000       1,075,000
    Raritan River, NJ...................  ..............       2,500,000
    Westchester Creek, NY...............  ..............         100,000
                                         -------------------------------
      TOTAL.............................      23,914,000      46,744,000
------------------------------------------------------------------------

                              construction
New York and New Jersey Harbor
    This project was authorized by Section 101(a)(2) of WRDA 2000 
(Public Law 106-541). It includes deepening the Ambrose Channel from 
deep water to the Verrazano-Narrows Bridge to 53 feet mlw, and 
deepening the Anchorage Channel and those channels that lead to the 
principal general cargo and breakbulk marine terminal areas to 50 feet 
mlw. The Corps of Engineers and the intended project sponsor are 
engaged in pre-construction engineering and design work to bring this 
project into construction seamlessly as the Kill Van Kull and Newark 
Bay deepening to 45 feet is concluded in late 2004. To facilitate 
project transition, the intended project sponsor is completing a 
construction contract to deepen to 50-feet portions of the Kill Van 
Kull and Newark Bay channels as a complement to the Corps' 45-foot 
project. These efforts and the overall commitment of the Port to the 
projects are strong testimony to our desire to advance this project 
with the Federal Government. We urge adoption of the budget request.
                           surveys (studies)
Hudson-Raritan Estuary Studies
    These studies were authorized by House Committee Resolution dated 
April 15, 1999, Docket Number 2596. Increases are requested for the 
studies in order to achieve the completion schedules of 2005 for the 
New York & New Jersey and Lower Passaic studies and 2004 for the 
Gowanus study.
  --New York & New Jersey.--The study purpose is to identify projects 
        to restore estuarine, wetland and adjacent upland buffer 
        habitat throughout the port region to the extent practicable 
        and in keeping with existing port and regional management 
        plans. The Corps and the Port Authority signed the Feasibility 
        Cost Sharing Agreement on July 12, 2001, and immediately began 
        the study. Natural resource areas, degraded as a result of 
        historic damage, need to be returned to their full potential. 
        The continued loss of wetlands, not only through development 
        but due to inexplicable causes, will require further analysis, 
        monitoring and restoration. One project that can move on a fast 
        track is Liberty State Park, where the State of New Jersey has 
        all of its required project funds on hand, ready to provide to 
        the Corps for construction. Given the past funding levels, the 
        Corps is unable to proceed both with the Liberty State Park and 
        the comprehensive regional study. We respectfully request that 
        the budget be augmented to $2,500,000 to allow the Corps to 
        keep its commitments to place the environment on an equal 
        footing with navigation improvements.
  --Lower Passaic.--Local communities throughout the Passaic River 
        Basin requested a program of improvements to remediate and 
        restore the river. The river and adjacent shorelines have been 
        degraded by historic industrial/commercial activity and 
        associated impacts of urban development. The Corps initiated 
        the Reconnaissance Phase in January 2000 that recommended a 
        separate study for the tidal influence of the Lower Passaic 
        River. In June 2003, the Corps, in partnership with EPA and the 
        NJDOT/Office of Maritime Resources, completed a comprehensive 
        Project Management Plan (PMP) that integrates the work of all 
        three agencies into a single study to determine the best 
        approach. In the same month, the Corps signed the Feasibility 
        Cost-Sharing Agreement (FCSA) with the Office of Maritime 
        Resources and began the feasibility study. This project also 
        has been designated as a pilot project under the joint Corps-
        EPA Urban Rivers Restoration Initiative. Despite the 
        outstanding coordination between the three agencies, Federal 
        funding is a concern. We are pleased that the non-Federal 
        matching funding will be available as the project requires. EPA 
        expects sufficient funding from PRPs to begin field 
        investigations by Fall 2004. As such, lack of Federal funding 
        will jeopardize the Corps' ability to participate in the joint 
        fieldwork envisioned in the PMP. For that reason, we request 
        that the budget be augmented to $1,500,000 for this study.
  --Gowanus.--The feasibility study will assess the environmental 
        problems and potential solutions in the Gowanus Canal and Bay. 
        Restoration measures will assess hot spot clean-up of off-
        channel contaminated sediments, contaminant reduction measures, 
        creation of wetlands, water quality improvements, and 
        alteration of hydrology/hydraulics to improve water movement 
        and quality. This has been designated as a pilot project under 
        the joint Corps-EPA Urban Rivers Restoration Initiative. A FCSA 
        was executed with the NYC Department of Environmental 
        Protection in March 2002. The City has committed its full share 
        to the project, and awaits the Federal match. In order to 
        continue the study restoration of this highly contaminated, 
        visible urban body of water (including benefits to human 
        health), we request that the budget be augmented to $1,500,000.
  --Hackensack.--This study will look at the feasibility of restoring 
        wetlands in the Hackensack Meadowlands area and will assess 
        toxic waste remediation potential. The area's existing wildlife 
        habitat preserves are threatened by dwindling open marshes. The 
        local sponsor is the NJ Meadowlands Commission, which has 
        committed funding, and looks toward the Federal share. We 
        respectfully request that the budget be augmented to $850,000 
        for this study aimed at protecting marshes, tidal creeks and 
        open spaces.
                       operation and maintenance
    Operation and maintenance projects are critical to the commerce, 
navigation and security of the Port as well as the Nation's security. 
If channels are not maintained to official depths and as needed by 
today's commerce, the efficiency of the Federal system of channels is 
lost and the risk of groundings increases. The Corps deepened the 
Newark Bay channel that leads to the Port Newark/Elizabeth terminal 
complex from 35 feet to 40 feet in 1995 as part of Phase 1 of the Kill 
Van Kull-Newark Bay 45-foot deepening project. In fiscal year 2002, 
Congress appropriated funds that enabled only partial maintenance of 
that channel, leaving significant areas at shallow and potentially 
unsafe depths. Unfortunately, the proposed budget would provide 
insufficient funding to adequately maintain Federal channels in the 
Port. The Port is one the Nation's busiest petroleum ports and the 
Arthur Kill and Raritan River channels are critical to that trade. 
Maintenance of the two channels is needed to support the industry, 
which serves not only the greater New York metropolitan area but much 
of the American northeast. Of course, maintenance also protects and 
perpetuates the Federal infrastructure investment.
    With the above concerns in mind, we think it is important to be on 
the record as to how this part of the fiscal year 2005 budget is 
insufficient to meet the practical needs of commerce. We respectfully 
request that the budget be augmented by $22,830,000 to $46,744,000 for 
Port channel operation and maintenance work. This also would enable the 
Corps to address serious shoaling problems in industrial and commercial 
portions of Flushing Creek, the Arthur Kill, the Hudson River Channel 
and the Raritan River, and to maintain on-going activities and upgrade 
the operational facilities at the Corps' Caven Point facility relative 
to the important, ongoing New York Harbor Drift Removal efforts.
                               conclusion
    The Port of New York & New Jersey continues to be a major gateway 
for a substantial part of the country. Cargo volume has grown, even 
while the economy struggles, and has been a source of increased jobs 
and commercial investment. The civil works program in the Port, coupled 
with public and private sector investments, has served well the 
Nation's economic and security interests for the better part of two 
centuries. The same is true in ports across the United States. We are 
proud of that history and commit to continuing this productive 
partnership with the Federal Government so that our region will serve 
the Nation for centuries to come.
                                 ______
                                 
 Prepared Statement of the Mississippi Valley Flood Control Association
    My name is M.V. Williams, I serve as President of the West 
Tennessee Tributaries Association and submit this statement on behalf 
of the Mississippi Valley Flood Control Association. It is my privilege 
to serve as Chairman of the Executive Committee for the Association.
    The Mississippi Valley Flood Control Association was first 
organized in 1922 and played a very large role in gaining authorization 
for the first major Federal water resources bill, the Flood Control Act 
of 1928 that established the Mississippi River and Tributaries Project. 
This statement is in support of additional funding for that project.
    Today our Nation is faced with a war on terror and we are also 
mindful of the fact that we must rectify an economic condition that 
needs immediate attention. Even faced with those facts, we feel that we 
are justified in urging additional appropriations for the Mississippi 
River and Tributaries Project because the assets and resources of this 
great Nation must not be neglected during these times. We know of no 
other appropriation which contributes as much to national wealth and 
resources as does flood control and navigation for the major rivers of 
this country.
    Millions of acres which were overflow lands decades ago are now 
highly productive and contributing to our national wealth. These lands 
by reason of their geographic location are the most fertile of the 
Nation. They produce an abundance of food and fiber for the general 
welfare and prosperity of the country. This is only possible because of 
the coordinated work performed by the United States Corps of Engineers 
and the local people.
    The inland waterways of the Nation provide the cheapest and in some 
cases the only method to move bulk commodities that are absolutely 
essential to the general welfare and prosperity of the country. Moneys 
appropriated by Congress for flood control and navigation has and will 
augment our natural resources and improve our economic well-being. The 
appropriations made by Congress for the Mississippi River and 
Tributaries Project are investments in this Nation's future.
    Since the productivity of the millions of acres of low lying lands 
adjacent to the main stem of the Mississippi River are totally 
dependent upon the integrity of the flood control works, any major slow 
down in the completion of this work will represent economic 
strangulation to this productive portion of our Nation.
    If no funds are added to the President's budget request, the Corps 
of Engineers will be forced to curtail operations of locks and some 
harbors may be closed from lack of maintenance dredging. This will mean 
the loss of jobs and possible closure of plants that have millions of 
dollars invested in their facilities. Recreational areas will be forced 
to close, disrupting the lives of millions of citizens from all walks 
of life.
    In addition to the problems with the inadequate funding in the 
President's budget request, we also have a tremendous problem with the 
fact that the Office of Management and Budget is attempting to dictate 
policy matters by the use of the budget submission. The greatest damage 
from this policy change would be to take the Congress out of its 
historical role of legislating policy for the flood control and 
navigation programs that have played a large part in making the United 
States the greatest industrial and commercial nation on the globe--with 
its resources, its wealth and productive capability that has saved the 
world in war and sustained it through years of troubled peace.
    The executive department is again attempting to supplant this 
historical Congressional role and assume these policy making functions. 
In past attempts, the Congress in its wisdom has soundly rejected these 
attempts. We would urge this Congress to do the same.
    In closing let me reemphasize that Federal works projects with 
proven merit such as the Mississippi River and Tributaries Project 
represent a sound Federal investment which has and will return to the 
tax payers of this country generous dividends. Such Federal investments 
contribute to the economic well being of the Nation by reducing 
unemployment; adding to the stability and economic growth of 
agriculture and industry; and providing a flood free environment for 
the welfare of the people of the Mississippi River Valley.
    For these and other reasons, we are firmly convinced that the 
amount of appropriations required in fiscal year 2005 for the 
Mississippi River and Tributaries Project is $450,000,000. An attached 
sheet to this statement reflects our request in more detail.
    Speaking for the entire Mississippi Valley Flood Control 
Association, I wish to thank the subcommittee for the opportunity to 
present this statement and special thanks for the actions that this 
group has taken in the past to assist us with our problems and concerns 
with water resources.

  MISSISSIPPI VALLEY FLOOD CONTROL ASSOCIATION--FISCAL YEAR 2005 CIVIL
   WORKS REQUESTED BUDGET--MISSISSIPPI RIVER AND TRIBUTARIES PROJECT--
                               MAINTENANCE
------------------------------------------------------------------------
                                            President's
                 Project                      Budget       MVFCA Request
------------------------------------------------------------------------
Wappapello Lake, MO.....................      $4,046,000      $6,352,000
Mississippi River Levees................       7,665,000      14,915,000
Dredging................................      20,515,000      20,515,000
Revetment and Dikes.....................      48,760,000      48,760,000
Memphis Harbor, TN......................       1,205,000       2,010,000
Helena Harbor, TN.......................         385,000         510,000
Greenville Harbor, MS...................          29,000         412,000
Vicksburg Harbor, MS....................          32,000         345,000
St. Francis River & Tribs, AR...........       6,080,000       8,805,000
White River Backwater, AR...............       1,316,000       2,260,000
North Bank, Arkansas River, AR..........         146,000         146,000
South Bank, Arkansas River, AR..........         122,000         122,000
Boeuf & Tensas Rivers, LA...............       2,160,000       2,160,000
Red River Backwater, LA.................       3,083,000       7,390,000
Yazoo Basin, Sardis Lake, MS............       7,046,000      19,322,000
Yazoo Basin, Arkabutla Lake, MS.........       5,710,000      12,900,000
Yazoo Basin, Enid Lake, MS..............       4,954,000      13,679,000
Yazoo Basin, Grenada Lake, MS...........       5,553,000      10,101,000
Yazoo Basin, Greenwood, MS..............         585,000       2,035,000
Yazoo Basin, Yazoo City, MS.............         729,000         729,000
Yazoo Basin, Main Stem, MS..............       1,013,000       3,966,000
Yazoo Basin, Tributaries, MS............         923,000         923,000
Yazoo Basin, Whittington Aux Channel, MS         400,000         400,000
Yazoo Basin, Big Sunflower, MS..........         139,000       2,139,000
Yazoo Basin, Yazoo Backwater, MS........         440,000         926,000
Lower Red River, South Bank, LA.........         105,000         105,000
Bonnet Carre, LA........................       2,310,000       3,100,000
Old River, LA...........................       7,350,000      29,900,000
Atchafalaya Basin, LA...................      13,000,000      25,000,000
Atchafalaya Basin Floodway, LA..........       2,775,000       4,200,000
Baton Rouge Harbor Devil's Swamp, LA....          14,000         300,000
Miss Delta Region, LA...................         588,000         588,000
Bayou Cocodrie & Tribs, LA..............          65,000          65,000
Inspection of Completed Works...........       1,500,000       1,700,000
Mapping.................................       1,112,000       1,325,000
                                         -------------------------------
      Total MR&T Maintenance............     151,855,000     248,105,000
------------------------------------------------------------------------


  MISSISSIPPI VALLEY FLOOD CONTROL ASSOCIATION--FISCAL YEAR 2005 CIVIL
WORKS REQUESTED BUDGET--MISSISSIPPI RIVER AND TRIBUTARIES APPROPRIATIONS
------------------------------------------------------------------------
                                            President's
            Project and State                 Budget       MVFCA Request
------------------------------------------------------------------------
Surveys, Continuation of Planning and
 Engineering & Advance Engineering &
 Design:
    Memphis Harbor, TN..................  ..............  ..............
    Germantown, TN......................         $27,000         $27,000
    Millington, TN......................         100,000         100,000
    Fletcher Creek, TN..................          93,000          93,000
    Memphis Metro Storm Water             ..............         100,000
     Management, TN.....................
    Bayou Meto, AR......................  ..............       2,447,000
    Germantown, TN......................  ..............         200,000
    Southeast Arkansas..................  ..............         600,000
    Coldwater Basin Below Arkabutla              203,000         750,000
     Lake, MS...........................
    Quiver River, MS....................  ..............         100,000
    Spring Bayou, LA....................         500,000         600,000
    Point Coupee to St. Mary Parish, LA.  ..............         100,000
    Atchafalaya Basin Floodway System,           100,000         100,000
     LA*................................
    Alexandria, LA to the Gulf of Mexico         435,000         435,000
    Morganza, LA to the Gulf of Mexico..       1,500,000      10,000,000
    Donaldsonville, LA to the Gulf of            800,000       1,200,000
     Mexico.............................
    Tensas River, LA....................  ..............         500,000
    Donaldsonville Port Development, LA.  ..............         100,000
    Collection & Study of Basic Data....         700,000         700,000
                                         -------------------------------
      Subtotal, Surveys, Continuation of       4,458,000      18,152,000
       Planning & Engineering & Advance
       Engineering & Design.............
                                         -------------------------------
Construction:
    St. John's Bayou-New Madrid                8,300,000       8,300,000
     Floodway, MO.......................
    Eight Mile Creek, AR................       1,357,000       3,293,000
    Helena & Vicinity, AR...............  ..............  ..............
    Grand Prairie Region, AR............  ..............      20,000,000
    Bayou Meto, AR......................  ..............      18,000,000
    West Tennessee Tributaries, TN......  ..............         700,000
    Nonconnah Creek, TN.................       2,153,000       2,753,000
    Wolf River, Memphis, TN.............  ..............       2,400,000
    August to Clarendon Levee, Lower      ..............       2,000,000
     White River, AR....................
    St. Francis Basin, MO & AR..........       3,000,000       9,500,000
    Yazoo Basin, MS.....................       5,850,000      62,775,000
    Atchafalaya Basin, LA...............      22,495,000      32,500,000
    Atchafalaya Basin Floodway, LA......       7,200,000      10,000,000
    MS Delta Region, LA.................       1,800,000       4,700,000
    Horn Lake Creek, MS.................  ..............         203,000
    MS & LA Estaurine Area, MS & LA.....  ..............          50,000
    Channel Improvements, IL, KY, MO,         36,882,000      44,082,000
     AR, TN, MS & LA....................
    Mississippi River Levees, IL, KY,         38,960,000      54,800,000
     MO, AR, TN, MS & LA................
                                         -------------------------------
      Subtotal, Construction............     127,997,000     276,056,000
      Subtotal, Maintenance.............     151,855,000     248,105,000
                                         -------------------------------
      Subtotal, Mississippi River &          284,310,000     542,313,000
       Tributaries......................
      Less Reduction for Savings &           -14,310,000      92,313,000
       Slippage.........................
                                         -------------------------------
      Grand Total, Mississippi River &       270,000,000     450,000,000
       Tributaries......................
------------------------------------------------------------------------

                                 ______
                                 

Prepared Statement of the Salt River Pima-Maricopa Indian Community and 
                       the City of Mesa, Arizona

    Chairman Domenici, Ranking Member Reid, and distinguished members 
of the subcommittee, thank you for allowing us to testify on behalf of 
the Salt River Pima-Maricopa Indian Community (SRPMIC) and the City of 
Mesa in support of a fiscal year 2005 appropriation of $1.5 million for 
the Va Shly'ay Akimel, Arizona, project of the U.S. Army Corps of 
Engineers. This project, intended to restore a degraded stretch of the 
Salt River in central Arizona, is critically important to the tribe, 
the City, and the region.
    Mr. Chairman, because of this subcommittee's efforts, $800,000 was 
appropriated for the feasibility phase of the Va Shly'ay Akimel project 
in fiscal year 2004. We are extremely grateful for the subcommittee's 
ongoing support of the project. We respectfully request your continued 
support for this project in fiscal year 2005 with an appropriation of 
$1.5 million, which will initiate the pre-construction engineering and 
design portion (PED) of the project.
    Like many projects of the U.S. Army Corps of Engineers, Va Shly'ay 
is drastically underfunded in the President's budget. Although the 
budget does include $349,000 for the project in fiscal year 2004, the 
Corps has a capability of $1.5 to initiate PED in the coming year. We 
hope that the subcommittee will provide this level of funding in order 
to contain costs and maintain an optimal project schedule.
    SRPMIC and the City of Mesa fully recognize the importance of 
restoring the Salt River's environmental integrity. As a consequence, 
the tribe and City--the non-Federal sponsors of the project--remain 
committed to discharging the requisite cost-sharing obligations 
associated with the project. We would also note that, as far as we 
know, this project is the only one in the Nation featuring a joint 
cost-share agreement between an Indian tribe and a local community. 
This makes it a unique project of the Corps of Engineers. We have every 
reason to believe that this example of municipal-tribal cooperation 
could serve as a model for future joint projects of tribal communities 
and local governments.
    In conclusion, it is critically important that this project remain 
on an optimal schedule. The Corps has expressed a maximum capability of 
$1.5 million to initiate PED on this project in fiscal year 2005. On 
behalf of the SRPMIC and the City of Mesa, we ask that you fully fund 
the Va Shly'ay Akimel project at $1.5 million in fiscal year 2005.
                                 ______
                                 

          Prepared Statement of the Seminole Tribe of Florida

    The Seminole Tribe of Florida is pleased to submit this statement 
regarding the fiscal year 2005 budget for the Army Corps of Engineers 
(Corps). The Tribe asks that Congress provide $27,000,000 in the Corps' 
construction budget for critical projects in the South Florida 
Ecosystem, as authorized in section 528 of the Water Resources 
Development Act (WRDA) of 1996, and amended by section 208 of WRDA 
1999. The critical projects program is tasked with completing ten 
projects, one of which is complete, and the remaining nine either 
completing planning and design or construction. The Seminole Tribe has 
partnered with the Corps to design, build, and operate the critical 
project on the Big Cypress Reservation, located in the western basins 
of the Everglades, directly north of the Big Cypress National Preserve.
    On January 7, 2000, the Tribe and the Corps signed a Project 
Coordination Agreement for the Big Cypress Reservation's critical 
project. The Tribe's critical project includes a complex water 
conservation plan and a canal that transverses the Reservation. In 
signing this Agreement, the Tribe, as the local sponsor, committed to 
funding half of the cost of this approximately $50 million project. The 
project is divided into two phases; construction of the first phase is 
complete and planning and design on the second phase will be complete 
in a few months, allowing construction to begin in fiscal year 2005.
    The Seminole Tribe's project addresses the environmental 
degradation wrought by decades of Federal flood control construction 
and polluted urban and other agricultural runoff. The interrupted sheet 
flow and hydroperiod have stressed native species and encouraged the 
spread of exotic species. Nutrient-laden runoff has supported the rapid 
spread of cattails, which choke out the periphyton algae mat and 
sawgrass necessary for the success of the wet/dry cycle that supports 
the wildlife of the Everglades. This is designed to mitigate the 
degradation the ecosystem has suffered through decades of flood control 
projects and urban and agricultural use and ultimately to restore the 
Nation's largest wetlands to a healthy state.
    The Seminole Tribe's critical project provides for the design and 
construction of flood control, storage, and treatment facilities on the 
western half of the Big Cypress reservation with other conveyance 
facilities on the eastern side. The project elements include canal and 
pump conveyance systems, including major canal bypass structures, 
irrigation storage cells, and water quality polishing areas. This 
project will enable the Tribe to meet targets for low phosphorus 
concentrations, as well as to convey and store irrigation water and 
improve flood control. It will also provide an important public 
benefit: a new system to convey excess water from the western basins to 
the Big Cypress National Preserve, where water is vitally needed for 
rehydration and restoration of natural systems within the Preserve.
    Improving the water quality of the basins feeding into the Big 
Cypress National Preserve and the Everglades National Park is vital to 
restoring the Everglades for future generations. Congress has 
acknowledged this need through the passage of the last three Water 
Resource Development Acts. This committee has consistently shown its 
support through appropriating requested amounts over the last seven 
fiscal years. By continuing to grant this appropriation request for 
critical project funding, the Federal Government will take another 
substantive step towards improving the quality of the surface water 
that flows over the Big Cypress Reservation and on into the delicate 
Everglades ecosystem. Such responsible action with regard to the Big 
Cypress Reservation, which is Federal land held in trust for the Tribe, 
will send a clear message that the Federal Government is committed to 
Everglades restoration and the Tribe's stewardship of its land.
    Completion of the critical project requires a substantial 
commitment from the Tribe, including the dedication of over 2,400 acres 
of land for water management improvements and meeting a 50/50 cost 
share. The Tribe has completed the first phase of construction with the 
main conveyance canal. As the Tribe moves forward with its contribution 
to the restoration of the South Florida ecosystem, increasing Federal 
financial assistance will be needed as well.
    The Tribe has demonstrated its economic commitment to the 
Everglades Restoration effort; the Tribe is asking the Federal 
Government to also participate in that effort. This effort benefits not 
just the Seminole Tribe, but all Floridians who depend on a reliable 
supply of clean, fresh water flowing out of the Everglades, and all 
Americans whose lives are enriched by this unique national treasure.
    Thank you for the opportunity to present the request of the 
Seminole Tribe of Florida. The Tribe will provide additional 
information upon request.
                                 ______
                                 
             Prepared Statement of Volusia County, Florida
    On behalf of our citizens and fishermen, Volusia County, Florida 
requests that the Energy & Water Subcommittee appropriate:
  --$3,500,000 in fiscal year 2005 to the U.S. Army Corps of Engineers' 
        (Corps) Construction account to fund an 1,000 foot seaward 
        extension of the South Jetty of the Ponce DeLeon Inlet. The 
        South Jetty seaward extension, along with the North Jetty 
        landward extension funded in fiscal years 1999, 2000, and 2002 
        and completed in June 2003, is essential for safe inlet 
        navigation and protection of the Federal investment in the 
        Inlet channel.
  --$3,000,000 in fiscal year 2005 to the Corps' Operations and 
        Maintenance account to fund the removal of 300,000 cubic yards 
        of sand from the North Cut of the Ponce DeLeon Inlet to provide 
        for safe navigation until the South Jetty construction is 
        complete.
  --$500,000 in fiscal year 2005 to the Corps' General Investigations 
        account to fund the feasibility study for the Volusia County 
        Shore Protection project for the shore protection of 49.5 miles 
        of Volusia County beaches.
    A more detailed case history and description of the situation and 
projects follow below.
                           ponce deleon inlet
    Ponce DeLeon Inlet is located on the east coast of Florida, about 
10 miles south of the City of Daytona Beach in Volusia County. The 
Inlet is a natural harbor connecting the Atlantic Ocean with the 
Halifax River and Indian Rivers and the Atlantic Intra-coastal Waterway 
(AICW). Ponce DeLeon Inlet provides the sole ocean access to all of 
Volusia County and is the only stabilized inlet on the east coast of 
Florida between St. Augustine and Cape Canaveral, a distance of 112 
miles. Fishing parties and shrimp and commercial fisherman bound for 
New Smyrna Beach or Daytona Beach use the Inlet, as well as others 
entering for anchorage. Nearby fisheries enhanced by the County's 
artificial reef program attract both commercial and sport fisherman. 
Head boat operators also provide trips to view marine life and space 
shuttle launches from Cape Canaveral. In addition, U.S. Coast Guard 
Lifeboat Station Ponce is located immediately inside Ponce de Leon 
Inlet and provides navigation safety and security for boaters, 
fisherman, divers and sailors from the entire east central Florida 
region.
    Unfortunately, the Inlet is highly unstable and, despite numerous 
navigation projects, continues to threaten safe passage for the charter 
boat operators and commercial fisherman who rely on the access it 
provides for their livelihood. Recreational boaters and Coast Guard 
operators are also at risk passing through this unstable inlet. The 
shoaling of the channels in the Inlet so restricts dependable 
navigation that the Coast Guard no longer marks the north channel in 
order to discourage its use. The Coast Guard continues to move the 
south and entrance channel markers and provides warnings that local 
knowledge and extreme caution must be used in navigating the inlet. 
More seriously, the Coast Guard search and rescue data for fiscal years 
1981-1995 show that 20 deaths have resulted from vessels capsizing in 
the Inlet, the direct result of the Inlet's instability. One hundred 
forty seven vessels capsized and 496 vessels ran aground in the Inlet 
during the same period.
    The Federal interest in navigation through the Ponce DeLeon Inlet 
dates back to 1884 and continues to the present. The existing 
navigation project was authorized by the Rivers and Harbors Act of 
1965. The construction authorized by that Act, including ocean jetties 
on the north and south sides of the Inlet, was completed in July 1972. 
It became evident soon after completion of the authorized project that 
the project did not bring stability to the Inlet. A strong northeaster 
in February 1973 created a breach between the western end of the North 
Jetty and the sand spit the Jetty was connected to inside the Inlet. 
The breach allowed schoaling to occur that was serious enough to close 
boat yards and require almost $2 million worth of repairs, including 
extending the western end of the North Jetty.
    Under the existing maintenance agreement entered into upon 
completion of the construction, the Corps periodically performs 
maintenance on the Inlet. Maintenance projects have included several 
dredging efforts, adding stone sections to the south side of the North 
Jetty, extending the westward end of the North Jetty for the second 
time, and closing the North Jetty weir. Prior to the North Jetty 
project discussed below, the Corps' last maintenance was dredging, 
completed on the entrance channel in January 1990.
    In fiscal year 1998, the Corps received a $3,500,000 appropriation 
for emergency maintenance on the North Jetty. Migration of the entrance 
channel undermined the North Jetty, seriously threatening its 
structural integrity. The fiscal year 1998 funds were used to construct 
a granite rock scour apron for the 500 to 600 feet of where the Jetty 
was undermined.
    In fiscal year 1999, the Corps received $4,034,000 from the 
Operations and Maintenance account to extend the North Jetty of the 
Inlet landward by 800 feet. This maintenance project was completed in 
July 2002 to prevent the erosion that will cause outflanking of the 
North Jetty. Continued outflanking of the west end of the North Jetty 
could create a new inlet for the Halifax and Indian Rivers resulting in 
major changes to the Ponce DeLeon Inlet. The resultant shoaling of both 
the north and south channels, as well as changes to the entrance 
channel, would make passage through the inlet extremely dangerous and 
unpredictable.
    In fiscal year 2000, the Corps received $7,696,000 in their 
Operations and Maintenance account for use in the Ponce DeLeon Inlet. 
This appropriation provided funding to continue the North Jetty 
project, funding for surveys designed to determine the scope of a new 
maintenance contract for the Ponce De Leon Inlet, and funding for a 
dredging project to address a minor maintenance issue under the 
existing maintenance contract.
    In fiscal year 2001, the Corps received $46,000 in their Operations 
and Maintenance account for standard maintenance of the Ponce DeLeon 
Inlet.
    In fiscal year 2002, Congress appropriated $2.032 million to the 
Corps' Operations and Maintenance account for completion of the North 
Jetty construction. The Corps completed construction of this project in 
July 2002.
    In fiscal year 2003, Congress provided $1 million in the Corps' 
Construction account for commencement of the South Jetty oceanward 
extension, as authorized by WRDA 1999.
    In fiscal year 2004, Congress provided $500,000 in the Corps' 
Construction account for construction of the South Jetty oceanward 
extension, as authorized by WRDA 1999.
    For fiscal year 2005, Volusia County requests that the Corps 
receive $3.5 million for the balance of the Federal share of 
construction funds for the South Jetty oceanward extension. The project 
manager expects the South Jetty to be constructed in one fiscal year. 
The Corps anticipates that the construction of the Jetty extensions 
will help stabilize the Inlet and reduce future maintenance costs. In 
addition to creating a safer navigation environment, completion of the 
South Jetty, to complement the North Jetty, will save future Federal 
maintenance costs.
    The Ponce DeLeon Inlet presents a serious engineering challenge, 
the success of which is measured in terms of human life and vessel 
damage. The existing project has failed to stabilize the Inlet. 
Extending the North Jetty was the first step toward correcting the 
failure and meeting the challenge. Full funding of the 1,000 foot 
oceanward extension of the South Jetty is the next critical step toward 
providing safe passage for the commercial and recreational boaters in 
Volusia County.
    State agencies, including the Florida Inland Navigation District 
and the Florida Department of Environmental Protection agree and 
therefore have committed to assisting the County in meeting the local 
cost share. In addition, providing these funds at this time is likely 
to prevent the need for a much more substantial maintenance project in 
the near future.
    In addition to the construction funding for the jetty projects to 
protect the Ponce DeLeon Inlet, the County also requests $3,000,000 be 
appropriated in the Corps' Operations and Maintenance account, for the 
Corps to remove 300,000 cubic yards of sand from the North Cut of the 
Ponce DeLeon Inlet. As discussed above, the North Jetty construction 
was completed in July 2002 and the South Jetty construction will begin 
this year. Maintenance dredging is needed until both jetties are 
constructed.
    Until both the North and South Jetty projects are operational, sand 
continues to shoal in the navigation channels of the Ponce DeLeon 
Inlet. The shoaling creates unsafe navigation conditions, thereby 
impeding commercial and recreational traffic. Removing 300,000 cubic 
feet of sand from the North Cut of the Inlet will greatly improve safe 
navigation. Finally, this effort is supported locally, as evidenced by 
the County's grant of $395,000 to the Corps for emergency dredging of 
the North Cut in fiscal year 2003.
                volusia county beach protection project
    In August 1991, the Corps of Engineers completed a favorable 
reconnaissance report for the shore protection study to address the 
critical erosion along the County's 49.5 miles of ocean shoreline, as 
authorized by the House Transportation and Infrastructure Committee in 
September 1988. The County declined to act as the non-Federal sponsor 
for the feasibility study at that time. The Corps modified the 1991 
reconnaissance study in 1994. As a result of heavy damage to the 
County's shoreline sustained during the 1999 hurricane season, the 
County recognized the critical need to address the growing impact of 
the storm-induced erosion. The Corps will need to modify the earlier 
studies. A new reconnaissance study for the Volusia County Shore 
Protection project (formerly known as the Daytona Beach Shores project) 
was authorized by a resolution adopted by the House Transportation and 
Infrastructure Committee on February 16, 2000. In fiscal year 2003, 
Congress provided the Corps with $100,000 to complete the 
reconnaissance study. The Corps has completed the draft reconnaissance 
study, which is currently undergoing final review and is expected to be 
completed during fiscal year 2004. The draft reconnaissance study 
recommends further action. A feasibility study is the next step.
    The feasibility study will include, among other things, plan 
formulation, surveys, geotechnical analysis, beach modeling, and 
environmental analysis for Volusia County's 49.5 mile shoreline. The 
Corps estimates the cost of the feasibility study to be $3 million and 
expects to complete the study in 3 to 4 years. The cost share for the 
feasibility study is 50 percent Federal and 50 percent non-Federal. In 
fiscal year 2005, the Corps will spend $1 million for the Volusia 
County Shore Protection Project, of which the Federal share is 
$500,000.
    While previous studies to address beach erosion were not acceptable 
to the County as the local sponsor, the County seeks the Corps' 
assistance now to address continuing erosion damage initiated during 
the 1999 hurricane season. The County recognizes its dire need in 
having its beaches renewed, preserved, and protected.
    Thank you for your consideration of this request.
                                 ______
                                 
         Prepared Statement of the National Mining Association
    The National Mining Association's (NMA) membership includes 
companies engaged in the production of coal, metallic ores, nonmetallic 
minerals, and in manufacturing mining machinery and equipment. The 
transportation of coal and minerals to domestic and international 
markets utilizes our Nation's inland waterways system, Great Lakes, 
coastal shipping lanes, and harbors and shipping channels at deep draft 
inland and coastal ports.
    NMA believes that a strong transportation network comprised of our 
highways, rails, inland waterways and ports is critical to the economic 
growth, security and competitiveness of the United States. According to 
the U.S. Army Corps of Engineers Waterborne Commerce Statistics of 
2002, approximately 2.34 billion tons of commerce moved in the U.S. 
marine system (inland waterways, Great Lakes, coastal and deep-draft 
ports). Of that total, approximately 1.02 billion tons were domestic 
movements with coal comprising approximately 227 million tons or 22 
percent of all commodities. Of the 227 million tons of coal, 175 
million tons were carried on the inland and intracoastal waterways, 
19.4 million tons on the Great Lakes and the remainder moved in 
coastwise and intraport shipments. On the Ohio River system and its 
tributaries, coal movements totaled 159 million tons or 56 percent of 
all the traffic. Coal moved to power plants along the system and to 
power plants in 8 States outside of the Ohio basin. In addition, 48.7 
million tons of coal was exported in 2002.
    Iron ore, phosphate rock, and other minerals also utilize the 
inland waterways system. In 2002, 73.1 million tons of iron ore moved 
on the system. Of the total, 52.4 million tons moved domestically with 
46.8 million tons moved on the Great Lakes and 5.6 million tons on the 
inland system. More than 6.2 million tons of phosphate rock moved on 
the waterways system with 3.5 million tons by coastwise movements.
    NMA is very concerned that the proposed fiscal year 2005 budget for 
the Corps of Engineers does not provide sufficient funding to keep 
critical navigation projects on schedule, allow for the start of new 
projects, and address the maintenance backlog for existing navigation 
projects. The 25,000 miles of waterways and harbor channels are a major 
component of the transportation infrastructure system in the United 
States. The Nation's waterways system is an efficient and timely method 
to move commerce throughout the United States. It currently moves 2.4 
billion tons of cargo annually.
    Each year, barges on the waterways handle cargo equal to 40 million 
trucks or 10 million railcars. Without the waterways system, the 
Nation's already overcrowded and in some cases gridlocked highways, 
would not be able to be used. In addition, there would be a significant 
increase in air and noise pollution from the additional trucks on the 
roads. A river barge with a 1,500-ton capacity can transport up to 58 
large trucks or 15 large jumbo rail hopper cars worth of cargo. Barge 
transport also saves shippers on average $11 per ton, compared to 
shipping the same amount of cargo by truck or rail.
    In addition, the waterways system is critical to our Nation's 
national defense. Manufacturing and industrial facilities providing the 
military with needed weapons and materials are located near the 
Nation's water system. Many of our Nation's large commercial ports also 
serve as the home to the U.S. Navy's fleets.
    NMA is concerned that the full amount appropriated by Congress to a 
specific project is not always what is actually available to a project 
for a specified fiscal year. For example, in fiscal year 2004, the 
Kentucky Lock was appropriated $29.9 million but the project actually 
received $23.1 million for fiscal year 2004. Because of the reduced 
funding levels, projects are taking longer and the benefits are being 
lost to shippers and to the U.S. economy. NMA requests that projects 
receive the full amount appropriated in a given fiscal year.
    NMA continues to be very concerned with the surplus in the Inland 
Waterways Trust Fund (IWTF). One-half of the lock and dam construction 
and major rehabilitation funds come from the Inland Waterways Trust 
Fund (IWTF), which receives 20 cents from a 24.3 cents per gallon tax 
on the fuel used for inland waterways barge operations. The General 
Treasury receives the remaining 4.3 cents. Commercial users are the 
only beneficiaries of the inland waterways system who pay a fuel tax, 
while beneficiaries who receive flood control, water supply, 
recreational and other benefits do not contribute to the construction 
or maintenance of the system providing these benefits. For the last 12 
years, the Federal Government has not allocated sufficient funds to 
these projects to keep up with revenues flowing into the IWTF. The 
result as of September 30, 2001 is a Fund surplus of approximately $392 
million according to The Bureau of Public Debt, U.S. Department of the 
Treasury. A constraint on the funding for construction and 
rehabilitation projects has not been the revenue collected from the 
fuel tax but the limited level of funding appropriated from the IWTF. 
It is time to seriously address the backlog and to appropriate funds to 
finish the projects underway.
    NMA reviewed the proposed fiscal year 2005 request for the U.S. 
Army Corps of Engineers and the Civil Works Program and has the 
following general recommendations.
  --A minimum of $5.5 billion should be appropriated in fiscal year 
        2005 for the Civil Works Program. This level balances the need 
        to address the significant project backlog and the capability 
        of the Corps with our Nation's needs for jobs, economic growth, 
        homeland security and national defense.
  --A level of $150 million should be appropriated from the Inland 
        Waterways Trust Fund to be matched by an equal expenditure from 
        the general fund for the construction and major rehabilitation 
        of locks and dams on the inland waterways system. By 
        maintaining this level of appropriations for the next 10 years, 
        the surplus in the Trust Fund can be reduced to more 
        appropriate levels and timely completion of these required 
        navigation projects will accelerate the national economic 
        benefits from the projects and minimize cost increases.
  --The fiscal year 2005 appropriations for the Corps' General 
        Investigations account should be increased to $200 million. The 
        proposed fiscal year 2005 level of $90.5 million will not 
        permit the Corps to undertake any new studies. These studies 
        are critical to ascertaining and developing future projects. It 
        takes time to complete these projects and while there are 
        issues related to new construction starts, projects should be 
        in the pipeline and ready should funds be available.
  --The fiscal year 2005 proposed funding in the amount of $1.926 
        billion for the Corps' Operations and Maintenance functions 
        should be increased. At the beginning of fiscal year 2004, it 
        was estimated that critical maintenance backlog was $1.01 
        billion. This is a $127 million or 12.7 increase from the 
        previous year. It is anticipated the backlog will grow to $1.1 
        billion under the administration's fiscal year 2005 request. 
        This increase is of great concern given that the backlog was 
        approximately $200 million in fiscal year 1998. Currently, more 
        than half of the locks and dams on the system are 50 years 
        older or more. With the funding constraints for new 
        construction and rehabilitation projects, it is imperative that 
        existing locks and dams be maintained. Delaying necessary 
        maintenance impacts the ability to move commerce efficiently, 
        exasperates further deterioration and accelerates the need for 
        major rehabilitation and possibly at higher costs than 
        necessary.
    The problems of an aging system were exemplified at Greenup Locks 
and Dam when significant problems were encountered during ongoing 
repairs to the gates on the main chamber. What began on September 8, 
2004 as a scheduled 3-week outage lasted 54 days and cost the 
navigation industry an estimated $14 million in lost revenue due to 
significant delays. For Dayton Power and Light, the delays cost $7 
million to find alternative rail transportation for its coal.
nma's fiscal year 2005 project appropriations levels needing additional 
                                 funds
Construction and Rehabilitation Projects
            Olmsted Locks & Dam--Fiscal Year 2005 Request: $75 million, 
                    Efficient Funding Level: $110 million
    According to the U.S. Army Corps of Engineers Waterborne Commerce 
Statistics for 2001, more tonnage passes through this point than any 
other place in the inland waterways system with 96.7 million tons 
valued at $20 billion in 2001. Coal comprises 25 percent of the 
tonnage, moving to more than 50 power plants on the Ohio River System 
and 17 power plants in eight States on the Upper or Lower Mississippi 
River. The total project cost is $1.40 billion with a balance of $800 
million. The project is 6 years behind schedule with lost benefits of 
$2.7 billion. If the project continues to be funded at constrained 
levels and not at efficient funding levels, the project could be 
delayed another 8 years with a total of loss of $7.2 billion in 
navigation benefits.
            McAlpine Locks--Fiscal Year 2005 Request: $58 million, 
                    Efficient Funding Level: $120 million
    According to the U.S. Army Corps of Engineers Waterborne Commerce 
Statistics for 2001, more than 55 million tons of commodities valued at 
nearly $11.7 billion were shipped through the locks. With 20 million 
tons, coal was the leading commodity comprising 37 percent of all 
shipments. Thirteen million tons went to 30 power plants in 8 States. 
The total project cost is $350 million with a balance of $241 million. 
The project is 5 years behind schedule with lost benefits of $228 
million. If the project continues to be funded at constrained levels, 
it could be delayed another 5 years (2012) resulting in an additional 
loss of $163 million in navigation benefits.
            Locks & Dams 2, 3 and 4--Fiscal Year 2005 Request: $31 
                    million, Efficient Funding Level: $60 million
    According to the U.S. Army Corps of Engineers Waterborne Commerce 
Statistics for 2001, almost 22.2 million tons of commodities valued at 
$1.7 billion where shipped through any or all of the locks. Coal 
comprised 86 percent of the tonnage with 19.2 million tons of coal 
moving through the locks. More than 7.2 million tons went to 23 power 
plants in 7 States. The value of the coal was almost $1.6 billion. The 
total cost is $750 million with a balance of $500 million. The project 
is 9 years behind schedule resulting in $870 million in lost navigation 
benefits. If the project continues to be funded at constrained levels, 
the project could be further delayed to 2020 and a total of $1.2 
billion in lost navigation benefits.
            Marmet Locks & Dams--Fiscal Year 2005 Request: $50 million, 
                    Efficient Funding Level: $75 million
    The U.S. Army Corps of Engineers Waterborne Commerce Statistic for 
2001 indicate 17.1 million tons of commodities valued at $802 million 
were shipped through the locks. Coal shipments comprised 95 percent of 
all shipments with 16.1 million tons moving through Marmet. The project 
cost is $333 with a 2010 completion date (originally 2007). There is a 
balance of $219 million. Marmet has already experienced a 2-year 
completion delay and continued constrained funding levels, the project 
could be delayed another 5 years at loss of $201 million in navigation 
benefits.
            Kentucky Lock--Fiscal Year 2005 Request: $25 million, 
                    Efficient Funding Level: $55 million
    The U.S. Army Corps of Engineers Waterborne Commerce Statistics for 
2001 indicate 35 million tons of commodities valued at $6.2 billion 
moved through the lock. Coal was the number one commodity with 12.6 
million tons or 36 percent of all shipments. The value was almost $500 
million. The coal moved to 9 power plants in the south including 
several owned by the Tennessee Valley Authority. Total project cost is 
$642 million. The project is already 5 years behind schedule. If the 
project continues to be funded at constrained levels then the project 
could be delayed until 2025 with $780 million in lost navigation 
benefits.
Preconstruction Engineering and Design
    J.T. Myers Locks & Dam--Fiscal Year 2005 Request: $700,000, 
Efficient Funding Level: $2 million.
Surveys
    Emsworth, Dashields & Montgomery Lock and Dams Fiscal Year 2005 
Request: $3.1, Efficient Funding Level: $1.5 million.
                               conclusion
    NMA is very concerned that the Nation's inland waterways system is 
not receiving sufficient funds in the fiscal year 2005 budget to keep 
critical navigation projects on schedule and to address the very large 
maintenance backlog for existing navigation projects. As a country, we 
cannot afford to neglect the continued improvement and maintenance of 
our Federal navigation system. Failure to continue our investment and 
commitment to all aspects of our marine system will have serious long-
term consequences for our Nation's economic health, safety and 
security.
                                 ______
                                 
 Prepared Statement of the Board of Commissioners of the Pontchartrain 
                             Levee District

   FLOOD CONTROL, NAVIGATION, HURRICANE PROTECTION AND WATER RESOURCE
                                PROJECTS
------------------------------------------------------------------------
                         Project                            Recommended
------------------------------------------------------------------------
General Investigations:
    Amite River & Tributaries Bayou Manchac, LA.........        $800,000
    West Shore, Lake Pontchartrain & Vicinity, LA, St.           400,000
     John the Baptist Parish............................
General Construction:
    Lake Pontchartrain & Vicinity, LA (Hurricane              22,000,000
     Protection)........................................
------------------------------------------------------------------------

                          comments on projects
Lake Pontchartrain & Vicinity, LA
    Around Lake Pontchartrain there are several segments under 
construction with this major title. All segments are nearing completion 
except St. Charles Parish Hurricane Protection of which the local 
sponsor is the Pontchartrain Levee District. The St. Charles project 
has 10 miles of levee, 5 major floodgate structures and a construction 
cost of $100 million. If Congress provides maximum funding capability 
for 2004 and 2005, then the first lift levees would be complete and 
much of the second lift and all structures can be completed. A closed 
system would be complete, except for some second lift levees, by the 
2005 hurricane season. Of the recommended appropriations requested 
above for Lake Pontchartrain and Vicinity, about $6,000,000 could be 
scheduled for the St. Charles Parish segment. Any reduction in the 
recommended budget would certainly reduce the amount that would be 
assigned to St. Charles Parish and result in a disappointing slow down. 
Non-Federal funds for participation are in place now.
West Shore, Lake Pontchartrain & Vicinity, LA, St. John the Baptist 
        Parish
    This segment is currently under study with the Pontchartrain Levee 
District acting as local sponsor. Preliminary indications are the 
hurricane protection project will have 18 miles of levee and 3 drainage 
pump stations. The Feasibility Study should be completed in fiscal year 
2004. Protection will be provided from the west levee of the Bonnet 
Carre Floodway westward to the LaPlace area, and will include 
protection of portions of I-10, I-55 and U.S. 51, designated hurricane 
evacuations routes for this area and the New Orleans Metropolitan area. 
This intersection has been previously flooded from storm tides.
Amite River & Tributaries, Bayou Manchac, LA
    This investigation is being made as a result of a number of homes 
being flooded from rains produced by tropical storm Allison in late May 
and early June 2001 along the Bayou Manchac Watershed. A few homes 
remained flooded for as much as a month or more because of very slow 
receding waters. A highly sensitive area of Spanish Lake and 
surrounding swamp also remained flooded for an extensive period which 
caused extensive ecosystem damages. The affected area covers portions 
of Ascension, Iberville and East Baton Rouge parishes and all have 
joined with the Pontchartrain Levee District to provide non-Federal 
funding with the Levee District acting as local sponsor.
                                comments
    The Pontchartrain Levee District has full realization of the 
necessity of keeping these subcommittees advised of current and future 
needs for Federal monetary support on vital items of the MR&T Flood 
Control Project. Beginning in 1995 the subcommittees refused to give 
audience to our pleadings. This year no oral testimony will be heard. 
Again, this is a great travesty of justice. Such actions seriously 
erode the partnership that has been built between Congress, the Corps 
of Engineers and local sponsors. We trust this pattern will revert back 
to the practice of hearing our delegation.
                               conclusion
    The Board of Commissioners, Pontchartrain Levee District, 
compliments the Subcommittees on Energy and Water Development for its 
keen understanding of real needs for the MR&T Flood Control Project 
along with hurricane protection and efficient, alert actions taken to 
appropriate funds for the many complex requirements. We endorse 
recommendations presented by the Association of Levee Boards of 
Louisiana, Department of Transportation and Development, Mississippi 
Valley Flood Control Association and Red River Valley Association. The 
Board of Commissioners desires our statement be made a part of the 
record.
                                 ______
                                 
 Prepared Statement of the Board of Commissioners of the Pontchartrain 
                             Levee District

                 MISSISSIPPI RIVER & TRIBUTARIES PROJECT
------------------------------------------------------------------------
                         Project                            Recommended
------------------------------------------------------------------------
Mississippi River & Tributaries: Flood Control Project..    $435,000,000
------------------------------------------------------------------------

                          comments on projects
Mississippi River & Tributaries Flood Control Project
    History.--The Mississippi River and Tributaries Project (MR&T) was 
authorized following the Record Flood of 1927 that inundated some 
26,000 square miles of the fertile and productive land in the Alluvial 
Valley of the Mississippi River, left 700,000 people homeless, stopped 
all East/West Commerce and adversely affected both the Economy and 
Environment of the entire Nation.
    The MR&T Project has prevented over $180 billion in flood damages 
for an investment of less that $70 billion and in addition the Nation 
derives about $900 million in Navigation Benefits each year due to the 
MR&T.
    The Project is not complete and we cannot pass another event as 
great as the 1927 Flood safety to the Gulf, this is an Historical 
Event--not the much greater Project Flood.
    Levees.--The Mississippi River and Tributaries Flood Control 
Project has been under construction as an authorized project for about 
76 years, and yet there are a number of segments not yet complete. 
Although most levees are complete to grade and section in south 
Louisiana and extensive reach from the Old River Control Structure in 
lower Concordia Parish upstream to the Lake Providence area is still 
below grade. Should these levees be overtopped during a major flood, 
those people in south Louisiana know full well those flood waters are 
going to head southward. Other items not yet complete are slope 
protection and crown surfacing. It is recommended that a minimum of 
$50,645,000 be appropriated for Mississippi River Levees.
    Channel.--The second item of indispensable importance to the 
Pontchartrain Levee District and the State of Louisiana is Channel 
Improvements. Main line levees must be protected from caving banks 
throughout this lower river reach where extremely narrow battures are 
the last line of defense against levee crevasses and failures. If 
caving banks are not controlled the only answer is ``setback''. Simply 
stated there is no room remaining for levee setbacks in the 
Pontchartrain Levee District. Revetment construction must be annually 
funded to prevent levee failures, land losses and relocations. This 
item also benefits the 55-foot depth navigation channel. The 
Pontchartrain Levee District recommends at least $44,017,000 be 
appropriated for fiscal year 2004 for Mississippi River Channel 
Improvements.
    Total Appropriation Request for MR&T.--The $435 million we are 
requesting for fiscal year 2004 appropriations for the MR&T Project is 
the minimum amount we consider necessary to continue with vital on-
going construction work and to do the barest amount of maintenance work 
that is required to prevent further deterioration of the Federal 
investment already made to our Flood Control and Navigation Work and to 
continue to work of restoring and protecting our natural environmental 
including providing for adequate water supply. The total appropriation 
we are requesting is attached.
    Opposition.--We strongly oppose the administration's recommendation 
in its fiscal year 2004 budget submission to use funds from the INLAND 
WATERWAYS TRUST FUND to pay for a part of the Operations and 
Maintenance Cost of the Inland Waterways. The Trust Fund was 
established in 1978 to make available monies for Construction and 
Rehabilitation for navigation on the Inland and Coastal Waterways, not 
for Operations and Maintenance. If Congress allows this recommendation 
the Trust Fund would be drained in a short period of time and the 50 
percent share to pay for Construction for Navigation would not be 
available unless the tax on fuel used by tow-boats was raised, some day 
doubled, which would make it extremely difficult for barge operators to 
continue their operations and making it more expensive for farmers to 
get their products to market and for the public to realize savings in 
transportation cost for bulk commodities such as fuel, oil, gasoline 
and other items shipped by barge.
    We are also strongly opposed to any action that would transfer all 
or any part of the U.S. Army, Corps of Engineers Civil Works mission to 
other agencies or department of the Federal Government. It has been 
reported that the administration would desire to transfer the Corps 
NAVIGATION program to the Department of Transportation, FLOOD CONTROL 
AND ENVIRONMENTAL RESTORATION to the Department of the Interior, and 
the REGULATORY PROGRAMS to EPA. The U.S., Army, Corps of Engineers has 
rendered extremely valuable services to this Nation since 1802 (over 
200 years). The Corps has created an Inland Waterways System that is 
the envy of the rest of the world. This commercial transportation 
system is critical to the Nation's economy and environmental well-being 
and part of this system is used to deploy military equipment in support 
of the war on terrorism. The Corps has also been in the forefront to 
provide Flood Control and Environmental Restoration Projects, they have 
also supported our troops in every armed conflict this Nation has 
engaged in. It would be a serious mistake of Nation-wide impact to 
spread the functions of the Corps into several parts and across the 
Federal bureaucracy. This Nation would lose a wonderful asset that we 
have enjoyed for many, many years.
    We are strongly opposed to any proposal to ``out-source'' or 
contract-out any of the present positions in the Corps of Engineers' 
Civil Works function. The Secretary of the Army has proposed that 90 
percent of all Corps of Engineers' positions be contracted out, this 
would eliminate approximately 32,000 current employees and make it 
almost impossible to continue with our work.
Comments
    The Pontchartrain Levee District has full realization of the 
necessity of keeping these subcommittees advised of current and future 
needs for Federal monetary support on vital items of the MR&T Flood 
Control Project. Beginning in 1995 the subcommittees refused to give 
audience to the Mississippi Valley Flood Control Association. This year 
no oral testimony will be heard. Again, this is a great travesty of 
justice. Such actions seriously erode the partnership that has been 
built between Congress, the Corps of Engineers and local sponsors.
    We trust that this pattern will revert back to the 63 year practice 
of hearing our delegation.
Conclusion
    The Board of Commissioners, Pontchartrain Levee District, 
compliments the Subcommittees on Energy and Water Development for its 
keen understanding of real needs for the MR&T Flood Control Project 
along with Hurricane Protection and efficient, alert actions taken to 
appropriate funds for the many complex requirements. We endorse 
recommendations presented by the Association of Levee Boards of 
Louisiana, Department of Transportation and Development, Mississippi 
Valley Flood Control Association and Red River Valley Association. The 
Board of Commissioners desires our statement be made a part of the 
record.
                                 ______
                                 
         Prepared Statement of the Red River Valley Association
    Mr. Chairman and members of the committee, I am Wayne Dowd, and 
pleased to represent the Red River Valley Association as its President. 
Our organization was founded in 1925 with the express purpose of 
uniting the Citizens of Arkansas, Louisiana, Oklahoma and Texas to 
develop the land and water resources of the Red River Basin.
    The Resolutions contained herein were adopted by the Association 
during its 79th Annual Meeting in Bossier City, Louisiana on February 
19, 2004, and represent the combined concerns of the citizens of the 
Red River Basin area as they pertain to the goals of the Association.
    The President's budget included $4.215 billion for civil works 
programs, which is $700 million (14.3 percent) less than what the Corps 
expended in fiscal year 2004 ($4.905 million). Again, the Corps took 
the biggest reduction than any of the other major Federal agencies. 
This does not come close to the real needs of our Nation. A more 
realistic funding level to meet the requirements for continuing the 
existing needs of the civil works programs is $5.5 billion in fiscal 
year 2005. The traditional programs, inland waterways and flood 
protection remain at the low, unacceptable level as in past years. 
These projects are the backbone to our Nation's infrastructure for 
waterways, flood control and water supply. We remind you that civil 
works projects are a true ``jobs program'' in that 100 percent of 
project construction is contracted to the private sector, as is much of 
the architect and engineer work. Not only do these funds provide jobs, 
but provide economic development opportunities for our communities to 
grow and prosper.
    We are very concerned with the way in which the administration has 
determined what they term ``low use waterways''. Included in the fiscal 
year 2005 Civil Works Budget, published February 2004, is a table 
indicating ``net benefits/current costs'' and ``remaining benefits/
remaining costs''. The J. Bennett Johnston Waterway, LA is shown at the 
bottom of the table with an unfavorable ratio. Nowhere in the document 
do they explain the criteria used for these ratios. This is the 
criterion used to justify the priorities to fund waterway projects and 
we do not agree with it.
    If they are using ``ton-miles'', as we suspect, this is just a 
small factor of determining the success of a waterway. Ton-miles is 
simply the tons moved the length of the waterway. It does not give 
credit to the waterway for the miles moved to the final destination, 
for outbound cargo, or origin, for inbound cargo. Just using tonnage 
moved on a waterway neglects the main benefit that justified the 
project, transportation cost savings. Currently there is no analysis to 
consider ``water compelled rates'' (competition with rail). We know 
that there are industries not using our waterway because the rail rates 
dropped, to match the waterborne rates, the same year our waterway 
became operational. If our waterway were discontinued the rail rates 
would increase. Many industries have experienced great transportation 
savings without using the waterway.
    The main problem is that there is no post-project evaluation for 
navigation projects. We support the development of such an evaluation 
and volunteer our waterway and our efforts to develop one. We request 
that both Houses of Congress direct that this be accomplished. The 
Corps of Engineers should take the lead to develop a true evaluation 
that considers all benefits of a waterway. We also believe any 
evaluation adopted must have input from and be validated by the 
administration, Congress and industry.
    The current criteria used to prioritize funding for projects, both 
Construction General and Operations and Maintenance, is incomplete and 
inaccurate. Too much money has been expended to use an evaluation that 
is unfair and disregards the true benefits realized from these waterway 
projects.
    We do not support any efforts to increase the benefit to cost ratio 
for projects above 1.0 and we do not support increasing the local 
sponsor's cost sharing requirements. This is not ``Corps reform,'' it 
is an initiative to eliminate the civil works program. We do support 
true reform that would make civil works projects less expensive and 
faster to complete. Corps reform should make the Corps of Engineers 
more efficient, less expensive and faster in the execution of civil 
works studies and completion of projects, not eliminate the program.
    I would now like to comment on our specific requests for the future 
economic well being of the citizens residing in the four-State Red 
River Basin regions.
    Navigation.--The J. Bennett Johnston Waterway is living up to the 
expectations of the benefits projected. We are extremely proud of our 
public ports, municipalities and State agencies that have created this 
success. The four public ports had a 20 percent increase in tonnage 
from calendar year 2002 to calendar year 2003. New opportunities were 
announced in calendar year 2003 at each of the ports, which will 
further increase annual tonnage. You are reminded that the Waterway is 
not complete, 6 percent remains to be constructed, $118 million. We 
appreciate Congress's appropriation level in fiscal year 2004 of $10.4 
million, however, the President's fiscal year 2005 budget drastically 
cuts that to $4 million, which is unacceptable. There is a capability 
for $20 million of work, but we realistically must have a minimum of 
$10-15 million to keep the project moving toward completion.
    The RRVA formed a Navigation Committee for industry, the Corps of 
Engineers and Coast Guard to partner in making our Waterway a success. 
In calendar year 2003 we succeeded in getting electronic charts 
completed and they are now in use. Permanent channel markers have also 
been completed. Both of these initiatives will provide additional aids 
to navigation necessary to insure safe and efficient navigation, 
especially during high water events, when commercial operations have 
ceased in past years.
    Now that the J. Bennett Johnston Waterway is reliable year round we 
must address efficiency. Presently a 9-foot draft is authorized for the 
J. Bennett Johnston Waterway. Our Waterway feeds into the Mississippi 
River, Atchafalaya River and Gulf Inter-coastal Canal, which are all 
authorized at a 12-foot draft. A 12-foot draft would allow an 
additional one-third cargo capacity, per barge, which will greatly 
increase the efficiency of our Waterway and reduce transportation 
rates. This one action would have the greatest, positive impact to 
reduce rates to a competitive level that would bring more industries to 
use waterborne transportation. We request that the Corps conduct a 
reconnaissance study, to evaluate this proposal, at a cost of $100,000.
    The feasibility study to continue navigation from Shreveport-
Bossier City, Louisiana into the State of Arkansas will be completed in 
calendar year 2004. We appreciate that Congress appropriated adequate 
funding to complete this study. There is great optimism that the study 
will recommend a favorable project. This region of SW Arkansas and NE 
Texas continues to suffer major unemployment and this navigation 
project, although not the total solution, will help revitalize the 
economy. We request funding $400,000 to initiate planning, engineering 
and design, PED.
    Bank Stabilization.--One of the most important, continuing 
programs, on the Red River is bank stabilization in Arkansas and North 
Louisiana. We must stop the loss of valuable farmland that erodes down 
the river and interferes with the navigation channel. In addition to 
the loss of farmland is the threat to public utilities such as roads, 
electric power lines and bridges; as well as increased dredging cost in 
the navigable waterway. These bank stabilization projects are 
compatible with subsequent navigation and we urge that they be 
continued in those locations designated by the Corps of Engineers to be 
the areas of highest priority. We appreciated the Congressional funding 
in fiscal year 2004 and request you fund this project at a level of $10 
million in fiscal year 2005.
    Flood Control.--You will recall that in 1990 major areas of 
northeast Texas, Southwest Arkansas and the entire length of the Red 
River in Louisiana were ravaged by the worst flooding to hit the region 
since 1945 and 1957. More than 700,000 acres were flooded with total 
damages estimated at $20.4 million. However, it could have been much 
worse. The Corps of Engineers estimates that without the flood control 
measure authorized by Congress over the past several decades an 
additional 1.3 million acres would have been flooded with an estimated 
$330 million in additional flood damage to agriculture and urban 
developments.
    We continue to consider flood control a major objective and request 
you continue funding the levee rehabilitation projects ongoing in 
Arkansas. Five of eleven levee sections have been completed and brought 
to Federal standards. Appropriations of $4 million will construct two 
more levee sections in Lafayette County, AR.
    The levees in Louisiana have been incorporated into the Federal 
system; however, they do not meet current safety standards. These 
levees do not have a gravel surface roadway, threatening their 
integrity during times of flooding. It is essential for personnel to 
traverse the levees during a flood to inspect them for problems. 
Without the gravel surface the vehicles used cause rutting which can 
create conditions for the levees to fail. A gravel surface will insure 
inspection personnel can check the levees during the saturated 
conditions of a flood. Funding has been appropriated and approximately 
50 miles of levees in the Natchitoches Levee District will be completed 
this year. We request $2 million to continue this important project in 
other parishes.
    Clean Water.--Nearly 3,500 tons of natural salts, primarily sodium 
chloride, enter the upper reaches of the Red River each day, rendering 
downstream waters unusable for most purposes. The Truscott Brine Lake 
project, which is located on the South Fork of the Wichita River in 
King and Knox Counties, Texas became operational in 1987. An 
independent panel of experts found that the project not only continues 
to perform beyond design expectations in providing cleaner water, but 
also has an exceptionally favorable cost benefit ratio. In fiscal year 
1995 $16 million dollars was appropriated by the administration, to 
accelerate engineering design, real estate acquisition and initiate 
construction of the Crowell Brine Dam, Area VII and Area IX.
    Due to a conflict over environmental issues, raised by the U.S. 
Fish and Wildlife Service, completion of the SFEIS was delayed pending 
further study to determine the extent of possible impacts to fish and 
wildlife, their habitats and biological communities along the Red River 
and Lake Texoma. In an effort to resolve these issues and insure that 
no harmful impact to the environment or ecosystems would result, a 
comprehensive environmental and ecological monitoring program was 
implemented. It evaluates the actual impacts of reducing chloride 
concentrations within the Red River watershed. This base line data is 
crucial to understanding the ecosystem of the Red River basin west of 
Lake Texoma and funding for this must continue.
    The Assistant Secretary of the Army (Civil Works), in October 1998, 
agreed to support a re-evaluation of the Wichita River Basin tributary 
of the project. The re-evaluation report will be completed in fiscal 
year 2004. Completion of this project will reclaim Lake Kemp as a 
usable water source for the City of Wichita Falls and the region. This 
project will provide improved water quality throughout the four States 
of the Red River providing the opportunity to use surface water and 
reduce dependency on ground water. We request appropriations of 
$2,500,000 to continue this important environmental monitoring and to 
complete plans and specifications of the Wichita River control 
features.
    Water Supply.--Northwest Texas has been overrun with non-native 
species of brush and mesquite. It now dominates millions of acres of 
rangelands and has negatively impacted water runoff. Studies have 
indicated that brush management could increase runoff by as much as 30 
percent to 40 percent. This would be of great value in opportunities 
for more surface water use and less dependency on ground water. Other 
benefits include an ecological diversity of plant and animal species, 
range fire control and cattle production. A $100,000 reconnaissance 
study would determine if there is a Federal interest and what magnitude 
these benefits would be.
    Lake Kemp, just west of Wichita Falls, TX, is a water supply for 
the needs of this region. Due to siltation the available storage of 
water has been impacted. A $750,000 reallocation study is requested to 
determine water distribution needs and raising the conservation pool. 
$375,000 is requested in fiscal year 2005 to initiate this 2-year 
study.
    Operation & Maintenance.--We appreciate the support of your 
subcommittee to support navigation to Shreveport/Bossier City, which is 
now providing a catalyst to our industrial base, creating jobs and 
providing economic growth. We request that O&M funding levels remain at 
the expressed Corps capability to maintain a safe, reliable and 
efficient transportation system.
    Our major project for O&M is the J. Bennett Johnston Waterway. From 
this project four public ports and three private terminals have been 
established. The tonnage at the public ports increased by 20 percent 
from calendar year 2002 to calendar year 2003. Even though we continue 
to show growth the administration continues to reduce our O&M budget 
and not include maintenance dredging. Without dredging the Waterway 
would effectively close down terminating our ports and terminal. The 
President's budget included $10,600,000; however, a minimum of 
$14,000,000 is required to address our annual dredging needs and 
operational costs for the five locks and dams.
    Full O&M capability levels are not only important for our Waterway 
project but for all our Corps projects and flood control lakes. The 
backlog of critical maintenance only becomes worse and more expensive 
with time. We urge you to appropriate funding to address this serious 
issue at the expressed full Corps capability. The ``Summary of Fiscal 
Year 2004 Requests'', following this testimony, lists our major O&M 
projects and the level needed to address this issue.
    We are sincerely grateful to you for the past support you have 
provided our various projects. We hope that we can count on you again 
to fund our needs and complete the projects started that will help us 
diversify our economy and create the jobs so badly needed by our 
citizens. We have included a summary of our requests for easy 
reference.
    Thank you for the opportunity to present this testimony and project 
details of the Red River Valley Association on behalf of the 
industries, organizations, municipalities and citizens we represent 
throughout the four-State Red River Valley Region. We believe that any 
Federal monies spent on civil work projects are truly investments in 
our future and will return several times the original investment in 
benefits that will accrue back to the Federal Government.
    Grant Disclosure.--The Red River Valley Association has not 
received any Federal grant, sub grant or contract during the current 
fiscal year or either of the 2 previous fiscal years.
                                 ______
                                 

        Prepared Statement of the Crescent City Harbor District

    The Crescent City Harbor District is requesting $3 million in 
funding in the fiscal year 2005 Energy and Water Development 
appropriations bill. These funds are needed for maintenance dredging of 
our harbor and for completing our Dredging Materials Management Plan.
    Dredging funds are critical for the future of our harbor. Crescent 
City has long been a key port for the landing of Pink shrimp, Dungeness 
crab, and groundfish. In 2001, commercial landings exceeded $6 million. 
In 2002, even with reduced fishing opportunities, our fleets landed 
over five and $500,000 worth of seafood. The most recent Dungeness crab 
season, from December 2003 until the present, very likely set a record 
for production and value. Although some groundfish and Salmon species 
are at relatively low levels, many others are abundant. We look forward 
to harvesting the sustainable yield of our natural resources once the 
weaker stocks are rebuilt. But we must dredge the harbor now to take 
advantage of these future opportunities.
    Over the years our community has made a substantial investment in 
the harbor. Our major dock is called ``Citizens Dock'' because it was 
built entirely by local volunteers in 1950. Since then, we have built a 
modern boat basin, fish processing plants, and a superb vessel repair 
facility. Our harbor is the safest, most convenient harbor in Northern 
California for both recreational and commercial fishermen. But the 
economic viability of these facilities depends on dredging the harbor.
    Currently we are in the midst of developing a master plan that will 
help identify and then implement new opportunities to diversify the 
economic base of our harbor. Both the City of Crescent City and the 
County of Del Norte are actively supporting our master plan efforts. We 
hope to identify several opportunities that will expand and revitalize 
our struggling local economy. But the success of our planning process 
depends on dredging the harbor.
    All our efforts, investments, and plans will come to nothing if we 
cannot dredge our harbor. We look forward to working together to ensure 
that dredging funds are in place in next year's appropriations cycle so 
that our harbor can remain a key part of the economy of Del Norte 
County and Northern California.
                                 ______
                                 
                Letter From the Arizona Power Authority
                                  Phoenix, Arizona, March 23, 2004.
Senate Subcommittee on Energy and Water Development,
126 Dirksen Senate Office Bldg., Washington, DC 20510.
    Re: Increased security costs at Reclamation, Corps of Engineers and 
Western Area Power Administration facilities

    Dear Chairman Domenici and Ranking Member Reid: Enclosed please 
find a copy of a resolution passed by the Arizona Power Authority 
Commission at its March meeting urging that increased costs for 
security at Hoover Dam and similar Federal projects be made non-
reimbursable. Would you please enter this letter and the attached 
resolution in the record of your proceedings.
            Sincerely,
                                      Joseph W. Mulholland,
                                                Executive Director.
              arizona power authority resolution no. 04-2
    security costs at hoover dam and other federal power facilities
    Hoover Dam, one of the most famous structures in the world, is one 
of a number of Federal dams that were developed to provide benefits to 
millions of citizens in the Western United States, including flood 
control, irrigation, municipal and industrial water supplies, 
hydropower generation, recreation and environmental benefits.
    Ensuring the safety and security of Hoover Dam and other similar 
Federal projects is of vital importance to all of the citizens of the 
United States.
    The Arizona Power Authority and other State agencies and consumer-
owned electric utilities already shoulder the majority of the 
reimbursable cost of these facilities, including subsidizing irrigation 
features, environmental programs, and repayment of the Federal debt 
associated with construction, operation, maintenance and replacements.
    NOW THEREFORE, BE IT RESOLVED:
    That the Commissioners of the Arizona Power Authority call upon the 
Federal Government to ensure that all costs associated with the safety 
and security of Hoover Dam and similar Federal facilities in the 
aftermath of the events of September 11, 2001, be treated as 
nonreimbursable and that payment of such costs be funded through 
Federal appropriations as a national obligation.
    UNANIMOUSLY ADOPTED by the Arizona Power Authority Commission this 
sixteenth day of March 2004.
                                 ______
                                 

    Prepared Statement of the St. Francis Levee District of Arkansas

                           executive summary
    The Mississippi Valley Flood Control Association Fiscal Year 2005 
Civil Works Budget, Mississippi River and Tributaries Appropriations--
Requesting Appropriations of $9,500,000 for Construction and $8,805,000 
for Maintenance and Operation in the St. Francis Basin Project and a 
total of $450,000,000 for the Mississippi River and Tributaries 
Project.
                         background information
    My name is Rob Rash, and my home is in Marion, Arkansas, located on 
the West side of the Mississippi River and in the St. Francis Basin. I 
am the Chief Engineer of the St. Francis Levee District of Arkansas. 
Our District is the local cooperation organization for the Mississippi 
River and Tributaries Project and the St. Francis Basin Project in 
Northeast Arkansas. Our District is responsible for the operation and 
maintenance of 160 miles of Mississippi River Levee and 75 miles of St. 
Francis River Tributary Levee in Northeast Arkansas.
    The St. Francis Basin is comprised of an area of approximately 
7,550 square miles in Southeast Missouri and Northeast Arkansas. The 
basin extends from the foot of Commerce Hills near Cape Girardeau, 
Missouri to the mouth of the St. Francis River, 7 miles above Helena, 
Arkansas, a total distance of 235 miles. It is bordered on the east by 
the Mississippi River and on the West by the uplands of Bloomfield and 
Crowley's Ridge, having a maximum width of 53 miles. The Mississippi 
River and Tributaries Project and the St. Francis Basin Project provide 
critical flood protection to over 2,500 square miles in Northeast 
Arkansas alone. This basin's flood control system is the very lifeblood 
of our livelihood and prosperity. Our resources and infrastructure are 
allowing the St. Francis Basin and the Lower Mississippi Valley to 
develop into a major commercial and industrial area for this great 
Nation. The basin is quickly becoming a major steel and energy 
production area. The agriculture industry in Northeast Arkansas and the 
Lower Mississippi Valley continues to play an integral role in 
providing food and clothing for this Nation. This has all been made 
possible because Congress has long recognized that flood control in the 
Lower Mississippi Valley is a matter of national interest and security 
and has authorized the U.S. Army Corps of Engineers to implement a 
flood control system in the Lower Mississippi Valley that is the envy 
of the civilized world. With the support of Congress over the years, we 
have continued to develop our flood control system in the Lower 
Mississippi Valley through the Mississippi River and Tributaries 
Project and for that we are extremely grateful.
    Although, at the current level of project completion, there are 
areas in the Lower Mississippi Valley that are subject to major 
flooding on the Mississippi River. The level of funding that has been 
included in the President's Budget for the overall Mississippi River 
and Tributaries Project is not sufficient to adequately fund and 
maintain this project. The level of funding will require the citizens 
of the Lower Mississippi Valley to live needlessly in the threat of 
major flood devastation for the next 30 years. Timely project 
completion is of paramount importance to the citizens of the Lower 
Mississippi. Ten and Fifteen Mile Bayou improvements are just one of 
many construction projects necessary for flood relief in the St. 
Francis Basin. Ten and Fifteen Mile Bayou improvements were 
reauthorized by Congress through the Flood Control Act of 1928, as 
amended. Section 104 of the Consolidated Appropriation Act of 2001 
modified the St. Francis Basin to expand the project boundaries to 
include Ten and Fifteen Mile Bayous and shall not be considered 
separable elements. Total project length of 38 miles includes Ten and 
Fifteen Mile Bayou, Ditch No. 15 and the 10 Mile Diversion Ditch that 
provide flood control for West Memphis and Vicinity. Without additional 
funds, construction would be delayed and West Memphis and Vicinity will 
continue to experience record flooding as seen December 17, 2001. West 
Memphis and Vicinity would experience immediate flood relief when the 
first item of construction is completed.
                      u.s. army corps of engineers
    We are strongly opposed to any action that would transfer any part 
or the entire U.S. Army Corps of Engineers Civil Works mission to any 
other agency or department of the Federal Government. This agency has 
completed and overseen the Civil Works mission since its inception and 
has done quite well. Very few of our other governmental bodies can 
report and show a return of the taxpayer's investment as the Corps of 
Engineers can and has been doing for many years. It has been reported 
this administration desires to transfer the Corps Civil Works program 
to the Department of Transportation, the Flood Control and 
Environmental Restoration to the Department of Interior and the 
Regulatory Program to the Environmental Protection Agency. The U.S. 
Army Corps of Engineers has rendered extremely valuable services for 
this Nation for many years. The Corps has created an inland waterways 
system that is the envy of the rest of the world. Our Nation's 
commercial transportation system is critical to the Nation's economy 
and the environmental well being and part of this system is used to 
transport military equipment in support of the war on terrorism. The 
Corps has also been in the forefront to provide flood control and 
environmental restoration projects and have supported our troops at 
every armed conflict this Nation has engaged in. In our opinion, it 
will be a serious mistake and have a negative Nation-wide impact to 
spread the functions of the Corps into several parts across a Federal 
bureaucracy. This Nation would lose a wonderful asset and one we have 
enjoyed for over 200 years.
                            proposed funding
    We support the amount of $450,000,000 requested by the Mississippi 
Valley Flood Control Association for use in the overall Mississippi 
River and Tributaries Project. This is the minimum amount that the 
Executive Committee of the Association feels is necessary to maintain a 
reasonable time line for completion of the overall Mississippi River 
and Tributaries Project. Also, the amounts that have been included in 
the President's Budget for the St. Francis Basin Project; construction, 
operation and maintenance have not been sufficient to fund critical 
projects. These declined amounts have resulted in a significant backlog 
of work within the St. Francis Basin. Therefore, our District is 
requesting additional capabilities of $9,500,000 for the St. Francis 
Basin Project construction funds and $8,805,000 for the St. Francis 
Basin operation and maintenance funds. The amounts requested for the 
St. Francis Basin Project are a part of the total amounts requested for 
the Mississippi River and Tributary Appropriations of the Civil Works 
Budget.
                               summation
    As your subcommittee reviews the Civil Works Budget of Fiscal Year 
2005 Appropriations for the Mississippi River and Tributaries Project, 
please consider the significance of this project to the Mississippi 
Valley and the Nation's economy and infrastructure. As always, I feel 
the subcommittee will give due regard to the needs of the Mississippi 
River Valley as it considers appropriations for the Mississippi River 
and Tributaries Project. I would like to sincerely thank the 
subcommittee for its past and continued support of the Mississippi 
River and Tributaries Project.
                                 ______
                                 

       Prepared Statement of the City of Virginia Beach, Virginia

    I am writing on behalf of the City of Virginia Beach, Virginia, to 
request funding for three critical projects in the fiscal year 2005 
Energy and Water Development Appropriations Bill. These three projects 
are:
  --$7 million for the Virginia Beach Erosion Control and Hurricane 
        Protection Project under the Construction account of the Army 
        Corps of Engineers.
  --$5.5 million for the City's Beach Renourishment for Sandbridge 
        Beach under the Construction account of the Army Corps of 
        Engineers.
  --$1.25 million for the maintenance of Rudee Inlet under the 
        Operation and Maintenance account of the Army Corps of 
        Engineers.
    virginia beach erosion control and hurricane protection project
    Funding for this project was originally authorized under the Water 
Resources Development Act of 1992, and a Public Cooperation Agreement 
was reached and signed between the City and the Army Corps of Engineers 
in August 1993. The Water Resources Development Act of 1992 authorized 
$112 million for Virginia Beach Erosion Control and Hurricane 
Protection project for the City.
    To date, the Federal Government has invested over $80 million for 
this project, matched by over $40 million in City funds. The results of 
the investment are a magnificent beach and seawall system, providing 
flood damage protection for the City's tourism industry infrastructure, 
which is important for the economic vitality of the City. The resulting 
beach is a showpiece for the region.
    The project has proven it works, most recently after Hurricane 
Isabel. The 100-year hurricane event protection level in this project 
did indeed protect the whole commercial beach area with no sustainable 
damage. If this project had not been in place there would have been 
huge losses.
    The Federal Government has a long-term (50-year) commitment with 
the City to maintain this project. However, in the President's Fiscal 
Year 2005 Budget no funding was included. The Federal and City 
government have spent too much money to build this project to let it 
all go to waste by not renourishing the beach with sand for protection. 
It is important to maintain this project, both to protect the 
investments already made and to minimize damages from future storm 
events.
                beach renourishment for sandbridge beach
    The Sandbridge Beach Replenishment project was created after 
decades of flood damage from storm events. Once the beach was 
replenished, flooding due to storms significantly decreased. The most 
recent example of the project's benefit is the reduced damage from 
Hurricane Isabel. Our request of $5,500,000 is needed to honor the 
previous Federal commitments for the programmed maintenance of these 
projects.
    The Sandbridge project was first approved by the Army Corps of 
Engineers and the North Atlantic Division of the Corps and subsequently 
authorized by Congress as a part of the Water Resources Development Act 
of 1992. The initial Public Cooperation Agreement was executed on 
February 3, 1998.
    When the beach was first replenished in 1998, the City funded 100 
percent of the total cost ($8.1 million). In 2002, the City covered 35 
percent of the cost while the Federal Government covered the remaining 
65 percent (total of $12 million). To date, the total amount of money 
invested (including City funds and funds from the Federal Government) 
is almost $20 million.
    As with the Hurricane Protection Project, the President's Fiscal 
Year 2005 Budget did not include funding for the Sandbridge Beach 
project. It is imperative that the City be able to maintain this 
project in order to protect the large number of family homes and rental 
properties in the area and minimize overall damages from future storm 
events. Today, only due to past efforts, Sandbridge is a vital and 
vibrant public beach.
                              rudee inlet
    Rudee Inlet, which was authorized under the Water Resources and 
Development Act of 1992, is a vital commercial and recreational 
resource to the City. But its special significance from a Federal 
standpoint is that it is used by the U.S. Navy Special Operations for 
training and equipment testing. The Army Corps of Engineers has been 
maintaining Rudee Inlet since 1991.
    Over the years there has been funding included in the President's 
budget for Rudee Inlet, however there was no funding included in the 
President's fiscal year 2005 budget. It is important to ensure that the 
inlet receives proper funding because failure to continue the 
maintenance on Rudee Inlet would negatively impact the City and the 
U.S. Navy special operations.
    It is vital to the City of Virginia Beach that the Federal 
Government maintain funding for these projects. All businesses located 
in the City, including hotels and restaurants, along with recreational 
activities, military operations, and tourism would be negatively 
impacted without the proper maintenance of these projects.
    I appreciate your time and consideration regarding this matter.
                                 ______
                                 
      Prepared Statement of the Santa Clara Valley Water District
                south san francisco bay shoreline study
    Background.--Congressional passage of the Water Resources 
Development Act of 1976, originally authorized the San Francisco Bay 
Shoreline Study, and Santa Clara Valley Water District (District) was 
one of the project sponsors. In 1990, the U.S. Army Corps of Engineers 
(Corps) concluded that levee failure potential was low because the 
existing non-Federal, non-engineered levees, which were routinely 
maintained by Leslie Salt Company (subsequently Cargill Salt) to 
protect their industrial interests, had historically withstood 
overtopping without failure. As a result, the project was suspended 
until adequate economic benefits could be demonstrated.
    Since the project's suspension in 1990, many changes have occurred 
in the South Bay. The State and Federal acquisition of approximately 
15,000 acres of South Bay salt ponds was completed in early March 2003. 
The proposed restoration of these ponds to tidal marsh will 
significantly alter the hydrologic regime and levee maintenance 
activities, which were assumed to be constant in the Corps' 1990 study. 
In addition to the proposed restoration project, considerable 
development has occurred in the project area. Many major corporations 
are now located within Silicon Valley's Golden Triangle, lying within 
and adjacent to the tidal flood zone. Damages from a 1 percent high 
tide are anticipated to far exceed the $34.5 million estimated in 1981, 
disrupting business operations, infrastructure, and residences. Also, 
historical land subsidence of up to 6 feet near Alviso, as well as the 
structural uncertainty of existing salt pond levees, increases the 
potential for tidal flooding in Santa Clara County.
    In July 2002, Congress authorized a review of the Final 1992 Letter 
Report for the San Francisco Bay Shoreline Study. The final fiscal year 
2004 appropriation for the Corps included funding for a new start 
Reconnaissance Study.
    Project Synopsis.--At present, large areas of Santa Clara, Alameda 
and San Mateo Counties would be impacted by flooding during a 1 percent 
high tide. The proposed restoration of the South San Francisco Bay salt 
ponds will result in the largest restored wetland on the West Coast of 
the United States, and also significantly alter the hydrologic regime 
adjacent to South Bay urban areas. The success of the proposed 
restoration is therefore dependent upon adequate tidal flood 
protection, and so this project provides an opportunity for multi-
objective watershed planning in partnership with the California Coastal 
Conservancy, the lead agency on the restoration project. Project 
objectives include: restoration and enhancement of a diverse array of 
habitats, especially several special status species; tidal flood 
protection; and provision of wildlife-oriented public access.
    Fiscal Year 2004 Funding.--$100,000 was appropriated in fiscal year 
2004 to conduct a Reconnaissance Study.
    Fiscal Year 2005 Funding Request.--It is requested that the 
congressional committee support an appropriation add-on of $500,000 for 
the South San Francisco Bay Shoreline Study to initiate a Feasibility 
Study to evaluate integrated flood protection and environmental 
restoration.
                   thompson creek restoration project
    Background.--Thompson Creek, a tributary of Coyote Creek, flows 
through the City of San Jose, California. Historically, the creek was a 
naturally-meandering stream and a component of the Coyote Creek 
watershed. The watershed had extensive riparian and oak woodland 
habitat along numerous tributary stream corridors and upland savanna. 
Currently, these habitat types are restricted to thin sparse pockets in 
the Thompson Creek restoration project area.
    Significant urban development over the last 20 years has modified 
the runoff characteristics of the stream resulting in significant 
degradation of the riparian habitat and stream channel. The existing 
habitats along Thompson Creek, riparian forest stands, are threatened 
by a bank destabilization and lowering of the water table. Recent large 
storm events (1995, 1997, and 1998) and the subsequent wet years in 
conjunction with rapid development in the upper watershed have resulted 
in a succession of high runoff events leading to rapid erosion.
    The upstream project limits start at Aborn Road and the downstream 
project limit is Quimby Road where Thompson creek has been modified as 
a flood Protection project. The project distance is approximately 1 
mile.
    Status.--In February 2000, the Santa Clara Valley Water District 
(District) initiated discussions with U.S. Army Corps of Engineers 
(Corps) for a study under the Corps' Section 206 Aquatic Ecosystem 
Restoration Program. Based on the project merits, the Corps began 
preparation of a Preliminary Restoration Plan (PRP) and subsequent 
Project Management Plan (PMP). Approval of the PRP will lead to the 
development of a Detailed Project Report (DPR). The DPR will provide 
the information necessary to develop plans and specifications for the 
construction of the restoration project.

                            PROJECT TIMELINE
------------------------------------------------------------------------
                                                         Date
------------------------------------------------------------------------
Request Federal assistance under Sec. 206    Feb. 2002
 Aquatic Ecosystem Restoration Program.
Initiate Study.............................  Jan. 2003
Public Scoping Meeting and Local             Sept. 2004
 Involvement.
Final Detailed Project Report to South       May 2006
 Pacific Division of Corps.
Initiate Plans and Specifications..........  July 2006
Project Cooperation Agreement signed.......  Dec. 2006
Certification of Real Estate...............  Mar. 2007
Advertise Construction Contract............  May 2007
Complete Plans and Specifications..........  July 2007
Award Construction Contract................  July 2007
Construction Start.........................  Sept. 2007
Complete Physical Construction.............  Dec. 2008
------------------------------------------------------------------------

    Fiscal Year 2004 Funding.--$100,000 earmark was received in the 
fiscal year 2004 Section 206 appropriation to complete the PRP.
    Fiscal Year 2005 Funding Recommendation.--It is requested that the 
congressional committee support an earmark of $300,000 within the 
Section 206 Aquatic Ecosystem Restoration Program.
                      pajaro river watershed study
    Background.--Pajaro River flows into the Pacific Ocean at Monterey 
Bay, about 75 miles south of San Francisco. The drainage area 
encompasses 1,300 square miles in Santa Clara, San Benito, Monterey, 
and Santa Cruz counties. Potential flood damage reduction solutions 
will require cooperation between four counties and four water/flood 
management districts. There is critical habitat for endangered wildlife 
and fisheries throughout the basin. Six separate flood events have 
occurred on the Pajaro River in the past half century. Severe property 
damage in Monterey and Santa Cruz counties resulted from floods in 
1995, 1997, and 1998. Recent flood events have resulted in litigation 
claims for damages approaching $50 million. $20 million in U.S. Army 
Corps of Engineers (Corps) flood fight funds have been expended in 
recent years.
    Status.--Two separate Corps activities are taking place in the 
watershed. The first activity is a Corps reconnaissance study 
authorized by a House Resolution in May 1996 to address the need for 
flood protection and water quality improvements, ecosystem restoration, 
and other related issues. The second activity is a General Revaluation 
Report initiated in response to claims by Santa Cruz and Monterey 
Counties that the 13 mile levee project constructed in 1949 through 
agricultural areas and the city of Watsonville is deficient. The 
reconnaissance study on the entire watershed was completed by the San 
Francisco District of the Corps in fiscal year 2002. The decision to 
continue onto a cost-shared feasibility study is currently delayed 
pending the Corps resolution of the flooding problems on the lower 
Pajaro River (Murphy's Crossing to the Ocean) and defining feasibility 
study goals that meet the interests of all Authority members.
    Local Flood Prevention Authority.--Legislation passed by the State 
of California (Assembly Bill 807) in 1999 titled ``The Pajaro River 
Watershed Flood Prevention Authority Act'' mandated that a Flood 
Prevention Authority be formed by June 30, 2000. The purpose of the 
Flood Prevention Authority is ``to provide the leadership necessary to 
. . . ensure the human, economic, and environmental resources of the 
watershed are preserved, protected, and enhanced in terms of watershed 
management and flood protection.'' The Flood Prevention Authority was 
formed in July 2000 and consists of representatives from the Counties 
of Monterey, San Benito, Santa Clara, and Santa Cruz, Zone 7 Flood 
Control District, Monterey County Water Resources Agency, San Benito 
County Water District, and the Santa Clara Valley Water District. The 
Flood Prevention Authority Board sent a letter of intent to cost share 
a feasibility study of the Pajaro River Watershed to the Corps in 
September 2001.
    Fiscal Year 2004 Funding.--$100,000 was authorized in fiscal year 
2004 for the Pajaro Watershed Feasibility Study.
    Fiscal Year 2005 Funding Recommendation.--It is requested that the 
congressional committee support an appropriation add-on of $100,000 in 
fiscal year 2005 for the Pajaro River Watershed Study.
                     upper guadalupe river project
    Background.--The Guadalupe River is one of two major waterways 
flowing through a highly urbanized area of Santa Clara County, 
California, the heart of Silicon Valley. Historically, the river has 
flooded the central district and southern areas of San Jose. According 
to U.S. Army Corps of Engineers (Corps) 1998 feasibility study, severe 
flooding would result from a 100-year flooding event and potentially 
cause $280 million in damages.
    The probability of a large flood occurring before implementation of 
flood prevention measures is high. The upper Guadalupe River overflowed 
in March 1982, January 1983, February 1986, January 1995, March 1995, 
and February 1998, causing damage to several residences and businesses 
in the Alma Avenue and Willow Street areas. The 1995 floods in January 
and March, as well as in February 1998, closed Highway 87 and the 
parallel light-rail line, a major commute artery.
    Project Synopsis.--In 1971, the Santa Clara Valley Water District 
(District) requested the Corps to reactivate an earlier study of 
Guadalupe River. From 1971 to 1980, the Corps established the economic 
feasibility and Federal interest in the Guadalupe River only between 
Interstate 880 and Interstate 280. Following the 1982 and 1983 floods, 
the District requested that the Corps reopen its study of the upper 
Guadalupe River upstream of Interstate 280. The Corps completed a 
reconnaissance study in November 1989, which established an 
economically justifiable solution for flood protection in this reach. 
The report recommended proceeding to the feasibility study phase, which 
began in 1990. In January 1997, the Corps determined that the National 
Economic Development (NED) Plan would be a 2 percent or 50-year level 
of flood protection rather than the 1 percent or 100-year level. The 
District strongly emphasized overriding the NED Plan determination, 
providing compelling reasons for using the higher 1 percent or 100-year 
level of protection. In 1998, the Acting Secretary of the Army did not 
concur to change the basis of cost sharing from the 50-year NED Plan to 
the locally preferred 100-year plan, resulting in a project that will 
provide less flood protection, and therefore, be unable to reduce flood 
insurance requirements and reimbursements, as well as eliminate 
recreational benefits and increase environmental impacts. Based on 
Congressional delegation requests, the Assistant Secretary of the Army 
directed the Corps to revise the Chief's Report to reflect more 
significant Federal responsibility. The Corps feasibility study 
determined the cost of the locally preferred 100-year plan is $153 
million and the Corps NED 50-year plan is $98 million. The District has 
requested that the costs of providing 50-year and 100-year flood 
protection be analyzed again during the preconstruction engineering 
design phase. In a memorandum for the Assistant Secretary of the Army, 
dated October 12, 2000, Major General Hans A. Van Winkle, Deputy 
Commander for Civil Works, made a similar recommendation.
    Fiscal Year 2004 Funding.--$150,000 was authorized in fiscal year 
2004 for the Upper Guadalupe River Project to continue preconstruction 
engineering and design.
    Fiscal Year 2005 Funding Recommendation.--It is requested that the 
congressional committee support an appropriation add-on of $3.5 million 
in fiscal year 2005 for the Upper Guadalupe River Flood Protection 
Project.
                          llagas creek project
    Background.--The Llagas Creek Watershed is located in southern 
Santa Clara County, California, serving the communities of Gilroy, 
Morgan Hill and San Martin. Historically, Llagas Creek has flooded in 
1937, 1955, 1958, 1962, 1963, 1969, 1982, 1986, 1996, 1997, 1998, and 
2002. The 1997, 1998, and 2002 floods damaged many homes, businesses, 
and a recreational vehicle park located in areas of Morgan Hill and San 
Martin. These are areas where flood protection is proposed. Overall, 
the proposed project will protect the floodplain from a 1 percent flood 
affecting more than 1,100 residential buildings, 500 commercial 
buildings, and 1,300 acres of agricultural land.
    Project Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (Public Law 566), the Natural Resources 
Conservation Service completed an economic feasibility study in 1982 
for constructing flood damage reduction facilities on Llagas Creek. The 
Natural Resources Conservation Service completed construction of the 
last segment of the channel for Lower Llagas Creek in 1994, providing 
protection to the project area in Gilroy. The U.S. Army Corps of 
Engineers (Corps) is currently updating the 1982 environmental 
assessment work and the engineering design for the project areas in 
Morgan Hill and San Martin. The engineering design is being updated to 
protect and improve creek water quality and to preserve and enhance the 
creek's habitat, fish, and wildlife while satisfying current 
environmental and regulatory requirement. Significant issues include 
the presence of additional endangered species including the red-legged 
frog and steelhead, listing of the area as probable critical habitat 
for steelhead, and more extensive riparian habitat than were considered 
in 1982. Project economics are currently being updated as directed by 
Corps Headquarters to determine continued project economic viability.
    Until 1996, the Llagas Creek Project was funded through the 
traditional Public Law 566 Federal project funding agreement with the 
Natural Resources Conservation Service paying for channel improvements 
and the District paying local costs including utility relocation, 
bridge construction, and right of way acquisition. Due to the steady 
decrease in annual appropriations for the Public Law 566 construction 
program since 1990, the Llagas Creek Project has not received adequate 
funding from U.S. Department of Agriculture to complete the Public Law 
566 project. To remedy this situation, the District worked with 
congressional representatives to transfer the construction authority 
from the Department of Agriculture to the Corps under the Water 
Resources Development Act of 1999 (Section 501). Since the transfer of 
responsibility to the Corps, the District has been working the Corps to 
complete the project.
    Fiscal Year 2004 Funding.--$250,000 was appropriated in fiscal year 
2004 for the Llagas Creek Flood Protection Project for planning and 
design.
    Fiscal Year 2005 Funding Recommendation.--Based upon the high risk 
of flood damage from Llagas Creek, it is requested that the 
congressional committee support an appropriation add-on of $1.35 
million in fiscal year 2005 for planning, design, and environmental 
updates for the Llagas Creek Project.
                      coyote creek watershed study
    Background.--Coyote Creek drains Santa Clara County's largest 
watershed, an area of more than 320 square miles encompassing most of 
the eastern foothills, the City of Milpitas, and portions of the Cities 
of San Jose and Morgan Hill. It flows northward from Anderson Reservoir 
through more than 40 miles of rural and heavily urbanized areas and 
empties into south San Francisco Bay.
    Prior to construction of Coyote and Anderson Reservoirs, flooding 
occurred in 1903, 1906, 1909, 1911, 1917, 1922, 1923, 1926, 1927, 1930 
and 1931. Since 1950, the operation of the reservoirs has reduced the 
magnitude of flooding, although flooding is still a threat and did 
cause damages in 1982, 1983, 1986, 1995, and 1997. Significant areas of 
older homes in downtown San Jose and some major transportation 
corridors remain susceptible to extensive flooding. The Federally-
supported lower Coyote Creek Project (San Francisco Bay to Montague 
Expressway), which was completed in 1996, protected homes and 
businesses from storms which generated record runoff in the northern 
parts of San Jose and Milpitas.
    The proposed Reconnaissance Study would evaluate the reaches 
upstream of the completed Federal flood protection works on lower 
Coyote Creek.
    Objective of Study.--The objectives of the Reconnaissance Study are 
to investigate flood damages within the Coyote Creek Watershed; to 
identify potential alternatives for alleviating those damages which 
also minimize impacts on fishery and wildlife resources, provide 
opportunities for ecosystem restoration, provide for recreational 
opportunities; and to determine whether there is a Federal interest to 
proceed into the Feasibility Study Phase.
    Study Authorization.--In May 2002, the House of Representatives 
Committee on Transportation and Infrastructure passed a resolution 
directing the Corps to ``. . . review the report of the Chief of 
Engineers on Coyote and Berryessa Creeks . . . and other pertinent 
reports, to determine whether modifications of the recommendations 
contained therein are advisable in the interest of flood damage 
reduction, environmental restoration and protection, water conservation 
and supply, recreation, and other allied purposes . . .''.
    Fiscal Year 2004 Funding.--No Federal funding was received in 
fiscal year 2004.
    Fiscal Year 2005 Funding Recommendation.--It is requested that the 
congressional committee support an appropriation add-on of $100,000 to 
initiate a multi-purpose Reconnaissance Study within the Coyote Creek 
Watershed.
            upper penitencia creek flood protection project
    Background.--The Upper Penitencia Creek Watershed is located in 
northeast Santa Clara County, California, near the southern end of the 
San Francisco Bay. In the last two decades, the creek has flooded in 
1980, 1982, 1983, 1986, 1995, and 1998. The January 1995 flood damaged 
a commercial nursery, a condominium complex, and a business park. The 
February 1998 flood also damaged many homes, businesses, and surface 
streets.
    The proposed project on Upper Penitencia Creek, from the Coyote 
Creek confluence to Dorel Drive, will protect portions of the cities of 
San Jose and Milpitas. The floodplain is completely urbanized; 
undeveloped land is limited to a few scattered agricultural parcels and 
a corridor along Upper Penitencia Creek. Based on the U.S. Army Corps 
of Engineers' (Corps) 1995 reconnaissance report, 4,300 buildings in 
the cities of San Jose and Milpitas are located in the flood prone 
area, 1,900 of which will have water entering the first floor. The 
estimated damages from a 1 percent or 100-year flood exceed $121 
million.
    Study Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (Public Law 83-566), the Natural Resources 
Conservation Service (formerly the Soil Conservation Service) completed 
an economic feasibility study (watershed plan) for constructing flood 
damage reduction facilities on Upper Penitencia Creek. Following the 
1990 U.S. Department of Agriculture Farm Bill, the Natural Resources 
Conservation Service watershed plan stalled due to the very high ratio 
of potential urban development flood damage compared to agricultural 
damage in the project area.
    In January 1993 the Santa Clara Valley Water District (District) 
requested the Corps proceed with a reconnaissance study in the 1994 
fiscal year while the Natural Resources Conservation Service plan was 
on hold. Funds were appropriated by Congress for fiscal year 1995 and 
the Corps started the reconnaissance study in October 1994. The 
reconnaissance report was completed in July 1995, with the 
recommendation to proceed with the feasibility study phase. The 
feasibility study, initiated in February 1998, is currently scheduled 
for completion in 2005.
    Advance Construction.--To accelerate project implementation, the 
District submitted a Section 104 application to the Corps for advance 
approval to construct a portion of the project. Approval of the Section 
104 application was awarded in December 2000. The advance construction 
is for a 2,600-foot-long section of bypass channel between Coyote Creek 
and King Road. However, due to funding constraints at the District and 
concerns raised by regulatory agencies, the design was stopped and 
turned over to the Corps to complete.
    Fiscal Year 2004 Funding.--$460,000 was appropriated in fiscal year 
2004 for the Upper Penitencia Creek Flood Protection Project for 
project investigation.
    Fiscal Year 2005 Funding Recommendation.--Based upon the high risk 
of flood damage from Upper Penitencia Creek and the need to proceed 
with the feasibility study, it is requested that the congressional 
committee support an appropriation add-on of $535,000 million, in 
addition to the $46,000 in the administration's fiscal year 2005 
budget, for a total of $600,000 for the Upper Penitencia Creek Flood 
Protection Project.
                     coyote/berryessa creek project
                    berryessa creek project element
    Background.--The Berryessa Creek Watershed is located in northeast 
Santa Clara County, California, near the southern end of the San 
Francisco Bay. A major tributary of Coyote Creek, Berryessa Creek 
drains 22 square miles in the City of Milpitas and a portion of San 
Jose.
    On average, Berryessa Creek floods once every 4 years. The most 
recent flood in 1998 resulted in significant damage to homes and 
automobiles. The proposed project on Berryessa Creek, from Calaveras 
Boulevard to upstream of Old Piedmont Road, will protect portions of 
the Cities of San Jose and Milpitas. The flood plain is largely 
urbanized with a mix of residential and commercial development. Based 
on the U.S. Army Corps of Engineers (Corps) 1993 draft General Design 
Memorandum, a 1 percent or 100-year flood could potentially result in 
damages of $52 million with depths of up to 3 feet.
    Study Synopsis.--In January 1981, the Santa Clara Valley Water 
District (District) applied for Federal assistance for flood protection 
projects under Section 205 of the 1948 Flood Control Act. The Water 
Resources Development Act of 1990 authorized construction on the 
Berryessa Creek Flood Protection Project as part of a combined Coyote/
Berryessa Creek Project to protect portions of the Cities of Milpitas 
and San Jose.
    The Coyote Creek element of the project was completed in 1996. The 
Berryessa Creek Project element proposed in the Corps' 1987 feasibility 
report consisted primarily of a trapezoidal concrete lining. This was 
not acceptable to the local community. The Corps and the District are 
currently preparing a General Reevaluation Report which involves 
reformulating a project which is more acceptable to the local community 
and more environmentally sensitive. Project features will include 
setback levees and floodwalls to preserve sensitive areas (minimizing 
the use of concrete), appropriate aquatic and riparian habitat 
restoration and fish passage, and sediment control structures to limit 
turbidity and protect water quality. The project will also accommodate 
the City of Milpitas' adopted trail master plan. Estimated total costs 
of the General Reevaluation Report work are $3.8 million, and should be 
completed in the summer of 2005.
    Fiscal Year 2004 Funding.--$250,000 was appropriated in fiscal year 
2004 for the Coyote/Berryessa Creek Flood Protection Project to 
continue the General Reevaluation Report and environmental documents 
update.
    Fiscal Year 2005 Funding Recommendation.--Based on the continuing 
threat of significant flood damage from Berryessa Creek and the need to 
continue with the General Reevaluation Report, it is requested that the 
congressional committee support an appropriation add-on of $750,000 for 
the Berryessa Creek Flood Protection Project element of the Coyote/
Berryessa Creek Project.
                san francisquito creek watershed project
    Background.--The San Francisquito Creek watershed comprises 45 
square miles and 70 miles of creek system. The creek mainstem flows 
through five cities and two counties, from Searsville Lake, belonging 
to Stanford University, to the San Francisco Bay at the boundary of 
East Palo Alto and Palo Alto. Here it forms the boundary between Santa 
Clara and San Mateo counties, California and separates the cities of 
Palo Alto from East Palo Alto and Menlo Park. The upper watershed 
tributaries are within the boundaries of Portola Valley and Woodside 
townships. The creek flows through residential and commercial 
properties, a biological preserve, and Stanford University campus. It 
interfaces with regional and State transportation systems by flowing 
under two freeways and the regional commuter rail system. The local 
communities have formed a Joint Powers Authority in 1999 to 
cooperatively manage flood and restoration efforts. San Francisquito 
Creek is one of the last natural continuous riparian corridors on the 
San Francisco Peninsula and home to one of the last remaining viable 
steelhead trout runs. It is a highly valued resource by all 
communities. The riparian habitat and urban setting offer unique 
opportunities for a multi-objective project addressing flood 
protection, habitat, water quality, and recreation.
    Flooding History.--The creeks mainstem has a flooding frequency of 
approximately once in 11 years. It is estimated that over $155 million 
in damages could occur in Santa Clara and San Mateo counties from a 1 
percent flood, affecting 4,850 home and businesses. Significant areas 
of Palo Alto flooded in December 1955, inundating about 1,200 acres of 
commercial and residential property and about 70 acres of agricultural 
land. April 1958 storms caused a levee failure downstream of Highway 
101, flooding Palo Alto Airport, the city landfill, and the golf course 
up to 4 feet deep. Overflow in 1982 caused extensive damage to private 
and public property. The flood of record occurred on February 3, 1998, 
when overflow from numerous locations caused severe, record 
consequences with more than $28 million in damages. More than 1,100 
homes were flooded in Palo Alto, 500 people were evacuated in East Palo 
Alto, and the major commute and transportation artery, Highway 101, was 
closed.
    Status.--Active citizenry are anxious to avoid a repeat of February 
1998 flood. Numerous watershed based studies have been conducted by the 
Corps, the Santa Clara Valley Water District, Stanford University, and 
the San Mateo County Flood Control District. Grassroots, consensus-
based organization, called the San Francisquito Watershed Council, has 
united stakeholders including local and State agencies, citizens, flood 
victims, developers, and environmental activists for over 10 years. The 
San Francisquito Creek Joint Powers Authority was formed in 1999 to 
coordinate creek activities with five member agencies and two associate 
members. The Authority Board has agreed to be the local sponsor for a 
Corps project and received congressional authorization for a Corps 
reconnaissance study in May 2002.
    Fiscal Year 2004 Funding.--$100,000 was appropriated to San 
Francisquito Creek in fiscal year 2004 to conduct a Watershed 
Reconnaissance Study.
    Fiscal Year 2005 Funding Recommendation.--It is requested the 
congressional committee support an appropriation add-on of $200,000 in 
fiscal year 2005 budget to initiate a Feasibility Study for the San 
Francisquito Creek Watershed.
                        guadalupe river project
    Background.--The Guadalupe River is a major waterway flowing 
through a highly developed area of San Jose, in Santa Clara County, 
California. A major flood would damage homes and businesses in the 
heart of Silicon Valley. Historically, the river has flooded downtown 
San Jose and the community of Alviso. According to the U.S. Army Corps 
of Engineers (Corps) 2000 Final General Reevaluation & Environmental 
Report for Proposed Project Modifications, estimated damages from a 1 
percent flood in the urban center of San Jose are over $576 million. 
The Guadalupe River overflowed in February 1986, January 1995, and 
March 1995, damaging homes and businesses in the St. John and Pleasant 
Street areas of downtown San Jose. In March 1995, heavy rains resulted 
in breakouts along the river that flooded approximately 300 homes and 
business.
    Project Synopsis.--In 1971, the local community requested that the 
Corps reactivate its earlier study. Since 1972, substantial technical 
and financial assistance have been provided by the local community 
through the Santa Clara Valley Water District in an effort to 
accelerate the project's completion. To date, more than $85.8 million 
in local funds have been spent on planning, design, land purchases, and 
construction in the Corps' project reach.
    The Guadalupe River Project received authorization for construction 
under the Water Resources Development Act of 1986; the General Design 
Memorandum was completed in 1992, the local cooperative agreement was 
executed in March 1992, the General Design Memorandum was revised in 
1993, construction of the first phase of the project was completed in 
August 1994, construction of the second phase was completed in August 
1996. Project construction was temporarily halted due to environmental 
concerns.
    To achieve a successful, long-term resolution to the issues of 
flood protection, environmental mitigation, avoidance of environmental 
effects, and project monitoring and maintenance costs, a multi-agency 
``Guadalupe Flood Control Project Collaborative'' was created in 1997. 
A key outcome of the collaborative process was the signing of the 
Dispute Resolution Memorandum in 1998, which modified the project to 
resolve major mitigation issues and allowed the project to proceed. 
Energy and Water Development Appropriations Act of 2002 was signed into 
law on November 12, 2001. This authorized the Modified Guadalupe River 
Project at a total cost of $226,800,000. Construction of the last phase 
of flood protection is scheduled for completion by December 2004 and is 
dependent on timely Federal funding and continuing successful 
mitigation issue resolution. The overall construction of the project 
including the river park and the recreation elements is scheduled for 
completion in 2006.
    Fiscal Year 2004 Funding.--$14 million was authorized in fiscal 
year 2004 to continue Guadalupe River Project construction.
    Fiscal Year 2005 Funding Recommendation.--It is requested that the 
congressional committee support an appropriation add-on of $6 million, 
in addition to the $6 million in the administration's fiscal year 2005 
budget, for a total of $12 million to continue construction of the 
final phase of the Guadalupe River Flood Protection Project.
                                 ______
                                 

  Prepared Statement of the Riverside County Flood Control and Water 
                         Conservation District

------------------------------------------------------------------------
                         Project                              Request
------------------------------------------------------------------------
Murrieta Creek Flood Control Project: Construction            $5,000,000
 General................................................
San Jacinto & Santa Margarita River Watersheds Special         1,000,000
 Area Management Plan (SAMP): General Investigations....
Santa Ana River--Mainstem: Construction General.........      58,060,000
------------------------------------------------------------------------

                  murrieta creek flood control project
    Murrieta Creek poses a severe flood threat to the cities of 
Murrieta and Temecula. Over $12 million in damages was experienced in 
the two cities as a result of Murrieta Creek flooding in 1993. The 1997 
Energy and Water Appropriations Act dedicated $100,000 to conducting a 
Reconnaissance Study of watershed management in the Santa Margarita 
Watershed ``including flood control, environmental restoration, 
stormwater retention, water conservation and supply, and related 
purposes''. The study effort was initiated in April 1997 and completed 
the following December. The Reconnaissance Study identified a Federal 
interest in flood control on the Murrieta sub-basin, and recommended 
moving forward with a detailed feasibility study for a flood control 
project on Murrieta Creek.
    Efforts on the Feasibility Study began in April 1998 and were 
completed in September 2000. The Feasibility Study Report recommends 
the implementation of Alternative 6, the Locally Preferred Plan (LPP) 
for flood control, environmental restoration and recreation. The LPP is 
endorsed by the Cities of Temecula and Murrieta and by the community as 
a whole.
    H.R. 5483, the Energy and Water Appropriations Act of 2000 included 
specific language authorizing the Corps to construct ``the locally 
preferred plan for flood control, environmental restoration and 
recreation described as Alternative 6, based on the Murrieta Creek 
Feasibility Report and Environmental Impact Statement dated September 
2000.''
    After finalizing the necessary cost sharing agreement in February 
2001, the Corps initiated the detailed engineering design necessary to 
develop construction plans and specifications for a Murrieta Creek 
Project utilizing a fiscal year 2001 appropriation of $750,000. The 
project received an additional appropriation of $1,000,000 for 
engineering design efforts in fiscal year 2002. Those funds were 
utilized to develop design-level topographic mapping for the entire 7-
mile long project, to complete all necessary geotechnical work, and to 
begin the preparation of construction drawings for the initial phases 
of construction.
    The Murrieta Creek Flood Control Project is being designed and will 
be constructed in four distinct phases. Phases 1 and 2 include channel 
improvements through the city of Temecula. Phase 3 involves the 
construction of a 240-acre detention basin, including the 160-acre 
restoration site and over 50 acres of recreational facilities. Phase 4 
of the project will include channel improvements through the city of 
Murrieta. Equestrian, bicycle and hiking trails as well as a continuous 
habitat corridor for wildlife are components of this and every phase of 
the project.
    The Omnibus Appropriations Bill for fiscal year 2003 provided $1 
million for a new construction start for this critical public safety 
project. Construction activities on Phase 1 of the project commenced in 
the Fall of 2003 and the Groundbreaking Ceremony was held on November 
12, 2003. The appropriations for fiscal year 2004 allowed the Corps to 
continue construction on Phase 1 and initiate its engineering design 
work for Phase 2 of the project. Phase 2 traverses the area of Temecula 
hardest hit with damages from the severe flooding of 1993. The Corps 
anticipates having a Phase 2 construction contract ready to award in 
the summer of 2005. The District, therefore, respectfully requests the 
committee's support of a $5 million appropriation in fiscal year 2005 
so that the Corps may complete construction on Phase 1, complete the 
design work for Phase 2 and initiate construction on Phase 2 of the 
long awaited Murrieta Creek Flood Control, Environmental Restoration 
and Recreation Project.
san jacinto & santa margarita river watersheds special area management 
                                  plan
    The County of Riverside recognizes the interdependence between the 
region's future transportation, habitat, open space and land-use/
housing needs. In 1999, work was initiated on Riverside County's 
Integrated Project (RCIP) to determine how best to balance these 
factors. The plan will create regional conservation and development 
reserves that will protect entire communities of native plants and 
animals while streamlining the process for compatible economic 
development in other areas. The major elements of the plan include 
water resource identification, multi-species planning, land use and 
transportation.
    In order to achieve a balance between aquatic resource protection 
and economic development, the Corps is developing a Special Area 
Management Plan (SAMP) for both the San Jacinto and Santa Margarita 
Watersheds. This comprehensive planning effort will be used to assist 
Federal, State and local agencies with their decision making and 
permitting authority to protect, restore and enhance aquatic resources 
while accommodating various types of development activities. The Santa 
Margarita and San Jacinto watersheds include such resources as 
woodlands, wetlands, freshwater marshes, vernal pools, streams, lakes 
and rivers.
    The final product of the SAMP will be the establishment of an 
abbreviated or expedited regulatory permitting process by the Corps 
under Section 404 of the Clean Water Act. The Corps' effort includes 
facilitating meetings between all potential watershed partners, and the 
integration of the joint study effort with the planning and multiple 
species habitat conservation efforts of the balance of the RCIP 
project.
    The $500,000 Federal appropriation received for fiscal year 2001 
allowed the Corps to initiate work on this 3-year, $5.5 million SAMP 
effort. The $2 million appropriation received in fiscal year 2002 
allowed the Corps to make significant progress on a ``landscape level 
aquatic resource delineation'', and to initiate a functional assessment 
to determine the value of waters and wetlands. The $1 million 
appropriation received for fiscal year 2003 allowed the Corps to 
complete their wetlands delineation effort. The $200,000 appropriations 
received for fiscal year 2004 allowed for some of the management of the 
preparation of the NEPA document to continue.
    Further funding is now needed to continue the SAMP effort. We, 
therefore, respectfully request that the committee support a combined 
$1,000,000 appropriation of Federal funding for fiscal year 2005 for 
the Corps to continue its work on the Special Area Management Plan for 
the San Jacinto and Santa Margarita River Watersheds.
                       santa ana river--mainstem
    The Water Resources Development Act of 1986 (Public Law 99-662) 
authorized the Santa Ana River--All River project that includes 
improvements and various mitigation features as set forth in the Chief 
of Engineers' Report to the Secretary of the Army. The Boards of 
Supervisors of Orange, Riverside and San Bernardino Counties continue 
to support this critical project as stated in past resolutions to 
Congress.
    The three local sponsors and the Corps signed the Local Cooperation 
Agreement (LCA) in December 1989. The first of five construction 
contracts started on the Seven Oaks Dam feature in the spring of 1990 
and the dam was officially completed on November 15, 1999. A dedication 
ceremony was held on January 7, 2000. Significant construction has been 
completed on the lower Santa Ana River Channel and on the San Timoteo 
Creek Channel. Construction activities on Oak Street Drain and the Mill 
Creek Levee have been completed. Seven Oaks Dam was turned over to the 
Local Sponsors for operation and maintenance on October 1, 2002.
    For fiscal year 2005, an appropriation of $4.46 million is 
necessary to initiate construction activities on several features 
within ``Reach 9'' of the Santa Ana River immediately downstream of 
Prado Dam. This segment of the Santa Ana River project is the last to 
receive flood protection improvements. The streambed existing today in 
a relatively natural state would receive only localized levee and slope 
revetment treatment to protect existing development along its southerly 
bank.
    The removal of accumulated sediment within an already completed 
section of the Santa Ana River Channel near its outlet to the Pacific 
Ocean will necessitate a fiscal year 2005 appropriation of $4.3 
million. This dredging work is necessary before project turnover to the 
Local Sponsors for operation and maintenance.
    Construction activities on the last remaining phase of San Timoteo 
Creek Channel, a Mainstem feature located within San Bernardino County, 
would be completed given a final $5 million appropriation.
    An appropriation of $7.0 million is being requested to fund the 
required mitigation for the operation and maintenance of the Seven Oaks 
Dam project.
    The Prado Dam feature of the Santa Ana River Mainstem project is in 
need of several major upgrades in order that it mitigate the potential 
impacts of a 100-year storm. All of the engineering work necessary to 
redesign the dam is now complete. In fiscal year 2003, the Corps was 
able to award a construction contract to begin modifications to the dam 
embankment and outlet works. An fiscal year 2005 appropriation of $37.3 
million would allow the Corps to continue with the construction of 
improvements to Prado Dam's outlet works and embankment, and would fund 
all necessary environmental mitigation measures.
    We, therefore, respectfully request that the committee support an 
overall $58,060,000 appropriation of Federal funding for fiscal year 
2005 for the Santa Ana River Mainstem project including Prado Dam.
                                 ______
                                 
          Prepared Statement of the Standing Rock Sioux Tribe
    Project.--Standing Rock MRI and Irrigation Systems, Garrison 
Diversion Unit (Public Law 99-294).
    Agency.--Corps of Engineers, Missouri Basin Pick Sloan, OMR.
                    fiscal year 2005 budget request
    The Standing Rock Sioux Tribe requests $6,500,000 in the Corps of 
Engineers' budget for fiscal year 2005 for the Missouri Basin Pick 
Sloan Project from the operation, maintenance and replacement (OMR) 
account to reconstruct three intakes made inoperable by siltation 
caused by the operation of water levels in Lake Oahe in the months 
August through December 2003 as set out below:

------------------------------------------------------------------------
 ------------------------------------------------------------------------
Cannonball Irrigation Intake............................      $2,000,000
Fort Yates Irrigation Intake............................       1,500,000
Fort Yates Municipal and Industrial Intake..............       3,000,000
                                                         ---------------
      Total.............................................       6,500,000
------------------------------------------------------------------------

                               background
    The construction and operation of Garrison and Oahe dams, principle 
components of the Missouri River Pick Sloan Program, by the Corps of 
Engineers has caused considerable damage to the Standing Rock Sioux 
Tribe of the Standing Rock Indian Reservation, North and South Dakota. 
The following activities have caused the siltation of three major 
intakes owned and operated by the Tribe for irrigation and domestic 
water use and threatens proposed downstream intakes:
  --The construction of Garrison Dam, upstream from Lake Oahe, has 
        caused the erosion of the bed and banks of the free flowing 
        Missouri River between Garrison Dam and Bismarck;
  --The construction of Oahe Dam and the filling of Lake Oahe has 
        caused the deposition of sediment eroded from the bed and banks 
        of the Missouri River between Garrison Dam and Bismarck at the 
        upper end of Lake Oahe. This deposition has been estimated by 
        the U.S. Bureau of Reclamation at 14,600 acre feet annually 
        (equivalent to 560,000 acre of deposition over the past 40 
        years);
  --Lowering the Lake Oahe water levels to historic minimums in fall 
        2003 caused the transport of sediments deposited in the upper 
        end of Lake Oahe to more downstream locations in Lake Oahe 
        within the Standing Rock Indian Reservation and inundated the 
        Cannonball irrigation intake and the Fort Yates municipal, 
        rural and industrial water intake, the principle source of 
        domestic water supply for the Standing Rock Sioux Tribe, The 
        Fort Yates irrigation intake was likewise stranded in fall 
        2003;
  --The Cannonball irrigation intake was inundated with 11 feet of 
        sediment between August and December 2003, and the Fort Yates 
        municipal, rural and industrial water intake was rendered 
        unusable by the deposition of sediment creating a water supply 
        emergency for 10,000 members of the Standing Rock Sioux Tribe.
    The Corps of Engineers was fully knowledgeable with respect to the 
erosion of the bed and bank of the Missouri River between Garrison Dam 
and Bismarck and the subsequent deposition of sediments on the Standing 
Rock Indian Reservation in the upper end of Lake Oahe as evidenced by 
the following documents, among others:
  --Alfred S. Harrison and Warren J. Mellema, May 1984, Aggradation and 
        Degradation Aspects of the Missouri River Mainstem Dams, MRD 
        Sediment Series, Number 34, U.S. Army Corps of Engineers, Omaha 
        District.
  --Corps of Engineers, December 1983, Deposition at the Heads of 
        Reservoirs, MRD Sediment Series, Number 31, Omaha District.
  --Sedimentation and Channel Stabilization Section, November 1999, 
        Sedimentation Impacts in the Cheyenne River Arm--Lake Oahe, 
        Phase II, Projected to 2058, MRR Sediment Memorandum, 20, U.S. 
        Army Corps of Engineers, Omaha District.
  --U.S. Geological Survey, 1995, Transport and Sources of Sediment in 
        the Missouri River between Garrison Dam and the Headwaters of 
        Lake Oahe, North Dakota, May 1988 through April 1991 Water-
        Resources Investigations Report 95-4087.
    The Standing Rock Sioux Tribe, pursuant to the Treaties of 1851 and 
1868 possesses prior and superior rights to the use of water in the 
Missouri River, its tributaries and its aquifers for present and future 
purposes and has exercised those water rights for the present 
development of irrigation and domestic water supply by the construction 
of intakes on the Missouri River where the natural channel of the river 
crosses the Standing Rock Indian Reservation, which intakes are 
submerged at the upper end of Lake Oahe.
depletion of tribes' funds appropriated pursuant to public law 99-294, 
                               as amended
    The Standing Rock MRI project funds (Public Law 99-294) have been 
depleted to make interim, emergency corrections to restore the drinking 
water supply for the Tribal membership and other residents served in 
Fort Yates, Cannonball, Porcupine and intermediate rural areas.
    Questions also arise with respect to the viability of the new 
irrigation intake in the Kenel area where the next phase of the Public 
Law 99-294 irrigation project is to be implemented. It is not known how 
long an intake as far south as Kenel will be viable because the rate of 
progress of sediment movement from the upper to middle segments of Lake 
Oahe is not known. Kenel has been under consideration as a possible 
site for long-term MRI intake, but this option must be reevaluated 
after better information is in hand to determine if the migration of 
sediment will reach Kenel in the near term.
    The cost of a long-term solution is not yet known. Far more 
information is needed on the phenomenon of sediment movement in Lake 
Oahe before a permanent location and elevation for a new intake can be 
established. Sound cost estimates can be prepared thereafter.
    The Cannonball Irrigation Unit was to begin operation in spring 
2004. It appears the Tribe will not be able to meet those expectations 
because 11 feet of silt now resides atop that intake. Funds for 
corrective measures at this site in fiscal year 2004 will further 
deplete the irrigation authority of Public Law 99-294 intended for 
development of additional parts of the 2,380 authorized acres.
              standing rock sediment analysis in lake oahe
    When Garrison Dam closed in 1955, a streamflow of 10,000 cubic feet 
per second (cfs) produced a water level elevation in the Missouri River 
downstream from the dam of approximately 1,676 feet above mean sea 
level. In 1990 a streamflow of 10,000 cfs produced a water level 
elevation in the Missouri River of approximately 1,668 feet, a decline 
in water level elevation of 8 feet. The reason for the decline in water 
level elevation for the same flow rate of 10,000 cfs was the excavation 
of the bed of the River below the dam. (See Figure 1 from the Corps of 
Engineers). With entrapment of all incoming sediment in the reservoir 
upstream from the dam, releases from the dam are free of sediment and 
have the capability to capture material from the bed and banks of the 
downstream river channel. Over a long period of time (1955 to 2003) 
this predictable activity has lowered the bed of the Missouri River and 
eroded the banks. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    When Oahe Dam closed and began filling in 1962, material excavated 
from the Missouri River below Garrison Dam was deposited by the slowing 
velocity of the River as it entered the upper end of the Oahe pool. 
Over a 30-year period an unknown volume and tonnage of sediment was 
excavated upstream and deposited downstream from Bismarck. (See Figure 
2 from USGS with independent modifications to show zones of excavation 
and deposition upstream and downstream from Bismarck, respectively.) 
The following statement confirms that Bismarck is near the transition 
between upstream excavation or ``degradation'' and downstream 
deposition or ``aggradation'' of the channel.

    ``. . . there have been no marked changes in stage at this station 
[Bismarck] except for discharges of 30,000 cfs or greater, which have 
exhibited a slight upward trend . . . a study completed by the Corps 
[of Engineers] in 1985 `Oahe-Bismarck Area Studies' indicated that 
aggradation has reduced the size of the channel in the study area, 
resulting in higher stages for the same discharge. The study concluded 
that for discharges of 50,000 to over 100,000 cfs, the stages have 
increased by 1 to 2 feet in the study area. It was also estimated that 
future aggradation will further increase stages for those discharges by 
an additional 0.8 to 1.4 feet.'' (U.S. Geological Survey, 1995, 
Transport and Sources of Sediment in the Missouri River Between 
Garrison Dam and the Headwaters of Lake Oahe, North Dakota, May 1988 
through April 1991, Water-Resources Investigations Report 95-4087).

    During the drought of the last few years, including 2003, water 
levels in Lake Oahe fell from average elevations of 1,605 feet to 
historic minimums. Only in year 1990 had water levels reached as low 
(1,582 feet) as in 2003. In 2002, water levels in the October through 
December time frame reached averages of 1,584 feet. In November 2003, 
water levels reached as low as 1,576 feet, the lowest on record. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Sufficient information is not in hand (but should be available) to 
determine the elevation of the bed of the Missouri River before 
sediment began to accumulate in the upper end of Lake Oahe. When the 
intake for the Cannonball Irrigation Project was constructed in the 
late 1990's, the intake was placed underwater in the former channel of 
the Missouri River (the lowest point at that River-mile). The top of 
the intake screen was at 1,573 feet. Similarly, the intake for the 
Standing Rock MRI Project was reportedly constructed in the former 
channel of the River at a known elevation not available at the time of 
this writing.
    Sediment moved downstream in fall 2003 as the reservoir levels in 
Lake Oahe were lowered and the Missouri River was required to flow 
across areas normally inundated and filled with sediment over the past 
40 years. In this zone at the upper end of the lowered Lake Oahe, the 
Missouri River eroded artificially deposited sediments and moved them 
further downstream in the Reservoir. This caused the failure of the 
intake for the Tribe's MRI Project and deposited as much as 11 feet of 
sediment in the former Missouri River channel at the Cannonball intake 
site. Sediment has reached elevation 1,584 feet or 11 feet above the 
bottom of 1,573 feet measured at the irrigation intake in August 2003.
    Elements of the phenomenon reported here have been studied by 
agencies of the United States, including the U.S. Geological Survey and 
the Corps of Engineers. It is believed that the Corps of Engineers knew 
or should have known that the lowering of water levels in Lake Oahe 
would cause the redistribution of sediments from the upper end of the 
Reservoir, where they knew sediments were deposited, to further 
downstream locations. At a minimum, the Tribe should have been notified 
in advance of the risk to its intakes as the Corps began its operations 
in the critical October to December period. Reasonable management of 
reservoir levels may have avoided the exigent conditions that existed 
for the Tribe in December and the considerable expense to redesign, 
reconstruct and relocate both MRI and irrigation intakes due to the 
releases from Garrison and management of water levels in Lake Oahe. 
When the emergency occurred, the Corps of Engineers increased releases 
from Garrison Dam from approximately 13,000 cfs (River stage at 4.2 
feet) to 18,000 cfs (River stage at 6.2 feet), the most marked change 
in releases during the October to December 2003 time frame. (See Figure 
3 from USGS).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Long-term solutions for the Tribe require collection of information 
not in the Tribe's hands and revision of the procedures for Garrison 
releases and management of Lake Oahe during drought conditions. 
Specifically, a sediment survey in the upper reaches of Lake Oahe is 
needed to document the current position of sediment deposits. Analysis 
is needed to determine where those deposits will move in the future and 
how the Tribe can locate and build dependable intakes. This problem 
affects at least two existing irrigation intakes (Cannonball and Fort 
Yates) and the MRI intake. The future irrigation intake at Kenel is 
also subject to an unknown level of risk. New operating procedures are 
needed that raised the minimum operating water levels. A diking system 
may be needed to contain upstream sediment.
    The Corps of Engineers is the responsible Federal agency that 
constructed and operated the Federal facilities causing the degradation 
of the bed of the Missouri River, the aggradation of the upper end of 
Lake Oahe, and the redistribution of sediments in the upper end of Lake 
Oahe to the destruction of the Tribe's intakes in fall 2003. 
Legislation is be needed to authorize the appropriation of funds to 
reconstruct new intakes of the Tribe in a manner to insure their 
dependability. Appropriate investigations will be needed of the 
baseline sediment conditions and the probable future redistribution in 
advance of permanent reconstruction. Mitigation measures and changes in 
the Master Manual are needed, including diking and new minimum 
operating water levels.
                                 ______
                                 

              Prepared Statement of the City of Morro Bay

    During World War II the Army Corps of Engineers (ACOE) designed and 
constructed a new harbor entrance at Morro Bay with two rock 
breakwaters. Since the initial construction, over 60 years ago, the 
Federal Government has maintained the harbor entrance, breakwaters and 
navigational channels. In fiscal year 1995 the ACOE completed the Morro 
Bay Harbor entrance improvement project to improve safety for 
commercial fishing and coastal navigation.
    The City of Morro Bay contributed almost $1,000,000 in local cost 
share to the ACOE Entrance Improvement Project. Since 1995 the Federal 
Government has funded maintenance dredging of Morro Bay Harbor every 
year. The most cost-effective manner to conduct this dredging has been 
using the ACOE dredge Yaquina every year in the Entrance Area due to 
rapid shoaling in that area, and scheduling a larger project to 
maintain the Morro and Navy Navigation channels every 3 to 4 years as 
those channels accumulate sediment at a slower rate.
    Below is a summary of dredging history for the federally designated 
navigation channels in Morro Bay.

------------------------------------------------------------------------
 Date                     Area Dredged                     Cubic Yardage
------------------------------------------------------------------------
  1997 Outer Entrance                                        63,009.00
  1998 Entrance, Main, Navy, Morro & Sand Trap              579,692.00
  1998 Entrance, Main                                       115,388.00
  1999 Entrance & Transitional Channel                      134,234.00
  2000 Entrance & Transitional Channel                      236,883.00
  2001 Entrance & Transitional Channel                      180,467.00
  2002 Entrance, Navy, Morro & Sand Trap                    868,483.10
  2003 Entrance & Transitional Channel                      170,817.00
------------------------------------------------------------------------

    Morro Bay Harbor is the only all-weather harbor of refuge between 
Santa Barbara and Monterey on the West Coast. Our Harbor directly 
supports almost 250 home-ported fishing vessels and marine dependent 
businesses. We provide critical maritime facilities for both 
recreational and commercial interests. Businesses that depend on the 
harbor generate $50,000,000 annually and employ over 700 people. The 
United States Coast Guard (USCG) maintains a 32 person National 
Security Base and Search and Rescue Station at Morro Bay Harbor to 
provide the Coast Guard services for the entire Central California 
Coast, including port safety coverage for the Diablo Canyon Nuclear 
Power Plant and Vandenberg Air Force Base.
    In 2000 the California legislature designated Morro Bay and several 
other small ports along the California coast as ``Harbors of Safe 
Refuge''. This legislation recognizes the critical role many small 
harbors play in affording a safety zone for commercial and recreational 
vessels transiting the California coast.
    Exposure to the open ocean and strong winter currents carrying 
sediment into the harbor create the need for a routine maintenance 
schedule to insure that the harbor entrance and federally designated 
navigation channels remain safe and navigable. The Morro Bay National 
Estuary Program recognizes the need to maintain the navigational 
channels in the harbor both for the viability of the commercial fishing 
industry and to maintain adequate tidal exchange for the health of the 
Morro Bay Estuary. It is imperative that the federally constructed 
navigation channels, entrance area and protective jetties be maintained 
to insure safe commerce and navigation on a 300-mile stretch of the 
California Coast and to maintain a safe port for the Coast Guard to 
operate from. Without continued Federal maintenance, all of the past 
local and Federal investment will be lost.
    Last year the budget included $1.4 million for dredging of the 
navigational channels including the Entrance Channel, the Navy Channel 
and the Morro Channel. This year the proposed budget eliminates all 
funding for the Morro Bay navigation channel maintenance dredging.
    The Army Corps of Engineers has the capability to execute $4.11 
million in maintenance dredging operations for fiscal year 2005. The 
entrance area has shoaled significantly since the last dredge cycle and 
will require dredging next year to sustain safe navigation in our area. 
We respectfully request that your distinguished subcommittee include 
$4.11 million in dredging funds for Morro Bay Harbor to keep our harbor 
open and safe in all conditions and to provide a safe base of 
operations for the United States Coast Guard.
    In addition to being homeport to over 250 commercial fishing 
vessels, Morro Bay Harbor is part of the federally designated National 
Estuary Program. The Morro Bay Estuary was the subject of an ACOE 
reconnaissance study (funded by Congress in 1998) of potential projects 
to restore sensitive habitat through improving tidal circulation and 
decreasing sedimentation. The County of San Luis Obispo and the Bay 
Foundation are acting as local sponsors for the Feasibility Phase. We 
support the funding of $250,000 to continue work on the feasibility 
study for the Morro Bay Habitat Restoration project in fiscal year 
2005.
    Thank you for your actions and support, and for the opportunity to 
present these requests to your subcommittee on behalf of the citizens 
of the City of Morro Bay.
                                 ______
                                 
        Prepared Statement of the Port of Sacramento, California
    The Port of Sacramento requests a fiscal year 2005 appropriation of 
$8.5 million for the continued deepening of the Sacramento River Deep 
Water Ship Channel.
    After a hiatus in construction, the Port has been actively working 
with the San Francisco District Corps of Engineers to reinvigorate this 
important project. The fiscal year 2005 appropriation will complete a 
Limited Re-Evaluation Report and provide funding to continue the 
deepening of the Ship Channel from 30 to 35. This 5 additional feet 
will greatly expand the accessability of the Port of Sacramento to the 
world fleet which will allow better service to existing customers and 
will improve the of diversify cargoes and customers, both which 
increase the revenues at the Port.
    This project is vital to the economic future of the Port of 
Sacramento, which has provided international waterborne cargo services 
in the Greater Sacramento region for 40 years. In the future, 
California will also ``re-discover'' that its ports, and particularly 
its inland Ports, are an environmentally friendly alternative to the 
burgeoning highway traffic. ``Short sea shipping'' is concept in 
waterborne transportation that is increasing in application in Europe 
as a means to reduce highway congestion.
    We would greatly appreciate your support of our appropriation 
request.
                                 ______
                                 

   Prepared Statement of the Washington Suburban Sanitary Commission

                        army corps of engineers

------------------------------------------------------------------------
                         Project                              Request
------------------------------------------------------------------------
Middle Potomac River Study..............................        $200,000
Patuxent River Watershed Study..........................         200,000
------------------------------------------------------------------------

                washington suburban sanitary commission
    The Washington Suburban Sanitary Commission (Commission or WSSC), 
established in 1918, is a public, bi-county agency providing water and 
wastewater services to Montgomery and Prince George's Counties in the 
Washington Capital region. WSSC is governed by six Commissioners with 
equal representation from each county and has developed its systems to 
the point where it is a national leader in the water and sewerage 
industry. The Commission is the among the ten largest water and 
wastewater utilities in the country, serving approximately 1.6 million 
people in a 1,000 square mile service area. In addition, the Commission 
provides services to 26 key Federal installations and facilities in the 
Washington area, including such important military facilities as 
Andrews Air Force Base; the National Imagery and Mapping Agency; the 
National Naval Medical Center; the Naval Surface Warfare Center; the 
U.S. Army Research Center. Numerous other State and local security-
related installations and offices also receive service from the 
Commission.
    Water treatment and distribution facilities operated by the 
Commission include three water supply reservoirs; two water filtration 
plants; 14 water pumping stations; 5,100 miles of water mains; and 54 
treated-water storage facilities. Water production at Commission 
facilities is 166 million gallons per day. In terms of wastewater 
facilities, the Commission operates six wastewater treatment plants; 41 
wastewater pumping stations; and approximately 4,900 miles of sewer 
mains.
                       middle potomac river study
    The Commission is committed to ensuring that the residents of the 
Montgomery and Prince George's Counties continue to have a clean, safe 
supply of drinking water. Consistent with that commitment is the need 
to improve that quality of the environment in the regions river basins 
and increase the ability to store water to meet increasing demand, 
particularly in times of drought.
    The Corps of Engineers' Baltimore District (District) has recently 
completed a reconnaissance study of the water resources needs of the 
Middle Potomac River Watershed. The District found that there is a 
Federal interest in pursuing further study opportunities within the 
Middle Potomac study area and recommended that the study continue into 
the feasibility phase to begin the planning process for the restoration 
of the Middle Potomac Watershed. One of the objectives identified for 
the feasibility phase was further study of the status of the region's 
water resources as they relate to water supply needs. One of the 
specific recommendations for further study is an effort to identify 
stresses on the Middle Potomac Watershed ecosystem at varying levels of 
water flows and the development of sustainable watershed management 
plans and planning tools. The Corps specifically mentioned WSSC as a 
potential non-Federal sponsor for this study. The Commission believes 
that such an effort, including an analysis of opportunities for 
additional water supply storage in the basin, is critical to the long-
term health of the region. The Corps has estimated that the total cost 
of this feasibility study is $3 million and the Commission supports an 
initial request of $200,000 in fiscal year 2005 to begin conducting 
this study.
                     patuxent river watershed study
    The Commission owns and operates the Triadelphia and Rocky Gorge 
Reservoirs on the Patuxent River. Together these reservoirs hold 14 
billion gallons of drinking water serving 700,000 people in Montgomery, 
Howard, and Prince Georges Counties in Maryland. Maintaining and 
improving the quality of the water in these reservoirs is a major 
objective of the Commission. The current buffer zones around these two 
reservoirs are relatively narrow. Expanding and restoring the habitat 
of these buffer zones would help ensure the long-term quality of the 
water in the reservoirs and also provide environmental benefits to the 
entire Patuxent River Basin. Improving the quality of the water in the 
Patuxent River would also prove beneficial to efforts to restore the 
health of the Chesapeake Bay.
    In July of 1995, the Corps of Engineers completed the ``Patuxent 
River Water Resources Reconnaissance Study'', which was authorized by 
House Committee on Public Works and Transportation Resolution dated 
September 28, 1994. The purpose of the study was to develop a watershed 
plan for managing the water and related land resources of the Patuxent 
River watershed. The watershed plan that was developed addresses multi-
purpose environmental solutions for the improvement of riparian, 
wetland, and aquatic habitat, improvements to water quality, recreation 
development and flood damage reduction measures. Among the actions 
recommended for implementation were riparian buffer projects and 
streambank protection and restoration projects. Such activities would 
reduce sedimentation and the runoff of pollutants.
    The Commission believes that more detailed study of the areas 
around the Triadelphia and Rocky Gorge Reservoirs would be consistent 
with the watershed plan developed as part of the Patuxent River Water 
Resources Reconnaissance Study and could lead to environmental 
restoration activities that would prove beneficial to the entire 
region, including Chesapeake Bay. Therefore, the Commission supports a 
request of $200,000 to conduct a feasibility study.
                                 ______
                                 

 Prepared Statement of the Metropolitan Water Reclamation District of 
                            Greater Chicago

    On behalf of the Metropolitan Water Reclamation District of Greater 
Chicago (District), I want to thank the subcommittee for this 
opportunity to present our priorities for fiscal year 2005 and, at the 
same time, express our appreciation for your support of the District's 
projects in the years past. The District is the local sponsor for three 
Corps of Engineers priority projects of the Chicagoland Underflow Plan: 
the O'Hare, McCook and Thornton Reservoirs. We are requesting the 
subcommittee's full support for McCook and Thornton Reservoirs, as the 
O'Hare Reservoir has been completed. Specifically, we request the 
subcommittee to include a total of $43,300,000 in construction funding 
for the McCook and Thornton Reservoir projects in the bill. The 
following text outlines these projects and the need for the requested 
funding.
                     the chicagoland underflow plan
    The Chicagoland Underflow Plan (CUP) consists of three reservoirs: 
the O'Hare, McCook and Thornton Reservoirs. These reservoirs are a part 
of the Tunnel and Reservoir Plan (TARP). The O'Hare Reservoir Project 
was fully authorized for construction in the Water Resources 
Development Act of 1986 (Public Law 99-662) and completed by the Corps 
in fiscal year 1999. This reservoir is connected to the existing O'Hare 
segment of the TARP. Adopted in 1972, TARP was the result of a multi-
agency effort, which included officials of the State of Illinois, 
County of Cook, City of Chicago, and the District.
    TARP was designed to address the overwhelming water pollution and 
flooding problems of the Chicagoland combined sewer areas. These 
problems stem from the fact that the capacity of the area's waterways 
has been overburdened over the years and has become woefully inadequate 
in both hydraulic and assimilative capacities. These waterways are no 
longer able to carry away the combined sewer overflow (CSO) discharges 
nor are they able to assimilate the pollution associated with these 
discharges. Severe basement flooding and polluted waterways are the 
inevitable result. More critically, larger storms generate back flows 
to Lake Michigan and pollute water supply for the six-county area. We 
point with pride to the fact that TARP was found to be the most cost-
effective and socially and environmentally acceptable way for reducing 
these flooding and water pollution problems. Experience to date has 
reinforced such findings with respect to economics and efficiency.
    The TARP plan calls for the construction of the new ``underground 
rivers'' beneath the area's waterways. The ``underground rivers'' are 
tunnels up to 35 feet in diameter and 350 feet below the surface. To 
provide an outlet for these tunnels, reservoirs will be constructed at 
the end of the tunnel systems. Approximately 101.5 miles of tunnels, 
constructed at a total cost of $2.2 billion, are operational. The final 
7.9 miles of tunnels, costing $168 million, are under construction. The 
tunnels capture the majority of the pollution load by capturing all of 
the small storms and the first flush of the large storms. The completed 
O'Hare CUP Reservoir provides 350 million gallons of storage. This 
Reservoir has a service area of 11.2 square miles and provides flood 
relief to 21,535 homes in Arlington Heights, Des Plaines and Mount 
Prospect. In its first 6 years of operation, O'Hare CUP Reservoir has 
taken water in 18 storm events, and yielded $62.8 million in flood 
damage reduction benefits, which exceeds its $44.5 million construction 
costs. The Thornton and McCook Reservoirs are currently under 
construction, but until they are completed significant areas will 
remain unprotected. Without these outlets, the local drainage has 
nowhere to go when large storms hit the area.
    Since its inception, TARP has not only abated flooding and 
pollution in the Chicagoland area, but has helped to preserve the 
integrity of Lake Michigan. In the years prior to TARP, a major storm 
in the area would cause local sewers and interceptors to surcharge 
resulting in CSO spills into the Chicagoland waterways and during major 
storms into Lake Michigan, the source of drinking water for the region. 
Since these waterways have a limited capacity, major storms have caused 
them to reach dangerously high levels resulting in massive sewer 
backups into basements and causing multi-million dollar damage to 
property.
    Since implementation of TARP, 741 billion gallons of CSOs have been 
captured by TARP, that otherwise would have reached waterways. Area 
waterways are once again abundant with many species of aquatic life and 
the riverfront has been reclaimed as a natural resource for recreation 
and development. Closure of Lake Michigan beaches due to pollution has 
become a rarity. The elimination of CSOs will reduce the quantity of 
discretionary dilution water needed to keep the area waterways fresh. 
This water can be used instead for increasing the drinking water 
allocation for communities in Cook, Lake, Will and DuPage counties that 
are now on a waiting list to receive such water. Specifically, since 
1977, these counties received an additional 162 million gallons of Lake 
Michigan water per day, partially as a result of the reduction in the 
District's discretionary diversion since 1980. Additional allotments of 
Lake Michigan water will be made to these communities, as more water 
becomes available from reduced discretionary diversion.
    With new allocations of lake water, more than 20 communities that 
previously did not get lake water are in the process of building, or 
have already built, water mains to accommodate their new source of 
drinking water. The new source of drinking water will be a substitute 
for the poorer quality well water previously used by these communities. 
Partly due to TARP, it is estimated by IDOT that between 1981 and 2020, 
283 million gallons per day of Lake Michigan water would be added to 
domestic consumption. This translates into approximately 2 million 
additional people that would be able to enjoy Lake Michigan water. This 
new source of water supply will not only benefit its immediate 
receivers but will also result in an economic stimulus to the entire 
Chicagoland area by providing a reliable source of good quality water 
supply.
                   the mccook and thornton reservoirs
    The McCook and Thornton Reservoirs of the Chicagoland Underflow 
Plan (CUP) were fully authorized for construction in the Water 
Resources Development Act of 1988 (Public Law 100-676). These CUP 
reservoirs, as previously discussed, are a part of TARP, a flood 
protection plan that is designed to reduce basement flooding due to 
combined sewer back-ups and inadequate hydraulic capacity of the urban 
waterways.
    These reservoirs will provide a storage capacity of 18 billion 
gallons and will provide annual benefits of $115 million. The total 
potential annual benefits of these projects are approximately twice as 
much as their total annual cost. The District, as the local sponsor, 
has acquired the land necessary for these projects, and will meet its 
cost sharing obligations under Public Law 99-662.
    These projects are a very sound investment with a high rate of 
return. They will enhance the quality of life, safety and the peace of 
mind of the residents of this region. The State of Illinois has 
endorsed these projects and has urged their implementation. In 
professional circles, these projects are hailed for their 
farsightedness, innovation, and benefits.
    Based on two successive Presidentially-declared flood disasters in 
our area in 1986 and again in 1987, and dramatic flooding in the last 
several years, we believe the probability of this type of flood 
emergency occurring before implementation of the critical flood 
prevention measure is quite high. As the public agency for the greater 
Chicagoland area responsible for water pollution control, and as our 
past sponsorship for flood control projects, we have an obligation to 
protect the health and safety of our citizens. We are asking your 
support in helping us achieve this necessary and important goal of 
construction completion.
    We appreciate that the subcommittee has included critical levels of 
funds for these important projects. We were delighted to see the 
$19,500,000 in construction funds for the McCook and Thornton 
Reservoirs included in the Fiscal Year 2004 Energy and Water 
Development Appropriations Act. In addition, an additional $1,000,000 
was included in the Fiscal Year 2004 Consolidated Appropriations bill. 
However, it is important that we receive a total of $43,300,000 in 
construction funds in fiscal year 2005 to maintain the schedule of 
these critical projects. This funding is critical to continue the 
construction of the McCook Reservoir on schedule, in particular, to 
complete construction of the grout curtain, distribution tunnels, and 
pumps and motors and to accelerate the design of the Thornton 
Reservoir. The community has waited long enough for protection and we 
need these funds now to move the project in construction. We 
respectfully request your consideration of our request.
                                summary
    Our most significant recent flooding occurred on February 20, 1997, 
when almost 4 inches of rain fell on the greater Chicagoland area. Due 
to the frozen ground, almost all of the rainfall entered our combined 
sewers, causing sewerage back-ups throughout the area. When the 
existing TARP tunnels filled with approximately 1.2 billion gallons of 
sewage and runoff, the only remaining outlets for the sewers were our 
waterways. Between 9:00 p.m. and 3:00 a.m., the Chicago and Calumet 
Rivers rose 6 feet. For the first time since 1981 we had to open the 
locks at all three of the waterway control points; these include 
Wilmette, downtown Chicago, and Calumet. Approximately 4.2 billion 
gallons of combined sewage and stormwater had to be released directly 
into Lake Michigan.
    Given our large regional jurisdiction and the severity of flooding 
in our area, the Corps was compelled to develop a plan that would 
complete TARP and be large enough to accommodate the area we serve. 
With a combined sewer area of 375 square miles, consisting of the city 
of Chicago and 51 contiguous suburbs, there are 1,443,000 structures 
within our jurisdiction, which are subject to flooding. The annual 
damages sustained exceed $150 million. If TARP, including the CUP 
Reservoirs were in place, these damages could be eliminated. We must 
consider the safety and peace of mind of the 2 million people who are 
affected as well as the disaster relief funds that will be saved when 
these projects are in place. As the public agency in the greater 
Chicagoland area responsible for water pollution control, and as the 
regional sponsor for flood control, we have an obligation to protect 
the health and safety of our citizens. We are asking your support in 
helping us achieve this necessary and important goal. It is absolutely 
critical that the Corps' work, which has been proceeding for a number 
of years, now proceeds on schedule through construction.
    Therefore, we urgently request that a total of $43,300,000 in 
construction funds be made available in the Fiscal Year 2005 Energy and 
Water Development Appropriations Act to continue construction of the 
McCook and Thornton Reservoir Projects.
    Again, we thank the subcommittee for its support of this important 
project over the years, and we thank you in advance for your 
consideration of our request this year.
                                 ______
                                 
     Prepared Statement of the Napa County Flood Control and Water 
                         Conservation District
                        summary recommendations

------------------------------------------------------------------------
                                                              Funding
                         Project                              request
------------------------------------------------------------------------
Napa River Flood Control: Construction..................     $20,000,000
Napa Valley Watershed Management: Feasibility Study.....         200,000
------------------------------------------------------------------------

                    napa river flood control project
Background
    The project is located in the city and county of Napa, California. 
The population in the city of Napa, approximately, 67,000 in 1994, is 
expected to exceed 77,000 this year. Excluding public facilities, the 
present value of damageable property within the project flood plain is 
well over $500 million. The Napa River Basin, comprising 426 square 
miles, ranging from tidal marshes to mountainous terrain, is subject to 
severe winter storms and frequent flooding. In the lower reaches of the 
river, flood conditions are aggravated by high tides and local runoff. 
Floods in the Napa area have occurred in 1955, 1958, 1963, 1965, 1986 
(flood of record), 1995, and 1997. In 1998, the river rose just above 
flood stage on three occasions, but subsided before major property 
damage occurred. In December of 2002, flooding occurred from the Napa 
Creek at the transition to the Napa River, resulting in damage to 
numerous residents and several businesses.
    Since 1962, 27 major floods have struck the Valley region, exacting 
a heavy toll in loss of life and property. The flood on 1986, for 
example, killed three people and caused more than $100 million in 
damage. Damages throughout Napa County totaled about $85 million from 
the January and March 1995 floods. The floods resulted in 27 businesses 
and 843 residences damaged countrywide. Almost all of the damages from 
the 1986, 1995, and 1997 floods were within the project area. Congress 
has authorized a flood control project since 1944, but due to expense, 
lack of public consensus on the design and concern about environment 
impacts, a project had never been realized. In mid-1995, Federal and 
State resource agencies reviewed the plan and gave notice to the Corps 
that this plan had significant regulatory hurdles to face.
Approved Plan--Project Overview
    In an effort to identify a meaningful and successful plan, a new 
approach emerged that looked at flood control from a broader, more 
comprehensive perspective. Citizens for Napa River Flood Management was 
formed, bringing together a diverse group of local engineers, 
architects, aquatic ecologists, business and agricultural leasers, 
environmentalists, government officials, homeowners and renters and 
numerous community organizations.
    Through a series of public meetings and intensive debate over every 
aspect of Napa's flooding problems, the Citizens for Napa River Flood 
Management crafted a flood management plan offering a range of benefits 
for the entire Napa region. The Corps of Engineers served as a partner 
and a resource for the group, helping to evaluate their approach to 
flood management. The final plan produced by the Citizens for Napa 
River Flood Management was successfully evaluated through the research, 
experience and state-of-the-art simulation tools developed by the Corps 
and numerous international experts in the field of hydrology and other 
related disciplines. The success of this collaboration serves as a 
model for the Nation.
    Acknowledging the river's natural state, the project utilizes a set 
of living river strategies that minimize the disruption and alteration 
of the river habitat, and maximizes the opportunities for environmental 
restoration and enhancement throughout the watershed.
    The Corps has developed the revised plan, which provides 100-year 
protection, with the assistance of the community and its consultants 
into the Supplemental General Design Memorandum (SGDM) and its 
accompanying draft Environmental Impact Statement/Environmental Impact 
Report (SEIS/EIR). Construction of the project began 3 years ago. The 
coalition plan now memorialized in the Corps final documents includes 
the following engineered components: lowering of old dikes, marsh plain 
and flood plain terraces, oxbow dry bypass, Napa Creek flood plain 
terrace, upstream and downstream dry culverts along Napa Creek, new 
dikes, levees and flood walls, bank stabilization, pump stations and 
detention facilities, and bridge replacements. The benefits of the plan 
include reducing or elimination of loss of life, property damage, 
cleanup costs, community disruption due to unemployment and lost 
business revenue, and the need for flood insurance. In fact, the 
project has created an economic renaissance in Napa with new 
investment, schools and housing coming into a livable community on a 
living river. As a key feature, the plan will improve water quality, 
create urban wetlands and enhance wildlife habitats.
    The plan will protect over 7,000 people and over 3,000 residential/
commercial units from the 100-year flood event on the Napa River and 
its main tributary, the Napa Creek, and the project has a positive 
benefit-to-cost ratio under the Corps calculation. One billion dollars 
in damages will be saved over the useful life of the project. The Napa 
County Flood Control District is meeting its local cost-sharing 
responsibilities for the project. A countywide sales tax, along with a 
number of other funding options, was approved 4 years ago by a two-
thirds majority of the county's voters for the local share. Napa is 
California's highest repetitive loss community. This plan is 
demonstrative of the disaster resistant community initiative, as well, 
as the sustainable development initiatives of FEMA and EPA.
Project Synopsis
            Fiscal Year 2004 Funding
    The Fiscal Year 2004 Energy and Water Development Appropriations 
Act included $10,000,000 to continue construction of the project. In 
addition, the Fiscal Year 2004 Consolidated Appropriations bill 
included $2,750,000 for the project. The funding was sought for 
demolition of buildings and fixtures on 24 parcels that have been 
acquired by the non-Federal sponsor, relocation of the Napa Valley Wine 
Train rail line for an approximate 3-mile distance, as well as 
relocation of the facilities serving this public utility, removal of 
190,000 cubic yards of soil which was contaminated by petroleum 
products, construction of marsh and flood plain terraces for an 
approximate 1.5-mile distance. Included in this amount is the 
reimbursement to the non-Federal sponsor for expenditures in excess of 
45 percent of the total project costs to date. The local sponsor has 
expended $110 million, as compared to Federal sponsor expenditures to 
date of approximately $35 million.
            Necessary Fiscal Year 2005 Funding
    Funding for the Napa River Project during 2005 in the amount of 
$20,000,000 is needed to continue construction of the project. These 
funds will be used to accomplish the following tasks:
  --Complete HTRW remediation along the east side of the river for 
        additional 2 miles involving removal of an additional 200,000 
        cubic yards of contaminated soil;
  --Initiate and complete the Contract 1B excavation work in Kennedy 
        Park;
  --Initiate Contract 2East excavation work on the east side of river 
        from Imola to the Bypass;
  --Construct two railroad bridges, one over the bypass and one over 
        the Napa River and relocate approximately 3,100 feet of 
        railroad track replacement;
  --Continue engineering and design on future contracts;
  --Accomplish Construction Management on contract underway;
  --Initiate reimbursement of local sponsor with funds not required for 
        the above.
    Included in this amount is the reimbursement to the non-Federal 
sponsor for expenditures in excess of 74 percent of the total project 
costs to date. By the end of June, 2003 the non-Federal sponsor will 
have expended $110 million. By the end of June, 2004 the non-Federal 
sponsor will have spent $130,000,000.
                    napa valley watershed management
Background
    The Napa Valley watershed faces many challenges and stresses to its 
environmental health and flood management abilities. From a healthy 
river point of view, the Napa River has been on a recovery path since 
its low point in the 1960's, when the last of the native salmon were 
taken from the system by severe water pollution and habitat 
destruction. Steelhead trout have survived as a remnant population of 
200 that is presently in need of higher quality and more extensive 
spawning areas for recovery to a significant population. Beginning 
populations of fall run Chinook salmon have taken up residence in the 
watershed in those few areas available for spawning. While the chemical 
and wastewater pollution of earlier years has been effectively dealt 
with, excess sediment is still a critical stress on the salmon 
population, as it is to the spawning and rearing areas of the river in 
the estuarine zone upstream of San Pablo Bay, populated by delta smelt, 
splittail, green sturgeon and striped bass.
    The U.S. EPA and Region II Water Quality Control Board have 
prioritized the River as an impaired water body because of the sediment 
production. The excess sediment generated in the watershed suffocates 
spawning areas, reduces the stream's flood-carrying ability, fills deep 
pools, increases turbidity in the stream and estuary, carries with it 
nutrients that bring significant algae blooms during the summer and 
fall, and changes the morphological balance of the streams and river 
toward more unstable conditions.
    In order to address issues such as encroachment of the river and 
loss of wetlands and to develop local tools for improving natural 
resource management, the U.S. Army Corps of Engineers, San Francisco 
District (Corps) and the Napa County Flood Control and Water 
Conservation District (NCFCWCD) is currently developing a Napa Valley 
Watershed Management Plan (WMP) which identifies problems and 
opportunities for implementing environmentally and economically 
beneficial restoration in the Napa Valley watershed providing ecosystem 
benefits, such as flood reduction, erosion control, sedimentation 
management, and pollution abatement. The plan, which the District is 
requesting funds for, would include the identification, review, 
refinement, and prioritization of restoration and flood protection 
opportunities with an emphasis on restoration of the watershed's 
ecosystem (e.g.: important plant communities, healthy fish and wildlife 
populations, rare and endangered habitats and species and wildlife and 
riparian habitats).
    The goal is to complete the WMP by providing technical, planning, 
and design assistance to the non-Federal interests for carrying out 
watershed management, restoration and development on the Napa River and 
its tributaries from Soscol Ridge, located approximately 5 miles south 
of the city of Napa, to Mt. St. Helena, the northern-most reach of the 
Napa River watershed, California. A management program incorporating 
flood protection and environmental restoration would be developed as a 
result of the watershed plan.
    To address the above mentioned and other local, regional, and 
national watershed concerns, the Napa County Board of Supervisors 
appointed a Napa County Watershed Task Force (WTF) to identify 
community based and supported solutions. The WTF submitted their 
recommendation for further action to the Napa County Board of 
Supervisors.
    The Corps and the NCFCWCD developed the Napa Valley Watershed 
Project Management Plan with input from the Napa County Planning 
Department (NCPD), Napa County Up-Valley Cities, Napa County Watershed 
Task Force (WTF), Napa County Resource Conservation District (RCD), 
Regional Water Quality Control Board (RWQCB), the San Francisco Estuary 
Institute (SFEI), and other regional and local stakeholders.
    In an effort to identify problems and opportunities for 
implementing beneficial restoration in the Napa Valley Watershed, the 
Napa County Flood Control District is requesting the Napa Valley 
Watershed Management Study be continued by the Corps of Engineers. The 
authority for this study is the Northern California Streams Study 
Authority stemming from the Rivers and Harbors Act of 1962, Public Law 
87-874. Specifically, the Napa County Flood Control District is working 
closely with the Corps in the feasibility report to examine the 
watershed management needs, including flood control, environmental 
restoration, erosion control, storm water retention, storm water runoff 
management, water conservation and supply, wetlands restoration, 
sediment management and pollution abatement in the Napa Valley, 
including the communities of Napa, Yountville, St. Helena, Calistoga 
and the unincorporated areas of Napa County.
Project Synopsis
            Fiscal Year 2004 Budget Funding
    The fiscal year 2004 Energy and Water Development Appropriations 
Act included $200,000 to continue the Napa Valley Watershed Management 
Study. Funds are being used for data evaluation and outreach and to 
create a data monitoring framework for the watershed. This framework, 
known as the Watershed Information Center (WIC), will serve as a 
coordinating body and data-monitoring framework for the watershed. The 
WIC will serve as a library for existing biological and physical data 
on the watershed. It can serve as a forum for the multiple agencies, 
academic researcher and non-profit organizations engaged in monitoring 
in the watershed.
            Necessary Fiscal Year 2005 Funding
    Funding for the Napa Valley Watershed Management Study during 
fiscal year 2005 in the amount of $200,000 is needed to continue work 
on the Napa Valley Watershed Resource Analysis & Report. The purpose of 
this work is to provide a foundation assessment for resource allocation 
that improves the habitat and water quality in the Napa River 
watershed. This program was begun in fiscal year 2004. Prior year 
activities have included aerial photography/mapping of the watershed. 
This work has been successfully completed and is in use by Napa County, 
its residents, resource groups and interested parties. It provides a 
Geographical Information System (GIS) base for the management of 
watershed information. Also previous watershed funding has developed an 
internet based information system, the Watershed Information Center 
(WIC). This web based communication allows the resources of watershed 
studies to be available to all interested persons. The system has been 
developed and is currently being put online for general use. These 
first activities of the Napa Valley Watershed Management Study are 
cornerstones of future watershed planning and enhancement.
                                 ______
                                 
        Prepared Statement of the City of St. Helena, California

------------------------------------------------------------------------
                         Project                              Request
------------------------------------------------------------------------
St. Helena NAPA River Restoration Project: (Section 206         $800,000
 Aquatic Ecosystem Restoration Program).................
York Creek Dam Removal and Restoration Project: (Section         800,000
 206 Aquatic Ecosystem Restoration Program).............
------------------------------------------------------------------------

                           city of st. helena
    The City of St. Helena is located in the center of the wine growing 
Napa Valley, 65 miles north of San Francisco. The area was settled in 
1834 as part of General Vallejo's land grant. The City of St. Helena 
was incorporated as a City on March 24, 1876 and reincorporated on May 
14, 1889.
    The City from its inception has served as a rural agricultural 
center. Over the years, with the growth and development of the wine 
industry, the City has become an important business and banking center 
for the wine industry. The City also receives many tourists as a result 
of the wine industry. While, the main goal of the City is to maintain a 
small-town atmosphere and to provide quality services to its citizens, 
this is becoming increasingly difficult. Regulatory, administrative and 
resource requirements placed on the City through the listing of 
threatened and endangered species under the Endangered Species Act on 
the Napa River, as well as significant Clean Water Act requirements 
require the City with a small population base to face significant 
financial costs.
    The City of St. Helena is a General Law City and operates under the 
Council-City Manager form of government. The City Council is the 
governing body and has the power to make and enforce all laws and set 
policy related to municipal affairs. The official population of the 
City of St. Helena as of January 1, 2002 is 6,041. St. Helena is a full 
service City and encompasses an area of 4 square miles. Because of its 
size and its rural nature, St. Helena has serious infrastructure, as 
well as, flood protection and environmental needs that far exceed its 
financial capabilities.
    The Napa River flows along the north boundary of the City of St. 
Helena in northern Napa County. The overall Napa River Watershed 
historically supported a dense riparian forest and significant wetland 
habitat. Over the last 200 years, approximately 6,500 acres of valley 
floor wetlands have been filled in and 45,700 acres of overall 
watershed have been converted to urban and agricultural uses. This 
degradation of natural habitats has had a significant effect on water 
quality, vegetation and wildlife, and aquatic resources within the Napa 
River Watershed.
    Surface water quality of the Napa River is dependent upon the time 
of year, runoff from York and Sulphur Creeks, and urban area 
discharges. During the winter months when streamflow is high, 
pollutants are diluted; however, sedimentation and turbidity is high as 
well. During the summer months when streamflow is low, pollutants are 
concentrated and oxygen levels are low, thereby decreasing water 
quality. Agricultural runoff adds pesticides, fertilizer residue, and 
sometimes sediment. Discharges from urban areas can include 
contaminated stormwater runoff and treated city wastewater. The Napa 
River has been placed on the Clean Water Act 303(d) List and TMDL 
Priority Schedule due to unacceptable levels of bacteria, 
sedimentation, and nutrients. It is against this backdrop that the City 
of St. Helena faces its biggest challenges.
               st. helena napa river restoration project
    The Napa River and its riparian corridor are considered Critical 
Habitat for Steelhead and Salmon Recovery. The Steelhead is one of 6 
federally listed threatened and endangered species within the Napa 
River and its adjoining corridor which requires attention. Current 
conditions are such that natural habitats and geomorphic processes of 
the Napa River are highly confined with sediment transport and 
geomorphic work occurring in a limited area of the streambed and 
channel banks. Napa River's habitat for the steelhead is limited in its 
ability to provide prime spawning habitat. Limitations include: (1) 
urbanization removing significant amounts of shading and cover 
vegetation within and adjacent to the river; and (2) a detrimental lack 
of pool habitat. Encroachment and channelization of Napa River have 
degraded riparian habitat for rearing, resident, and migratory fish and 
wildlife. The lack of riparian cover, increasing water temperature and 
sedimentation in the river, has resulted in poor water quality. These 
changes have reduced the project area's ability to support the re-
establishment of listed species.
    In an effort to address these Federal environmental issues, the St. 
Helena Napa River Restoration Project, a Section 206 Aquatic Ecosystem 
Restoration Project, was identified in the Napa Valley Watershed 
Management Feasibility Study in April of 2001 as a specific opportunity 
for restoration. The project would restore approximately 3 miles (20 
acres) of riparian habitat and improve the migratory capacity of 
federally listed threatened and endangered species, providing greater 
access to rearing, resident and migratory habitats in the 80-square-
mile watershed above the project area.
    The project will interface with and complement the City of St. 
Helena's multiple objective flood project, the St. Helena Flood 
Protection and Flood Corridor Restoration Project, which will provide 
flood damage reduction through restoration and re-establishment of the 
natural floodplain along the project reach, setting back levees and the 
re-creation and restoration of a natural floodway providing high value 
riparian forest.
    This Section 206 project is necessary to ensure and improve the 
viability of Federal and State listed species by providing rearing, 
resident and migratory habitat in the project's 3-mile stream corridor. 
The project will also work to improve area habitat to benefit the 
migration of steelhead to high value fisheries habitat in upper 
watershed channel reaches. In an effort to build on recent geomorphic 
and riparian studies on the Napa River, the Corps will use these 
efforts from Swanson Hydrology and Geomorphology and Stillwater Science 
to secure baseline information for this project.
    The City of St. Helena respectfully requests the committee's 
support for $800,000 for completing the Detailed Project Report and 
initiating plans and specifications for the St. Helena Napa River 
Restoration Project under the Corps' Section 206 Aquatic Ecosystem 
Restoration Program.
             york creek dam removal and restoration project
    York Creek originates from the Coast Range on the western side of 
the Napa Valley Watershed at an elevation of approximately 1,800 feet 
and flows through a narrow canyon before joining the Napa River 
northeast of St. Helena. York Creek Dam on York Creek has been 
identified as a significant obstacle to passage for federally listed 
Steelhead in the Central California Coast. In fact, it has been 
determined that York Creek Dam is a complete barrier to upstream fish 
migration. In addition, since the City of St. Helena has owned York 
Creek Dam, there have been a number of silt discharges from the dam 
into York Creek that have caused fish kills.
    Under the Corps of Engineers' Section 206 Authority, a study is 
underway to remove the dam structure and to restore the creek in an 
effort to improve fish passage and ecological stream function for this 
Napa River tributary. Alternatives to be investigated and pursued 
include complete removal of York Creek Dam, appurtenances and 
accumulated sediment, re-grading and restoring the creek through the 
reservoir area. Rather than merely removing the dam and accumulated 
sediments, alternatives under consideration would use a portion of the 
material to re-grade the reservoir area to simulate the configuration 
of the undisturbed creek channel upstream. Material could also be used 
to fill in and bury the spillway and to fill in the scour hole 
immediately downstream of the spillway. Use of material on site will 
greatly reduce hauling and disposal costs, as well as recreating a more 
natural creek channel through the project area.
    The revegetation plan for the site following removal of the earthen 
dam will restore a self-sustaining native plant community that is 
sufficiently established to exclude nonnative invasive plants. 
Revegetation will replace vegetation that is removed due to 
construction and stabilize sediments in the stream channel riparian 
corridor and upper bank slopes. The species composition of the 
revegetated site will be designed to match that of (relatively) 
undisturbed sites both above and below the project site. In terms of 
expected outcomes for the project, the removal of York Creek Dam will 
open an additional 2 miles of steelhead habitat upstream of the dam, 
and the channel restoration will reestablish natural channel geomorphic 
processes and restore riparian vegetation.
    The City of St. Helena respectfully requests the committee's 
support for $800,000 in appropriations under the Corps of Engineers' 
Section 206 Aquatic Ecosystem Restoration Program, so that the efforts 
to allow the continuation of the Detailed Project Report can stay on 
schedule for the York Creek Dam Removal and Restoration Project.
                                 ______
                                 
       Prepared Statement of the Calaveras County Water District

------------------------------------------------------------------------
                         Project                              Request
------------------------------------------------------------------------
CALAVERAS COUNTY WATERSHEDS STUDY.......................      $1,500,000
------------------------------------------------------------------------

                    calaveras county water district
    Calaveras County (County) is located in the central Sierra Nevada 
foothills about 25 miles east of the Sacramento-San Joaquin Delta 
(Delta). Ground elevations within the County increase from 200 feet 
above mean sea level near the northwest part of the County to 8,170 
feet near Alpine County. It is a predominately rural county with a 
relatively sparse but rapidly developing population and limited 
agricultural and industrial development. Calaveras County is located 
within the watersheds of the Mokelumne, Calaveras, and Stanislaus 
Rivers. All three rivers flow west, through San Joaquin County into the 
Delta. Most of the County is underlain by the igneous and metamorphic 
rocks of the Sierra Nevada. Alluvial deposits of the Central Valley, 
which overlie the westward plunging Sierra Nevada, are present along an 
80 square-mile area located along the western edge of the county and 
are part of the Eastern San Joaquin County Groundwater Basin (ESJCGB). 
This on-going Calaveras County Watersheds Study under the authority of 
the Corps of Engineers' Sacramento and San Joaquin Comprehensive Basin 
Study is focused on the western part of Calaveras County.
    In the fall of 1946, the Calaveras County Water District (CCWD) was 
organized under the laws of the State of California as a public agency 
for the purpose of developing and administering the water resources in 
Calaveras County. Therefore, CCWD is governed by the California 
Constitution and the California Government and Water Codes. CCWD is not 
a part of, or under the control of, the County of Calaveras. CCWD was 
formed to preserve and develop water resources and to provide water and 
wastewater service to the citizens of Calaveras County.
    Under State law, CCWD, through its Board of Directors, has general 
powers over the use of water within its boundaries. These powers 
include, but are not limited to: the right of eminent domain, authority 
to acquire, control, distribute, store, spread, sink, treat, purify, 
reclaim, process and salvage any water for beneficial use, to provide 
sewer service, to sell treated or untreated water, to acquire or 
construct hydroelectric facilities and sell the power and energy 
produced to public agencies or public utilities engaged in the 
distribution of power, to contract with the United States, other 
political subdivisions, public utilities, or other persons, and subject 
to the California State Constitution, levy taxes and improvements.
     calaveras county watersheds study--under the authority of the 
          sacramento and san joaquin comprehensive basin study
Project Need
    The Calaveras County Watersheds Study CCWD is being pursued through 
the Corps of Engineers' program under the authority of the Sacramento 
and San Joaquin Comprehensive Basin Study and includes a review of 
project needs and opportunities within the Mokelumne River, Calaveras 
River and Stanislaus River Watersheds.
    CCWD is responsible for developing and administering the water 
resources of Calaveras County. Historically, a significant portion of 
the water needs of Calaveras County have been met mostly with surface 
water from the Mokelumne, Calaveras or Stanislaus Rivers. One of the 
overriding themes of the watershed study is to identify and maximize 
the use of District surface water resources on the Mokelumne, Calaveras 
and Stanislaus Rivers in conjunction with the groundwater supply to 
improve supply reliability.
    Historically, groundwater has been used only to meet demands of 
scattered single family homes. This study area, which is part of the 
Eastern San Joaquin County Groundwater Basin (ESJCGB), has been 
identified by the State of California as being in a state of overdraft. 
The California Department of Water Resources water level data for wells 
near the Calaveras-San Joaquin County line, have recorded water level 
declines ranging from 0.6 to 1.5 feet per year over the last 40 years. 
Without programs to mitigate the groundwater overdraft, groundwater 
levels will continue to decline in the groundwater basin.
    In an effort to gain better understanding of the condition of the 
water sources, and issues and opportunities including flooding and the 
use of return flows, water supply and conjunctive use, as well as, the 
surrounding environment, the comprehensive watershed approach is being 
pursued.
    While this is a watershed study, the approach is to focus in on the 
CCWD's stated priority areas to develop project resolutions. The first 
three critical project areas to be studied include the following: 
Cosgrove Creek, Wallace Lake Estates and the Burson area.
Cosgrove Creek
    Cosgrove Creek is an intermittent stream within the Calaveras River 
watershed. The creek enters the lower Calaveras River downstream from 
the spillway of New Hogan Lake. During average precipitation years, 
stream flow is present from late fall through early to mid-summer.
    Cosgrove is approximately 9.8 miles long and has a drainage area of 
21 square miles. The upper two-thirds of the Cosgrove Creek watershed 
is used for grazing and the lower third has been subject to urban 
development. A portion of this lower reach, which passes through the 
adjacent communities of Valley Springs, La Contenta and Rancho 
Calaveras, has experienced many incidents of flooding and resulting 
damage to residential properties.
    The objective of this effort is to produce a feasibility study on 
project alternatives for diverting Cosgrove Creek during peak flow 
periods to provide for flood protection while putting the diverted 
water to beneficial use. The solution will be a unique multiple purpose 
project in that it would both divert flood flows and put the yield to 
beneficial use for higher community needs such as creating wetlands and 
environmental restoration, and developing complementary recreational 
uses, such as ball fields and hiking or equestrian trails.
Wallace Lake Estates
    Wallace Lake is located near the western edge of Calaveras County, 
just north of Highway 26. The lake is part of the Wallace Lake Estates 
subdivision.
    Wallace Lake is also situated between East Bay Municipal Utility 
District's (EBMUD's) Camanche Reservoir and Mokelumne aqueduct. 
Qualitative observations have noted that, after filling, lake volume 
appears to diminish far more rapidly than would be expected. The 
Wallace Lake Community Services District would like to maintain the 
lake at full capacity all year. It is reported that pumping well water 
into the lake does not maintain desired levels. This has led to 
speculation regarding the possibility that, if the lake is percolating 
into the local groundwater table, this could be an attribute that could 
intentionally be put to use to facilitate groundwater recharge and 
development of a conjunctive use project.
    The primary focus of this study is to assess both the local 
hydrogeological conditions with respect to using the lake for 
groundwater recharge and the means of transporting Mokelumne River 
water to the lake.
    The objective of this investigation is to produce an assessment and 
feasibility study as a basis for developing project alternatives for 
bringing Mokelumne water to Wallace Lake and the viability of utilizing 
the lake for the purpose of demonstrating a groundwater infiltration 
gallery, as well as environmental restoration.
Burson Area
    Most of the area within Calaveras County north of Highway 12 and 
south of the Mokelumne River, including the Burson area, is currently 
wholly dependent upon groundwater and has experienced critical water 
shortages for the last 20 years. Issues include low volume or no water 
at all in some wells and degradation of water quality involving taste, 
smell and chemical contamination. The problems have continued to 
worsen.
    One possible alternative project solution is conjunctive use of 
Mokelumne River water to recharge the groundwater basin with high 
quality surface water. (It appears unlikely that use of Wallace Lake 
for recharge purposes will assist this particular area of need.)
    A second alternative is to investigate the possible presence of and 
potential use for high yielding zones, including an ancient underground 
river within the defined aquifer area, that could be tapped without 
detrimentally impacting existing users. These project alternatives 
would include an environmental restoration component. The objective of 
this investigation is to produce an assessment and feasibility study as 
a basis for developing a drinking water system for the Burson area of 
Calaveras County.
    CCWD is working closely with the Sacramento Corps District in the 
development of a Feasibility Cost Sharing Agreement in order for the 
Calaveras County Watersheds Study to advance and for these projects to 
proceed. In an effort for the feasibility study to move towards project 
formulation, CCWD is seeking $1.5 million for the Calaveras County 
Watersheds Study, as a separately identified effort under the authority 
of the Sacramento and San Joaquin Comprehensive Basin Study, in the 
Fiscal Year 2005 Energy and Water Development Appropriations Bill.
                                 ______
                                 
              Prepared Statement of Cameron County, Texas
    We express full support of the inclusion in the fiscal year 2005 
budget for the full capability of the USACE for $831,000.
                         history and background
    On September 15, 2001, a tugboat and several barges struck the 
Queen Isabella Causeway on the Gulf Intracoastal Waterway at the mouth 
of the Brownsville Ship Channel east of Port Isabel. The accident took 
the lives of eight people.
    A January 1997 Reconnaissance Report of the Gulf Intracoastal 
Waterway-Corpus Christi Bay to Port Isabel, Texas (Section 216), was 
conducted by the United States Army Corps of Engineers. The study was 
initiated to determine the Federal interest in rerouting the GIWW. The 
information available at the time indicated a less than favorable 
benefit to cost ratio for the proposed realignment. Since the September 
15 incident, the Corps, Cameron County officials, and a number of local 
entities and residents of the County have reopened discussion of the 
rerouting of the GIWW. The Corps of Engineers agrees that new facts 
regarding the safety of the current alignment warrants a revisiting of 
the issue to determine the viability of rerouting the channel in a 
direct line from the point where the waterway crosses underneath the 
causeway to the point where it reaches the Brazos Santiago Pass and the 
Brownsville Ship Channel. The route in question is the exact one 
traveled by the tugboat and barges that struck the bridge on September 
15, killing eight people. The tugboat captain failed to negotiate the 
sharp turn after it passed through the Long Island Swing Bridge. This 
particular turn is one of the most dangerous on the entire waterway.
                          project description
    The reconnaissance study would allow the Corps to reopen the 
examination of the rerouting of the GIWW on the basis of safety. The 
measure would seek to eliminate safety hazards to Port Isabel and Long 
Island residents created by barges that move large quantities of fuel 
and other potentially dangerous explosive chemicals through the 
existing route under the Queen Isabella Causeway. The overall goal of 
the study would be to enhance safety and transportation efficiency on 
this busy Texas waterway by removing the treacherous turn tug and barge 
operators are forced to make as they navigate the passage through the 
Long Island Swing Bridge. In addition to the hazardous curve, the 
winding and congested course taken by the waterway through the City of 
Port Isabel adds needless distance and time to the transportation of 
goods to and from Cameron County ports. These costs are borne not only 
by commercial operators using the waterway, but also by consumers and 
businesses all across Texas and the Nation. The rerouting would also 
seek to correct the adverse impact of waterway traffic on Cameron 
County residents. Apart from the obvious potential for damage to the 
Queen Isabella Causeway, adverse impacts are created by waterway 
traffic in the form of traffic delays associated with the Long Island 
Swing Bridge and the transportation of hazardous materials within 
several hundred feet of densely populated areas in Port Isabel and Long 
Island. Currently, a 1950's era swing bridge that floats in the 
waterway channel connects Long Island and the City of Port Isabel. As 
waterborne traffic approaches the bridge, cables are used to swing it 
from the center of the channel and then swing it back into place. This 
costly and time-consuming process, which frequently backs up traffic 
into the downtown business district of Port Isabel, is estimated to 
drain hundreds of dollars a year from the economy of this economically 
distressed area. More serious problems are created when the heavily 
used cables or winch motors on the swing bridge fail, leaving the 
bridge stuck in an open or closed position. Equipment failures often 
cause delays for several days and leave Long Island residents cut-off 
from vehicle access or the ports of Port Isabel and Brownsville cut-off 
from in-bound and out-bound barge traffic. During these times, supplies 
of vital commodities are halted all across the Rio Grande Valley as 
stocks dwindle and produce and finished goods begin to pile up.
                impact of the gulf intracoastal waterway
    The Gulf Intracoastal Waterway is an integral part of the inland 
transportation system of the United States. Stretching across more than 
1,300 coastal miles of the Gulf of Mexico, this man-made, shallow-draft 
canal moves a large variety and great number of vessels and cargoes. 
The 426 miles of the waterway running through Texas makes it possible 
to supply both domestic and foreign markets with chemicals, petroleum 
and other essential goods. Barge traffic is essential to many of the 
port economies from Texas to Great Lakes ports, indeed, throughout the 
entire GIWW. Some ports feel their future strategic plans are closely 
linked to the efficient operation of the GIWW. This is true for ports 
that rely almost entirely on barge traffic as well as ports that 
function primarily as recreational facilities. Most of the cargo moved 
along Texas waterways is petroleum and petroleum products. The GIWW is 
well suited for the movement of such cargo, and, therefore, has allowed 
many of the smaller, shallow-draft facilities to engage in both 
interstate and international trade. Commercial fishing access via the 
GIWW has had a significant impact on these port economies as well.
                               conclusion
    A 1995 Lyndon Baines Johnson School of Public Affairs report 
entitled ``The Texas Seaport and Inland Waterway System'' warned of 
concern with the safe operation of barges on the GIWW citing, ``a 
serious accident perhaps involving a collision between two barges 
carrying hazardous materials could force closure of the waterway''. No 
one could foresee the terrible accident that occurred on September 15. 
The lives of eight people came to an end and the lives of their loved 
ones was irrevocably changed forever. This important waterway must be 
improved to prevent another tragedy. The $831,000 that must be added to 
the fiscal year 2005 appropriations bill will allow the Corps of 
Engineers to continue to study a preferred plan to remedy this 
dangerous situation. The government has already invested $400,000 to 
move this project forward. Cameron County, the users of the GIWW, and 
the residents of the area respectfully requests the addition of this 
much-needed appropriation.
                                 ______
                                 
   Prepared Statement of the Brazos River Harbor Navigation District
    We express full support of the inclusion in the fiscal year 2005 
budget for the full capability of the USACE of $700,000.
    President's budget included $300,000.
    Additional funds needed for fiscal year 2005 $400,000.
                         history and background
    Port Freeport is an autonomous governmental entity authorized by an 
act of the Texas Legislature in 1925. It is a deep-draft port, located 
on Texas' central Gulf Coast, approximately 60 miles southwest of 
Houston, and is an important Brazos River Navigation District 
component. The port elevation is 3 to 12 feet above sea level. Port 
Freeport is governed by a board of six commissioners elected by the 
voters of the Navigation District of Brazoria County, which currently 
encompasses 85 percent of the county. Port Freeport land and operations 
currently include 186 acres of developed land and 7,723 acres of 
undeveloped land, 5 operating berths, a 45-inch deep Freeport Harbor 
Channel and a 70-foot deep sink hole. Future expansion includes 
building a 1,300-acre multi-modal facility, cruise terminal and 
container terminal. Port Freeport is conveniently accessible by rail, 
waterway and highway routes. There is direct access to the Gulf 
Intracoastal Waterway, Brazos River Diversion Channel, and, State 
Highways 36 and 288. Located just 3 miles from deep water, Port 
Freeport is one of the most accessible ports on the Gulf Coast.
                          project description
    The fiscal year 2002 Energy and Water appropriations signed into 
law included a $100,000 appropriation to allow the United States Army 
Corps of Engineers (USACE) to conduct a reconnaissance study to 
determine the Federal interest in an improvement project for Freeport 
Harbor, Texas. The USACE, in cooperation with the Brazos River Harbor 
Navigation District as the local sponsor, has completed that study. The 
report indicates that ``transportation savings in the form of National 
Economic Development Benefits (NED) appear to substantially exceed the 
cost of project implementation'', thus confirming ``a strong Federal 
interest in conducting the feasibility study of navigation improvements 
at Freeport Harbor''. In fact, the Corps anticipates a benefit to cost 
ratio of the project to be at an impressive more than 20 to 1 benefit 
to cost. The fiscal year 2003 budget fully funded the Corps capability 
of $500,000 to begin the feasibility study. The fiscal year 2004 budget 
included $250,000 with an additional $250,000 reprogrammed by the USACE 
to continue the feasibility study without delay.
    Port Freeport has the opportunity to solidify significant new 
business for Texas with this improvement project. In addition, the 
improvement to the environment by taking a huge number of trucks off of 
the road, transporting goods more economically and environmentally 
sensitive by waterborne commerce is infinitely important to the 
community, the State, and the Nation. Moreover, the enhanced safety of 
a wider channel cannot be overstated.
                    economic impact of port freeport
    Port Freeport is sixteenth in foreign tonnage in the United States 
and twenty-fourth in total tonnage. The port handled over 25 million 
tons of cargo in 2003 and an additional 75,000 T.E.U.'s of 
containerized cargo. It is responsible for augmenting the Nation's 
economy by $7.06 billion annually and generating 30,000 jobs. Its chief 
import commodities are bananas, fresh fruit and aggregate while top 
export commodities are rice and chemicals. The port's growth has been 
staggering in the past decade, becoming one of the fastest growing 
ports on the Gulf Coast. Port Freeport's economic impact and its future 
growth is justification for its budding partnership with the Federal 
Government in this critical improvement project.
                     defense support of our nation
    Port Freeport is a strategic port in times of National Defense of 
our Nation. It houses a critically important petroleum oil reserve--
Bryan Mound. It also is the only port in Texas that is being considered 
by the United States Navy and General Dynamics as the site for the 
building of Amphibious Assault Vehicles. Its close proximity to State 
Highways 36 and 288 make it a convenient deployment port for Fort Hood. 
In these unusual times, it is important to note the importance of our 
ports in the defense of our Nation and to address the need to keep our 
Federal waterways open to deep-draft navigation.
                     community and industry support
    This proposed improvement project has wide community and industry 
support. The safer transit and volume increase capability is an 
appealing and exciting prospect for the users of Freeport Harbor and 
Stauffer Channel. The anticipated more than 20 to 1 benefit to cost 
ratio that was indicated from the Corps of Engineers reconnaissance 
study firmly solidified the Federal interest.
         what we need from the subcommittee in fiscal year 2005
    The administration's budget included $300,000 for the continuation 
of the feasibility study, which will be conducted at a 50/50 Federal 
Government/local sponsor share. The Corps had indicated a capability 
for fiscal year 2005 of $700,000 to continue the feasibility study and 
keep this project on an optimal and most cost-efficient time frame for 
the Federal Government and the local sponsor. We respectfully request 
the additional $400,000 for fiscal year 2005. Most Corps projects 
indicate a 10 to 1 and below benefit to cost ratio. This project 
estimates nearly twice that benefit to cost ratio and deserves to be 
tagged a ``priority project''.
                                 ______
                                 
   Prepared Statement of the Chambers County-Cedar Bayou Navigation 
                                District
    We express full support of the inclusion of the full capability of 
the USACE for fiscal year 2005 to complete PED for the project to 
deepen and widen Cedar Bayou, Texas.
    President's Budget Included $135,000.
    Additional Funds Needed in Fiscal Year 2005 $311,000.
                         history and background
    The Rivers and Harbor Act of 1890 originally authorized navigation 
improvements to Cedar Bayou. The project was reauthorized in 1930 to 
provide a 10 ft. deep and 100 ft. wide channel from the Houston Ship 
Channel to a point on Cedar Bayou 11 miles above the mouth of the 
bayou. In 1931, a portion of the channel was constructed from the 
Houston Ship Channel to a point about 0.8 miles above the mouth of 
Cedar Bayou, approximately 3.5 miles in length. A study of the project 
in 1971 determined that an extension of the channel to project Mile 3 
would have a favorable benefit-to-cost ratio. This portion of the 
channel was realigned from mile 0.1 to mile 0.8 and extended from mile 
0.8 to Mile 3 in 1975. In October 1985, the portion of the original 
navigation project from project Mile 3 to 11 was deauthorized due to 
the lack of a local sponsor. In 1989, the Corps of Engineers, Galveston 
District completed a Reconnaissance Report dated June 1989, which 
recommended a 12 ft. by 125 ft. channel from the Houston Ship Channel 
Mile 3 to Cedar Bayou Mile 11 at the State Highway 146 Bridge. The 
Texas Legislature created the Chambers County-Cedar Bayou Navigation 
District in 1997 as an entity to improve the navigability of Cedar 
Bayou.
    The district was created to accomplish the purpose of Section 59, 
Article XVI, of the Texas Constitution and has all the rights, powers, 
privileges and authority applicable to Districts created under Chapters 
60, 62, and 63 of the Water Code--Public Entity. The Chambers County-
Cedar Bayou Navigation District then became the local sponsor for the 
Cedar Bayou Channel.
                project description and reauthorization
    Cedar Bayou is a small coastal stream, which originates in Liberty 
County, Texas, and meanders through the urban area near the eastern 
portion of the City of Baytown, Texas, before entering Galveston Bay. 
The bayou forms the boundary between Harris County on the west and 
Chambers County on the east. The project was authorized in Section 349 
of the Water Resources Development Act 2000, which authorized a 
navigation improvement of 12 feet deep by 125 feet wide from mile 2.5 
to mile 11 on Cedar Bayou.
                   justification and industry support
    First and foremost, the channel must be improved for safety. The 
channel is the home to a busy barge industry. The most cost-efficient 
and safe method of conveyance is barge transportation. Water 
transportation offers considerable cost savings compared to other 
freight modes (rail is nearly twice as costly and truck nearly four 
times higher). In addition, the movement of cargo by barge is 
environmentally friendly. Barges have enormous carrying capacity while 
consuming less energy, due to the fact that a large number of barges 
can move together in a single tow, controlled by only one power unit. 
The result takes a significant number of trucks off of Texas highways. 
The reduction of air emissions by the movement of cargo on barges is a 
significant factor as communities struggle with compliance with the 
Clean Air Act.
    Several navigation-dependent industries and commercial enterprises 
have been established along the commercially navigable portions of 
Cedar Bayou. Several industries have docks on at the mile markers that 
would be affected by this much-needed improvement. These industries 
include: Reliant Energy, Bayer Corporation, Koppel Steel, CEMEX, US 
Filter Recovery Services and Dorsett Brothers Concrete, to name a few.
                       project costs and benefits
    Congress appropriated $100,000 in fiscal year 2001 for the Corps of 
Engineers to conduct the feasibility study to determine the Federal 
interest in this improvement project. The study indicated a benefit to 
cost ratio of the project of 2.8 to 1. The estimated total cost of the 
project is $16.8 million with a Federal share estimated at $11.9 
million and the non-Federal sponsor share of approximately $4.9 
million. Total annual benefits are estimated to be $4.8 million, with a 
net benefit of $3 million. Congress appropriated $400,000 each in 
fiscal year 2002 and fiscal year 2003 and $374,000 in fiscal year 2004 
to support the feasibility study. This project is environmentally sound 
and economically justified. We would appreciate the subcommittee's 
support of the required add of the $311,000 appropriation needed by the 
Corps of Engineers to complete the plans and specifications of the 
project so that it can move forward at an optimum construction 
schedule. The users of the channel deserve to have the benefits of a 
safer, most cost-effective Federal waterway.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Mr. Chairman and members of the subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's recommendations for the 
Army Corps of Engineers and Bureau of Reclamation's fiscal 2005 
appropriations. We understand and appreciate that the subcommittee's 
ability to fund programs within its jurisdiction is limited by the 
tight budget situation but appreciate your consideration of these 
important programs.
    The Nature Conservancy is an international, non-profit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. The Conservancy has more than 1,000,000 individual 
members and 1,900 corporate associates. We have programs in all 50 
States and in 27 foreign countries. We have protected more than 15 
million acres in the United States and approximately 102 million acres 
with local partner organizations worldwide. The Conservancy owns and 
manages 1,400 preserves throughout the United States--the largest 
private system of nature sanctuaries in the world. Sound science and 
strong partnerships with public and private landowners to achieve 
tangible and lasting results characterize our conservation programs.
    The Conservancy urges the subcommittee to support the following 
appropriation levels in the fiscal 2005 Energy and Water Development 
Appropriation bill:
                    construction general priorities
    Section 1135: Project Modification for the Improvement of the 
Environment.--The Section 1135 Program authorizes the Army Corps of 
Engineers (Corps) to restore areas damaged by existing Corps projects. 
This program permits modification of existing dams and flood control 
projects to increase habitat for fish and wildlife without interrupting 
a project's original purpose. The Conservancy is the non-Federal cost 
share partner on nine Section 1135 projects including Spunky Bottoms, a 
floodplain restoration/reconnection project on the Illinois River, for 
which we seek an earmark in the amount of $200,000 in fiscal 2005. This 
program is in extremely high demand and severely oversubscribed in 
fiscal 2004 with millions of dollars of requests beyond what was 
appropriated. This financial shortfall has stopped many projects. The 
Conservancy strongly encourages full funding of $25 million for the 
Section 1135 program in fiscal 2005, an increase over the President's 
$13.5 million request.
    Section 206: Aquatic Ecosystem Restoration.--Section 206 is a newer 
Corps program that authorizes the Corps to restore aquatic habitat 
regardless of past activities. The Conservancy is the non-Federal cost-
share partner on four Section 206 projects. These projects restore 
important fish and wildlife habitats, including a $5 million project at 
Mad Island in Texas, and a $1.4 million riparian habitat restoration 
project at Bootheel Creek in Florida. This program is in extremely high 
demand and severely oversubscribed in fiscal 2004 with millions of 
dollars of requests beyond what was appropriated. This financial 
shortfall has stopped many projects. The Conservancy strongly 
encourages full funding of $25 million for this valuable program in 
fiscal 2005, an increase over the President's $10 million request.
    Upper Mississippi River System Environmental Management Program.--
The Environmental Management Program (EMP) is an important Corps 
program that constructs habitat restoration projects and conducts long-
term resource monitoring of the Upper Mississippi and Illinois Rivers. 
The EMP operates as a unique Federal-State partnership affecting five 
States (Illinois, Iowa, Minnesota, Missouri, and Wisconsin). The EMP 
was reauthorized in WRDA 1999 with an increased authorization in the 
amount of $33.2 million. The Conservancy supports full funding of $33.2 
million for fiscal 2005, an increase over the President's $28 million 
request.
    Estuary Habitat Restoration Program.--The Estuary Habitat 
Restoration Program was established with the intent to restore 1 
million acres of estuary habitat by 2010. This multi-agency program 
will promote projects that result in healthy ecosystems that support 
wildlife, fish and shellfish, improve surface and groundwater quality, 
quantity, and flood control; and provide outdoor recreation. The 
Conservancy supports $10 million in fiscal 2005. This program was not 
included in the President's budget.
    Florida Keys Water Quality Program.--The Florida Keys Water Quality 
Program is a unique restoration program designed to protect the Florida 
Keys' fragile marine and coral ecosystem. This nationally significant 
marine ecosystem is being impacted by excessive nutrients due to storm 
and waste water pollution. This program is cost shared with State and 
local interests to repair and improve the storm and wastewater 
treatment facilities on the Florida Keys to reduce the harmful levels 
of nutrient pollution. The Nature Conservancy, and its partners the 
State of Florida, Florida Keys Aqueduct Authority, Monroe County, City 
of Islamorada, City of Layton, City of Key Colony Beach, City of 
Marathon, and City of Key West, support $30 million for fiscal 2005. 
This program was not included in the President's budget.
    Missouri River Fish and Wildlife Mitigation.--Created in WRDA 1986, 
the Missouri River Fish and Wildlife Mitigation Project is designed to 
reverse the negative environmental impacts of lower river 
channelization and bank stabilization through land acquisition from 
willing sellers. The Mitigation Project allows the Corps to restore 
chutes, side channels, and other off-channel floodplain habitat for 
river wildlife. The Conservancy supports the President's $69 million 
request for fiscal 2005.
                    general investigation priorities
    Middle Potomac River Watershed Study.--The preliminary Middle 
Potomac Watershed Section 905(b) analysis identified 14 feasibility 
studies to address flood control needs and environmental restoration 
opportunities within the Middle Potomac Watershed. The study team 
identified three study goals for the development of project management 
plans: (1) to conserve, restore, and revitalize the Potomac River 
basin; (2) to develop sustainable watershed management plans; and (3) 
to cooperate with and support public and private entities in developing 
watershed management plans. The Conservancy supports $1 million in 
fiscal 2005 to continue the development of these plans. This study was 
not included in the President's budget.
    Savannah Basin Comprehensive Water Resources Study.--The Savannah 
Basin Comprehensive Water Resources Study will enable the Corps and 
other partners to gain a better understanding of the influence of 
hydrologic processes such as timing, duration, frequency, magnitude, 
and rate of change of river flows on the river's ecology. The Nature 
Conservancy, under a cooperative agreement funded by the Corps and its 
cost share partners Georgia and South Carolina, developed a set of 
ecosystem flow recommendations for the Savannah River Basin. A test 
release of the new flow recommendation was conducted March 15-18, 2004. 
The Conservancy supports $436,000 in fiscal 2005, an increase over the 
President's $250,000 request.
                     regulatory program priorities
    Southern California Special Area Management Plan (SAMP).--For the 
past 4 years, the Army Corps has been working with three Southern 
California counties to develop region-wide Special Area Management 
Plans that identify, delineate and plan for the conservation of 
wetlands within their jurisdictions. These SAMPs are a critical part of 
the regional effort to protect significant natural resources and to 
plan for continued economic growth in Southern California. They are 
emerging as an important planning tool that addresses streamlining of 
Federal wetlands regulations while promoting more effective wetlands 
conservation and providing long-term certainty for economic interests 
in the region. The Southern California SAMP process is being evaluated 
as a model for wetlands planning in other areas. The Conservancy 
supports a $2 million earmark within the Corps' regulatory program for 
fiscal 2005.
                    bureau of reclamation priorities
    Recovery Implementation Program for Colorado Endangered Fish 
Species.--The Recovery Program is in its fourteenth year of working for 
the recovery of endangered fish species in the Upper Colorado River 
Basin. The Recovery Program serves as a model of successful cooperation 
between three States (Colorado, Utah, and Wyoming), Federal agencies, 
water development interests, power users and the environmental 
community in the recovery of four endangered fish species. The 
Conservancy supports $4 million in fiscal 2005 for the Bureau of 
Reclamation's portion of this multiagency program.
    Thank you for the opportunity to present The Nature Conservancy's 
comments on the Energy and Water Appropriations bill. We recognize that 
you receive many worthy requests for funding each year and appreciate 
your consideration of these requests and the generous support you have 
shown for these and other conservation programs in the past. If you 
have any further questions, please do not hesitate to contact me.
                                 ______
                                 

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

      Prepared Statement of the Colorado River Board of California
    Your support and leadership are needed in securing adequate fiscal 
year 2004 funding for the Department of the Interior with respect to 
the Federal/State Colorado River Basin Salinity Control Program. 
Congress has designated the Department of the Interior, Bureau of 
Reclamation (Reclamation) to be the lead agency for salinity control in 
the Colorado River Basin. This successful and cost effective program is 
carried out pursuant to the Colorado River Basin Salinity Control Act 
and the Clean Water Act. California's Colorado River water users are 
presently suffering economic damages in the hundreds of million of 
dollars per year due to the river's salinity.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River System. 
In this capacity, California along with the other six Basin States 
through the Colorado River Basin Salinity Control Forum (Forum), the 
interstate organization responsible for coordinating the Basin States' 
salinity control efforts, established numeric criteria in June 1975, 
for salinity concentrations in the River. These criteria were 
established to lessen the future damages in the Lower Basin States, as 
well as, assist the United States in delivering water of adequate 
quality to Mexico in accordance with Minute 242 of the International 
Boundary and Water Commission. The goal of the Colorado River Basin 
Salinity Control Program is to offset the effects of water resource 
development in the Colorado River Basin after 1972 rather than to 
reduce the salinity of the River below levels that were caused by 
natural variations in river flows or human activities prior to 1972. To 
maintain these levels, the salinity control program must remove 
1,800,000 tons of salt loading from the River by the year 2020. In the 
Forum's last report entitled 2002 Review, Water Quality Standards for 
Salinity, Colorado River System (2002 Review) released in October 2002, 
the Forum found that additional salinity control measures that remove 
salt from the River in the order of 1,000,000 tons are needed to meet 
the implementation plan. The plan for water quality control of the 
River has been adopted by the States and approved by the Environmental 
Protection Agency. To date, Reclamation has been successful in 
implementing projects for preventing salt from entering the River 
system; however, many more potential projects for salt reduction have 
been identified that can be controlled with Reclamation's Basin-wide 
Salinity Control Program. The Forum has presented testimony to Congress 
in which it has stated that the rate of implementation of the program 
beyond that which has been funded in the past is necessary.
    In 2000, Congress reviewed the salinity control program as 
authorized in 1995. Following hearings, and with the administration's 
support, the Congress passed legislation that increased the ceiling 
authorization for this program by $100 million. Reclamation has 
received proposals to move the program ahead and the seven Basin States 
have agreed to up-front cost sharing on an annual basis, which adds 43 
cents for every Federal dollar appropriated.
    In previous years, the President has supported, and Congress has 
funded the Bureau of Reclamation's Basinwide Salinity Control Program 
at about $12 million. The Forum has indicated that the President's 
request for funding for fiscal year 2005 in the amount of $9,064,000 is 
inappropriately low. The Forum has requested a total of $17.5 million 
for fiscal year 2005 to implement the needed and authorized program. 
The Colorado River Board supports the Forum's recommendation and 
believes that failure to appropriate these funds may result in 
significant economic damages in the United States and Mexico. Water 
quality commitments to downstream U.S. and Mexican users must be 
honored while the Basin States continue to develop their Compact 
apportioned waters from the Colorado River. For every 30 mg/l increase 
in salinity concentration in the River, there is $75 million in 
additional damages in the United States.
    Based upon past appropriations, implementation of salinity control 
measures has fallen behind the needed pace to prevent salinity 
concentration levels from exceeding the numeric criteria adopted by the 
Forum and approved by the EPA. The seven Colorado River Basin States 
have carefully evaluated the Federal funding needs of the program and 
have concluded that an adequate budget is needed for the plan of 
implementation to maintain the salinity standards for the River. With 
the newly authorized USDA EQIP program, more on-farm funds are 
available and adequate funds for Reclamation are needed to maximize 
Reclamation's effectiveness. The Forum, at its meeting in San Diego, 
California, in October 2002, recommended a funding level of $17,500,000 
for Reclamation's Basinwide Salinity Control Program to continue 
implementation of needed projects and begin to reduce the ``backlog'' 
of projects.
    In addition, the Colorado River Board recognizes that the Federal 
Government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
be honored, it is essential that in fiscal year 2005 and in future 
fiscal years, that Congress provide funds to the Bureau of Reclamation 
for the continued operation of completed projects.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 17 million residents of southern California. 
Preservation of its water quality through an effective salinity control 
program will avoid the additional economic damages to users in 
California.
    The Colorado River Board greatly appreciates your support of the 
Federal/State Colorado River Basin Salinity Control Program and again 
asks for your assistance and leadership in securing adequate funding 
for this program.
                                 ______
                                 
  Prepared Statement of the Department of Natural Resources, State of 
                                  Utah
    As the Governor of Utah's representative on Colorado River Issues 
and the senior Utah member of the Colorado River Salinity Control 
Forum, I wish to convey Utah's support for funding the Salinity Title 
II Program, authorized in 1995 (Public Law 104-20) at the level of 
$17,500,000 for 2005 for the United States Bureau of Reclamation (BOR). 
In addition, Utah requests funds be provided the BOR for General 
Investigations and the Operation and Maintenance of salinity facilities 
at sufficient funding levels to meet the objectives of the Salinity 
Control Act as amended.
    This vital program has been a mainstay in improving water use 
efficiency in the Colorado River Basin of Utah. During the past 5 years 
of drought, the facilities funded by the BOR program have been a 
significant reason for agriculture in the Uinta and Price/San Raphael 
basins maintaining productivity and stimulating these rural economies.
    In addition, the Salinity Control Program helped to meet the 
salinity related water quality standards for the Colorado River and 
U.S. treaty obligation with Mexico. This important program helps meet 
national and international obligations and needs to be funded at the 
$17,500,000 level with additional funds for investigations and 
operation and maintenance.
    Thank you.
                                 ______
                                 
     Prepared Statement of the Irrigation & Electrical Districts' 
                         Association of Arizona
    We are pleased to present this written testimony on behalf of our 
25 members and associate members which serve water and power from the 
Colorado River and other sources to rural and urban Arizona 
communities, farms and businesses. Our comments are directed to the 
budgets of the U.S. Bureau of Reclamation (Reclamation) and the Western 
Area Power Administration (Western), whose budget requests we generally 
support with certain specific reservations, which we will note.
                         bureau of reclamation
    We do not support the proposed Reclamation budget as to four 
specific items: Security Costs, Animas-La Plata, Yuma Desalter, and 
Central Arizona Project Tucson Reliability Division.
    Security Costs.--We oppose the shift of approximately $12 million 
for guards and surveillance to reimbursable status. Congress has 
approved this post-9/11 expense increase as non-reimbursable for the 
last 2 years. This change unfairly saddles local power and water users 
in some projects with the costs of this national obligation. If the 
Homeland Security budget can provide in excess of $3 billion (fiscal 
year 2004) for the Nation's airports, surely the West's premier 
Reclamation dams deserve the same treatment. We endorse and support the 
testimony of the Colorado River Energy Distributors' Association 
(CREDA) on this subject.
    Animas-La Plata.--This project requires some $10 million for 
electric transmission system construction. We join CREDA in requesting 
that this amount not be imposed on Colorado River Storage Project power 
contractors whose customers will derive no benefit from this facility. 
Forcing them to pay for this non-irrigation use facility will 
constitute a serious departure from over 100 years of Reclamation law.
    Yuma Desalter and Tucson Reliability Division.--We support the 
testimony of the Central Arizona Water Conservation District (CAWCD) 
generally, and specifically on these subjects. Without the Desalter, 
Central Arizona's 4.5 million people will continue to be penalized some 
100,000 acre-feet per year of water supply due to the Central Arizona 
Project's junior status as a Colorado River water user. Additionally, 
Reclamation needs to request Tucson Reliability Division funds only 
after consultation with CAWCD and not jeopardize its pending lawsuit 
settlement and the associated Gila River Indian Settlement.
                   western area power administration
    Our comments on Western's budget will track the order in which the 
subjects appear in Western's budget justification document.
    Use of Receipts.--We oppose Use of Receipts authority for Western 
at this time. Western has offered no check and balance proposal to 
substitute for reduced Congressional oversight. Retail competition in 
the West is problematic, to say the least, and the bare notice and 
comment Western rate process has never generated effective cost 
control. Moreover, Western believes it has the authority to require 
advance funding in its contracts (Federal Register 5/5/03). If true, 
contract renewals and amendments will gradually shift Western totally 
off-budget.
    Security Costs.--Western's $1.4 million in security costs should be 
non-reimbursable for the same reasons that Reclamation's should be. As 
a dichotomy of a former uniform Reclamation program, Western's role is 
tied to Reclamation's. It is hard to believe that over 17,000 miles of 
Federal transmission system do not rise in importance to a national 
obligation, given the essential place this system occupies in 15 
Western States.
    Quartzsite Line Relocation.--We oppose this expenditure at this 
time. There is no electrical need for this action. Alternative routes 
are still being negotiated with the Bureau of Land Management and the 
necessary environmental clearance processes haven't even started. The 
encroachments have existed for many years without incident. This 
project should be postponed until Western identifies an electrical 
need, a negotiated route, and a true cost estimate based on that route.
    Transmission Lines.--The Black Point Mesa--Blythe No. 1 request may 
be insufficient since the Fish and Wildlife Service is insisting that 
Western purchase land for the Desert Tortoise in southeastern 
California because Western wants to replace aging wood poles (a routine 
operation and maintenance function) in an area that is not critical 
habitat for this species.
    South of Phoenix.--We vigorously support work programmed for 
substations in this portion of Western's Parker-Davis Project 
transmission system. The area in question is growing like Topsy and 
Western's integrated facilities are aged and undersized. Congress has 
earmarked funds for this work for the last 3 years.
    Davis-Mead, Davis-Topock.--We would oppose the addition of any 
reimbursable construction funding for this line replacement using the 
3M aluminum matrix composite conductor. Adding this cost would more 
than double Western's rehabilitation and construction budget. We 
anticipate a request for this expenditure. If done as a non-
reimbursable experiment, we would not object. We note, however, that 
replacing one line yields little extra capacity since reliability 
standards require the new line to carry no more power than the second 
adjacent line could absorb in a first line outage.
    Purchase Power and Wheeling.--Once again, Western proposes chopping 
funding for this vital activity even though Congress has repeatedly 
provided the funding. The scoring problem has been fixed. There is no 
sound policy reason for not funding this activity. The position that 
somehow small public power, Indian and other customers can magically 
find over $200 million to borrow and/or advance fund this critical 
firming program is absurd. Most of Western's customers are small and 
resource limited. Western can't be allowed to summarily abandon them to 
their fate.
    Thank you for the opportunity to present our views. Please feel 
free to get in touch with us if we can be of any further service, 
answer any questions, or supply additional detail on our comments.
                                 ______
                                 
   Prepared Statement of the Garrison Diversion Conservancy District
    Mr. Chairman and members of the committee, my name is Dave Koland; 
I serve as the manager of the Garrison Diversion Conservancy District. 
The mission of the District is to provide a reliable, high quality and 
affordable water supply to the areas of need in North Dakota. Over 77 
percent of our State residents live within the boundaries of the 
District. I would like to comment on the impact the President's fiscal 
year 2005 budget request for the Garrison Diversion Unit has on the 
effort to provide reliable, high quality and affordable water supplies 
to the citizens of North Dakota.
    The President's fiscal year 2005 budget request was pitifully 
inadequate in meeting the commitments the Federal Government has made 
to North Dakota. In return for accepting a permanent flood on 500,000 
acres of prime North Dakota river valley the Federal Government 
promised the State and tribes that they would be compensated as the 
dams were built. The dams were completed 50 years ago and still we wait 
for the promised compensation. At the rate of payment the President's 
budget proposes the Federal Government will not even be able to stay 
current with the indexing applied by law on their commitment to North 
Dakota.
    The MR&I program was started in 1986 after the Garrison Diversion 
Unit was reformulated from a million-acre irrigation project into a 
multipurpose project with emphasis on the development and delivery of 
municipal and rural water supplies. The State-wide MR&I program has 
focused on providing grant funds for water systems that provide water 
service to previously unserved areas of the State. The State has 
followed a policy of developing a network of regional water systems 
throughout the State. Every rural water system that has been built in 
North Dakota is still operating. They are providing safe, clean water 
to their members, reducing their debt, putting money in reserve, 
complying with every State and Federal regulation, and doing so with a 
stable, prudent rate structure.
                      north dakota's success story
    More importantly, people are living on farmsteads with a rural 
water connection, while farmsteads without decent water stand empty. 
For instance, Sheridan County lost 20.4 percent of its population 
between 1990 and 2000, yet the rural water system serving that county 
hardly lost a connection. Good water does make a difference as to where 
people choose to live. Rural communities offer the experiences and 
lifestyle many people seek to raise their family.
    The key to providing water to small communities and rural areas has 
been the Grant and Loan program of Rural Development and the MR&I 
program jointly operated by the Garrison Diversion Conservancy District 
and the State Water Commission. Without the assistance of these two 
grant programs, the exodus from the rural areas would have been a 
stampede.
    Rural water systems are being constructed using a unique blend of 
local expertise, State financing, rural development loans, MR&I grant 
funds to provide an affordable rate structure, and the expertise of the 
Bureau of Reclamation to deal with design and environmental issues. The 
projects are successful because they are driven by a local need to 
solve a water quantity or quality problem. The solution to the local 
problem is devised by the community being affected by the problem. The 
early, local buy-in helps propel the project through the tortuous pre-
construction stages.
    The MR&I program has been so successful and so important to North 
Dakota that the North Dakota Legislature loaned the program $15 million 
to help deal with the severe lag time that has developed in the Federal 
appropriations process.
    The desperate need for clean, safe water is evidenced by the 
willingness of North Dakota's rural residents to pay water rates well 
above the rates EPA considers affordable. The EPA Economic Guidance 
Workbook states that rates greater than 1.5 percent of the median 
household income (MHI) are not only unaffordable, but also ``may be 
unreasonable''.
    The average monthly cost on a rural water system for 6,000 gallons 
of water is currently $48.97. The water rates in rural North Dakota 
would soar to astronomical levels without the 75 percent grant dollars 
in the MR&I program. For instance, current rates would have to average 
a truly unaffordable $134.19/month or a whopping 3.8 percent of the 
MHI. Rates would have ranged as high as $190.80/month or a prohibitive 
5.3 percent of MHI without the assistance of the MR&I program.
    The people waiting for water in our rural communities are willing 
to pay far more than what many consider an affordable, or even 
reasonable, price for clean, safe water.
                           environmental laws
    The Bureau of Reclamation plays a vital role by ensuring compliance 
with the National Environmental Policy Act of 1969 (NEPA), providing 
system design oversight and dealing with international issues. Such is 
the case with the Northwest Area Water Supply Project (NAWS). Canada 
and the province of Manitoba have filed a lawsuit protesting the very 
thorough Final Environmental Assessment and the subsequent Finding of 
No Significant Impact on the NAWS project.
    One reason for the success of the North Dakota program is the 
reliance on local control. Decision-making is accomplished at the 
lowest level possible. The decision on who the system can afford to 
provide service to and the rate structure is made by a local board of 
directors composed of members who will be served by the water system. 
Volunteer involvement and low administrative costs are hallmarks of the 
program. Engineering services are typically provided by local firms 
that have experience in designing and constructing systems in North 
Dakota.
    Across North Dakota, we have seen the impact of providing high 
quality water to rural areas and witnessed the dramatic change in small 
communities. Homes once occupied by aging widows are soon rented or 
sold to young adults, while houses and farmsteads without rural water 
stand empty.
    Good drinking water is just a dream in many rural North Dakota 
communities. Turning on the tap each morning brings brown, smelly water 
instead of the clear, fresh water a majority of people in North Dakota 
enjoy.
    The opportunity to have an impact in rural North Dakota is now. If 
we do nothing, it is easy to predict what will occur in rural North 
Dakota. We only need to look at counties without good water.
    It is in the best interest of North Dakota and the 150+ local 
communities not yet served by a regional system that we build every 
piece of rural infrastructure that is feasible. We must continue to 
build on what has proven so successful in the past.
    Providing a reliable source of good, clean water in rural areas has 
worked to stabilize the rural economy in North Dakota. The combination 
of leveraging Rural Development loan funds with MR&I grant dollars has 
provided a cost efficient, long-term solution to the rural communities 
in North Dakota.
    If we act now, we can make a difference in rural North Dakota. 
Providing for healthy, vibrant rural communities is good for North 
Dakota and good for our Nation. We know from past experience that 
providing good water for rural communities is one sure way of helping 
people change the future.
    Indeed the MR&I program in North Dakota would serve as an 
outstanding example of a successful program that could be implemented 
in other States.
           discussion of overall bureau of reclamation budget
    It is important to recognize that the fiscal year 2005 budget 
submission of $828.5 million for the Bureau of Reclamation's Water and 
Related Resources program is $57.5 million better than their request 
for fiscal year 2004. It is $171.5 million less than has been called 
for by the ``Invest in the West'' Coalition, a coalition of nine 
western water organizations that are involved in the full array of 
western water issues.
    The ``Invest in the West'' goal, one with which I agree, is to 
raise the Bureau's Water and Related Resources Budget to $1 billion by 
the end of fiscal year 2005. This is simply a goal to restore the 
budget to previous levels. The erosion of the Bureau's budget during 
the 1990's has created problems across the west for virtually all of 
its constituents.
               budget impacts on garrison diversion unit
    At this point, I would like to shift to the particulars of the 
budget as it impacts the Garrison Diversion program and some specific 
projects within the State of North Dakota. Let me begin by reviewing 
the various elements within the current budget request and then discuss 
the impacts that the current level of funding will have on the current 
program.
    Attachment 1 shows the funding history over the last 8 years for 
the Garrison Diversion Unit. The average is approximately $26.6 
million. The President's budget request for fiscal year 2005 is $22.1 
million. A continuation of that trend is a formula for disaster. The 
President's budget request does not even maintain the historic funding 
level and ignores the needs of the current programs and does not keep 
up with the price increases expected in the major programs as delays 
occur. Fortunately, Congress saw fit to provide that the unexpended 
authorization ceilings would be indexed annually to adjust for 
inflation in the construction industry. The proposed allocation to the 
indexed programs in the President's budget is $6.9 million. If a modest 
2 percent inflation factor is assumed, the increase will be $8 million 
for MR&I and $2 million for the Red River Valley phase. Simply put, 
with the current request, we will lose ground on the completion of 
these projects.
    This year, the District is asking the Congress to appropriate a 
total of $77.3 million for the Project. Attachment 2 is a breakdown of 
the elements in the District's request. To discuss this in more detail, 
I must first explain that the Garrison budget consists of several 
different program items. For ease of discussion, I would like to 
simplify the breakdown into three major categories. The first I would 
call the base operations portion of the budget request. Attachment 3 
contains a breakdown of the elements in that portion of the budget. 
This amount is nominally $22 million annually when you include 
underfinancing. However, as more Indian MR&I projects are completed, 
the operation and maintenance costs for these projects will increase 
and create a need that will need to be addressed.
    The second element of the budget is the MR&I portion. This consists 
of both Indian and non-Indian funding. The Dakota Water Resources Act 
contains an additional $200 million authorization for each of these 
programs. It is our intent that each program reaches the conclusion of 
the funding authorization at the same time. We believe this is only 
fair.
    The MR&I program consists of a number of medium-sized projects that 
are independent of one another. They generally run in the $20 million 
category. Some are, of course, smaller and others somewhat larger, but 
one that is considerably larger is the Northwest Area Water Supply 
Project (NAWS). The first phase of that project is under construction. 
The optimum construction schedule for completion of the first phase has 
been determined to be 5 years. The total cost of the first phase is $66 
million. At a 65 percent cost share, the Federal funding needed to 
support that program is $43 million. On the average, the annual funding 
for that project alone is over $8 million. Four other projects have 
been approved for future funding and numerous projects on the 
reservations are ready to begin construction. These requests will all 
compete with one another. It will be a delicate challenge to balance 
these projects. Nevertheless, we believe that once a project is 
started, it needs to be pursued vigorously to completion. If it is not, 
we simply run the cost up and increase the risk of incompatibility 
among the working parts.
    An example of the former would be the certain impact of the 
increased cost of construction over time through inflation but also by 
protracting the engineering and administration costs and ``interest-
during-construction'' costs.
    The third element of the budget is the Red River Valley Water 
Supply Project (RRV) construction phase. The Dakota Water Resources Act 
authorized $200 million for the construction of facilities to meet the 
water quality and quantity needs of the Red River Valley communities. 
It is my belief that the final plans and authorizations, if necessary, 
should be expected in approximately 5 years. This will create an 
immediate need for greater construction funding.
    This major project, once started, should be pursued vigorously to 
completion. The reasons are the same as for the NAWS project and relate 
to good engineering construction management. Although difficult to 
predict at this time, it is reasonable to plan that the RRV project 
features, once started, should be completed in approximately 7 years. 
This creates a need for an additional $25 million. Fortunately, it 
appears the RRV project start will probably follow the completion of 
the NAWS first phase.
    Using these two projects as examples frames the argument for a 
steadily increasing budget. First, to accelerate the MR&I program in 
early years to assure the timely completion of the NAWS project and 
then to ready the budget for a smaller MR&I allocation when the RRV 
project construction begins.
    Attachment 4 illustrates the level of funding for the two major 
items, MR&I and RRV. It is quickly apparent that if a straight-line 
appropriation is used for each, a funding spike will occur in the sixth 
year. That is when an additional $25 million will suddenly be needed 
for the RRV program. It is simply good management to blend these needs 
to avoid drastic hills and valleys in the budget requests. By 
accelerating the construction of NAWS and other projects which are 
ready for construction during the early years, some of the pressure 
will be off when the RRV project construction funding is needed. A 
smoother, more efficient construction program over time will be the 
result.
    Attachment 5 shows such a program. It begins with a $77.3 million 
budget this year and gradually builds over time to over $140 million 
when the RRV construction could be in full swing (fiscal year 2010). 
Mr. Chairman, this is why we believe it is important that the budget 
resolution recognize that a robust increase in the budget allocation is 
needed for the Bureau of Reclamation. We hope this testimony will serve 
as at least one example of why we fully support the efforts of the 
``Invest in the West'' campaign to increase the overall allocation by 
$171.4 million in fiscal year 2005 to a total of $1 billion.
    The Bureau of Reclamation, Rural Development, Garrison Diversion 
Conservancy District, State Water Commission and local rural water 
districts have formed a formidable alliance to deal with the lack of a 
high quality, reliable water source throughout much of North Dakota. 
This cost-effective partnership of local control, State-wide guidance 
and Federal support have combined to provide safe, clean, potable water 
to hundreds of communities and thousands of homes across North Dakota.
                              attachment 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 attachment 2.--garrison diversion unit (gdu) justification for $77.3 
                 million appropriation fiscal year 2005
    North Dakota's Municipal, Rural and Industrial (MR&I) water program 
funds construction projects State-wide under the joint administration 
of the Garrison Diversion Conservancy District (GDCD) and the State 
Water Commission (SWC).
    Northwest Area Water Supply Project (NAWS) is under construction 
after 15 years of study and diplomatic delay. Construction costs are 
estimated to be $81 million.
    Designs are based on a 5-year construction period; thus, over $16 
million is needed for NAWS alone. Indian MR&I programs are also under 
construction. Tribal and State leaders have agreed to split the Indian 
and non-Indian MR&I allocation on a 50/50 basis.
    Williston Water Treatment Plant, Williams Rural Water and Tribal 
MR&I programs are under construction.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                                 Amount
------------------------------------------------------------------------
Operation and Maintenance of Indian MR&I Systems plus                3.4
 Jamestown Dam...............................................
Breakdown of $73.9 million Construction Request:
    Operation and Maintenance of existing GDU system.........        5.0
    Wildlife Mitigation & Natural Resources Trust............        6.0
    Red River Valley Special Studies and EIS.................        2.6
    Indian and non-Indian MR&I...............................       50.0
    Indian Irrigation........................................        2.7
    Recreation...............................................        0.6
    Under financing 10 percent...............................        7.0
                                                              ----------
      Total for Construction.................................       73.9
                                                              ----------
      Grand Total............................................       77.3
------------------------------------------------------------------------

attachment 3.--elements of the base operations portion of the garrison 
                 diversion unit budget fiscal year 2005

                        [In millions of dollars]
------------------------------------------------------------------------
                                                                 Amount
------------------------------------------------------------------------
Operation and Maintenance of Indian MR&I systems and                 3.4
 Jamestown Dam...............................................
Operation and Maintenance of Existing GDU facilities.........        5.0
Wildlife Mitigation & Natural Resources Trust................        6.0
Red River Valley Special Studies and EIS.....................        2.6
Indian Irrigation............................................        2.7
Recreation...................................................        0.6
Under financing at 10 percent................................        2.0
                                                              ----------
      Total..................................................       22.3
------------------------------------------------------------------------

                              attachment 4

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              attachment 5

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
     Prepared Statement of the Provo River Water Users Association
    Chairman Domenici and Senator Reid, I am writing to request your 
support for an appropriation in fiscal year 2005 of $5,234,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado River 
Region. The President's recommended budget for fiscal year 2005 
includes this line-item amount. Of these funds, I respectfully request 
the designation of $4,008,000 for the Upper Colorado River Endangered 
Fish Recovery Program; $691,000 for the San Juan River Basin Recovery 
Implementation Program and $535,000 for Fish and Wildlife Management 
and Development, consistent with the President's budget request. The 
requested fiscal year 2005 appropriation will allow construction of 
fish passage, floodplain restoration activities, screening of existing 
diversion canals, propagation facilities, endangered fish stocking, and 
non-native fish management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
  Prepared Statement of the Duchesne County Water Conservancy District
    I am writing to request your support for an appropriation in fiscal 
year 2005 of $5,234,000 to the Bureau of Reclamation within the budget 
line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado River Region. The President's 
recommended budget for fiscal year 2005 includes this line-item amount. 
Of these funds, I respectfully request the designation of $4,008,000 
for the Upper Colorado River Endangered Fish Recovery Program; $691,000 
for the San Juan River Basin Recovery Implementation Program and 
$535,000 for Fish and Wildlife Management and Development, consistent 
with the President's budget request. The requested fiscal year 2005 
appropriation will allow construction of fish passage, floodplain 
restoration activities, screening of existing diversion canals, 
propagation facilities, endangered fish stocking, and non-native fish 
management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
   Prepared Statement of the Jordan Valley Water Conservancy District
    I am writing to request your support for an appropriation in fiscal 
year 2005 of $5,234,000 to the Bureau of Reclamation within the budget 
line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado River Region. The President's 
recommended budget for fiscal year 2005 includes this line-item amount. 
Of these funds, I respectfully request the designation of $4,008,000 
for the Upper Colorado River Endangered Fish Recovery Program; $691,000 
for the San Juan River Basin Recovery Implementation Program and 
$535,000 for Fish and Wildlife Management and Development, consistent 
with the President's budget request. The requested fiscal year 2005 
appropriation will allow construction of fish passage, floodplain 
restoration activities, screening of existing diversion canals, 
propagation facilities, endangered fish stocking, and non-native fish 
management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
            Prepared Statement of Colorado Springs Utilities
    I am writing to request your support for an appropriation in fiscal 
year 2005 of $5,234,000 to the Bureau of Reclamation within the budget 
line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado River Region. The President's 
recommended budget for fiscal year 2005 includes this line-item amount. 
Of these funds, I respectfully request the designation of $4,008,000 
for the Upper Colorado River Endangered Fish Recovery Program; $691,000 
for the San Juan River Basin Recovery Implementation Program and 
$535,000 for Fish and Wildlife Management and Development, consistent 
with the President's budget request. The requested fiscal year 2005 
appropriation will allow construction of fish passage, floodplain 
restoration activities, screening of existing diversion canals, 
propagation facilities, endangered fish stocking, and non-native fish 
management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
      Prepared Statement of the Dolores Water Conservancy District
    I am writing to request your support for an appropriation in fiscal 
year 2005 of $5,234,000 to the Bureau of Reclamation within the budget 
line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado River Region. The President's 
recommended budget for fiscal year 2005 includes this line-item amount. 
Of these funds, I respectfully request the designation of $4,008,000 
for the Upper Colorado River Endangered Fish Recovery Program; $691,000 
for the San Juan River Basin Recovery Implementation Program and 
$535,000 for Fish and Wildlife Management and Development, consistent 
with the President's budget request. The requested fiscal year 2005 
appropriation will allow construction of fish passage, floodplain 
restoration activities, screening of existing diversion canals, 
propagation facilities, endangered fish stocking, and non-native fish 
management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
   Prepared Statement of the Perkins County Rural Water System, Inc.
    Perkins County Rural Water System, Inc. respectfully submits this 
written testimony to the Appropriations Subcommittee on Energy and 
Water Development for appropriations of $5.0 million for fiscal year 
2005. This project was authorized under Public Law 106-136.
    Perkins County Rural Water System, (PCRWS) has the approval of the 
Office of Management and Budget and the Bureau of Reclamation to 
proceed with construction in 2004. We have been appropriated $7.6 
million in years 2002 and 2003. We were appropriated $1.0 million in 
2004. The administration has approved us in the budget for $500,000 for 
fiscal year 2005. We would not be able to keep our construction on 
schedule if we are appropriated this amount of money. Cost share for 
the system is 75 percent Federal, 15 percent local and 10 percent 
State. The State of South Dakota has offered to loan PCRWS the local 
share for 40 years at 3 percent interest to keep costs down to the 
customer.
    Breakdown for the project for 2005 is as follows:

                               2005 BUDGET
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Income:
    Bureau of Reclamation...............................      $5,000,000
    State of South Dakota...............................       1,250,000
    Misc................................................          75,000
                                                         ---------------
      Total.............................................       6,325,000
                                                         ===============
Expense:
    Mainline to Bison...................................       1,300,000
    Mainline to Lemmon..................................       1,200,000
    North Dakota State Water Comm.......................       1,000,000
    Reservoir...........................................         500,000
    Lemmon Rural Pipe...................................         280,000
    Bison & Prairie City Rural..........................       1,500,000
    Administration, Engineering.........................         545,000
                                                         ---------------
      Total.............................................       6,325,000
------------------------------------------------------------------------

    PCRWS will need $5.0 million for each of the next 3 years to 
complete our project on time. This consists of 550 miles of various 
size pipes ranging from 8 inches to 1.5 inches, one pump station 
capable of moving 800 gallons per minute, a 1.0 million gallon tank and 
telemetry to operate the whole system from one localized location.
    The quality of water in Northwest South Dakota is the main concern 
for the health and well being of the people. Although the water 
typically meets primary standards established by the USEPA, most of the 
chemicals in the water are exceedingly high by the State of South 
Dakota standards. Water quality and quantity in Perkins County has been 
a plague for the county over many years. Droughts, both long and short 
term, are a fact of life for the people in this area. Being able to 
obtain quality water during these periods and having a backup system 
for other times would make life a lot easier for those in the rural 
area. Due to the isolation from major water supplies, this may be our 
only chance to obtain water at an affordable cost.
    On the behalf of the Board of Directors of PCRWS and the people of 
Perkins County, South Dakota, thank you for allowing us to enter this 
testimony in the subcommittee's report.
                                 ______
                                 
 Prepared Statement of the Northern Colorado Water Conservancy District
    Chairman Domenici and Senator Reid, I am writing to request your 
support for an appropriation in fiscal year 2005 of $5,234,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado River 
Region. The President's recommended budget for fiscal year 2005 
includes this line-item amount. Of these funds, I respectfully request 
the designation of $4,008,000 for the Upper Colorado River Endangered 
Fish Recovery Program; $691,000 for the San Juan River Basin Recovery 
Implementation Program and $535,000 for Fish and Wildlife Management 
and Development, consistent with the President's budget request. The 
requested fiscal year 2005 appropriation will allow construction of 
fish passage, floodplain restoration activities, screening of existing 
diversion canals, propagation facilities, endangered fish stocking, and 
non-native fish management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
           Prepared Statement of the Four Corners Power Plant
    Chairman Domenici and Senator Reid, I am writing to request your 
support for an appropriation in fiscal year 2005 of $5,234,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado River 
Region. The President's recommended budget for fiscal year 2005 
includes this line-item amount. Of these funds, I respectfully request 
the designation of $4,008,000 for the Upper Colorado River Endangered 
Fish Recovery Program; $691,000 for the San Juan River Basin Recovery 
Implementation Program and $535,000 for Fish and Wildlife Management 
and Development, consistent with the President's budget request. The 
requested fiscal year 2005 appropriation will allow construction of 
fish passage, floodplain restoration activities, screening of existing 
diversion canals, propagation facilities, endangered fish stocking, and 
non-native fish management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
     Prepared Statement of the Public Service Company of New Mexico
    I am writing to request your support for an appropriation in fiscal 
year 2005 of $5,234,000 to the Bureau of Reclamation within the budget 
line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado River Region. The President's 
recommended budget for fiscal year 2005 includes this line-item amount. 
Of these funds, I respectfully request the designation of $4,008,000 
for the Upper Colorado River Endangered Fish Recovery Program; $691,000 
for the San Juan River Basin Recovery Implementation Program and 
$535,000 for Fish and Wildlife Management and Development, consistent 
with the President's budget request. The requested fiscal year 2005 
appropriation will allow construction of fish passage, floodplain 
restoration activities, screening of existing diversion canals, 
propagation facilities, endangered fish stocking, and non-native fish 
management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
     Prepared Statement of the Grand Valley Water Users Association
    I am writing to request your support for an appropriation in fiscal 
year 2005 of $5,234,000 to the Bureau of Reclamation within the budget 
line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado River Region. The President's 
recommended budget for fiscal year 2005 includes this line-item amount. 
Of these funds, I respectfully request the designation of $4,008,000 
for the Upper Colorado River Endangered Fish Recovery Program; $691,000 
for the San Juan River Basin Recovery Implementation Program and 
$535,000 for Fish and Wildlife Management and Development, consistent 
with the President's budget request. The requested fiscal year 2005 
appropriation will allow construction of fish passage, floodplain 
restoration activities, screening of existing diversion canals, 
propagation facilities, endangered fish stocking, and non-native fish 
management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    Colorado River Basin Salinity Control Forum's Recommendation:
  --Title II Program Authorized in 1995 (Public Law 104-20)--
        $17,500,000.
  --General Investigation Funds--Adequate Funding.
  --Operation and Maintenance--Adequate Funding.
    This testimony is in support of funding for the Title II Colorado 
River Basin Salinity Control Program (Program). Congress has designated 
the Department of the Interior, Bureau of Reclamation (Reclamation), to 
be the lead agency for salinity control in the Colorado River Basin. 
This role and the authorized program were refined and confirmed by the 
Congress when Public Law 104-20 was enacted. A total of $17,500,000 is 
requested for fiscal year 2005 to implement the needed and authorized 
program. Failure to appropriate these funds will result in significant 
economic damage in the United States and Mexico.
    In previous years, the President has supported, and Congress has 
funded, a program at about $12 million. In recent years, the 
President's requests have dropped and this year's request, in the 
judgment of the Colorado River Basin Salinity Control Forum (Forum), is 
inappropriately low. This year's administration request is for 
$9,064,000. Water quality commitments to downstream U.S. and Mexican 
water users must be honored while the Basin States continue to develop 
their Compact apportioned waters of the Colorado River. Concentrations 
of salts in the river cause hundreds of millions of dollars in damage 
in the United States and result in poorer quality water being delivered 
by the United States to Mexico. For every 30 mg/l increase in salinity 
concentrations, there is $75 million in additional damages in the 
United States. The Forum, therefore, believes implementation of the 
Program needs to be accelerated to a level beyond that requested by the 
President.
    The Program, authorized by the Congress in 1995, has proven to be 
very successful and very cost effective. Proposals from the public and 
private sector to implement salinity control strategies have far 
exceeded the available funding and Reclamation has a backlog of 
proposals. Reclamation continues to select the best and most cost-
effective proposals. Funds are available for the Colorado River Basin 
States' cost sharing for the level of Federal funding requested by the 
Forum. Water quality improvements accomplished under Title II of the 
Colorado River Basin Salinity Control Act (Act) also benefit the 
quality of water delivered to Mexico. Although the United States has 
always met the commitments of the International Boundary & Water 
Commission's (Commission) Minute 242 to Mexico with respect to water 
quality, the United States Section of the Commission is currently 
addressing Mexico's request for better water quality at the 
International Boundary.
    Some of the most cost effective salinity control opportunities 
occur when the USBR can improve irrigation delivery systems at the same 
time that the USDA's program is working with landowners (irrigators) to 
improve the on-farm irrigation systems. Through the newly authorized 
USDA EQIP, adequate on-farm funds appear to be available and adequate 
USBR funds are needed to maximize the effectiveness of the effort.
                                overview
    In 2000, Congress reviewed the Program as authorized in 1995. 
Following hearings, and with administration support, the Congress 
passed legislation that increased the ceiling authorized by this 
program by $100 million. Reclamation has received cost-effective 
proposals to move the Program ahead and the Basin States have funds 
available to cost-share up-front.
    The Program was authorized by Congress in 1974. The Title I portion 
of the Act responded to commitments that the United States made, 
through Minute 242, to Mexico concerning the quality of water being 
delivered to Mexico below Imperial Dam. Title II of the Act established 
a program to respond to salinity control needs of Colorado River water 
users in the United States and to comply with the mandates of the then 
newly legislated Clean Water Act. Initially, the Secretary of the 
Interior and Reclamation were given the lead Federal role by the 
Congress. This testimony is in support of adequate funding for the 
Title II program.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that the Act needed to be amended. Congress 
revised the Act in 1984. That revision, while leaving implementation of 
the salinity control policy with the Secretary of the Interior, also 
gave new salinity control responsibilities to the Department of 
Agriculture and to the Bureau of Land Management. Congress has charged 
the administration with implementing the most cost-effective program 
practicable (measured in dollars per ton of salt removed). The Basin 
States are strongly supportive of that concept as the Basin States cost 
share 30 percent of Federal expenditures up-front for the Program, in 
addition to proceeding to implement their own salinity control efforts 
in the Colorado River Basin.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
has become the seven-State coordinating body for interfacing with 
Federal agencies and Congress to support the implementation of the 
Program necessary to control the salinity of the river system. In close 
cooperation with the Environmental Protection Agency (EPA) and under 
requirements of the Clean Water Act, every 3 years the Forum prepares a 
formal report analyzing the salinity of the Colorado River, anticipated 
future salinity, and the program necessary to keep the salinities under 
control.
    In setting water quality standards for the Colorado River system, 
the salinity levels measured at Imperial, and below Parker and Hoover 
Dams in 1972 have been identified as the numeric criteria. The plan 
necessary for controlling salinity and to reduce downstream damages has 
been captioned the ``plan of implementation.'' The 2002 Review of water 
quality standards includes an updated plan of implementation. The level 
of appropriation requested in this testimony is in keeping with the 
agreed upon plan. If adequate funds are not appropriated, State and 
Federal agencies involved are in agreement that damage from the higher 
salt levels in the water will be more widespread in the United States, 
as well as in Mexico, and will be very significant.
    Although the Program thus far has been able to implement salinity 
control measures that comply with the approved plan, recent drought 
years have caused salinity levels to rise in the river. Predictions are 
that this will be the trend for the next several years. This places an 
added urgency for the acceleration of the implementation of the 
Program.
                             justification
    The $17,500,000 requested by the Forum on behalf of the seven 
Colorado River Basin States is the level of funding necessary to 
proceed with Reclamation's portion of the plan of implementation. In 
July of 1995, Congress amended the Act. The amended Act gives 
Reclamation new latitude and flexibility in seeking the most cost-
effective salinity control opportunities, and it provides for 
utilization of proposals from project proponents, as well as more 
involvement from the private as well as the public sector. The result 
is that salt loading is being prevented at costs often less than half 
the cost under the previous Program. Congress recommitted its support 
to the revised program when it enacted Public Law 106-459. The Basin 
States' cost sharing up-front adds 43 cents for every Federal dollar 
appropriated. The federally chartered Colorado River Basin Salinity 
Control Advisory Council, created by the Congress in the Act, has met 
and formally supports the requested level of funding. The Basin States 
urge the subcommittee to support the funding as set forth in this 
testimony.
                     additional support of funding
    In addition to the funding identified above for the implementation 
of the most recently authorized program, the Forum urges the Congress 
to appropriate necessary funds needed to continue to maintain and 
operate salinity control facilities as they are completed and placed 
into long-term operation. Reclamation has completed the Paradox Valley 
unit which involves the collection of brines in the Paradox Valley of 
Colorado and the injection of those brines into a deep aquifer through 
an injection well. The continued operation of this project and other 
completed projects will be funded through Operation and Maintenance 
funds.
    In addition, the Forum supports necessary funding to allow for 
continued general investigation of the Program. It is important that 
Reclamation have planning staff in place, properly funded, so that the 
progress of the Program can be analyzed, coordination between various 
Federal and State agencies can be accomplished, and future projects and 
opportunities to control salinity can be properly planned to maintain 
the water quality standards for salinity so that the Basin States can 
continue to develop their Compact-apportioned waters of the Colorado 
River.
                                 ______
                                 
              Prepared Statement of the Mni Wiconi Project
              fiscal year 2005 construction budget request
    The Mni Wiconi Project beneficiaries (as listed below) respectfully 
request appropriations and can demonstrate capability for construction 
in fiscal year 2005 in the amount of $39,317,000 as follows:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Oglala Sioux Rural Water Supply System:
    Core Facilities (Pipelines and Pumping Stations)....      $8,128,000
    Distribution System on Pine Ridge...................      10,224,000
West River/Lyman-Jones Rural Water System...............      11,020,000
Rosebud Sioux Rural Water System........................       7,325,000
Lower Brule Sioux Rural Water System....................       2,620,000
                                                         ---------------
      Total Mni Wiconi Project..........................      39,317,000
------------------------------------------------------------------------

    The project sponsors were provided by the 107th Congress (Public 
Law 107-367) with all the authority necessary to finish this project at 
the level of development originally intended on a schedule through 
fiscal year 2008. Completion of the project is now clearly achievable 
as shown in the table below:

 ------------------------------------------------------------------------
 ------------------------------------------------------------------------
Total Federal Required (October 2003 Dollars)...........    $409,523,000
Estimated Federal Spent Through Fiscal Year 2004........    $278,110,000
Percent Spent...........................................            67.9
Amount Remaining........................................    $131,413,000
Years to Completion.....................................               4
Average Required for Fiscal Year 2008 Finish............     $32,853,000
------------------------------------------------------------------------

    The administration's budget for this project in fiscal year 2005 
($18.2 million for construction) is a disappointment for a second year 
in a row. The amount requested by the administration falls far short of 
the average amount needed to complete the project in fiscal year 2008. 
The needs and merits of this project are considerable as described in 
section 3.
    The project's operation, maintenance and replacement request from 
the sponsors is in addition to the construction request and is 
presented in section 8.
 osrwss core pipeline to reach pine ridge indian reservation in fiscal 
                               year 2005

              OGLALA SIOUX WATER SUPPLY SYSTEM CORE REQUEST
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
South Core:
    Stamford to Kadoka:
        Reservoir to Kadoka Pipeline....................      $1,036,000
        Pump Station, 2 Reservoirs......................       2,111,000
    Kadoka to White River Pipeline......................       2,587,000
North Core:
    WTP toward Hayes Pipeline...........................       2,394,000
                                                         ---------------
      Total.............................................       8,128,000
------------------------------------------------------------------------

    The Pine Ridge Indian Reservation and parts of West River/Lyman-
Jones remain without points of interconnection to the OSRWSS core. The 
requested funding level for the OSRWSS core of $8.128 million will 
complete the project from Stamford to the northeast corner of the Pine 
Ridge Indian Reservation where, in combination with the western part of 
West River/Lyman-Jones, the remaining 50 percent of the design 
population resides. Funds will also be used by the Oglala Sioux Tribe 
to build the North Core westerly toward Hayes in the West River Lyman 
Jones service area with the intent to complete the OSRWSS North Core 
and all other core facilities in fiscal year 2007. Two additional years 
of funding will be required to complete the OSRWSS North Core system to 
serve the Reservation.
    The 2000 census confirms that the Oglala Sioux population on Pine 
Ridge is growing at a rate of 27 percent per decade or 1\1/2\ times 
greater than projected from the 1990 census. Delivery of Missouri River 
water to this area is urgently needed.
    All proposed OSRWSS construction activity will build pipelines that 
will provide Missouri River water immediately to beneficiaries. In many 
cases, construction of interconnecting pipelines by other sponsors is 
ongoing, and fiscal year 2005 funds are required to complete projects 
that will connect with the OSRWSS core and begin others.
    Funding for OSRWSS core and distribution facilities is necessary to 
bring economic development to the Pine Ridge Indian Reservation, 
designated as one of five national rural empowerment zones by the 
previous administration. The designation serves to underscore the level 
of need. Economic development is largely dependent on the timely 
completion of a water system, which depends on appropriations for this 
project.
    Finally, the subcommittee is respectfully requested to take notice 
of the fact that fiscal year 2005 will significantly advance 
construction of facilities that continues our progress toward the end 
of the project. The subcommittee's past support has brought the project 
to the point that the end can be seen. Key to the conclusion of the 
project in fiscal year 2008 is the completion of the OSRWSS core to the 
Pine Ridge Indian Reservation. Toward this end, funds are included in 
the fiscal year 2005 budget to build the connecting pipelines between 
the northeast corner of the Pine Ridge Indian Reservation and the 
central portion of the Reservation near Kyle. Rosebud is similarly 
engaged in the construction of major connecting pipelines that will 
deliver water southerly to the central portions of the Rosebud Indian 
Reservation and to service areas for West River/Lyman-Jones.
                      unique needs of this project
    This project covers much of the area of western South Dakota that 
was formerly the Great Sioux Reservation established by the Treaty of 
1868. Since the separation of the Reservation in 1889 into smaller more 
isolated reservations, including Pine Ridge, Rosebud and Lower Brule, 
tensions between the Indian population and the non-Indian settlers on 
former Great Sioux lands have been high with little easing by 
successive generations. The Mni Wiconi Project is perhaps the most 
significant opportunity in more than a century to bring the sharply 
diverse cultures of the two societies together for a common good. Much 
progress has been made due to the good faith and genuine efforts of 
both the Indian and non-Indian sponsors. The project is an historic 
basis for renewed hope and dignity among the Indian people. It is a 
basis for substantive improvement in relationships.
    Each year our testimony addresses the fact that the project 
beneficiaries, particularly the three Indian Reservations, have the 
lowest income levels in the Nation. The health risks to our people from 
drinking unsafe water are compounded by reductions in health programs. 
We respectfully submit that our project is unique and that no other 
project in the Nation has greater human needs. Poverty in our service 
areas is consistently deeper than elsewhere in the Nation. Health 
effects of water borne diseases are consistently more prevalent than 
elsewhere in the Nation, due in part to (1) lack of adequate water in 
the home and (2) poor water quality where water is available. Higher 
incidences of impetigo, gastroenteritis, shigellosis, scabies and 
hepatitis-A are well documented on the Indian reservations of the Mni 
Wiconi Project area. At the beginning of the third millennium one 
cannot find a region in our Nation in which social and economic 
conditions are as deplorable. These circumstances are summarized in 
Table 1. Mni Wiconi builds the dignity of many, not only through 
improvement of drinking water, but also through direct employment and 
increased earnings during planning, construction, operation and 
maintenance and from economic enterprises supplied with project water. 
We urge the subcommittee to address the need for creating jobs and 
improving the quality of life on the Pine Ridge and other Indian 
reservations of the project area.

                          TABLE 1.--PROFILE OF SELECTED ECONOMIC CHARACTERISTICS: 2000
----------------------------------------------------------------------------------------------------------------
                                                                     Income               Percent
                                   2000        Percent  --------------------------------  Families     Percent
  Indian Reservation/State      Population      Change                       Median        Below    Unemployment
                                              From 1990    Per Capita       Household     Poverty
----------------------------------------------------------------------------------------------------------------
Pine Ridge Indian                     15,521      27.07          $6,143         $20,569       46.3         16.9
 Reservation................
Rosebud Indian Reservation..          10,469       7.97          $7,279         $19,046       45.9         20.1
Lower Brule Indian                     1,353      20.48          $7,020         $21,146       45.3         28.1
 Reservation................
Star of South Dakota........         754,844       8.45         $17,562         $35,282        9.3          3.0
Nation......................     281,421,906      13.15         $21,587         $41,994        9.2          3.7
----------------------------------------------------------------------------------------------------------------

    Employment and earnings among the Indian people of the project area 
are expected to positively impact the high costs of health-care borne 
by the United States and the Tribes. Our data suggest clear 
relationships between income levels and Federal costs for heart 
disease, cancer and diabetes. During the life of the Mni Wiconi 
Project, mortality rates among the Indian people in the project area 
for the three diseases mentioned will cost the United States and the 
Tribes more than $1 billion beyond the level incurred for these 
diseases among comparable populations in the non-Indian community 
within the project area. While this project alone will not raise income 
levels to a point where the excessive rates of heart disease, cancer 
and diabetes are significantly diminished, the employment and earnings 
stemming from the project will, nevertheless, reduce mortality rates 
and costs of these diseases. Please note that between 1990 and 2000 per 
capita income on Pine Ridge increased from $3,591 to $6,143, and median 
household income increased from $11,260 to $20,569, due in large part 
to this project, albeit not sufficient to bring a larger percentage of 
families out of poverty (Table 1).
    Financial support for the Indian membership has already been 
subjected to drastic cuts in funding programs through the Bureau of 
Indian Affairs. This project is a source of strong hope that helps off-
set the loss of employment and income in other programs and provide for 
an improvement in health and welfare. Tribal leaders have seen that 
Welfare Reform legislation and other budget cuts Nation-wide have 
created a crisis for tribal government because tribal members have 
moved back to the reservations in order to survive. Economic conditions 
have resulted in accelerated population growth on the reservations.
    The Mni Wiconi Project Act declares that the United States will 
work with us under the circumstances:

    ``. . . the United States has a trust responsibility to ensure that 
adequate and safe water supplies are available to meet the economic, 
environmental, water supply and public health needs of the Pine Ridge, 
Rosebud and Lower Brule Indian Reservations . . .''.

    Indian support for this project has not come easily because the 
historical experience of broken commitments to the Indian people by the 
Federal Government is difficult to overcome. The argument was that 
there is no reason to trust and that the Sioux Tribes are being used to 
build the non-Indian segments of the project and the Indian segments 
would linger to completion. These arguments have been overcome by 
better planning, an amended authorization and hard fought agreements 
among the parties. The subcommittee is respectfully requested to take 
the steps necessary the complete the critical elements of the project 
proposed for fiscal year 2004.
    The following sections describe the construction activity in each 
of the rural water systems.
          oglala sioux rural water supply system--distribution

          OGLALA SIOUX WATER SUPPLY SYSTEM DISTRIBUTION REQUEST
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
West Boundary Supply....................................        $506,000
Manderson Loop..........................................       1,454,000
Rockyford to Redshirt...................................         179,000
White River to HWY 73/44 Junction:
    Pump Station, Service Lines and Reservoirs..........       3,127,000
HWY 73/44 Junction to Kyle..............................       4,923,000
Indefinite Quantities...................................          35,000
                                                         ---------------
      Total.............................................      10,224,000
------------------------------------------------------------------------

    With the conclusion of projects under construction in fiscal year 
2002, the Oglala Sioux Tribe completed all facilities that can be 
supported from local groundwater. The Tribe, representing more than 40 
percent of the project population will rely on the OSRWSS core to 
convey Missouri River water to and throughout the Reservation. Much 
pipeline has been constructed, primarily between Kyle, Wounded Knee and 
Red Shirt and between Pine Ridge Village and the communities of Oglala 
and Slim Buttes. Additional construction of the Manderson Loop is 
proposed in fiscal year 2005.
    Of particular importance to the Oglala Sioux Tribe is the 
continuation of the main transmission system from the northeast corner 
(Highway 73/44 junction) of the Reservation to Kyle in the central part 
of the Reservation. The transmission line is needed to interconnect the 
OSRWSS core system with the distribution system within the Reservation 
in order to deliver Missouri River water to the populous portions of 
the Reservation. This critical segment of the project can be continued 
in fiscal year 2005 to coincide with the westward construction of the 
OSRWSS core to the northeast corner of the Reservation (see section 2). 
It will require funds in fiscal year 2006 and fiscal year 2007 to 
complete. This component of the Oglala system has been deferred for 
several years due to inadequate funding. The component is urgently 
needed for the OSRWSS core system to be utilized on the Pine Ridge 
Indian Reservation.
        west river/lyman-jones rural water system--distribution

              WR/LJ RURAL WATER SYSTEM DISTRIBUTION REQUEST
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Mellette East...........................................        $533,000
Moenville...............................................       9,566,000
Quinn Town Distribution.................................         176,000
Vivian Town.............................................         441,000
Indefinite Quantities...................................         304,000
                                                         ---------------
      Total.............................................      11,020,000
------------------------------------------------------------------------

    Continued drought conditions in the project area have created 
serious health and economic hardships for WR/LJ members waiting to 
receive Mni Wiconi water service. A survey of members attending the WR/
LJ annual meeting on October 8, 2003 in Midland revealed that, of those 
members not receiving project water, 67 percent were hauling water for 
domestic use and 45 percent were hauling water for livestock. Their 
current source of water, highly mineralized wells and dried up dams, 
present a serious health hazard and unaffordable increases in 
production costs due to the time and cost of hauling water.
    The requested appropriation is directed to serving members between 
Ft. Pierre and Philip. The highest priority is completion of the 
Moenville project. Houston Rose, prior to his death, pioneered initial 
efforts to bring quality water to this WR/LJ service area closest to 
the Mni Wiconi water treatment plant. The economy of the area he 
represented is based on livestock operations that are dependent on 
quality water supplies.
    WR/LJ is now the water service provider in the towns of Quinn and 
Vivian, however, the existing distribution piping is over 50 years old 
and is a very high priority for replacement. Funding is also requested 
for the construction of pumping station and reservoirs required to 
deliver the full design capability of the pipelines under construction. 
As a testimony to public recognition of the advantages of quality water 
and the reliability of the system WR/LJ continues to add users within 
those areas previously constructed. These additions are being financed 
by member contributions as part of the statutory non-Federal matching 
requirement.
    The Mni Wiconi project, due to continued Congressional support, has 
progressed to where the project beneficiaries can look forward to its 
timely completion and receive the intended project benefits. We 
sincerely appreciate your support.
            rosebud rural water system (sicangu mni wiconi)

                ROSEBUD SIOUX RURAL WATER SYSTEM REQUEST
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Hidden Timber...........................................      $1,317,000
Rosebud Improvements....................................         737,000
Rural Antelope..........................................         866,000
Okreek..................................................       2,030,000
Mission Northwest.......................................         447,000
Livestock Water.........................................       1,271,000
Service Connections.....................................         657,000
                                                         ---------------
      Total.............................................       7,325,000
------------------------------------------------------------------------

    Fiscal year 2005 efforts build upon the successes of the past 2 
years. The Rosebud Core pipeline will begin providing water from the 
OSRWSS at Murdo to Rosebud and WR/LJ water users in Mellette County. As 
a result, the limited supply of high quality ground water available 
from the Rosebud wellfield can be used as a source of supply for 
northeast Todd County.
    The Rosebud Sioux Tribes efforts in fiscal year 2005 focus on 
connecting additional homes to new and existing pipelines. The Antelope 
to Okreek Pipeline, completed in late 2003, provides a supply of high 
quality ground water to the rural Antelope, northwest Mission, Hidden 
Timber and Okreek project areas. In this portion of northern Todd 
County, the Oglala Aquifer is not present and ground water is of poor 
quality and limited quantity where available. Private and community 
wells have failed in the area and while the Antelope to Okreek Pipeline 
solved the problem for the community of Okreek, many rural residents 
are anxiously waiting for water.
    The problems are exacerbated in the Hidden Timber area. Where 
ground water occurs, nitrate concentrations are frequently in excess of 
the Safe Drinking Water Act primary standard. The high nitrate 
concentrations pose an acute threat to the unborn and young children.
    The major features of the proposed fiscal year 2005 work plan focus 
on distribution and service lines for this area. Proposed projects for 
this area include Rural Antelope, Mission Northwest, Okreek and Hidden 
Timber. It is envisioned that both private contractors and the tribal 
construction program would be responsible for construction.
    The other major project proposed for fiscal year 2005 address 
improvements needed in the community of Rosebud. In fiscal year 2004, 
the Tribe will be connecting the lower older part of Rosebud to the 
rural water system. While this will improve the quality and reliability 
of supply, improvements are needed to ensure water reaches the users. 
In several areas, older cast iron pipe has corroded and needs to be 
replaced. In other areas, older asbestos concrete pipe is still in use 
and felt to be a health threat. The focus of the work in Rosebud in 
fiscal year 2005 is to provide a reliable source of high quality water 
to all service connections.
    The Tribe will also expand its service line program. The focus of 
this effort is new homes and homes that have been constructed since 
transmission or distribution lines have been installed. It is also 
proposed to start developing livestock watering facilities. The Tribe 
has not constructed any of these facilities to date with Mni Wiconi 
funding and the realty of prolonged drought is having an affect on 
historic livestock watering sources of supply. A reliable source of 
water for livestock is necessary to maintain one of the more viable 
components of the reservation economy.
    The total amount requested for the Sicangu Mni Wiconi in fiscal 
year 2005 is $7,325,000.
              lower brule rural water system--distribution
    The Lower Brule Rural Water System (LBRWS) has gained the support 
of the other sponsors to complete its share of the project with funds 
appropriated in fiscal year 2005 budget, based on an appropriation of 
funds for the project in the range generally received. This support is 
not only a benefit for LBRWS and its users but to the project as a 
whole. By funding LBRWS in this manner, a savings of approximately $1.5 
million will be experienced by the project.
    With the funds received in fiscal year 2004, LBRWS will complete 
the design, cultural resource evaluation and the securing of easements 
for the remaining service areas and installing mainlines and service 
lines required to provide water to all of the homes on the Lower Brule 
Indian Reservation. The fiscal year 2004 funds will also allow LBRWS to 
begin installing water lines to pasture taps. Since the area has 
experienced 2 years of drought conditions, many of the dams are dry. 
The provision of water will allow some pastures to be utilized that 
would have otherwise been of no benefit to the ranchers.
    The fiscal year 2005 funds will allow the completion of the 
installation of pasture taps and a new 400,000 gallon elevated water 
tank in Lower Brule. The existing tank is in a location where the 
slides (soil movement) have occurred. As a result, the stability of the 
tank's foundation is in question.
             operation, maintenance and replacement budget
    The sponsors have and will continue to work with Reclamation to 
ensure that their budgets are adequate to properly operate, maintain 
and replace (OMR) their respective portions of the overall system. The 
sponsors will also continue to manage OMR expenses in a manner ensuring 
that the limited funds can best be balanced between construction and 
OMR. In fiscal year 2003, the approved budget for OMR was $8.228 
million, which was adequate. Funding was not adequate in fiscal year 
2004 at the $6.254 level and will not be adequate at the same leveling 
the administration's proposed fiscal year 2005 budget of $6.254 million 
for OMR.
    The project has been making significant progress especially over 
the last 2 years with the initiation of operation of the OSRWSS Water 
Treatment Plant near Ft. Pierre and the installation of a significant 
quantity of pipeline. The result is the need for sufficient funds to 
properly operate and maintain the functioning system throughout the 
project. As a result, the OMR budget must continue to be adequate to 
keep pace with the portion of the system that is placed in operation.
    In addition to ongoing operation and maintenance activities, water 
conservation is an integral part of the OMR of the project. Water 
conservation not only provides immediate savings from reduced water use 
and production, it also extends the useful life and capacity of the 
system. Proposed funding is not adequate to perform water conservation 
functions.
                                 ______
                                 
 Prepared Statement of the City of Watsonville, California and Pajaro 
                     Valley Water Management Agency
    On behalf of the City of Watsonville and the Pajaro Valley Water 
Management Agency (PVWMA), we are submitting this testimony in support 
of Federal funding for the Watsonville Area Water Recycling Project. 
The project has been targeted to receive $2.0 million as part of the 
fiscal year 2003 and fiscal year 2004 Energy and Water appropriations 
bills through the Bureau of Reclamation's Title XVI program. This year, 
we respectfully request your support for the inclusion of $6.3 million 
in the Bureau of Reclamation's Title XVI program in the fiscal year 
2005 Energy and Water Development Appropriations bill.
    The City of Watsonville and the PVWMA continue to make great 
progress on the project. We are working diligently with the Bureau of 
Reclamation to develop solutions to the seawater intrusion problem 
affecting the water supply of our agricultural and urban water users. 
We need not convince you of the vital nature of this project that will 
protect the Pajaro Valley's fresh water supply from continued 
degradation.
    To address the water resource needs of our area, PVWMA is 
implementing the Revised Basin Management Plan Project (project). 
Capital costs of the project are estimated at $165 million, of which 
$80 million is eligible for Federal cost sharing under the Title XVI 
program (in 2006 dollars). The Watsonville Water Area Recycling Project 
components that have qualified for funding through the Title XVI 
program include:
  --Recycled Water Treatment Facility;
  --Distribution System; and
  --Salinity Control Pipeline.
    The next several years will be critical for the project and we 
anticipate that all construction will be completed by fiscal year 2007. 
Certification of the Watsonville Water Area Recycling Project 
Feasibility Study is pending a Record of Decision on the Basin 
Management Plan Environmental Impact Statement, which is expected by 
May 2004.
    The following table summarizes projected expenditures for design 
and construction of the Title XVI eligible project components.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                             Projected
                                                           Expenditures
------------------------------------------------------------------------
Fiscal year 2004........................................             9.8
Fiscal year 2005........................................            25.3
Fiscal year 2006........................................            31.3
Fiscal year 2007........................................            13.4
------------------------------------------------------------------------

    We continue to be concerned by the administration's lack of support 
for Title XVI projects including the Watsonville Area Water Recycling 
Project. The Bureau's fiscal year 2005 budget recently submitted to 
Congress includes no funding for our project. In fact, the Bureau 
failed to budget for 12 of the 18 eligible projects while requesting 
over $1.5 million for itself to administer the program. We strongly 
believe that the Title XVI program in general and the Watsonville Area 
Water Recycling Project specifically offer effective solutions to the 
water supply crisis in our State. Indeed, without the Title XVI 
program, water recycling in our area might not be feasible and would 
force increased reliance on an already oversubscribed Central Valley 
Project. We question the wisdom of reducing the Bureau's participation 
in Title XVI and ask that you work with your colleagues in support of 
the program as well as funding for the Watsonville Area Water Recycling 
Project.
    We are excited to report that the project is moving ahead on 
schedule. Approximately $18 million of project components have been 
constructed through fiscal year 2003. The accelerated construction of 
these project components allows PVWMA to deliver water early and 
demonstrate continued progress. In fiscal year 2004, we initiated work 
on the final design of the distribution system, the recycled water 
facilities, blending facilities and water wells, and salinity control 
pipeline. The design for each component will be completed in early 
fiscal year 2005 and construction of the projects will commence 
immediately thereafter.
    Please feel free to contact PVWMA's Washington Representative or us 
if you have any questions or require additional information.
                                 ______
                                 
      Prepared Statement of the Lewis and Clark Rural Water System
                               background
    The Lewis and Clark Rural Water System is requesting $35 million 
through the Bureau of Reclamation in Federal funding for continuing 
construction activities in 2005. These funds will be used for 
construction, acquisition of easements and property, engineering, and 
associated legal and professional costs. The project has completed 
required planning and environmental reviews, and major construction 
will begin this year. The $17 million secured in fiscal year 2004 will 
enable Lewis and Clark to install the first segments of the raw water 
pipeline, provide emergency water connections for communities in Iowa, 
and various other interconnections throughout the water system. The 
three member-states and the local project sponsors have also 
contributed much to this project, with roughly $11 million in local 
funds to be made available in fiscal year 2005.
    The President's budget requests $17.5 million for Lewis and Clark, 
which reflects a commitment he made to the project last summer. While 
this request is a welcome starting point, $35 million is necessary to 
fully-fund the project this year to ensure construction activities will 
continue in 2005. Even though we are in the early stages of 
construction, it is important to keep the project on schedule in order 
to provide this much-needed water source to area communities as soon as 
possible.
    The Lewis and Clark Rural Water System Act became law in July 2000 
(Public Law 106-246). When complete, the project will provide safe, 
reliable drinking water to approximately 200,000 people in South 
Dakota, Minnesota, and Iowa. Lewis and Clark represents a unique 
regional approach by three States to address common problems with area 
water resources in a more effective and cost-efficient way than each 
State could do alone. Regional water problems include shallow wells and 
aquifers prone to contamination, compliance with new Federal drinking 
water standards, and increasing water demand due to population growth 
and economic expansion.
    The Lewis and Clark project will utilize an aquifer adjacent to the 
Missouri River near Vermillion, South Dakota, and will distribute water 
to member communities in an area of approximately 5,000 square miles, 
roughly the size of Connecticut. When complete, the drinking water will 
pass through a well system, a water treatment plant, and a non-looped 
distribution system. The system also will include water storage tanks 
that will provide approximately a 1-day supply. The project will 
require an estimated 10 to 12 years to complete.
                plans for construction in 2004 and 2005
    Lewis and Clark developed a schedule for construction and related 
services to be performed during the next 2 years. The following work is 
anticipated in fiscal year 2004 and fiscal year 2005, subject to the 
availability of funding.
Projects Planned for Fiscal Year 2004
    Raw Water Pipeline--Segment 1.--This project has been awarded to 
Winter Brothers Underground for $1,850,000. Construction will begin in 
May and will be completed by the end of September.
    Raw Water Pipeline--Segments 2 and 3.--This project is currently in 
the final design phase. Permit applications and easements are currently 
being processed. It is anticipated this project would be awarded to a 
contractor in the early summer and construction start in late summer/
early fall 2004.
    Site J Production Pump Test Well.--Lewis & Clark currently plans to 
drill another test production well south and west of Vermillion. The 
well will be a +/-105 deep vertical well and will be sized to be an 
actual production well for the project. The construction period will be 
from August 15 through November 15.
    Treated Water Pipeline--SD Segment 1.--The Treated Water Pipeline 
Segment 1 will involve construction of a pipeline from west of Sioux 
Falls to Tea, South Dakota. The project will include construction of 
the main 48" treated water transmission pipeline for the Lewis & Clark 
System. Lewis & Clark plans to bid and award this project in September 
2004.
    Treated Water Pipeline--IA Segment 1 (Iowa Emergency Connection).--
The first phase of the Iowa Emergency Connection will involve a 
pipeline from the Sioux Center water treatment plant to Hull, Iowa. The 
project will include construction of the main treated water 
transmission pipeline for the Lewis & Clark System and service 
connection lines for Sioux Center and Hull. Lewis & Clark plans to bid 
and award this project in September 2004 or 2005, depending upon 
funding levels.
    Water Treatment Plant Pre-design.--This task includes a preliminary 
design and evaluation of the treatment plant. The goal is to complete 
the pre-design and provide drawings, draft specifications and technical 
memoranda for a Value Engineering review in early 2005.
Projects Planned for Fiscal Year 2005
    Fiscal year 2005 activities will include a continuation of the 
projects listed above for 2004, plus the following additional system 
components:
    Treated Water Pipeline--SD Segment 2.--The second phase of the 
treated water pipeline construction in South Dakota would include 
construction of the main 48" pipeline from Tea south to Lennox. Part or 
all of this segment may be included in the 2004 construction if delays 
are experienced elsewhere in the project. Lewis & Clark would bid and 
award this project in the summer of 2005.
    Treated Water Pipeline--SD Segment 3.--The third phase of the 
treated water pipeline construction in South Dakota would be a 
continuation of the main 48" pipeline south from Lennox to Highway 18. 
Lewis & Clark would bid and award this project in the summer of 2005.
    (Under Consideration) Treated Water Pipeline--SD Segment 4 (portion 
of Parker service line).--This phase would include a portion of the 
service line to Parker, South Dakota. Initial construction of this line 
would be constructed to the turnout for South Lincoln RWS. If pursued, 
Lewis & Clark would bid and award this project in the summer of 2005.
    (Under Consideration) Treated Water Pipeline--SD Segment 5 (South 
Dakota Emergency Connection).--The South Dakota Emergency Connection 
may include construction of a pipeline from the east side of Sioux 
Falls to connect to Lincoln County Rural Water System. The project 
would include construction of the main treated water transmission 
pipeline for the Lewis & Clark System. This part of the emergency 
connection will permit temporary transmission of water from Minnehaha 
Community Water Corporation (MCWC) to the Lincoln County RWS. 
Additional water could be provided to Tea, Lincoln County RWS and 
Harrisburg. If pursued, Lewis & Clark would bid and award this project 
in the summer of 2005.
    (Under Consideration) Treated Water Pipeline--IA Segments 2 (Iowa 
Emergency Connection).--The next phase of the Iowa Emergency Connection 
may include building a short section of Lewis & Clark pipeline to 
connect Sheldon, Iowa to a temporary source of water. If pursued, Lewis 
& Clark plans to bid and award this project in the summer of 2005.
    Treated Water Pipeline--MN Segment 1 (Minnesota Emergency 
Connection).--The Minnesota Emergency Connection will involve 
construction of a pipeline from Magnolia to east of Adrian, Minnesota. 
The project will include construction of the main treated water 
transmission pipeline for the Lewis & Clark System. The emergency 
connection will pump water from Rock County RWS to Lincoln-Pipestone 
RWS and other Minnesota water systems under future contracts. Lewis & 
Clark plans to bid and award this project in the summer of 2005 or 
2006, depending on funding levels.
    Water Treatment Plant Design.--The Value Engineering (VE) review 
will be performed in early 2005. The design team will proceed with 
design of the water treatment plant incorporating the results and 
recommendations from the VE review.
                                 ______
                                 
        Prepared Statement of the Mid-Dakota Rural Water System
                    fiscal year 2005 funding request
    The Mid-Dakota Project is requesting an appropriations of $17.015 
million provided through the Bureau of Reclamation's project 
construction program for fiscal year 2005. As with our past submissions 
to this subcommittee, Mid-Dakota's fiscal year 2005 request is based on 
a detailed analysis of our ability to proceed with construction during 
the fiscal year. In all previous years, Mid-Dakota has fully obligated 
its appropriated funds, including Federal, State, and local, and could 
have obligated significantly more were they available.
    An appropriation of $17.015 million for fiscal year 2005 will 
complete the Federal Government's funding obligation for the initial 
construction of the authorized Project. It is with pleasure that Mid-
Dakota agrees with President Bush's $17.015 million request for Mid-
Dakota in fiscal year 2005.
          tentative fiscal year 2005 construction schedule \1\
---------------------------------------------------------------------------
    \1\ Project features listed in table are subject to rescheduling 
based upon funding provided and readiness to proceed and other factors. 
Actual construction activities, therefore, may not coincide exactly 
with schedule presented here.
---------------------------------------------------------------------------
    The proposed construction would provide service to an estimated 
1,500 more people than are currently receiving or scheduled to receive 
Project drinking water.

 MID-DAKOTA RURAL WATER SYSTEM STATEMENT OF CAPABILITIES FISCAL YEAR 2005 (OCTOBER 2004 THROUGH SEPTEMBER 2005)
----------------------------------------------------------------------------------------------------------------
                                                             Inspection--Percent    Engin. and
                                              Construction        of Const.            Legal         Subtotals
----------------------------------------------------------------------------------------------------------------
    Source and Intake (Percent)            ..............                 12                 2  ..............
    Expansion                                     $80,000            $57,600            $9,600        $547,200
                                          ----------------------------------------------------------------------
          Subtotals                              $480,000             $7,600            $9,600        $547,200
                                          ----------------------------------------------------------------------
    Water Treatment (Percent)              ..............                 12                 2  ..............
    Expansion                                    $710,000           $445,200           $74,200      $4,229,400
    VFD IEEE comp.                               $250,000            $30,000            $5,000        $285,000
                                          ----------------------------------------------------------------------
          Subtotals                            $3,960,000           $475,200           $79,200      $4,514,400
                                          ----------------------------------------------------------------------
    Main Trans. Pipe (Percent)             ..............                  8                 2  ..............
    Expansion--BPS                             $2,175,000           $174,000           $43,500      $2,392,500
                                          ----------------------------------------------------------------------
          Subtotals                            $2,175,000           $174,000           $43,500      $2,392,500
                                          ----------------------------------------------------------------------
    Dist. Pipeline (Percent)               ..............                  6                 6  ..............
    Wolsey (4-3P (2))                          $2,610,000           $156,600          $156,600      $2,923,200
    Pearl Creek                                $1,815,000           $108,900          $108,900      $2,032,800
    Staum Dam                                  $1,450,000            $87,000           $87,000      $1,624,000
    Redfield East                                $415,000            $24,900           $24,900        $464,800
    Vaults and stations                          $280,000            $16,800           $16,800        $313,600
                                          ----------------------------------------------------------------------
          Subtotals                            $6,570,000           $394,200          $394,200      $7,358,400
                                          ----------------------------------------------------------------------
    Water Storage (Percent)                ..............                 12                 6  ..............
    Canning Tank                               $1,120,000           $134,400           $67,200      $1,321,600
                                          ----------------------------------------------------------------------
          Subtotals                            $1,120,000           $134,400           $67,200      $1,321,600
                                          ----------------------------------------------------------------------
    SCADA and Controls (Percent)           ..............                  8                 8  ..............
    Controls & SCADA                             $295,000            $23,600           $23,600        $342,200
                                          ----------------------------------------------------------------------
          Subtotals                              $295,000            $23,600           $23,600        $342,200
                                          ----------------------------------------------------------------------
          TOTAL                                $4,600,000         $1,259,000          $617,300     $16,476,300
    Administration as a Percent of         ..............                1.5    ..............        $219,000
     Construction
    Bur. of Rec. as a Percent of           ..............                3.0    ..............        $438,000
     Construction
    Contingencies as a percent of          ..............               10.0    ..............      $1,460,000
     Construction
                                          ----------------------------------------------------------------------
          TOTAL CONSTRUCTION               ..............  ...................  ..............     $18,593,300
           CAPABILITIES--FISCAL YEAR 2005
    WETLAND COMPONENT REQUEST--FISCAL      ..............  ...................  ..............        $317,000
     YEAR 2005
                                          ----------------------------------------------------------------------
          TOTAL FISCAL YEAR 2005           ..............  ...................  ..............     $18,910,300
           CAPABILITIES--FISCAL YEAR 2005
----------------------------------------------------------------------------------------------------------------

    Total capabilities are greater than the amount remaining in 
authorized funds. If a funding shortfall is realized, Mid-Dakota will 
examine its options for funding the shortfall when the amount is known.
                   impacts of fiscal year 2005 award
    The most obvious impact of any significant reduction from Mid-
Dakota's request will be the delay of construction of one or more 
Project components. The $17.015 million will allow for the completion 
of the Mid-Dakota Project as it is currently authorized. The requested 
appropriation will provide the necessary funds to proceed with 
construction of multiple contracts summarized earlier in this 
testimony.
                       history of project funding
    The Project was authorized by Congress and signed into law by 
President George H.W. Bush in October 1992. The Federal authorization 
for the project totaled $100 million (1989 dollars) in a combination of 
Federal grant and loan funds (grant funds may not exceed 85 percent of 
Federal contribution). The State authorization was for $8.4 million 
(1989 dollars). A breakdown of Project cost ceilings are as follows:

                PROJECT COST CEILINGS (FISCAL YEAR 2004)
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Federal Ceiling.........................................    $140,279,000
State Ceiling...........................................       9,670,000
                                                         ---------------
      Subtotal Rural Water System.......................     149,949,000
Wetland Enhancement Component...........................       2,756,000
                                                         ---------------
      Total Project Cost Ceiling........................     152,705,000
------------------------------------------------------------------------

    The total authorized indexed cost of the project is approximately 
$152.705 million (fiscal year 2005 figures were not available at the 
time of writing this testimony). All Federal funding considered, the 
Government has provided 89 percent of its commitment ($126.726 \2\ 
million of $143.035 million) to provide construction funding for the 
Project. When considering the Federal and State combined awards, the 
project is approximately 89 percent complete, in terms of financial 
commitments.
---------------------------------------------------------------------------
    \2\ Includes $15.0 million appropriated in fiscal year 2004, but 
does not include Agency ``underfinancing'' or 2005 Indexing.

                                                            SUMMARIZATION OF FEDERAL FUNDING
                                                                [In millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                 Total
                                                                    Mid-      Pres.                            Conf.      Bureau   Additional     Fed.
                        Fed. Fiscal year                           Dakota     Budg.      House      Senate    Enacted     Award       Funds      Funds
                                                                  Request                                      Levels     Levels                Provided
--------------------------------------------------------------------------------------------------------------------------------------------------------
1994...........................................................      7.991  .........  .........      2.000      2.000      1.500  ..........      1.500
1995...........................................................     22.367  .........  .........      8.000      4.000      3.600  ..........      3.600
1996...........................................................     23.394      2.500     12.500     10.500     11.500     10.902       2.323     13.225
1997...........................................................     29.686      2.500     11.500     12.500     10.000      9.400       1.500     10.900
1998...........................................................     29.836     10.000     12.000     13.000     13.000     12.221       1.000     13.221
1999...........................................................     32.150     10.000     10.000     20.000     15.000     14.100       2.000     16.100
2000...........................................................     28.800      5.000     15.000      7.000     14.000     12.859       1.000     13.859
2001...........................................................     24.000      6.040     11.040      6.040     10.040      9.398  ..........      9.398
2002...........................................................     30.684     10.040     15.040     15.540     15.040     13.611       0.861     14.472
2003...........................................................     29.360     10.040     17.040     17.900     17.900     16.129       0.800     16.929
2004...........................................................     23.869      2.040     12.040     15.040     15.040     13.522  ..........     13.522
2005...........................................................     17.015     17.015  .........  .........  .........  .........  ..........  .........
                                                                ----------------------------------------------------------------------------------------
      Totals \1\...............................................  .........     75.175     116.16     127.52     127.52    117.242       9.484    126.726
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes Congressional appropriations for the operation and maintenance of the ``Wetland Enhancement'' Component of the Project.

    Additionally, the State of South Dakota has contributed $9.67 
million in grants to the Mid-Dakota Project, in previous years. The 
State of South Dakota completed its initial authorized financial 
obligation to the Mid-Dakota Project in the 1998 Legislative Session.
                        construction in progress
    Mid-Dakota began construction in September of 1994, with the 
construction of its Water Intake and Pump Station. Since that eventful 
day of first construction start, we have bid, awarded, and completed 23 
project components and are into construction on eight other major 
Project components. The following table provides a synopsis of each 
major construction contract:

----------------------------------------------------------------------------------------------------------------
                                         Contract Amount                      Percent
               Contract                    with Change      Work Complete to  Dollars   Contract Completion Date
                                              Orders              Date         Comp.
----------------------------------------------------------------------------------------------------------------
1-1, Intake Station...................      $3,944,961.74      $3,944,961.74      100  02/28/97
1-1A, Intake Rip-Rap..................         $87,178.75         $87,178.75      100  05/02/98
1-1B, Intake Road.....................         $26,187.50         $26,187.50      100  10/01/99
2-1, Water Treat. Plant...............     $10,242,564.00     $10,242,564.00      100  04/28/98
2-1A, WTP Controls....................         $14,628.98         $14,628.98      100  08/03/00
O&M Center Paving.....................         $58,473.87         $58,473.87      100  06/13/00
3-1A, Raw Water Pipe..................      $1,719,251.30      $1,719,251.30      100  03/29/96
3-1B, Main Trans. Pipe................      $7,022,055.73      $7,022,055.73      100  12/21/97
3-1C, Main Trans. Pipe................      $4,793,104.90      $4,793,104.90      100  11/10/97
3-1D, CP System.......................        $214,651.00        $214,651.00      100  11/01/00
3-2A, Main Trans. Pipe................      $3,155,454.93      $3,155,454.93      100  12/03/99
3-2B, Main Trans. Pipe................      $3,356,564.67      $3,356,564.67      100  12/09/99
3-3A, Main Trans. Pipe................      $2,383,513.37      $2,383,513.37      100  11/01/02
3-3B, Main Trans. Pipe................      $3,881,892.39      $3,871,671.00       99  11/13/03
3-3C, Main Trans. Pipe................      $2,630,672.25      $2,601,234.00       99  11/13/03
4-1A/B (1-5) Dist. Pipe...............     $10,572,231.62     $10,572,231.62      100  10/20/97 \1\
                                                                                       11/15/97 \1\
                                                                                       11/15/98
                                                                                       05/30/99
4-1A/B (6) Dist. Pipe.................      $9,027,572.49      $9,027,572.49      100  10/22/99 \1\
                                                                                       12/03/00
4-2 (1) Dist. Pipe....................      $4,707,394.81      $4,707,394.81      100  11/10/00
4-2 (2) Dist. Pipe....................      $3,000,176.49      $3,000,176.49      100  11/13/00
4-2 (4-5) Dist. Pipe..................      $5,134,974.43      $5,134,974.43      100  10/31/01
4-2A (4) Dist. Pipe...................      $1,191,329.30      $1,191,329.30      100  10/31/01
                                                                                       07/01/02
4-2AP (2-3) Dist. Pipe................     $11,435,814.24     $11,114,781.91       97  11/17/02
                                                                                       12/31/03
4-2AV (2-3) Dist. Pipe................        $686,749.00        $686,749.00      100  11/01/03
5-1, Highmore Tank....................      $1,433,000.00      $1,433,000.00      100  10/20/97
5-1A (1) Onida Tank...................        $397,688.00        $397,688.00      100  06/30/99
5-1A(2--4) Oko. Agar Getty. Tanks.....      $1,526,453.00      $1,526,453.00      100  09/18/00
5-2 (1) Mac's Corner Tank.............        $561,100.69        $561,100.69      100  10/16/00
5-2 (2-3) Rezac Lake & Collins Slough         $911,720.00        $911,720.00      100  09/01/01
 Tanks.
5-2A (1-3) Ames & Wess. Springs Tanks.        $868,490.00        $868,490.00      100  09/01/02
                                                                                       09/01/03
5-2A (2) Cottonwood Lake Tank.........        $695,862.98        $695,862.98      100  09/01/02
5-3 Wolsey Tank.......................      $2,021,414.00      $1,281,594.00       63  11/01/04
6-1 SCADA System......................        $888,260.50        $837,680.72       94  12/01/03
                                       -------------------------------------------------------------------------
      TOTAL...........................     $98,591,386.93     $97,440,295.18
----------------------------------------------------------------------------------------------------------------
\1\ Intermediate completion date.

                                closing
    Mid-Dakota is very aware of the tough funding decisions that face 
the Energy and Water Appropriations Subcommittee and we do not envy the 
difficult job that lies ahead. We strongly urge, the subcommittee to 
look closely at the Mid-Dakota Project and recognize the dire need that 
exists. Consider the exceptionally high level of local and State 
support. And finally consider the fact that fully funding the fiscal 
year 2005 appropriation request as submitted by the President and by 
Mid-Dakota will fully fund the initial authorized components of the 
Mid-Dakota Project.
    Again, we thank the subcommittee for its strong support, both past 
and present.
                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission
                                summary
    This statement is submitted in support of appropriations for the 
Colorado River Basin salinity control program of the Department of the 
Interior's Bureau of Reclamation. Congress designated the Bureau of 
Reclamation to be the lead agency for salinity control in the Colorado 
River Basin by the Colorado River Basin Salinity Control Act of 1974. 
Public Law 104-20 reconfirmed the Bureau of Reclamation's role. A total 
of $17.5 million is requested for fiscal year 2005 to implement the 
authorized salinity control program of the Bureau of Reclamation. The 
President's appropriation request is inadequate because studies have 
shown that the implementation of the salinity control program has 
fallen behind the pace needed to control salinity. An appropriation of 
$17.5 million for Reclamation's salinity control program is necessary 
to protect water quality standards for salinity and to prevent 
unnecessary levels of economic damage from increased salinity levels in 
water delivered to the Lower Basin States and Mexico.
                               statement
    The water quality standards for salinity of the Colorado River must 
be protected while the Basin States continue to develop their compact 
apportioned waters of the river. Studies have shown that the 
implementation of the salinity control program has fallen below the 
threshold necessary to prevent future exceedence of the numeric 
criteria of the water quality standards for salinity in the Lower Basin 
of the Colorado River. The salinity standards for the Colorado River 
have been adopted by the seven Basin States and approved by EPA. While 
currently the standards have not been exceeded, salinity control 
projects must be brought on-line in a timely and cost-effective manner 
to prevent future effects that would cause the numeric criteria to be 
exceeded.
    The Colorado River Basin Salinity Control Act was authorized by 
Congress and signed into law in 1974. The seven Colorado River Basin 
States, in response to the Clean Water Act of 1972, had formed the 
Colorado River Basin Salinity Control Forum, a body comprised of 
gubernatorial representatives from the seven States. The Forum was 
created to provide for interstate cooperation in response to the Clean 
Water Act, and to provide the States with information necessary to 
comply with Sections 303(a) and (b) of the Act. The Forum has become 
the primary means for the Basin States to coordinate with Federal 
agencies and Congress to support the implementation of the salinity 
control program for the Colorado River Basin.
    Bureau of Reclamation studies show that damages from the Colorado 
River to United States water users are about $300,000,000 per year. 
Damages are estimated at $75,000,000 per year for every additional 
increase of 30 milligrams per liter in salinity of the Colorado River. 
Control of salinity is necessary for the Colorado River Basin States, 
including New Mexico, to continue to develop their compact-apportioned 
waters of the Colorado River.
    It is essential that appropriations for the funding of the salinity 
control program be timely in order to comply with the water quality 
standards for salinity to prevent unnecessary economic damages in the 
United States, and to protect the quality of the water that the United 
States is obligated to deliver to Mexico. An appropriation of only the 
amount specified in the President's budget request is inadequate to 
protect the quality of water in the Colorado River and prevent 
unnecessary salinity damages in the States of the Lower Colorado River 
Basin. Studies have shown that the implementation of the salinity 
control program has fallen behind the pace needed to control salinity. 
Although the United States has always met the water quality standard 
for salinity of water delivered to Mexico under Minute No. 242 of the 
International Boundary and Water Commission, the United States through 
the U.S. Section of IBWC is currently addressing a request by Mexico 
for better quality water.
    Congress amended the Colorado River Basin Salinity Control Act in 
July 1995 (Public Law 104-20). The salinity control program authorized 
by Congress by the amendment has proven to be very cost-effective, and 
the Basin States are standing ready with up-front cost sharing. 
Proposals from public and private sector entities in response to the 
Bureau of Reclamation's advertisement have far exceeded available 
funding. Basin States cost sharing funds are available for the $17.5 
million appropriation request for fiscal year 2005. The Basin States 
cost sharing adds 43 cents for each Federal dollar appropriated.
    Public Law 106-459 gave the Bureau of Reclamation additional 
spending authority for the salinity control program. With the 
additional authority in place and significant cost sharing by the Basin 
States, it is essential that the salinity control program be funded at 
the level requested by the Forum and Basin States to protect the water 
quality of the Colorado River.
    Maintenance and operation of the Bureau of Reclamation's salinity 
control projects and investigations to identify new cost-effective 
salinity control projects are necessary for the success of the salinity 
control program. Investigation of new opportunities for salinity 
control are critical as the Basin States continue to develop and use 
their compact-apportioned waters of the Colorado River. The water 
quality standards for salinity and the United States water quality 
requirements pursuant to treaty obligations with Mexico are dependent 
on timely implementation of salinity control projects, adequate funding 
to maintain and operate existing projects, and investigations to 
determine new cost-effective projects.
    I urge the Congress to appropriate $17.5 million to the Bureau of 
Reclamation for the Colorado River Basin salinity control program, 
adequate funding for operation and maintenance of existing projects and 
adequate funding for general investigations to identify new salinity 
control opportunities. Also, I fully support testimony by the Forum's 
Executive Director, Jack Barnett, in request of this appropriation, and 
the recommendation of an appropriation of the same amount by the 
federally chartered Colorado River Basin Salinity Control Advisory 
Council.
                                 ______
                                 
            Letter From the State Engineer's Office, Wyoming
                                   Cheyenne, Wyoming, May 18, 2004.
The Honorable Pete V. Domenici,
Chairman,
The Honorable Harry Reid,
Ranking Member,
Energy and Water Development Subcommittee, Committee on Appropriations, 
        United States Senate, 127 Dirksen Senate Office Building, 
        Washington, DC 20510.
    Dear Chairman Domenici and Senator Reid: This letter is sent in 
support of fiscal year 2003 funding for the Bureau of Reclamation's 
Colorado River Basin Salinity Control Project--Title II Program. Thank 
you in advance for inclusion of this letter in the formal hearing 
record concerning fiscal year 2005 appropriations.
    The Colorado River provides municipal and industrial water for 27 
million people and irrigation water to nearly 4 million acres of land 
in the United States. The River is also the water source for some 2.3 
million people and 500,000 acres in Mexico. Limitations on users' 
abilities to make the greatest use of that water supply due to the 
River's high concentration of total dissolved solids (hereafter 
referred to as the salinity of the water) are a major concern in both 
the United States and Mexico. Salinity in the water source especially 
affects agricultural, municipal, and industrial water users. While 
economic detriments and damages in Mexico are unquantified, the Bureau 
of Reclamation presently estimates salinity-related damages in the 
United States to amount to $330 million per year. The River's high salt 
content is in almost equal part due to naturally occurring geologic 
features that include subsurface salt formations and discharging saline 
springs; and the resultant concentrating effects of our users man's 
storage, use and reuse of the waters of the River system. Over-
application of irrigation water by agriculture is a large contributor 
of salt to the Colorado River as irrigation water moves below the crop 
root zone, seeps through saline soils and then returns to the river 
system.
    The 1944 Mexico Treaty obligates the United States to provide 1.5 
million acre-feet of water to Mexico, but does not address quality. 
Mexico filed a formal protest in the 1960's when the salinity levels of 
water being delivered pursuant to the Treaty increased sharply. Several 
minutes, including Minute 242 to the Treaty, were negotiated to address 
the water quality concerns voiced by Mexico. Minute 242 requires the 
average annual salinity of the Colorado River water delivered to Mexico 
upstream of Mexico's principal diversion dam (Morelos Dam) can be no 
more than 115 parts per million (PPM), plus or minus 30 PPM higher than 
the average salinity of the water arriving at Imperial Dam, the 
lowermost point of major water diversion in the United States.
    The Environmental Protection Agency's interpretation of the 1972 
amendments to the Clean Water Act required the seven Basin States to 
adopt water quality standards for salinity levels in the Colorado 
River. In light of the EPA's regulation to require water quality 
standards for salinity in the Basin, the Governors of Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming created the 
Colorado River Basin Salinity Control Forum as an interstate 
coordination mechanism in 1973. To address these international and 
regionally important salinity problems, the Congress enacted the 
Colorado River Basin Salinity Control Act of 1974. Title I addressed 
the United States' obligations to Mexico to control the River's 
salinity to ensure the United States' water deliveries to Mexico are 
within the specified salinity concentration range. Title II of the Act 
authorized control measures upstream of Imperial Dam and directed the 
Secretary of the Interior to construct several salinity control 
projects, most of which are located in Colorado, Utah, and Wyoming. 
Title II of the Act was again amended in 1995 and 2000 to direct the 
Bureau of Reclamation to conduct a basin-wide salinity control program. 
This program awards grants to non-Federal entities, on a competitive-
bid basis, which initiate and carry out salinity control projects. The 
basin-wide program has demonstrated significantly improved cost-
effectiveness, as computed on $1 per ton of salt basis, as compared to 
the prior Reclamation-initiated projects. The Forum was heavily 
involved in the development of the 1974 Act and its subsequent 
amendments, and continues to actively oversee the Federal agencies' 
salinity control program efforts.
    During the past 31 years, the seven State Colorado River Basin 
Salinity Control Forum has actively assisted the Federal agencies, 
including the Bureau of Reclamation, in implementing this unique and 
important program. At its October 2003 meeting, the Forum recommended 
that the Bureau of Reclamation seek to have appropriated and should 
expend for Colorado River Basin salinity control the sum of $17,500,000 
in fiscal year 2005. We strongly believe these efforts constitute one 
of the most successful Federal/State cooperative non-point source 
pollution control programs in the United States.
    The State of Wyoming greatly appreciates the subcommittee's support 
of the Colorado River Salinity Control Program in past years. We 
suggest this important basin-wide water quality improvement program 
merits continued funding and support by your subcommittee.
            With best regards,
                                   John W. Shields,
                                   Interstate Streams Engineer, for
                                   Patrick T. Tyrrell,
      Wyoming State Engineer, Wyoming Member, Colorado River Basin 
                                            Salinity Control Forum.
                                 ______
                                 
               Prepared Statement of the State of Wyoming
    I write to request your support for an appropriation in fiscal year 
2005 of $5,234,000 to the Bureau of Reclamation within the budget line 
item entitled ``Endangered Species Recovery Implementation Program'' 
for the Upper Colorado Region. The President's recommended budget for 
fiscal year 2005 includes this line-item amount. The funding 
designation we seek is as follows: $4,008,000 for the Upper Colorado 
River Endangered Fish Recovery Program; $691,000 for the San Juan River 
Basin Recovery Implementation Program and $535,000 for Fish and 
Wildlife Management and Development.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of Colorado, New Mexico, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water development proceeds in compliance 
with the Endangered Species Act. The programs reflect a prudent 
approach to providing endangered species conservation and recovery 
within the framework of the Act, while concurrently resolving critical 
conflicts between endangered species recovery and the development and 
use of Compact-apportioned water resources in the Upper Colorado River 
Basin region of the Intermountain West.
    The requested fiscal year 2005 appropriation will allow 
construction of fish passage structures at the Grand Valley Project and 
Price-Stubb diversion dams on the Colorado River near Grand Junction, 
Colorado. Fish passage will provide access to an additional 50 miles of 
historic habitat upstream of these dams. Floodplain restoration 
activities will continue at high-priority sites and is especially 
important for the survival of the razorback sucker species. Screening 
of existing diversion canals, needed to prevent endangered fish from 
being drawn out of the river and into canal and power plant intake 
structures, will proceed at the Redlands Water and Power Company and 
Bureau of Reclamation-constructed Grand Valley Project facilities. The 
requested funding for the San Juan River Recovery Program will be used 
for program management, propagation facilities, stocking efforts, non-
native management efforts and construction of a fish screen in the 
Hogback Irrigation Project canal. Additional hatchery facilities, 
restoring floodplain habitat and fish passage, regulating and supplying 
instream habitat flows, installing diversion canal screens and 
controlling non-native fish populations are key components of the 
capital construction efforts ongoing in both programs.
    Substantial non-Federal cost sharing funds are provided by the four 
States, power users, and water users in support of these recovery 
programs. Public Law 106-392, as amended by Public Law 107-375, 
authorizes the Federal Government to provide up to $46 million of cost 
sharing for these two ongoing recovery programs' remaining capital 
construction projects. The four participating states are contributing 
$17 million and $17 million is being contributed from revenues derived 
from the sale of Colorado River Storage Project (CRSP) hydroelectric 
power. These facts demonstrate the strong commitment and effective 
partnerships that are present in both of these successful programs.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. On 
behalf of the citizens of Wyoming, I thank you for that support and 
request the subcommittee's assistance for fiscal year 2005 funding to 
ensure the Bureau of Reclamation's continuing financial participation 
in these vitally important programs.
                                 ______
                                 
 Prepared Statement of the Central Arizona Water Conservation District 
                                (CAWCD)
    Mr. Chairman, the Central Arizona Water Conservation District 
(CAWCD) is pleased to offer the following testimony regarding the 
fiscal year 2005 Energy and Water Development appropriations request by 
the U.S. Bureau of Reclamation, Lower Colorado Region.
    The Central Arizona Project or ``CAP'' was authorized by the 90th 
Congress of the United States under the Colorado River Basin Project 
Act of 1968. The CAP is a multi-purpose water resource development 
project designed to deliver the remainder of Arizona's entitlement of 
Colorado River water into the central and southern portions of the 
State for municipal and industrial, agricultural, and Indian uses. 
CAWCD was created in 1971 as the local governmental entity responsible 
for contracting with the United States to repay the reimbursable 
construction costs of the CAP and, subsequently to operate and maintain 
the completed project. Its service area is comprised of Maricopa, Pima, 
and Pinal counties. CAWCD is a tax-levying public improvement district, 
a political subdivision, and a municipal corporation, and represents 
roughly 80 percent of the water users and taxpayers of the State of 
Arizona. CAWCD is governed by a 15-member Board of Directors elected 
from the three counties it serves. CAWCD's Board members are public 
officers who serve without pay.
    Project repayment is provided for through a Master Repayment 
Contract between CAWCD and the United States. Project repayment began 
in 1994. To date, CAWCD has repaid $740 million of CAP construction 
costs to the United States.
                        central arizona project
    In its fiscal year 2005 budget request, Reclamation seeks 
$34,087,000 for the CAP. Of this amount, $21,358,000 is requested for 
the continuation of construction of water distribution systems for 
various Indian water users. CAWCD supports full funding for this 
important program.
    Reclamation is also requesting $1,849,000 to continue tendon 
repairs to the Centennial, Jackrabbit, and Hassayampa siphons. 
Completing the tendon repairs to these siphons is critical to the long 
term reliability of the CAP water delivery system; therefore, CAWCD 
strongly supports this appropriation request.
    An amount of $6,692,000 is earmarked to fund activities associated 
with implementation of a 1994 biological opinion of the U.S. Fish and 
Wildlife Service (FWS) pertaining to delivery of CAP water to the Gila 
River Basin and for native fish activities on the Santa Cruz River. 
$1,951,000 and $28,000, respectively, are requested to complete 
environmental activities at Modified Roosevelt Dam and to complete a 
reservoir limnology follow-up study at Lake Pleasant. CAWCD supports 
these budget requests.
    Reclamation is requesting $959,000 to begin land acquisition and 
right-of-way activities, and to continue coordination and design 
elements for the water supply reliability features of the Tucson 
Reliability Division, also known as Tucson Terminal Storage. A 
stipulation that settles a 1995 lawsuit between CAWCD and Reclamation 
over CAP costs requires Reclamation to consult with CAWCD before 
proceeding with the development of these features because of their 
potential impact on CAWCD's repayment obligation for CAP. Reclamation 
has not consulted with CAWCD, the city of Tucson, or other Tucson area 
customers about these activities. Until such consultation occurs, CAWCD 
opposes any funding for land acquisition and right of way activities 
for the Tucson Reliability Division.
         colorado river basin salinity control project--title i
    In its fiscal year 2005 budget request, Reclamation is requesting 
$10,869,000 under the Colorado River Basin Salinity Control Project--
Title I. This program supports maintenance of the Yuma Desalting Plant 
(YDP), maintaining the U.S. Bypass Drain and the Mexico Bypass Drain, 
and ensuring that Mexican Treaty salinity requirements are met. 
Currently, the YDP is not operational. Instead, Reclamation is allowing 
all Wellton-Mohawk drainage water (over 100,000 acre-feet per year) to 
bypass the YDP and flow to the Santa Clara Slough in Mexico. These 
flows are not accounted for as deliveries to Mexico under the 1944 
Mexican Treaty and represent a significant depletion of the Colorado 
River water currently in storage. Continuing this practice will 
eventually reduce the amount of water available to the Central Arizona 
Project, the lowest priority water user in the Colorado River basin, 
and increase the risk of future shortages. The Colorado River system is 
now in its fifth consecutive year of below normal runoff, and water 
levels in Lake Powell and Lake Mead are at their lowest levels in over 
30 years. In fact, water year 2002 was the lowest runoff year in 
recorded history on the Colorado River. Reclamation's operation of the 
YDP would conserve an additional 100,000 acre-feet per year of Colorado 
River water for use by the lower basin States. This amount is roughly 
equal to the City of Phoenix's annual subcontract entitlement to CAP 
water.
    The House of Representatives Report accompanying the fiscal year 
1995 Energy and Water Development Appropriations bill directed 
Reclamation to maintain the YDP so as to be capable of operating at 
one-third capacity with a 1-year notice of funding. Conference Report 
108-357 that accompanied the fiscal year 2004 Energy and Water 
Development Appropriations Act directed the Bureau of Reclamation to 
expedite its modifications to the YDP to enable state of the art 
operation and to accelerate permitting and environmental compliance 
activities. A report to the House and Senate Committees on 
Appropriations was due within 180 days. Reclamation indicates that this 
report is currently being prepared.
    Reclamation's fiscal year 2005 budget justification documents again 
provide no indication that it has any intention of actually operating 
the YDP. The budget request for fiscal year 2005 is $381,000 less than 
Reclamation's fiscal year 2004 budget request. Of this amount, $781,000 
is requested for Title I research technology to ``. . . promote less 
expensive operation of the YDP and exploration of new technology to 
keep the YDP viable as a tool to address future water resource needs.'' 
According to Reclamation's budget justification documents, research 
advancements have already realized a cumulative savings of $10,000,000 
in full plant operating expenses. This is an interesting statement in 
light of the fact that the plant is not being operated. It is also 
interesting to note that while Reclamation estimates $24 million per 
year would be needed to operate the plant, it is requesting about $10 
million in order not to operate it. The $781,000 should be redirected 
toward activities necessary to make the YDP operational.
    Reclamation is requesting $1,780,000 for continuing data gathering 
and analysis regarding the salinity of flows arriving at Imperial Dam 
and flows going into Mexico as well as work associated with minimizing 
Wellton-Mohawk drainage flows. Work also includes operation of sludge 
disposal equipment and activities required to purify feed water to the 
plant. CAWCD understands that most of this work is necessary, but not 
directly related to YDP operations. However, since the YDP is not 
operational, it is not clear what is being done for sludge disposal and 
feed water purification. If this is pretreatment for water treated at 
the research facility that is already included in the $781,000 
previously mentioned, then that portion of the $1,780,000 requested 
should be redirected to YDP rehabilitation.
    Reclamation is requesting $5,771,000 for continuing efforts to 
ensure the Yuma Desalting Plant can operate to meet Mexican Treaty 
requirements. This is $147,000 more than Reclamation's fiscal year 2004 
budget request for this same line item. Work includes long-term 
maintenance of Yuma Desalting Plant infrastructure and facilities, 
maintenance of sections of the Bypass Drain, Protective and Regulatory 
Pumping Unit and mitigation features. Reclamation's narrative does not 
provide enough information to determine how much of this total amount 
is needed for features other than YDP; however, past spending reports, 
prepared by Reclamation, indicate about 50 percent or $2.9 million 
might be available for necessary maintenance and rehabilitation to 
restore operational capability at YDP.
    Reclamation is requesting $483,000 to continue a long-term program 
to bank water and/or pursue short-term agricultural water right leases 
to offset the need to operate the plant. This is $2,759,000 less than 
Reclamation's fiscal year 2004 budget request for the same line item. 
There is no possibility for a program to bank water in 2005. Any plans 
for water right leases/land fallowing will require several million 
dollars. Reclamation also notes these funds would complete the 
permitting and environmental compliance process for YDP operations. 
CAWCD supports this request only to the extent needed to complete the 
actions, documentation and permits necessary to operate YDP.
    Reclamation has included a line item in its appropriations request 
for $2,054,000 for replacement of high pressure reverse osmosis pumps 
to correct corrosion problems and to continue to improve plant 
readiness and correct design deficiencies. CAWCD supports Reclamation's 
efforts to repair any design deficiencies. We encourage Reclamation to 
ensure that they have a comprehensive plan in place.
    Using the information provided in Reclamation's appropriation 
request, it appears that of the $10,869,000 requested about $6,735,000 
could be used for rehabilitation and modernization of the YDP with a 
goal of one-third operational capability by the end of 2006. That 
presumes Reclamation will spend $2 to $3 million of 2004 appropriations 
on such activities and that the budget will remain relatively level in 
2006.
    CAWCD requests that language be included in the fiscal year 2005 
Energy and Water Appropriations bill directing Reclamation to take the 
necessary steps to bring the Yuma Desalting Plant into operation at no 
less than one-third capacity by the end of fiscal year 2006. CAWCD 
believes Reclamation's budget is sufficient to accomplish this goal.
                  colorado front work and levee system
    Reclamation is requesting $3,647,000 for the Colorado River Front 
Work and Levee System. This project regulates, stabilizes, and 
maintains the river channel and includes the existing offstream storage 
feature, Senator Wash Dam. This budget request also includes continuing 
work to plan and design additional offstream storage on the All 
American Canal. CAWCD supports the budget request for these activities.
            endangered species conservation/recovery project
    Reclamation is requesting $1,298,000 for its ongoing Endangered 
Species Conservation/Recovery Project. This program provides for the 
development and implementation of projects for the stewardship of 
endangered, threatened, proposed, and candidate species that are 
resident or migratory to habitats within the lower Colorado Region. 
These activities are complementary to the Lower Colorado River Multi-
Species Conservation Program (MSCP). CAWCD supports this request.
                lower colorado river operations program
    In its fiscal year 2005 budget request, Reclamation seeks 
$15,322,000 for its Lower Colorado River Operations Program. This 
program provides for Reclamation to continue its activities as the 
``water master'' on the lower Colorado River and provides Reclamation's 
funding for the lower Colorado River Multi-Species Conservation Program 
(MSCP). $2,018,000 is for administration of the Colorado River and 
$3,177,000 is for water contract administration and decree accounting. 
Under Fish and Wildlife Management and Development, $9,027,000 is 
requested, of which $6,234,000 is earmarked for the MSCP. It is 
anticipated that a similar amount will be contributed by non-Federal 
parties. In addition, $1,184,000 is requested for Southwestern Willow 
Flycatcher and Yuma Clapper Rail Protection, $1,199,000 is for 
Razorback and Bonytail Chub protection, $410,000 for riparian 
restoration and research, $150,000 for NEPA compliance activities.
    The MSCP is a cost-shared program among Federal and non-Federal 
interests to develop a long-term plan to conserve endangered species 
and their habitat along the lower Colorado River from Lake Mead to 
Mexico. CAWCD is one of the cost-sharing partners. Development of this 
program will provide habitat for hundreds of threatened and endangered 
species and, at the same time, allow current water and power operations 
to continue.
    CAWCD supports Reclamation's budget request for the Lower Colorado 
River Operations Program. The increased funding level is necessary to 
support the MSCP effort as well as environmental measures necessary to 
fully implement the interim surplus criteria for the lower Colorado 
River. These are critical programs upon which lower Colorado River 
water and power users depend.
    CAWCD welcomes this opportunity to share its views with the 
committee, and would be pleased to respond to any questions or 
observations occasioned by this written testimony.
                                 ______
                                 
  Prepared Statement of the Colorado River Water Conservation District
    Chairman Domenici and Senator Reid, I am writing to request your 
support for an appropriation in fiscal year 2005 of $5,234,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado River 
Region. The President's recommended budget for fiscal year 2005 
includes this line-item amount. Of these funds, I respectfully request 
the designation of $4,008,000 for the Upper Colorado River Endangered 
Fish Recovery Program; $691,000 for the San Juan River Basin Recovery 
Implementation Program and $535,000 for Fish and Wildlife Management 
and Development, consistent with the President's budget request. The 
requested fiscal year 2005 appropriation will allow construction of 
fish passage, floodplain restoration activities, screening of existing 
diversion canals, propagation facilities, endangered fish stocking, and 
non-native fish management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
 Prepared Statement of the Fort Peck Assiniboine and Sioux Tribes and 
                        Dry Prairie Rural Water
                    fiscal year 2005 budget request
    The Fort Peck Assiniboine and Sioux Tribes and Dry Prairie Rural 
Water respectfully request fiscal year 2005 appropriations for the 
Bureau of Reclamation from the Subcommittee on Energy and Water 
Development. Funds will be used to construct critical elements of the 
Fort Peck Reservation Rural Water System, Montana (Public Law 106-382, 
October 27, 2000). The amount requested is $25,000,000, based on 
capability to spend the requested funds as set out below:

  FISCAL YEAR 2005 WORK PLAN--FORT PECK RESERVATION RURAL WATER SYSTEM
                          (PUBLIC LAW 106-382)
------------------------------------------------------------------------
                                             Funding           Costs
------------------------------------------------------------------------
Appropriations Requested...............     $25,000,000
Estimated Rescission and Underfinancing      (2,545,000)
 @ 10.18%..............................
                                        -----------------
      Available Federal Funds..........      22,455,000
                                        =================
Fort Peck Tribes:
    Federal Funds......................      15,911,000
    Work Plan:
        Design and Reclamation           ...............      $1,136,000
         Oversight.....................
        Missouri River Water Treat       ...............      14,775,000
         Plant.........................
                                                         ---------------
                                         ...............      15,911,000
                                                         ===============
Dry Prairie:
    Federal Funds......................       6,544,000
    Non-Federal Funds..................       2,067,000
                                        -----------------
      Total............................       8,611,000
                                        =================
    Work Plan:
        Design and Reclamation           ...............         609,000
         Oversight.....................
        Complete Culbertson to Medicine  ...............         331,000
         Lake Pipeline.................
        Dane Valley and E. Med. Lake     ...............       7,671,000
         Pipelines.....................
                                                         ---------------
                                         ...............       8,611,000
------------------------------------------------------------------------

The sponsor Tribes and Dry Prairie greatly appreciate the previous 
appropriations from the subcommittee that have permitted building the 
Missouri River intake, the critical water source, and the first phase 
of the Culbertson to Medicine Lake Pipeline Project.
    The request is less than the average annual appropriations needed 
to complete the project in fiscal year 2012, as provided by the 
authorizing legislation:

------------------------------------------------------------------------
 ------------------------------------------------------------------------
Total Federal Funds Authorized (October 2003 Dollars)...    $207,333,000
Federal Funds Expended Through Fiscal Year 2004.........      $1,804,000
Percent Complete........................................            0.87
Amount Remaining........................................    $205,529,000
Average Required for Fiscal Year 2012 Finish (Public Law     $25,691,000
 106-382)...............................................
------------------------------------------------------------------------

                          proposed activities
    This project, which includes all of the Fort Peck Indian 
Reservation in Montana and the Dry Prairie portion of the project 
outside the Reservation, was authorized by Public Law 106-382 in 
October 27, 2000. The request for fiscal year 2005 will continue the 
construction of the Missouri River water treatment plant, which will 
require fiscal year 2006 funds in the estimated amount of $5 million 
for completion. The request will also complete the Culbertson to 
Medicine Lake Project, which was initiated in fiscal year 2003, and 
advance the construction of the Dane Valley/Bainville/East Medicine 
Lake Projects.
    The project also has the capability beyond the amount requested, 
based on current status of design, to build the first portion of the 
pipeline leaving the water treatment plant at a cost of $10 million. 
The pipeline section will be east of the water treatment plant and will 
serve the community of Poplar, headquarters community for the 
Assiniboine and Sioux Tribes. Construction is scheduled to start in 
fiscal year 2006. This will also provide a source of water for a 
section of the Fort Peck Indian Reservation contaminated by oil 
drilling operations and the subject of EPA orders to the responsible 
non-Tribal oil company. The oil company will provide the distribution 
system necessary to mitigate the problems and the Assiniboine and Sioux 
Rural Water System will provide the interconnecting pipeline without 
duplicating any facilities identified in the Final Engineering Report. 
This is an exigent circumstance that will be corrected by the project 
in fiscal year 2006. No funds are requested for fiscal year 2005 for 
this project even though design will be complete.
    The Dry Prairie rural water system will finish the facilities 
necessary to bring water supplies from an existing treatment plant on 
the Missouri River at Culbertson to Medicine Lake where the existing 
water treatment is inoperable. The system to be completed in fiscal 
year 2005 will also provide the capability to connect Bainville, Dane 
Valley and East Medicine Lake residents. The latter project will rely 
on fiscal year 2005 and fiscal year 2006 funds to mitigate costs of 
hauling water so prevalent there. The budget request is consistent with 
the Master Plan as approved by the Bureau of Reclamation.
                     project status and completion
    The Final Engineering Report (FER), water conservation plan and 
Finding of No Significant Impact were completed in fiscal year 2002. 
Congressional review of the project ended in August 2003, and 
construction began immediately. The Missouri River intake and the 
Culbertson to Medicine Lake pipeline projects are under construction 
and are scheduled for completion in October 2004.
    Design of the water treatment plant is now well advanced. The 
design of the lagoons at the water treatment plant and the site 
landscaping will be completed in third-quarter fiscal year 2004, and 
construction of these preliminary facilities will begin in late fiscal 
year 2004. The main facility will begin construction in fiscal year 
2005 at a cost of $20 million.
    Design of the Poplar to Big Muddy pipeline is well advanced and can 
be completed to utilize first quarter fiscal year 2005 funds, but the 
appropriation requirements to undertake this pipeline construction in 
combination with the water treatment plant are considered too great to 
include in the funding request. Therefore, construction of this 
pipeline will depend on the availability of funds not currently 
identified in fiscal year 2006 or fiscal year 2007. The discussion of 
this pipeline is intended to demonstrate the capability of the project 
to use funds prior to fiscal year 2007 if funding were available.
    Similarly, the design of the branch pipelines that will serve rural 
residents between Culbertson and Medicine Lake is well ahead of 
funding. There is more capability to use funds than will be available 
in either fiscal year 2004 or fiscal year 2005.
    The project master plan is provided for review on the following 
page.
                         local project support
    The Fort Peck Tribes have supported the project since 1992 when 
they conceived it and sought means of improving the quality of life in 
the region. The planning was a logical step after successful completion 
of an historic water rights compact with the State of Montana. This 
compact was the national ``ice breaker'' that increased the level of 
confidence by other Tribes in Indian water right settlement 
initiatives. The Tribes did not seek financial compensation for the 
settlement of their water rights but expected development of meaningful 
water projects as now authorized.
    The 1999 Montana Legislature approved a funding mechanism from its 
Treasure State Endowment Program to finance the non-Federal share of 
project planning and construction. Demonstrating support of Montana for 
the project, there were only three votes against the statutory funding 
mechanism in both the full House and Senate. The 2001 and 2003 Montana 
Legislatures have provided all authorizations and appropriations 
necessary for the non-Federal cost share.
    Dry Prairie support is demonstrated by a financial commitment of 
all 14 communities within the service area to participate in the 
project. Rural support is strong, with about 70 percent of area farms 
and ranches intending to participate as evidenced by their intent fees 
of $100 per household.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   need for water quality improvement
    The Fort Peck Indian Reservation was previously designated as an 
``Enterprise Community'', underscoring the level of poverty and need 
for economic development in the region. The success of economic 
development within the Reservation will be significantly enhanced by 
the availability of higher quality, safe and more ample municipal, 
rural and industrial water supplies that this regional project will 
bring to the Reservation, made more necessary by an extended drought in 
the region. Outside the Fort Peck Indian Reservation, the Dry Prairie 
area has income levels that are higher than within the Reservation but 
lower than the State average.
    The feature of this project that makes it more cost effective than 
similar projects is its proximity to the Missouri River. The southern 
boundary of the Fort Peck Indian Reservation is formed by the Missouri 
River for a distance of more than 60 miles. Many of the towns in this 
regional project are located 2 to 3 miles from the river, including 
Nashua, Frazer, Oswego, Wolf Point, Poplar, Brockton, Culbertson, and 
Bainville. As shown on the enclosed project map, a transmission system 
outside the Fort Peck Indian Reservation will deliver water 30 to 40 
miles north of the Missouri River. Therefore, the distances from the 
Missouri River to all points in the main transmission system are 
shorter than in other projects of this nature in the Northern Great 
Plains.
              administration's budget for fiscal year 2005
    The administration's budget for fiscal year 2005 was severe 
disappointment. It was the only authorized project in the rural water 
category with construction underway that did not receive funding. Other 
projects authorized at the same time in both the rural water and water 
and related resources categories, of similar nature to this project, 
were generously funded. Of greatest concern now is the need for 
Reclamation to justify the zero funding amount. In all previous 
meetings with the Commissioner and his representatives and with OMB, no 
concerns with the project were raised other than the concerns raised 
with all projects that the Federal Budget is too constrained, non-
Indians should bear a greater cost share and other priorities, such as 
homeland security, are more demanding of Federal funds. OMB 
specifically stated in our favor that the project had provided more 
support and justification of its benefits and costs than most Corps of 
Engineers and the Bureau of Reclamation projects prior to 
authorization. Under the circumstances, there is considerable concern 
on our part that previously undisclosed issues will be generated in 
support of the absence of a budget request.
    The Tribes and Dry Prairie worked extremely well and closely with 
the Bureau of Reclamation prior to and following the authorization of 
this project in fiscal year 2000. The Bureau of Reclamation reviewed 
and commented on the Final Engineering Report, and all comments were 
either incorporated into the report or agreement was reached on final 
presentation. The Commissioner, Regional and Area Offices of the Bureau 
of Reclamation were consistently in full agreement with the need, 
scope, total costs, and the ability to pay analysis that supported the 
Federal and non-Federal cost shares. Bureau of Reclamation reviewed in 
writing all of these items thoroughly and formally and there were no 
areas of disagreement or controversy in the final formulation of the 
project. Bureau of Reclamation testimony during the authorization phase 
fully supported the project within the Fort Peck Indian Reservation and 
opposed any Federal participation in the costs of the project outside 
the Fort Peck Indian Reservation, as a matter of policy, but Congress 
addressed that issue in Public Law 106-382.
    The Bureau of Reclamation collaborated with the Tribes and Dry 
Prairie to conduct and complete value engineering investigations of the 
Final Engineering Report (planning), the Culbertson to Medicine Lake 
pipeline (design), the Poplar to Big Muddy River pipeline (design), the 
Missouri River intake (design) and (during the week of March 31, 2003) 
on the regional water treatment plant (design). Each of these 
considerable efforts has been directed at ways to save construction and 
future operation, maintenance and replacement costs as planning and 
design proceeded. Agreement with Reclamation has been reached in all 
value engineering sessions on steps to take to save Federal and non-
Federal costs in the project.
    Cooperative agreements have been developed and executed from the 
beginning phases to date between the Bureau of Reclamation and the 
Tribes and between Bureau of Reclamation and Dry Prairie. Those 
cooperative agreements carefully set out goals, standards and 
responsibilities of the parties for planning, design and construction. 
All plans and specifications are subject to levels of review by the 
Bureau of Reclamation pursuant to the cooperative agreements. The 
sponsors do not have the power to undertake activities that are not 
subject to oversight and approval by the Bureau of Reclamation. Each 
year the Tribes and Dry Prairie are required by the cooperative 
agreements to develop a work plan setting out the planning, design and 
construction activities and the allocation of finding to be utilized on 
each project feature.
    Clearly, the Fort Peck Reservation Rural Water System is well 
supported by the Bureau of Reclamation planners. Congress authorized 
the project with a plan formulated in full cooperation and 
collaboration with the Bureau of Reclamation, and major project 
features are under construction.
                                 ______
                                 
     Prepared Statement of the Colorado River Energy Distributors 
                              Association
    The Colorado River Energy Distributors Association (CREDA) 
appreciates the opportunity to submit its views on funding for specific 
programs of the Bureau of Reclamation and the Western Area Power 
Administration in the fiscal year 2005 Energy and Water Development 
appropriations bill. We look forward to working with you and the 
subcommittee on these issues of importance to electric consumers in the 
Colorado River Basin States. The first issue is a request for Federal 
funds to pay for costs of increased security at Federal multi-purpose 
dams. The Bureau of Reclamation has requested $43 million for dams 
under its jurisdiction for fiscal year 2005. CREDA is attempting to 
determine whether this represents the total amount that will be spent 
by the Bureau for increased security in fiscal year 2005 or not. The 
second issue is a request for $10,000,000 of additional funds for the 
Western Area Power Administration of the Department of Energy relating 
to the Animas-La Plata project.
    CREDA is a non-profit, regional organization representing consumer-
owned municipal and rural electric cooperatives, political 
subdivisions, irrigation and electrical districts and tribal utility 
authorities that purchase hydropower resources from the Colorado River 
Storage Project (CRSP). CRSP is a multi-purpose Federal project that 
provides flood control; water storage for irrigation, municipal and 
industrial purposes; recreation and environmental mitigation, in 
addition to the generation of electricity. CREDA was established in 
1978, and serves as the ``voice'' of CRSP contractor members in dealing 
with resource availability and affordability issues. CREDA represents 
its members in dealing with the Bureau--as the owner and operator of 
the CRSP--and the Western Area Power Administration--as the marketing 
agency of the CRSP.
    CREDA members serve nearly 3 million electric consumers in the six 
western States of Arizona, Colorado, Nevada, New Mexico, Utah and 
Wyoming. CREDA's member utilities purchase more than 85 percent of the 
power produced by the CRSP. In addition, several Indian tribes have 
joined CREDA as affiliate members prior to receiving allocations of 
CRSP power on October 1, 2004.
    With regard to the President's proposed fiscal year 2005 budget 
request, CREDA has two primary concerns:
        non-reimbursability of post-9/11 security cost increases
    Federal multipurpose projects across the country provide millions 
of citizens with a multitude of benefits, including flood control, 
municipal, rural, and industrial water supply, navigation, recreation, 
and, of course, hydropower. Providing adequate security for these 
multi-purpose, federally owned facilities is important to all U.S. 
citizens. In the aftermath of the attacks on September 11, 2001, 
Federal agencies involved in the Federal power program (the U.S. Bureau 
of Reclamation, the U.S. Army Corps of Engineers, and the Federal Power 
Marketing Administrations) have determined that significant increases 
in security are needed, and will continue for years to come.
    Adequately protecting and securing national assets, such as the 
Federal multi-purpose dams, comes with a price tag. In 1941 and 1942, 
Congress treated increased security costs before and after Pearl Harbor 
as non-reimbursable (e.g., as costs to be borne by the Federal 
Government and financed through appropriations, rather than reimbursed 
by hydropower customers) because of the obvious national security 
interest at stake and the benefits these projects offer to all 
Americans. Thus far, Congress has agreed with this historical 
precedent, as evidenced by Senate Appropriations report language for 
fiscal year 2003 and fiscal year 2004, which stated that funds made 
available to respond to the September 11, 2001, terrorist attacks shall 
be non-reimbursable and indicates these costs ``are recurring'' (S. 
Rept. 107-220 and S. Rept. 108-105). House report language for fiscal 
year 2003 also supported this view (H. Rept. 107-681).
    The Bureau of Reclamation received $28.4 million in the fiscal year 
2003 Energy and Water Appropriations bill and an additional $25 million 
in the 2003 Supplemental Appropriations bill to cover increased costs 
to protect Reclamation dams and other facilities post September 11. The 
Bureau also received $28.5 million for increased security costs in the 
fiscal year 2004 Energy and Water bill that was signed into law in 
December 2003. The Bureau of Reclamation recognized the above 
historical precedent and the sound policy behind it and, in fiscal year 
2003 and 2004, administratively determined that additional security 
costs should be non-reimbursable (Bureau of Reclamation Commissioner 
Keys, April 2002). The Corps of Engineers did not, treating additional 
security investments at Corps facilities as reimbursable.
    Due to budget constraints and pressures to control costs from the 
Office of Management and Budget (OMB), the President's fiscal year 2005 
budget directs the Bureau and the Corps to recover some of the costs of 
increased security measures from entities that benefit from the multi-
purpose projects. Given our past experience with the Bureau and the 
Corps, we believe that power customers will be unfairly singled out to 
pay the reimbursable costs.
    The reasons that security costs at Federal dams should continue to 
be non-reimbursable are: (1) these facilities are Federal and multi-
purpose in nature, and the benefits accrue to a vast number of citizens 
in many States; (2) protection of these Federal facilities is clearly 
in the national interest and should remain a Federal responsibility; 
and (3) by taking this funding stream out of the appropriations 
process, congressional oversight of Reclamation's use of the funds 
would be greatly diminished, thereby reducing accountability for the 
type and expense of the security measures imposed.
    CREDA urges the committee to include the following statutory 
language in the fiscal year 2005 Water and Energy Development 
Appropriations bill, to clarify that the additional costs of securing 
facilities of the Bureau of Reclamation, the Corps of Engineers and the 
Federal power marketing administrations are a Federal responsibility 
and should be non-reimbursable:

    ``For fiscal year 2005 and each fiscal year thereafter, the 
increased costs of ensuring security of Bureau of Reclamation dams, 
federal power marketing administration facilities and Corps of 
Engineers multipurpose facilities in the aftermath of the events of 
September 11, 2001, shall be non-reimbursable and non-returnable.''
                        animas-la plata project
    The Colorado Ute Settlement Act Amendments of 2000 (Title III, 
Section 301(b)(10), Public Law 106-554, December 21, 2000) authorized 
development of the Animas-La Plata Project to satisfy water right 
claims of the Southern Ute and Ute Mountain Ute Tribes in southwest 
Colorado (known collectively as the ``Colorado Ute Indian Tribes''). 
The project requires construction of a reservoir, pumping plant and 
appurtenant facilities to provide water supply and delivery of 
municipal and industrial water and other benefits to the Tribes.
    In order to provide power from the CRSP to the Durango Pumping 
Plant, transmission facilities will need to be constructed, operated 
and maintained by the Western Area Power Administration. These 
transmission facilities do not provide any benefit to CRSP power 
customers; they are required solely to deliver water to project 
beneficiaries.
    The Western Area Power Administration will be responsible for 
construction, operation and maintenance of these transmission 
facilities, and requires additional appropriations in the amount of 
$10,000,000 in fiscal year 2005 to meet the construction timetable 
established by the U.S. Bureau of Reclamation, the project manager. 
Since the transmission lines will power the pumping plant required for 
delivery of water to Native American and non-Native American municipal 
and industrial users, the costs related to the transmission facilities 
and services should not be borne by the CRSP power customers and should 
be considered non-reimbursable and nonreturnable. To do otherwise could 
turn 102 years of Reclamation law on its head. Failure to address this 
issue in the fiscal year 2005 appropriations cycle could jeopardize the 
current construction schedule for the Animas-La Plata project and 
subject CRSP power customers and the consumers they serve to an unfair 
financial burden.
    The Western Area Power Administration, the Bureau of Reclamation, 
the Colorado River Energy Distributors Association, the water users and 
the Colorado Ute Indian Tribes all support the inclusion of the 
following language in the fiscal year 2005 Energy and Water Development 
Appropriations bill:

    ``For carrying out the functions authorized by title III, section 
302(a)(1)(E) of the Act of August 4, 1977 (42 U.S.C. 7152), and other 
related activities including conservation and renewable resources 
programs as authorized, including official reception and representation 
expenses in an amount not to exceed $1,500, $183,100,000 to remain 
available until expended, of which $170,756,000 shall be derived from 
the Department of the Interior Reclamation Fund: Provided, That all 
authorities and future contributions described in Section 402, 
subparagraph (b)(3)(B) of the Reclamation Projects Authorization and 
Adjustment Act of 1992 previously assigned to the Secretary of Energy, 
Western Area Power Administration, shall be transferred to the 
Secretary of the Interior, Bureau of Reclamation: Provided further, 
That of the amount herein appropriated, $10,000,000 shall be available 
until expended on a nonreimbursable basis to the Western Area Power 
Administration to design, construct, operate and maintain transmission 
facilities and services for the Animas-La Plata Project as authorized 
by sections 301(b)(10) of Public Law 106-554.''
                                 ______
                                 
              Prepared Statement of the Mni Wiconi Project
              fiscal year 2005 construction budget request
    The Mni Wiconi Project beneficiaries (as listed below) respectfully 
request appropriations and can demonstrate capability for construction 
in fiscal year 2005 in the amount of $39,317,000 as follows:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Oglala Sioux Rural Water Supply System:
    Core Facilities (Pipelines and Pumping Stations)....      $8,128,000
    Distribution System on Pine Ridge...................      10,224,000
West River/Lyman-Jones Rural Water System...............      11,020,000
Rosebud Sioux Rural Water System........................       7,325,000
Lower Brule Sioux Rural Water System....................       2,620,000
                                                         ---------------
      Total Mni Wiconi Project..........................      39,317,000
------------------------------------------------------------------------

    The project sponsors were provided by the 107th Congress (Public 
Law 107-367) with all the authority necessary to finish this project at 
the level of development originally intended on a schedule through 
fiscal year 2008. Completion of the project is now clearly achievable 
as shown in the table below:

------------------------------------------------------------------------
 ------------------------------------------------------------------------
Total Federal Required (October 2003 Dollars)...........    $409,523,000
Estimated Federal Spent Through Fiscal Year 2004........    $278,110,000
Percent Spent...........................................            67.9
Amount Remaining........................................    $131,413,000
Years to Completion.....................................               4
Average Required for Fiscal Year 2008 Finish............     $32,853,000
------------------------------------------------------------------------

    The administration's budget for this project in fiscal year 2005 
($18.2 million for construction) is a disappointment for a second year 
in a row. The amount requested by the administration falls far short of 
the average amount needed to complete the project in fiscal year 2008. 
The needs and merits of this project are considerable as described in 
section 3.
    The project's operation, maintenance and replacement request from 
the sponsors is in addition to the construction request and is 
presented in section 8.
 osrwss core pipeline to reach pine ridge indian reservation in fiscal 
                               year 2005

              OGLALA SIOUX WATER SUPPLY SYSTEM CORE REQUEST
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
South Core:
    Stamford to Kadoka:
        Reservoir to Kadoka Pipeline....................      $1,036,000
        Pump Station, 2 Reservoirs......................       2,111,000
    Kadoka to White River Pipeline......................       2,587,000
North Core:
    WTP toward Hayes Pipeline...........................       2,394,000
                                                         ---------------
      Total.............................................       8,128,000
------------------------------------------------------------------------

    The Pine Ridge Indian Reservation and parts of West River/Lyman-
Jones remain without points of interconnection to the OSRWSS core. The 
requested funding level for the OSRWSS core of $8.128 million will 
complete the project from Stamford to the northeast corner of the Pine 
Ridge Indian Reservation where, in combination with the western part of 
West River/Lyman-Jones, the remaining 50 percent of the design 
population resides. Funds will also be used by the Oglala Sioux Tribe 
to build the North Core westerly toward Hayes in the West River Lyman 
Jones service area with the intent to complete the OSRWSS North Core 
and all other core facilities in fiscal year 2007. Two additional years 
of funding will be required to complete the OSRWSS North Core system to 
serve the Reservation.
    The 2000 census confirms that the Oglala Sioux population on Pine 
Ridge is growing at a rate of 27 percent per decade or 1\1/2\ times 
greater than projected from the 1990 census. Delivery of Missouri River 
water to this area is urgently needed.
    All proposed OSRWSS construction activity will build pipelines that 
will provide Missouri River water immediately to beneficiaries. In many 
cases, construction of interconnecting pipelines by other sponsors is 
ongoing, and fiscal year 2005 funds are required to complete projects 
that will connect with the OSRWSS core and begin others.
    Funding for OSRWSS core and distribution facilities is necessary to 
bring economic development to the Pine Ridge Indian Reservation, 
designated as one of five national rural empowerment zones by the 
previous administration. The designation serves to underscore the level 
of need. Economic development is largely dependent on the timely 
completion of a water system, which depends on appropriations for this 
project.
    Finally, the subcommittee is respectfully requested to take notice 
of the fact that fiscal year 2005 will significantly advance 
construction of facilities that continues our progress toward the end 
of the project. The subcommittee's past support has brought the project 
to the point that the end can be seen. Key to the conclusion of the 
project in fiscal year 2008 is the completion of the OSRWSS core to the 
Pine Ridge Indian Reservation. Toward this end, funds are included in 
the fiscal year 2005 budget to build the connecting pipelines between 
the northeast corner of the Pine Ridge Indian Reservation and the 
central portion of the Reservation near Kyle. Rosebud is similarly 
engaged in the construction of major connecting pipelines that will 
deliver water southerly to the central portions of the Rosebud Indian 
Reservation and to service areas for West River/Lyman-Jones.
                      unique needs of this project
    This project covers much of the area of western South Dakota that 
was formerly the Great Sioux Reservation established by the Treaty of 
1868. Since the separation of the Reservation in 1889 into smaller more 
isolated reservations, including Pine Ridge, Rosebud and Lower Brule, 
tensions between the Indian population and the non-Indian settlers on 
former Great Sioux lands have been high with little easing by 
successive generations. The Mni Wiconi Project is perhaps the most 
significant opportunity in more than a century to bring the sharply 
diverse cultures of the two societies together for a common good. Much 
progress has been made due to the good faith and genuine efforts of 
both the Indian and non-Indian sponsors. The project is an historic 
basis for renewed hope and dignity among the Indian people. It is a 
basis for substantive improvement in relationships.
    Each year our testimony addresses the fact that the project 
beneficiaries, particularly the three Indian Reservations, have the 
lowest income levels in the Nation. The health risks to our people from 
drinking unsafe water are compounded by reductions in health programs. 
We respectfully submit that our project is unique and that no other 
project in the Nation has greater human needs. Poverty in our service 
areas is consistently deeper than elsewhere in the Nation. Health 
effects of water-borne diseases are consistently more prevalent than 
elsewhere in the Nation, due in part to (1) lack of adequate water in 
the home and (2) poor water quality where water is available. Higher 
incidences of impetigo, gastroenteritis, shigellosis, scabies and 
hepatitis-A are well documented on the Indian reservations of the Mni 
Wiconi Project area. At the beginning of the third millennium one 
cannot find a region in our Nation in which social and economic 
conditions are as deplorable. These circumstances are summarized in 
Table 1. Mni Wiconi builds the dignity of many, not only through 
improvement of drinking water, but also through direct employment and 
increased earnings during planning, construction, operation and 
maintenance and from economic enterprises supplied with project water. 
We urge the subcommittee to address the need for creating jobs and 
improving the quality of life on the Pine Ridge and other Indian 
reservations of the project area.
    Employment and earnings among the Indian people of the project area 
are expected to positively impact the high costs of health care borne 
by the United States and the Tribes. Our data suggest clear 
relationships between income levels and Federal costs for heart 
disease, cancer and diabetes. During the life of the Mni Wiconi 
Project, mortality rates among the Indian people in the project area 
for the three diseases mentioned will cost the United States and the 
Tribes more than $1 billion beyond the level incurred for these 
diseases among comparable populations in the non-Indian community 
within the project area. While this project alone will not raise income 
levels to a point where the excessive rates of heart disease, cancer 
and diabetes are significantly diminished, the employment and earnings 
stemming from the project will, nevertheless, reduce mortality rates 
and costs of these diseases. Please note that between 1990 and 2000 per 
capita income on Pine Ridge increased from $3,591 to $6,143, and median 
household income increased from $11,260 to $20,569, due in large part 
to this project, albeit not sufficient to bring a larger percentage of 
families out of poverty (Table 1).

                          TABLE 1.--PROFILE OF SELECTED ECONOMIC CHARACTERISTICS: 2000
----------------------------------------------------------------------------------------------------------------
                                                                          Income
                                                          Change  ----------------------  Families
       Indian Reservation/State              2000       from 1990     Per       Median     Below    Unemployment
                                          Population    (Percent)    Capita   Household   Poverty     (Percent)
                                                                   (Dollars)  (Dollars)  (Percent)
----------------------------------------------------------------------------------------------------------------
Pine Ridge Indian Reservation.........          15,521     27.07       6,143     20,569      46.3         16.9
Rosebud Indian Reservation............          10,469      7.97       7,279     19,046      45.9         20.1
Lower Brule Indian Reservation........           1,353     20.48       7,020     21,146      45.3         28.1
State of South Dakota.................         754,844      8.45      17,562     35,282       9.3          3.0
Nation................................     281,421,906     13.15      21,587     41,994       9.2          3.7
----------------------------------------------------------------------------------------------------------------

    Financial support for the Indian membership has already been 
subjected to drastic cuts in funding programs through the Bureau of 
Indian Affairs. This project is a source of strong hope that helps off-
set the loss of employment and income in other programs and provide for 
an improvement in health and welfare. Tribal leaders have seen that 
Welfare Reform legislation and other budget cuts Nation-wide have 
created a crisis for tribal government because tribal members have 
moved back to the reservations in order to survive. Economic conditions 
have resulted in accelerated population growth on the reservations.
    The Mni Wiconi Project Act declares that the United States will 
work with us under the circumstances:

    ``. . . the United States has a trust responsibility to ensure that 
adequate and safe water supplies are available to meet the economic, 
environmental, water supply and public health needs of the Pine Ridge, 
Rosebud and Lower Brule Indian Reservations . . .''.

    Indian support for this project has not come easily because the 
historical experience of broken commitments to the Indian people by the 
Federal Government is difficult to overcome. The argument was that 
there is no reason to trust and that the Sioux Tribes are being used to 
build the non-Indian segments of the project and the Indian segments 
would linger to completion. These arguments have been overcome by 
better planning, an amended authorization and hard fought agreements 
among the parties. The subcommittee is respectfully requested to take 
the steps necessary the complete the critical elements of the project 
proposed for fiscal year 2004.
    The following sections describe the construction activity in each 
of the rural water systems.
          oglala sioux rural water supply system--distribution

          OGLALA SIOUX WATER SUPPLY SYSTEM DISTRIBUTION REQUEST
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
West Boundary Supply....................................        $506,000
Manderson Loop..........................................       1,454,000
Rockyford to Redshirt...................................         179,000
White River to HWY 73/44 Junction:
    Pump Station, Service Lines and Reservoirs..........       3,127,000
HWY 73/44 Junction to Kyle..............................       4,923,000
Indefinite quantities...................................          35,000
                                                         ---------------
      TOTAL.............................................      10,224,000
------------------------------------------------------------------------

    With the conclusion of projects under construction in fiscal year 
2002, the Oglala Sioux Tribe completed all facilities that can be 
supported from local groundwater. The Tribe, representing more than 40 
percent of the project population will rely on the OSRWSS core to 
convey Missouri River water to and throughout the Reservation. Much 
pipeline has been constructed, primarily between Kyle, Wounded Knee and 
Red Shirt and between Pine Ridge Village and the communities of Oglala 
and Slim Buttes. Additional construction of the Manderson Loop is 
proposed in fiscal year 2005.
    Of particular importance to the Oglala Sioux Tribe is the 
continuation of the main transmission system from the northeast corner 
(Highway 73/44 junction) of the Reservation to Kyle in the central part 
of the Reservation. The transmission line is needed to interconnect the 
OSRWSS core system with the distribution system within the Reservation 
in order to deliver Missouri River water to the populous portions of 
the Reservation. This critical segment of the project can be continued 
in fiscal year 2005 to coincide with the westward construction of the 
OSRWSS core to the northeast corner of the Reservation (see section 2). 
It will require funds in fiscal year 2006 and fiscal year 2007 to 
complete. This component of the Oglala system has been deferred for 
several years due to inadequate funding. The component is urgently 
needed for the OSRWSS core system to be utilized on the Pine Ridge 
Indian Reservation.
        west river/lyman-jones rural water system--distribution

              WR/LJ RURAL WATER SYSTEM DISTRIBUTION REQUEST
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Mellette East...........................................        $533,000
Moenville...............................................       9,566,000
Quinn Town Distribution.................................         176,000
Vivian Town.............................................         441,000
Indefinite Quantities...................................         304,000
                                                         ---------------
      Total.............................................      11,020,000
------------------------------------------------------------------------

    Continued drought conditions in the project area have created 
serious health and economic hardships for WR/LJ members waiting to 
receive Mni Wiconi water service. A survey of members attending the WR/
LJ annual meeting on October 8, 2003 in Midland revealed that, of those 
members not receiving project water, 67 percent were hauling water for 
domestic use and 45 percent were hauling water for livestock. Their 
current source of water, highly mineralized wells and dried up dams, 
present a serious health hazard and unaffordable increases in 
production costs due to the time and cost of hauling water.
    The requested appropriation is directed to serving members between 
Ft. Pierre and Philip. The highest priority is completion of the 
Moenville project. Houston Rose, prior to his death, pioneered initial 
efforts to bring quality water to this WR/LJ service area closest to 
the Mni Wiconi water treatment plant. The economy of the area he 
represented is based on livestock operations that are dependent on 
quality water supplies.
    WR/LJ is now the water service provider in the towns of Quinn and 
Vivian, however, the existing distribution piping is over 50 years old 
and is a very high priority for replacement. Funding is also requested 
for the construction of pumping station and reservoirs required to 
deliver the full design capability of the pipelines under construction. 
As a testimony to public recognition of the advantages of quality water 
and the reliability of the system WR/LJ continues to add users within 
those areas previously constructed. These additions are being financed 
by member contributions as part of the statutory non-Federal matching 
requirement.
    The Mni Wiconi project, due to continued congressional support, has 
progressed to where the project beneficiaries can look forward to its 
timely completion and receive the intended project benefits. We 
sincerely appreciate your support.
            rosebud rural water system (sicangu mni wiconi)

                ROSEBUD SIOUX RURAL WATER SYSTEM REQUEST
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Hidden Timber...........................................      $1,317,000
Rosebud Improvements....................................         737,000
Rural Antelope..........................................         866,000
Okreek..................................................       2,030,000
Mission Northwest.......................................         447,000
Livestock Water.........................................       1,271,000
Service Connections.....................................         657,000
                                                         ---------------
      Total.............................................       7,325,000
------------------------------------------------------------------------

    Fiscal year 2005 efforts build upon the successes of the past 2 
years. The Rosebud Core pipeline will begin providing water from the 
OSRWSS at Murdo to Rosebud and WR/LJ water users in Mellette County. As 
a result, the limited supply of high quality ground water available 
from the Rosebud wellfield can be used as a source of supply for 
northeast Todd County.
    The Rosebud Sioux Tribes efforts in fiscal year 2005 focus on 
connecting additional homes to new and existing pipelines. The Antelope 
to Okreek Pipeline, completed in late 2003, provides a supply of high 
quality ground water to the rural Antelope, northwest Mission, Hidden 
Timber and Okreek project areas. In this portion of northern Todd 
County, the Ogallala Aquifer is not present and ground water is of poor 
quality and limited quantity where available. Private and community 
wells have failed in the area and while the Antelope to Okreek Pipeline 
solved the problem for the community of Okreek, many rural residents 
are anxiously waiting for water.
    The problems are exacerbated in the Hidden Timber area. Where 
ground water occurs, nitrate concentrations are frequently in excess of 
the Safe Drinking Water Act primary standard. The high nitrate 
concentrations pose an acute threat to the unborn and young children.
    The major features of the proposed fiscal year 2005 work plan focus 
on distribution and service lines for this area. Proposed projects for 
this area include Rural Antelope, Mission Northwest, Okreek and Hidden 
Timber. It is envisioned that both private contractors and the tribal 
construction program would be responsible for construction.
    The other major project proposed for fiscal year 2005 address 
improvements needed in the community of Rosebud. In fiscal year 2004, 
the Tribe will be connecting the lower older part of Rosebud to the 
rural water system. While this will improve the quality and reliability 
of supply, improvements are needed to ensure water reaches the users. 
In several areas, older cast iron pipe has corroded and needs to be 
replaced. In other areas, older asbestos concrete pipe is still in use 
and felt to be a health threat. The focus of the work in Rosebud in 
fiscal year 2005 is to provide a reliable source of high quality water 
to all service connections.
    The Tribe will also expand its service line program. The focus of 
this effort is new homes and homes that have been constructed since 
transmission or distribution lines have been installed. It is also 
proposed to start developing livestock watering facilities. The Tribe 
has not constructed any of these facilities to date with Mni Wiconi 
funding and the realty of prolonged drought is having an affect on 
historic livestock watering sources of supply. A reliable source of 
water for livestock is necessary to maintain one of the more viable 
components of the reservation economy.
    The total amount requested for the Sicangu Mni Wiconi in fiscal 
year 2005 is $7,325,000.
              lower brule rural water system--distribution
    The Lower Brule Rural Water System (LBRWS) has gained the support 
of the other sponsors to complete its share of the project with funds 
appropriated in fiscal year 2005 budget, based on an appropriation of 
funds for the project in the range generally received. This support is 
not only a benefit for LBRWS and its users but to the project as a 
whole. By funding LBRWS in this manner, a savings of approximately $1.5 
million will be experienced by the project.
    With the funds received in fiscal year 2004, LBRWS will complete 
the design, cultural resource evaluation and the securing of easements 
for the remaining service areas and installing mainlines and service 
lines required to provide water to all of the homes on the Lower Brule 
Indian Reservation. The fiscal year 2004 funds will also allow LBRWS to 
begin installing water lines to pasture taps. Since the area has 
experienced 2 years of drought conditions, many of the dams are dry. 
The provision of water will allow some pastures to be utilized that 
would have otherwise been of no benefit to the ranchers.
    The fiscal year 2005 funds will allow the completion of the 
installation of pasture taps and a new 400,000 gallon elevated water 
tank in Lower Brule. The existing tank is in a location where the 
slides (soil movement) have occurred. As a result, the stability of the 
tank's foundation is in question.
             operation, maintenance and replacement budget
    The sponsors have and will continue to work with Reclamation to 
ensure that their budgets are adequate to properly operate, maintain 
and replace (OMR) their respective portions of the overall system. The 
sponsors will also continue to manage OMR expenses in a manner ensuring 
that the limited funds can best be balanced between construction and 
OMR. In fiscal year 2003, the approved budget for OMR was $8.228 
million, which was adequate. Funding was not adequate in fiscal year 
2004 at the $6.254 level and will not be adequate at the same leveling 
the administration's proposed fiscal year 2005 budget of $6.254 million 
for OMR.
    The project has been making significant progress especially over 
the last 2 years with the initiation of operation of the OSRWSS Water 
Treatment Plant near Ft. Pierre and the installation of a significant 
quantity of pipeline. The result is the need for sufficient funds to 
properly operate and maintain the functioning system throughout the 
project. As a result, the OMR budget must continue to be adequate to 
keep pace with the portion of the system that is placed in operation.
    In addition to ongoing operation and maintenance activities, water 
conservation is an integral part of the OMR of the project. Water 
conservation not only provides immediate savings from reduced water use 
and production, it also extends the useful life and capacity of the 
system. Proposed funding is not adequate to perform water conservation 
functions.
                                 ______
                                 
        Prepared Statement of the Redlands Water & Power Company
    Chairman Domenici and Senator Reid, I am writing to request your 
support for an appropriation in fiscal year 2005 of $5,234,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado River 
Region. The President's recommended budget for fiscal year 2005 
includes this line-item amount. Of these funds, I respectfully request 
the designation of $4,008,000 for the Upper Colorado River Endangered 
Fish Recovery Program; $691,000 for the San Juan River Basin Recovery 
Implementation Program and $535,000 for Fish and Wildlife Management 
and Development, consistent with the President's budget request. The 
requested fiscal year 2005 appropriation will allow construction of 
fish passage, floodplain restoration activities, screening of existing 
diversion canals, propagation facilities, endangered fish stocking, and 
non-native fish management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
         Prepared Statement of the Red River Valley Association
    Mr. Chairman and members of the committee, I am Wayne Dowd, and 
pleased to represent the Red River Valley Association, as its 
President. Our organization was founded in 1925 with the express 
purpose of uniting the citizens of Arkansas, Louisiana, Oklahoma and 
Texas to develop the land and water resources of the Red River Basin.
    The Resolutions contained herein were adopted by the Association 
during its 79th Annual Meeting in Bossier City, Louisiana on February 
19, 2004, and represent the combined concerns of the citizens of the 
Red River Basin Area as they pertain to the goals of the Association.
    Our western rivers played a very important part in the development 
and economic success of the States west of the Mississippi River. An 
agency responsible for the development of those water resources has 
been the Bureau of Reclamation. In our four State region they have been 
most active in Oklahoma.
    I would like to comment on two specific requests for the future 
economic well being of the citizens residing in the Red River Valley 
region in Oklahoma. We support the following two studies and request 
that the Bureau of Reclamation be funded at their full fiscal year 2005 
capability.
    North Fork of the Red River, OK, Investigation Study.--The W.C. 
Austin (Altus Lake and Dam) Project in southwestern Oklahoma, is 
authorized to provide water for irrigation to approximately 48,000 
acres of privately owned land in southwestern Oklahoma; control 
flooding on the North Fork of the Red River and augment municipal water 
supply for the City of Altus. Secondary benefits include fish and 
wildlife conservation and recreation opportunities. Project features 
include Altus Dam, four canals, a 221-mile lateral distribution system 
and 26 miles of drains. The Lugert-Altus Irrigation District (LAID) is 
responsible for operation and maintenance of the project.
    Water demand in the District and region is growing which, in turn, 
is reducing future water availability and economic development 
opportunities. This proposed investigation would: (1) develop a 
hydrologic model of the NFRR watershed; and (2) evaluate opportunities 
for augmenting water availability in the project region.
    We support a 3-year comprehensive evaluation of water resources in 
the North Fork of the Red River in Oklahoma for a total study cost of 
$670,000. We sincerely appreciate your support in allocating $150,000 
in the fiscal year 2004 appropriations.
    An allocation of $150,000 is requested for the fiscal year 2005 
appropriations.
    Arbucle-Simpson Aquifer Study.--The Arbuckle-Simpson Aquifer has 
been designated a sole source aquifer by EPA and a large number of 
Oklahomans depend on its protection for their health and economic 
future. This is an important source of water supply for: the citizens 
of Ada, Sulphur, Mill Creek and Roff; the Chickasaw National 
Recreational Area; Chickasaw and Choctaw Tribal members; and many 
farmers and ranchers owning land overlying the basin. Contributions 
from the aquifer also provide the perennial flow for many streams and 
natural springs in the area. The Arbuckle-Simpson Aquifer underlines 
approximately 500 square miles of south-central Oklahoma.
    During recent years, a number of issues have emerged which have 
caused concerns about the utilization and continued health of the 
aquifer. These concerns include issues over water use, exportation of 
water out of the area, impacts of groundwater development on the flows 
in the significant springs and rivers, and competition for water and 
water quality.
    In order to assure the future well-being of the aquifer we support 
a 5-year study to include detailed assessments of; the formation's 
hydrogeology, water quality and vulnerability; groundwater-surface 
water interactions; land use changes and related impacts; Tribal-State 
water rights; and overall management of the resources. The initial 
estimates put the total study cost at $2.7 million; however, due to its 
complexity and new issues concerning Chickasaw and Choctaw Tribal 
interest, a better cost estimate will be known after the second year of 
the study. We appreciate your support of this study by funding the 
first year of the study in the fiscal year 2004 appropriations for 
$700,000.
    We request $1,000,000 be appropriated for fiscal year 2005 and 
support that the study be cost shared, 90 percent Federal and 10 
percent State/Local funds.
    The Red River Valley Association understands these are difficult 
times with our Nation's budget, so we appreciate your support for these 
studies in fiscal year 2004. We feel they are extremely important to 
the welfare of the citizens in Oklahoma and request that you again 
support these studies in fiscal year 2005.
    We are always available to provide additional information and 
answer whatever questions you may have.
                                 ______
                                 
      Prepared Statement of the Santa Clara Valley Water District
        calfed bay-delta program, santa clara county, california
    Background.--In an average year, half of Santa Clara County's water 
supply is imported from the San Francisco Bay/Sacramento-San Joaquin 
Delta estuary (Bay-Delta) watersheds through three water projects: The 
State Water Project, the Federal Central Valley Project, and San 
Francisco's Hetch Hetchy Project. In conjunction with locally-developed 
water, this water supply supports more than 1.7 million residents in 
Santa Clara County and the most important high-tech center in the 
world. In average to wet years, there is enough water to meet the 
county's long-term needs. In dry years, however, the county could face 
a water supply shortage of as much as 100,000 acre-feet per year, or 
roughly 20 percent of the expected demand. In addition to shortages due 
to hydrologic variations, the county's imported supplies have been 
reduced due to regulatory restrictions placed on the operation of the 
State and Federal water projects.
    There are also water quality problems associated with using Bay-
Delta water as a drinking water supply. Organic materials and 
pollutants discharged into the Delta, together with salt water mixing 
in from San Francisco Bay, have the potential to create disinfection 
by-products that are carcinogenic and pose reproductive health 
concerns.
    Santa Clara County's imported supplies are also vulnerable to 
extended outages due to catastrophic failures such as major earthquakes 
and flooding. As demonstrated by the 1997 flooding in Central Valley, 
the levee systems can fail and the water quality at the water project 
intakes in the Delta can be degraded to such an extent that the 
projects cannot pump from the Delta.
    Project Synopsis.--The CALFED Bay-Delta Program is an 
unprecedented, cooperative effort among Federal, State, and local 
agencies to restore the Bay-Delta. With input from urban, agricultural, 
environmental, fishing, and business interests, and the general public, 
CALFED has developed a comprehensive, long-term plan to address 
ecosystem and water management issues in the Bay-Delta.
    Restoring the Bay-Delta ecosystem is important not only because of 
its significance as an environmental resource, but also because failing 
to do so will stall efforts to improve water supply reliability and 
water quality for millions of Californians and the State's trillion 
dollar economy and job base.
    The June 2000 Framework for Action and the August 2000 Record of 
Decision/Certification contain a balanced package of actions to restore 
ecosystem health, improve water supply reliability and water quality. 
It is critical that Federal funding be provided to implement these 
actions in the coming years.
    Fiscal Year 2004 Funding.--An amount of $9 million was appropriated 
for CALFED activities under the various units of the Central Valley 
Project in fiscal year 2004.
    Fiscal Year 2005 Funding Recommendation.--It is requested that the 
committee support an appropriation add-on of $15 million, in addition 
to the $15 million in the administration's fiscal year 2005 budget, for 
a total of $30 million for California Bay-Delta Restoration.
            san luis reservoir low point improvement project
    Background.--San Luis Reservoir is one of the largest reservoirs in 
California, and is the largest ``off-stream'' water storage facility in 
the world. The Reservoir has a water storage capacity of more than 2 
million acre-feet and is a key component of the water supply system 
serving the Federal Central Valley Project (CVP) and California's State 
Water Project. San Luis is used for seasonal storage of Sacramento-San 
Joaquin delta water that is delivered to the reservoir via the 
California Aqueduct and Delta-Mendota Canal. The San Luis Reservoir is 
jointly owned and operated by the U.S. Bureau of Reclamation and the 
California Department of Water Resources.
    The San Luis Reservoir provides the sole source of CVP water supply 
for the San Felipe Division contractors--Santa Clara Valley Water 
District (District), San Benito County Water District and, in the 
future, Pajaro Valley Water Management Agency. When water levels in San 
Luis Reservoir are drawn down in the spring and summer, high water 
temperatures result in algae blooms at the reservoir's water surface. 
This condition degrades water quality, making the water difficult or 
impractical to treat and can preclude deliveries of water from San Luis 
Reservoir to San Felipe Division contractors. In order to avoid the low 
point problem, the reservoir has been operated to maintain water levels 
above the critical low elevation--the ``low point''--resulting in 
approximately 200,000 acre-feet of undelivered water to south of the 
Delta State and Federal water users. The frequency of the low point 
problem will increase in the future as delta pumping becomes more 
restricted and demands grow for full allocation and use of all of the 
water in San Luis Reservoir.
    Project Goals and Status.--The goal of the project is to increase 
the operational flexibility of storage in San Luis Reservoir and ensure 
a high quality, reliable water supply for San Felipe Division 
contractors. The specific project objectives are to:
  --Increase the operational flexibility of San Luis Reservoir by 
        increasing the effective storage.
  --Ensure that San Felipe Division contractors are able to manage 
        their annual Central Valley Project contract allocation to meet 
        their water supply and water quality commitments.
  --Provide opportunities for project-related environmental 
        improvements.
  --Provide opportunities for other project-related improvements.
From the Public Scoping meetings held in August 2002 and working with a 
Stakeholder Committee and Regulatory Agencies, the District identified 
approximately 75 conceptual solutions to the low point problem. From 
these, the District has narrowed down the list of conceptual solutions 
to seven feasible alternatives to be studied in the environmental 
review process.
    Fiscal Year 2004 Funding.--No appropriation was requested in fiscal 
year 2004.
    Fiscal Year 2005 Funding Recommendation.--It is requested that the 
committee support authority for the U.S. Bureau of Reclamation to 
conduct feasibility studies of the San Luis Reservoir low point problem 
and an appropriation add-on of $5.5 million.
  san jose area water reclamation and reuse program (south bay water 
                           recycling program)
    Background.--The San Jose Area Water Reclamation and Reuse Program, 
also known as the South Bay Water Recycling Program, will allow the 
City of San Jose and its tributary agencies of the San Jose/Santa Clara 
Water Pollution Control Plant to protect endangered species habitat, 
meet receiving water quality standards, supplement Santa Clara County 
water supplies, and comply with a mandate from the U.S. Environmental 
Protection Agency and the California Water Resources Control Board to 
reduce wastewater discharges into San Francisco Bay.
    The Santa Clara Valley Water District (District) collaborated with 
the City of San Jose to build the first phase of the recycled water 
system by providing financial support and technical assistance, as well 
as coordination with local water retailers. The design, construction, 
construction administration, and inspection of the program's 
transmission pipeline and Milpitas 1A Pipeline was performed by the 
District under contract to the City of San Jose.
    Status.--The City of San Jose is the program sponsor for Phase 1, 
consisting of almost 60 miles of transmission and distribution 
pipelines, pump stations, and reservoirs. Completed at a cost of $140 
million, Phase 1 began partial operation in October 1997. Summertime 
2003 deliveries averaged 10 million gallons per day of recycled water. 
The system now serves over 450 customers and delivers over 7,000 acre-
feet of recycled water per year.
    Phase 2 is now underway. In June 2001, San Jose approved an $82.5 
million expansion of the program. The expansion includes additional 
pipeline extensions into the cities of Santa Clara and Milpitas, a 
major pipeline extension into Coyote Valley in south San Jose, and 
reliability improvements of added reservoirs and pump stations. The 
District and the City of San Jose executed an agreement in February 
2002 to cost share on the pipeline into Coyote Valley and discuss a 
long-term partnership agreement on the entire system. Phase 2's near-
term objective is to increase deliveries by the year 2010 to 15,000 
acre-feet per year.
    Funding.--In 1992, Public Law 102-575 authorized the Bureau of 
Reclamation to work with the City of San Jose and the District to plan, 
design, and build demonstration and permanent facilities for reclaiming 
and reusing water in the San Jose metropolitan service area. The City 
of San Jose reached an agreement with the Bureau of Reclamation to 
cover 25 percent of Phase 1's costs, or approximately $35 million; 
however, Federal appropriations have not reached the authorized amount. 
To date, the program has received $26.5 million of the $35 million 
authorization.
    Fiscal Year 2004 Funding.--An amount of $3 million was appropriated 
in fiscal year 2004 for project construction.
    Fiscal Year 2005 Funding Recommendation.--It is requested that the 
congressional committee support an appropriation add-on of $3 million 
in fiscal year 2005 budget to fund the work.
                                 ______
                                 
   Prepared Statement of the Southwestern Water Conservation District
    Chairman Domenici and Senator Reid, the Southwestern Water 
Conservation District (the ``District'') is a political subdivision of 
the State of Colorado formed by the Colorado legislature in 1937 under 
C.R.S. 37-47-101, et seq. The District is charged with conserving and 
developing the waters of the San Juan and Dolores Rivers, tributaries 
to the Colorado River.
    On behalf of the District, we are writing to request your support 
for an appropriation in fiscal year 2005 of $5,234,000 included as an 
item in the administration's proposed budget for the Bureau of 
Reclamation (``Reclamation'') labeled ``Endangered Species Recovery 
Programs and Activities for the Upper Colorado River Region''. Of that 
amount, $691,000 is designated for construction activities under the 
San Juan River Basin Recovery Implementation Program (``San Juan 
Program'') and $4,008,000, is designated for similar construction 
activities under the Recovery Implementation Program for Endangered 
Fish Species in the Upper Colorado River Basin (``Upper Basin 
Program''). In addition, $535,000 is designated for Fish and Wildlife 
Management and Development, consistent with the President's budget 
request. The requested fiscal year 2005 appropriation will allow 
construction of endangered fish passages, floodplain restoration 
activities, screening of existing diversion canals, endangered fish 
propagation facilities, endangered fish stocking, and non-native fish 
management.
    These cooperative programs involving the States of Colorado, New 
Mexico, Utah and Wyoming, four Indian tribes, Federal agencies and 
water, power and environmental interests are ongoing in the Upper 
Colorado River and San Juan River Basins and have as their objective 
recovering endangered fish species while water development proceeds in 
compliance with the Endangered Species Act, State water law, and inter-
State water compacts.
    The San Juan Program is supported by the States of Colorado and New 
Mexico, the Southern Ute Indian, Jicarrilla Apache and Ute Mountain Ute 
Tribes and the Navajo Nation, water development interests, Reclamation, 
the Bureau of Indian Affairs, the Bureau of Land Management, and the 
U.S. Fish and Wildlife Service (``FWS''). The Program provides 
Endangered Species Act compliance for new depletions and for 600,000 
acre-feet of existing depletions in Colorado and New Mexico, including 
the Animas-La Plata and the San Juan-Chama Projects, which are to 
provide water as part of tribal reserved water rights settlements. In 
addition, the Program provided the ESA compliance for a 121,000 acre-
foot/year depletion to complete the Navajo Indian Irrigation Project.
    In fiscal year 2005, the San Juan Program will continue substantial 
recovery activities that include habitat restoration, endangered fish 
propagation, and the development of fish passage structures in the San 
Juan River to expand the available habitat for the endangered fish.
    The Upper Basin Program is supported by the States of Colorado, 
Utah and Wyoming, environmental organizations, power users, water 
development interests, Reclamation, the FWS, and the Western Area Power 
Administration. This Recovery Program, now in its fifteenth year of 
operation, has the objective of cooperatively recovering four 
endangered fish in compliance with the Endangered Species Act while 
water development moves forward. Beginning in fiscal year 1994, the 
Upper Basin Program initiated specific studies and actions in 
preparation for the construction activities necessary to recover the 
endangered fish.
    The fiscal year 2005 funds for both Programs will enable their 
vital activities to continue and to be successfully completed in 
subsequent fiscal years. The past support and assistance of your 
subcommittee has greatly facilitated the success of these multi-State, 
multi-agency programs. We request the subcommittee's assistance 
relative to fiscal year 2005 funding to ensure the Bureau of 
Reclamation's continuing financial participation in these vitally 
important programs.
                                 ______
                                 
   Prepared Statement of the Southeastern Colorado Water Conservancy 
                                District
    Chairman Domenici and Senator Reid, I am writing to request your 
support for an appropriation in fiscal year 2005 of $5,234,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado River 
Region. The President's recommended budget for fiscal year 2005 
includes this line-item amount. Of these funds, I respectfully request 
the designation of $4,008,000 for the Upper Colorado River Endangered 
Fish Recovery Program; $691,000 for the San Juan River Basin Recovery 
Implementation Program and $535,000 for Fish and Wildlife Management 
and Development, consistent with the President's budget request. The 
requested fiscal year 2005 appropriation will allow construction of 
fish passage, floodplain restoration activities, screening of existing 
diversion canals, propagation facilities, endangered fish stocking, and 
non-native fish management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and inter-State water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
   Prepared Statement of the Upper Gunnison River Water Conservancy 
                                District
    Chairman Domenici and Senator Reid, I am writing to request your 
support for an appropriation in fiscal year 2005 of $5,234,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado River 
Region. The President's recommended budget for fiscal year 2005 
includes this line-item amount. Of these funds, I respectfully request 
the designation of $4,008,000 for the Upper Colorado River Endangered 
Fish Recovery Program; $691,000 for the San Juan River Basin Recovery 
Implementation Program and $535,000 for Fish and Wildlife Management 
and Development, consistent with the President's budget request. The 
requested fiscal year 2005 appropriation will allow construction of 
fish passage, floodplain restoration activities, screening of existing 
diversion canals, propagation facilities, endangered fish stocking, and 
non-native fish management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
           Prepared Statement of the Colorado River Congress
    Chairman Domenici and Senator Reid, I am writing to request your 
support for an appropriation in fiscal year 2005 of $5,234,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado River 
Region. The President's recommended budget for fiscal year 2005 
includes this line-item amount. Of these funds, I respectfully request 
the designation of $4,008,000 for the Upper Colorado River Endangered 
Fish Recovery Program; $691,000 for the San Juan River Basin Recovery 
Implementation Program and $535,000 for Fish and Wildlife Management 
and Development, consistent with the President's budget request. The 
requested fiscal year 2005 appropriation will allow construction of 
fish passage, floodplain restoration activities, screening of existing 
diversion canals, propagation facilities, endangered fish stocking, and 
non-native fish management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
                   Prepared Statement of Denver Water
    Chairman Domenici and Senator Reid, I am writing to request your 
support for an appropriation in fiscal year 2005 of $5,234,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado River 
Region. The President's recommended budget for fiscal year 2005 
includes this line-item amount. Of these funds, I respectfully request 
the designation of $4,008,000 for the Upper Colorado River Endangered 
Fish Recovery Program; $691,000 for the San Juan River Basin Recovery 
Implementation Program and $535,000 for Fish and Wildlife Management 
and Development, consistent with the President's budget request. The 
requested fiscal year 2005 appropriation will allow construction of 
fish passage, floodplain restoration activities, screening of existing 
diversion canals, propagation facilities, endangered fish stocking, and 
non-native fish management.
    These funds are authorized by Public Law 106-392. Substantial non-
Federal cost sharing funds are provided by the States of Colorado, 
Wyoming, Utah, and New Mexico, power users, and water users in support 
of these recovery programs. These programs are carried out consistent 
with State law and interstate water compacts.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. I 
request the subcommittee's assistance relative to fiscal year 2005 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 

                          DEPARTMENT OF ENERGY

   Prepared Statement of the Health Physics Society (HPS) and Health 
             Physics Program Directors Organization (HPPDO)
    This written testimony for the record for fiscal year 2005 requests 
$500,000 for the Health Physics Graduate Fellowship program through the 
Department of Energy's Office of Nuclear Energy, Science and Technology 
(DOE-NE) to help address the shortage of Health Physicists, which is an 
issue of extreme importance to the safety of our Nation's workers, 
members of the public, and our environment.
    The Department of Energy has recognized that the safety of our 
Nation's workers, members of the public, and our environment is in 
jeopardy because of the projected near-term and long-term shortage of 
sufficient educated radiation safety professionals to protect them. The 
organizations responsible for the performance and education of 
radiation safety professionals, i.e., the Health Physics Society (HPS) 
and the Health Physics Program Directors Organization (HPPDO), are very 
pleased that DOE-NE brought this crisis to the attention of the 
committee and has committed to take action to address it. In his 
testimony to the committee on March 3, 2004, William D. Magwood, IV, 
Director of the Office of Nuclear Energy, Science and Technology, 
stated, ``The Department is concerned that the Nation may soon not have 
the trained health physicists who are needed to assure the safety of 
all nuclear and radiological activities. With this budget, we begin 
building a program to reverse the negative trends in this field as we 
have already done in nuclear engineering.''
    The committee has expressed strong support for the University 
Reactor Fuel Assistance and Support program's efforts to provide 
fellowships, scholarships, and grants to students enrolled in science 
and engineering programs at U.S. universities, and has expressed 
concern about the ability of the Nation to respond to the growing 
demand for trained experts in nuclear science and technology. In Senate 
Report 108-105, the committee also recognized the need to support 
health physics academic programs as part of this effort when it wrote, 
``The Committee recommendation strongly encourages the Department to 
request sufficient funding in future years to fund all meritorious 
proposals, including appropriate proposals to support health physics 
university programs.''
    We applaud DOE's response to the committee's encouragement by 
including, in the words of Director Magwood, ``. . . a small but 
important element to provide scholarships and graduate fellowships to 
students studying the vital and too-often overlooked discipline of 
health physics'' and we are appreciative of having the $200,000 in the 
President's proposed budget applied to health physics programs.
    However, the HPS and HPPDO believe that in order to meet the supply 
needs of health physicists funding for the health physics programs 
should be at least $500,000 in order to build a program to reverse the 
negative trend.
    Health Physics is the profession that specializes in radiation 
safety, an integral and necessary distinct discipline within the 
nuclear sciences. A recent workforce study by the Nuclear Energy 
Institute (NEI) has shown that the projected demand for health 
physicists for both the Government and Industry far surpasses the 
current ability of the academic programs to meet these employment 
demands, projecting a shortage of over 100 health physicists by 2011. 
The number of health physics program graduates in 2001 was one-half the 
number in 1996. A matter of great concern is that the NEI study does 
not address the impact that the lack of sufficient qualified radiation 
safety professionals will have on our Nation's health and homeland 
security programs. For example, the homeland security effort to provide 
training and radiation detection instruments to first responders, to 
establish guidelines for responding to a radiological terrorist event, 
to develop and deploy measures for the interdiction of radioactive 
materials beyond our borders, and to employ nuclear and radiation 
technology in screening for contraband materials requires health 
physics professionals. A recent survey conducted by the Health Physics 
Society indicates that present demand for radiation safety 
professionals is approximately 130 percent of supply. The NEI study 
projects a growth in that number to 400 percent by 2011 in the nuclear 
industry alone.
    We submitted testimony to the committee last year that requested 
approximately $2 million in fiscal year 2005 and included a plan we 
felt would stem the decline of health physics university academic 
programs, and would assist in the public's understanding of radiation 
safety as it is applied to the Nation's energy, health, and security 
policies. That plan included academic program support for HP Graduate 
Fellowship Programs, HP Undergraduate Scholarship Programs, Health 
Physics Education & Research (HPER) Grants, and HP Minority-Majority 
Partnerships. It also included Health Physics Society program support 
for academic program ABET-ASAC Accreditation and HPS Science Teacher 
Workshops. We are realistic about the pressures of this year's budget 
and realize all six of these of these programs cannot be supported this 
fiscal year.
    We consider it important program to address immediately the HP 
Graduate Fellowship program. We need between 15 and 20 fellows in a 2-
year Masters Degree program to start meeting our Nation's manpower 
needs for radiation safety personnel. A single fellowship would be 
about $30,000 annually, considering stipend, tuition and fees. Funding 
of $500,000 would allow for approximately 15 fellows and allowance for 
overhead administration costs. Funding at the administration's budget 
request of $200,000 would support approximately 6 fellows, less than 
half of the minimum need.
    The committee's favorable consideration of this request will help 
meet our Nation's radiation safety needs of the future.
                                 ______
                                 
           Prepared Statement of the American Nuclear Society
    Mr. Chairman and members of the subcommittee, on behalf of the 
American Nuclear Society, I would like to express our concern regarding 
recent changes in the direction of U.S. fusion research. In a letter 
exchange with Dr. John Lindl of the Lawrence Livermore National 
Laboratory, Dr. Raymond Orbach, the Director of the DOE Office of 
Science stated the current administration position: ``now is not the 
right time for us to invest in energy related R&D for fusion, for 
either MFE (magnetic fusion energy) or for IFE (inertial fusion 
energy)''. This position has been reflected in the Office of Fusion 
Energy Science fiscal year 2005 budget request in which the so-called 
``long-range'' fusion technology research activities have been 
terminated. DOE has also been reducing its efforts on the advanced 
design of fusion energy systems. The total funding cut in these areas 
is about $9 million from the fiscal year 2003 level.
    With these changes, U.S. magnetic fusion energy research will 
become effectively a plasma physics research program while inertial 
fusion energy research will become a high-energy-density physics 
program. As the eliminated programs represent less than 5 percent of 
fusion research expenditures, their elimination is based mainly on 
policy grounds (as opposed to cost saving reasons).
    It is difficult to understand this decision to terminate the fusion 
technology program given the support for fusion energy research at the 
highest administration levels,\1\ the plan for the United States to 
join construction of the ITER device which is the highest priority 
facility listed in DOE Office of Science's Strategic Plan,\2\ and the 
continuing construction of the National Ignition Facility (NIF).
---------------------------------------------------------------------------
    \1\ See for example President Bush's February 2003 statement at 
http://www.whitehouse.gov/news/releases/2003/02/20030206-12.html:
    ``We're also going to work to produce electricity and hydrogen 
through a process called fusion. Fusion is the same kind of nuclear 
reaction that produces--that powers the sun. The energy produced will 
be safe and clean and abundant. We've spent quite a bit of money, as 
the senators here will tell you, on whether or not fusion works. And 
we're not sure if it will be able to produce affordable energy for 
everyday use. But it's worth a try. It's worth a look. Because the 
promise is so great.
    ``So the United States will work with Great Britain and several 
European nations, as well as Canada, Japan, Russia and China, to build 
a fusion test facility and create the largest and most advanced fusion 
experiment in the world. I look forward to working with Congress to get 
it funded. I know you all have considered this in the past. It's an 
incredibly important project to be a part of.
    ``Imagine a world in which our cars are driven by hydrogen and our 
homes are heated by electricity from a fusion power plant. It'll be a 
totally different world than what we're used to . . .''.
    See also Secretary Abraham's January 2003 statement (at http://
fire.pppl.gov/) specifically stating that: ``It is imperative that we 
maintain and enhance our strong domestic research program . . . 
Critical science needs to be done in the U.S., in parallel with ITER, 
to strengthen our competitive position in fusion technology.''
    Also, the U.S. Department of Energy (DOE) Office of Science 2004 
Strategic Plan states: ``The President has made achieving commercial 
fusion power the highest long-term priority for our Nation. Our 
challenge is to develop a science-based solution that harnesses fusion 
energy to power our industry and homes. We will do this by joining an 
international burning plasma experiment, ITER, and exploring other 
promising technologies.''
    \2\ See http://wwwofe.er.doe.gov/Sub/Mission/Mission_Strategic.htm.
---------------------------------------------------------------------------
    It would seem prudent to maintain some balance in the program 
between science and technology and between MFE and IFE. This is 
reflected in several statements from the Fusion Energy Science Advisory 
Committee (FESAC, which provides advice and recommendations to the DOE 
Office of Science Director) in regard then to the fiscal year 2004 
budget. At that time, DOE had proposed to terminate the fusion 
technology effort in fiscal year 2004 but a Congressional add-on and a 
strongly-worded letter from FESAC \3\ helped to provide a reprieve. The 
fiscal year 2005 budget request includes the same fusion technology 
funding cuts which, as part of the fiscal year 2004 budget, were 
criticized by FESAC in 2003.
---------------------------------------------------------------------------
    \3\ In a March 5, 2003 letter to Dr. Orbach, the FESAC said, ``. . 
. devastating cuts to certain program elements are alarming; this note 
expresses our most serious concerns,'' and commented, ``Thus, FESAC is 
puzzled by the elimination in the fiscal year 2004 budget of funding 
for fusion technology.'' The FESAC said, ``Similarly, inertial fusion 
energy (IFE) is an important element of a balanced U.S. fusion program: 
it provides the principal alternative to magnetic fusion and takes 
advantage of NNSA investments in the National Ignition Facility. The 
fiscal year 2004 budget, however, eliminates (fusion) chamber 
technology for both MFE (magnetic fusion energy) and IFE.'' With 
respect to the Advanced Design and Analysis program, the FESAC said, 
``The study of future energy systems is a central component of fusion 
research. Its evolving conceptualization of an eventual fusion power 
plant has helped us visualize our target, while allowing us to identify 
key scientific challenges.'' ``In summary,'' the 2003 FESAC letter 
said, ``FESAC finds the Presidential request for fusion research 
funding in fiscal year 2004 to be not only meager but also harmfully 
distorted. It terminates components of the program that are truly 
essential.'' (see http://www.ofes.fusion.doe.gov/More_HTML/
FESAC_Charges_Reports-
.html).
---------------------------------------------------------------------------
    Fusion technology research addresses the fundamental scientific 
issues that will be encountered in fusion systems with substantial 
amount of fusion energy (including such fusion facilities as ITER and 
NIF). It provides solutions to near term technology issues that will 
certainly arise in building and operating facilities like the NIF and 
ITER. The advanced design and analysis of fusion energy systems provide 
a vision of the ultimate fusion energy goal and a tool that is useful 
for guiding the highest leverage near term scientific research.
    Other participants in ITER, in particular the E.U. and Japan, have 
strong programs in fusion technology R&D in preparation for testing in 
ITER and leading to a power reactor in the future. It would be 
regretful at this stage for the United States to pull out of this R&D 
area and to be left in the precarious position of having to catch-up 
with our international partners in the future once we decide to 
seriously develop the advanced technology required for attractive 
fusion power plants (of either MFE or IFE types).
    I hope that this subcommittee will share our concern about this 
apparent disconnect between the administration fusion energy goals and 
this recent fusion energy funding policy change as well as about the 
increasing gap in fusion technology expenditure and expertise between 
the United States and its international partners. We strongly recommend 
additional funding to the Department of Energy, Office of Science, 
Fusion Energy Sciences fiscal year 2005 budget, with at least $5 
million specifically allocated to restoring the funding in the Fusion 
Technologies and Advanced Design categories. We also recommend a strong 
accompanying statement of support from the subcommittee on these 
activities.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors
    Dear Mr. Chairman, the Coalition of Northeastern Governors (CONEG) 
is pleased to provide this testimony for the record to the Senate 
Appropriations Subcommittee on Energy and Water Development as it 
considers fiscal year 2005 funding for the Office of Energy Efficiency 
and Renewable Energy (EERE) of the U.S. Department of Energy (DOE). 
While we recognize the many demands being placed upon Federal resources 
in the coming year, we urge the subcommittee to provide the increased 
Federal funding support for renewable energy programs, particularly the 
national and regional partnerships that advance research, development, 
demonstration and deployment of renewable energy technologies. The 
Governors appreciate the subcommittee's previous support for one of 
these partnerships, the Regional Biomass Energy Program (RBEP), and the 
decision of the EERE to continue this valuable Federal-State-private 
partnership for bioenergy. We request the subcommittee to fund the 
EERE's renewable programs at a level that will enable DOE to continue 
its support of the RBEP program at $5 million in fiscal year 2005.
    Renewable energy plays an increasingly vital role in a strategy to 
meet the country's near and longer-term energy needs. It is an 
important component of the diverse mix of fuels essential for a 
reliable energy supply. Today, biomass provides a larger percentage of 
the Nation's total energy mix than do hydroelectric sources; and it is 
responsible for more energy output than all other renewable 
technologies combined. Ethanol and electricity generation from biomass 
feedstocks contribute over 3 percent of the Nation's energy 
consumption. In the Northeast, bioenergy produced from the region's 
forest and agricultural resources contributes to approximately 5 
percent of the region's energy consumption. Some of the most promising 
technologies which can meet renewable energy needs in the near-term and 
lessen the Nation's dependence on fossil fuels use biomass.
    While the CONEG Governors recognize Federal support for bioenergy 
can take many forms, we specifically support a level of funding for the 
EERE's renewable energy programs that will enable the DOE to continue 
its support of the Regional Biomass Energy Program and its effective 
network of regional host organizations at a level of $5 million in 
fiscal year 2005. This RBEP network is an important partner in the 
Federal Government's multi-faceted initiatives to encourage a diverse 
energy resource mix and energy efficiency across the country. Funding 
for the RBEP program will allow this valuable Federal-State-private 
sector initiative to continue--without interruption--the pioneering 
regional projects and technical assistance networks which help bring 
bioenergy into regional energy markets across the Nation.
    The revitalized RBEP encompasses all 50 States in five regional 
programs. It is an important tool in the Nation's effort to realize the 
opportunities which bioenergy offers for energy production, economic 
development and sound environmental management. The regional program is 
uniquely situated to target program resources to the specific biomass 
opportunities of each part of the country. Through a blend of projects 
and technical assistance networks, the RBEP identifies opportunities 
for and helps reduce barriers to the commercialization of biomass 
technologies; promotes coordinated State and Federal public policies in 
support of bioenergy; and educates consumers on the opportunities and 
benefits of biomass energy.
    The RBEP's success is closely tied to its use of State-based 
regional organizations to administer and coordinate program resources 
and activities. These organizations, with their direct ties to elected 
and appointed State decision-makers and agencies, are uniquely able to 
leverage Federal, State and private sector resources and cooperation 
across State and Federal agencies, among various States, and between 
the public and private sector. These organizations have:
  --the ability to gain governors' and State legislators' attention and 
        commitment to bioenergy;
  --the capacity to leverage resources and cooperation for 
        collaborative policy and technical projects from private 
        companies and multiple State and Federal agencies--
        transportation, environmental protection, public utility 
        commission, and agriculture;
  --the capability to move quickly to address emerging issues; and
  --the ability to offer staff with extensive biomass program 
        management experience.
    The CONEG Policy Research Center is pleased to be part of the 
Northeast Regional Biomass Program (NRBP) and its work to advance 
renewable biomass energy, the region's most abundant resource. From 
Maine to Maryland, the NRBP encompasses a wide range of activities that 
cover all biomass resources and technologies. The NRBP makes possible 
State-level working groups that promote public-private partnerships for 
biomass development, and it helps promote policies that support 
renewable biomass. It encourages demonstrations of leading edge 
technologies, and conducts public education and outreach that helps 
condition the marketplace for new bioenergy technologies and biobased 
products. A major strength of the NRBP is its ability to link biomass 
development to other public policy goals, such as creating new economic 
opportunities, preserving agricultural or forest lands for current use, 
and reducing air and water pollution. As Renewable Portfolio Standard 
programs have and continue to be promulgated in the Northeast States, 
biomass power has recently begun to be a focus of new and significant 
project development. The contributions of the NRBP program over the 
years has played, and will continue to play, an essential role in 
stimulating and facilitating this market development through its 
working groups, extensive networking, and leadership of its regional 
coordinator.
    Congressional funding for EERE's renewable energy programs at a 
level in fiscal year 2005 that will permit $5 million for the RBEP will 
allow these partnerships, with their administration by proven host 
agency organizations, to strengthen the established bioenergy networks 
that transfer experience and coordinate activities within a State, 
throughout a region and across the Nation.
    We thank the subcommittee for this opportunity to share the views 
of the Coalition of Northeastern Governors, and we stand ready to 
provide you with any additional information on the importance of the 
Regional Biomass Energy Program and the Northeast Regional Biomass 
Program to the Northeast and the rest of the Nation, as well as the 
vital role biomass can play in meeting the Nation's energy needs.
                                 ______
                                 
         Prepared Statement of Bob Lawrence & Associates, Inc.
                 cost/benefits of geothermal energy r&d
    Mr. Chairman and members of the subcommittee, my name is Dr. L.R. 
(Bob) Lawrence, Jr., and I am President of Bob Lawrence & Associates, 
Inc., a consulting firm in Alexandria, Virginia. I, and my firm, have 
been working with the Department of Energy's Geothermal program since 
1990, and during the past 14 years, we have seen many positive changes 
in the program which are helpful to the industry and to our country as 
a whole. I come before you, today, to request $30 million for the 
program for fiscal year 2005, the same level that was appropriated for 
fiscal year 2003, of which, $6 million would be applied to the 
GeoPowering the West portion of the Program.
    Geothermal electric generation, at 16 billion Kw-hrs per year, is 
the largest contributor to delivered electricity from Renewables except 
for Hydro generation. For the past several years, the Geothermal 
Technology program has been held back at budget levels below $30 
million. This has been harmful to the industry which is dependent upon 
the technology evolving from the DOE programs to develop new and ever 
more difficult resources. During the fiscal year 2003 appropriations 
process, the Senate funded the Geothermal program at $37 million. 
Although the Conference only funded the program at $30 million, it was 
certainly a step in the right direction. It is consummately in the 
national interest to increase the funding level of this program to $30 
million annually to accelerate increased geothermal use for energy 
purposes. The fiscal year 2004 appropriation of $25.5 million was, 
unfortunately, a step backward, causing cuts in numerous, high quality, 
ongoing programs.
    At $30 million, it gives the Geothermal program the chance to move 
forward with industry on several fronts. At the $30 million level, 
strong programs, heavily cost shared with industry, can move ahead 
addressing Enhanced Geothermal Systems, where tertiary treated waste 
water is injected deep into the earth to provide additional needed 
water to under-saturated geothermal resources. The GeoPowering the West 
program, addressing 19 Western States, can be strengthened. And most 
importantly, Cost-Shared Exploratory Drilling, Reservoir Definition, 
and New Resource Exploration can move forward in areas where it has 
slowed to nearly a stop. Even at $30 million, the Geothermal program 
will be the lowest funded of all Renewables, even though the program 
returns the most revenue to the government and has been the most 
successful based on present generation annual levels.
                                overview
    Cost-shared Department of Energy investments in geothermal energy 
R&D, starting in the 1970's, have made possible the establishment of 
the geothermal industry in the United States. Today that industry 
generates over 16 billion kilowatt-hours per year in the United States, 
alone. The total, retail value of this electricity exceeds $1 billion 
per year. The Industry:
  --returns over $41 million annually to the Treasury in royalty and 
        production payments for geothermal development on Federal 
        lands;
  --supplies the total electric-power needs of about 4 million people 
        in the United States, including over 7 percent of the 
        electricity in California, about 10 percent of the power in 
        Northern Nevada, and about 25 percent of the electricity for 
        the Island of Hawaii (the Big Island);
  --employs some 30,000 U.S. workers;
  --uses over $500 million worth of steel structures;
  --displaces emissions of at least 16 million tons of carbon dioxide, 
        20,000 tons of sulfur dioxide, 41,000 tons of nitrogen oxides, 
        and 1,300 tons of particulate matter every year, compared with 
        production of the same amount of electricity from a state-of-
        the-art coal-fired plant;
  --has installed geothermal projects worth $3.0 billion overseas, 
        mostly in the Philippines and Indonesia.
                          near term potential
    The geothermal industry, with appropriate government R&D support, 
can provide an additional 600 Megawatts of power in about 18 months. 
This power will come from:
  --Use of tertiary treated wastewater injection (Enhanced Geothermal 
        Systems): 200 MW.
  --Implementation of new technologies into old plants, well field 
        upgrades, and turbine replacements: 400 MW.
    In addition, direct use increases, through the GeoPowering the West 
initiative, will provide an additional, near term, 100MW of use for 
heating, cooling, industrial drying, agricultural applications, and 
recreational purposes.
    This is an additional 700MW of clean, renewable, geothermal energy 
available within 2 years with appropriate government funding and 
support, right in the heart of the western States that presently have 
the most critical power problems.
                         longer term potential
    The long term potential of Geothermal energy in the United States 
is estimated to be 25,000 MW of electrical generation and an additional 
25,000 MW of direct use. To date, the geothermal industry has made use 
of only the highest grade geothermal resources in the United States. 
The keys to realizing the enormous potential of geothermal energy are 
improved technology to tap resources that can not, at present, be 
economically developed, and cost shared programs with industry for 
accelerated implementation of the technology. Substantial investments 
in R&D by the geothermal industry, acting alone, have not happened and 
are unlikely, because the developers are uniformly financial entities, 
with small engineering components, which rely on the technology 
centered at national laboratories and university institutes for project 
development and engineering.
                            technology needs
    Applied R&D is essential to reduce the technical and financial 
risks of new technology to a level that is acceptable to the private 
sector and its financial backers. The U.S. geothermal industry has 
conducted a series of workshops to determine the industry's needs for 
new technology and has recommended cost-shared R&D programs to DOE 
based on the highest-priority needs.
    The Geothermal Industry supports the Strategic Plan of the DOE 
Office of Geothermal Technology. The plan calls for increased spending, 
quickly reaching $50 to $60 million per year, a geothermal budget level 
consistent with that recommended by the President's Committee of 
Advisors on Science and Technology (PCAST) in their 1997 report. 
Technical needs include:
    Drilling.--Geothermal drilling differs dramatically from oil and 
gas drilling since the necessary production holes are three times as 
wide as oil and gas production holes, and they must be drilled through 
hard, volcanic rock rather than sedimentary soils. Also, because of the 
high temperatures and corrosive nature of geothermal fluids, geothermal 
drilling is much more difficult and expensive than conventional oil and 
gas drilling. Each well costs $1 million to $3 million, and an average 
geothermal field consists of 10 to 100 or more wells. The drilling 
technology program continues to show cost-saving advancements.
    Exploration and Reservoir Technology.--The major challenge facing 
the industry in exploration and development of geothermal resources is 
how to remotely detect producing zones deep in the subsurface so that 
drill holes can be sited and steered to intersect them. No two 
geothermal reservoirs are alike. Present exploration techniques are not 
specific enough, and result in too many dry wells, driving up 
development costs. The industry needs better geological, geochemical, 
and geophysical techniques, as well as improved computer methods for 
modeling heat-extraction strategies from geothermal reservoirs.
    Energy Conversion.--The efficiency in converting geothermal steam 
into electricity in the power plant directly affects the cost of power 
generation. During the past decade, the efficiency of dry- and flash-
steam geothermal power plants was improved by 25 percent. It is 
believed that geothermal power-plant efficiency can be improved by an 
additional 10 to 20 percent over the next decade with a modest 
investment in R&D.
    Reclaimed Water Use for Geothermal Enhancement.--Many potential 
geothermal resources are not utilized due to insufficient water in the 
hot zones. Reclaimed water, the disposal of which is an expensive 
problem for many communities, could be used productively, in many 
cases, to enhance the geothermal resources, making them more 
economically viable for local use. In the United States, over 300 
western communities each have a potentially useable geothermal resource 
co-located within 5 miles. The technology which will evolve from this 
effort could be broadly applicable to these communities and their 
combined energy and wastewater problems.
    GeoPowering the West.--This initiative, now in its fourth year, 
seeks to develop, as well as provide information and implement, those 
technologies needed to utilize geothermal resources in the over 300 
presently identified ``co-located'' communities in 19 Western States. 
Studies now underway may increase the number of communities to over 
350. The program is creating partnerships with the subject communities 
to utilize hot geothermal waters for direct use applications such as 
space conditioning, industrial drying, agricultural applications, and 
recreational purposes. Additionally, the program will provide 
technology needed to explore these resources for generation potential. 
In the short time that this program has been ongoing, it has played a 
major role in expanding the number of States with geothermal electric 
generation potential from four to eight, or a doubling of candidate 
States. This program is singularly important to the expanded geothermal 
future of our country and should be expanded to $6 million for fiscal 
year 2005.
    GeoSciences.--Basic research in the GeoSciences needs to continue 
at national laboratories, universities, and research institutes to 
expand and advance the knowledge base in this technology area. Funding 
the GeoSciences ensures a flow of new, capable, engineers and 
scientists into this important field as well as expanding the basic 
knowledge base surrounding geothermal resources and geothermal energy. 
It is important for this program to continue.
                               conclusion
    The cost shared, cooperative, research, development, and 
implementation projects of the Department of Energy's Geothermal 
program should serve as a model for programs whose purpose is to 
provide and enhance national benefits, while reaping a return on 
investment for the taxpayer. The $41 million that the industry returns 
to various governmental entities in royalties and leases exceeds, 
annually, the amount that the government invests in the future of the 
technology. Yet, the future of the technology and the expanded industry 
is closely tied to these programs. Clearly, the Geothermal research and 
technology development is an outstanding example of a proper, taxpayer 
investment. $30 million is required for fiscal year 2004.
                                 ______
                                 
         Prepared Statement of Bob Lawrence & Associates, Inc.
    required replacement of the topock-davis-mead transmission line
    Mr. Chairman and members of the subcommittee, my name is Bob 
Lawrence, and I am President of Bob Lawrence & Associates, Inc., a 
consulting firm in Alexandria, VA. Our company is involved in a variety 
of high technology subjects largely related to the Energy sector.
    I am here, today, to request an appropriation of $20 million for 
fiscal year 2005 for replacement of the Topock-Davis-Mead transmission 
line with Aluminum Matrix Composite Conductor (AMC). The Topock-Davis-
Mead line runs along the Colorado River on the Western boundary of 
Arizona and serves the electricity needs of the communities there 
including Havasu City (pop. 50,000), Bullhead City (33,769), Mohave 
Valley (13,694), Needles, CA (5193) and the Mohave Indian Tribe. It is 
the primary load server for this region. The line also provides needed 
service to Kingman, AZ (22,092) and Blythe, CA (21,376). The line is 
operating with all of its capacity allocated. The $20 million requested 
would be the first of two increments for a total of $35 million to 
replace this line with AMC conductor. Studies accomplished by WAPA and 
others show that to double the capacity of this transmission corridor 
would cost $10 million to $17 million more with conventional 
technologies than it would using the AMC conductor option. A simple 
line for line replacement, using the AMC option, will increase the 
capacity by well over a factor of 3, and some studies indicate a factor 
of 8.
    WAPA ratepayers presently pay about $80 million more to the 
government than WAPA receives in appropriations on an annual basis. If 
WAPA were a private utility, these funds would be available to upgrade 
their system. In the WAPA case, the ``surplus'' goes back to the 
Federal treasury. Yet, the WAPA budget request to Congress contains 
only $12 million for ``construction'' which is woefully inadequate to 
maintain their system with needed upgrades. Therefore, it is requested 
that the funding to pay for the upgrading of this line come from the 
annual ``surplus,'' and be designated ``non-reimbursable.''
    The service area for this line is one of the hottest regions of the 
United States. Without air conditioning, individuals of fragile health 
in the region could be at considerable risk. The region served by 
Topock-Davis-Mead is populated largely by retirees, causing a greater 
than normal percentage of elderly in the population. These are the 
people that could be particularly, negatively affected by a 
transmission shutdown, causing a loss of electrical service, and air 
conditioning, during peak summer temperatures. The situation is now 
approaching critical.
    The region is experiencing load growth, as much as 10 percent per 
year in some areas. The Parker-Davis dam system is operating at full 
capacity, and all of the generated power is being delivered through the 
transmission system. There is no capability for additional transmitted 
power in the immediate region above what is presently demanded.
    WAPA is legislatively responsible for ``system reliability,'' but 
is not required to provide for load growth beyond the generation of the 
Parker-Davis dam system.
    The Topock-Davis-Mead line, when running at peak capacity, is 
thermally limited and limited by the sag. If additional power is 
transmitted, the line would sag beyond the safe limits established by 
national electrical safety code standards. It was excessive sag in a 
transmission line that triggered the blackout event of August 14, 2003, 
in the Northeast and Midwest. It is essential that this be avoided in 
this WAPA DSR transmission trunk.
    The conventional solution to this problem would be to construct a 
new transmission line in the area, requiring new right-of-way, new 
towers, and new lines. The transmission path is in an archeologically 
significant and environmentally sensitive area, which makes new right-
of-way an unattractive option.
    The Department of Energy has been evolving this potential solution 
at the request of Congress. Since 1998, DOE has been developing and 
testing the Aluminum Matrix Composite Conductor (AMC), also called 
Aluminum Conductor Composite Reinforced (ACCR). This is a high capacity 
transmission line conductor that could provide very substantial 
capacity increases by simply replacing the old technology lines with 
the new, AMC/ACCR option. Field testing of this option, now underway, 
has met all needed utility specifications. AMC/ACCR is in operational 
service in Hawaii, North Dakota, Minnesota and Arizona. AMC/ACCR is now 
available for commercial sale and application.
    The use of this new technology on the Topock-Davis-Mead line would 
offer key benefits including:
  --Ensure delivery of power to the citizens of the surrounding 
        communities.
  --Improve the reliability of the region by addressing a known 
        problem.
  --Elimination of a bottleneck resulting in an 8-fold increase in 
        power transfer capability (in this case the flow would be north 
        to Mead, the most critical 500kV feed into Southern California)
  --Preserve the visual landscape since no visual change to the 
        existing line would occur and no additional land is required.
  --Avoid the environmental impact associated with building a new line 
        and time delays that can occur during the permitting process.
  --Provide additional revenue to the Federal Government in the form of 
        increased power sales or additional wheeling charges for 
        carrying power from other producers.
    Finally, this project would provide a ``showcase installation'' for 
a new, well tested, technology and would spur further adoption. The 
experiences of the past 2 years have clearly shown that our Nation 
needs an affordable option that will improve, upgrade, and increase the 
capacity of our national grid without adding to the environmental 
insult of overhead, electric transmission lines. The Aluminum Matrix 
Composite Conductor appears to be the most near term option available.
    The program to develop this option was begun in fiscal year 2002 
with $4 million, and was continued through fiscal year 2003 and fiscal 
year 2004 at $4 million per year. Substantial cost sharing from both 
industry and utilities occurred. The need for the Congressionally 
mandated $4 million per year has now ended. Accessories tailored for 
each conductor installation were also developed and tested. The testing 
included a low-voltage outdoor test span operated by ORNL that can 
continuously cycle a 1,200-foot multispan line to high-temperature 
operation.
    Multi-year field trials are now demonstrating medium and large size 
conductor performance under different conditions, such as various 
voltages, mechanical loading conditions, and operating conditions. The 
testing is proceeding flawlessly. WAPA is hosting two of the ongoing 
field trials which began in fiscal year 2002 under this program.
    In conclusion, I would like to thank the chairman and his staff for 
having the foresight to provide the needed funding to bring the 
development program and the status of the technology to this point. 
Clearly, it is the best option to replace outdated, conventional 
technology lines in critical locations such as the Topock-Davis-Mead 
corridor.
                                 ______
                                 
         Prepared Statement of Bob Lawrence & Associates, Inc.
                 high temperature superconductivity r&d
    Mr. Chairman and members of the subcommittee, my name is Bob 
Lawrence, I am President of Bob Lawrence and Associates, Inc., of 
Alexandria, Virginia. I appreciate the opportunity to present this 
testimony, today, on the important subject of Superconductivity. I am 
here to request an appropriation of $49 million for the Department of 
Energy program for fiscal year 2005.
                               background
    Of all the technologies which are emerging today, Superconductivity 
is arguably one of the most promising in terms of dramatic, potential 
enhancements to American infrastructure and national benefits. 
Laboratory results have moved into government-industry partnerships 
aimed at accelerating superconducting products into the electrical 
marketplace with concurrent, dramatic, energy efficiency and 
environmental improvements. Energy Committee Chairman Pete Domenici 
summed up the promise and accomplishments of this program, earlier this 
year, when he noted that, 20 years ago, superconducting material only 
came in 1 centimeter lengths, whereas today, they are making cables out 
of it. This is exceptional progress in research.
    Superconductivity is the property of a material to conduct 
unusually large quantities of electrical current with virtually no 
resistance. Since the middle of the century, researchers have known 
that certain ceramic materials show superconducting properties when 
they approach a temperature near absolute zero, or the temperature of 
liquid hydrogen and liquid helium. Practical applications of these 
materials are difficult, however, since they are characteristically 
very costly to make, very brittle in nature, and prohibitively 
expensive to cool to the required, very low temperature.
    In 1986, a new class of ceramic materials was discovered which 
showed superconducting properties at temperatures up to 34K. Since that 
time, improvements have produced superconducting materials at the 
temperature of liquid nitrogen, or 72K. These ``high temperature'' 
superconducting (HTS) materials have generated great excitement since 
the projected costs of applications have dropped by orders of 
magnitude, and first viable products appear to be within reach.
                              the program
    Today, a number of HTS-based pieces of electrical equipment are at 
the prototype stage with capable manufacturing entities intimately 
involved. Early candidates for commercial products include 
Transformers, Electric Motors, Generators, Fault Current Limiters, and 
underground Power Cables. Later in the commercialization process, 
replacements for overhead transmission lines are also foreseen; 
however, this will not be an early application. To enhance and 
accelerate the prospects for early commercialization of HTS products, 
the Department of Energy has developed a vertically integrated program 
in which product oriented teams are focused on the development and 
implementation of HTS equipment. Under the title of the 
Superconductivity Partnership Initiative (SPI), these vertically 
integrated teams typically each consist of an electric utility, a 
system manufacturer, an HTS wire supplier, and one or more national 
laboratories. Supporting these vertical teams is a Second Generation 
Wire Initiative, in which development teams are exploiting research 
breakthroughs at Los Alamos, Argonne, and Oak Ridge National labs that 
promise unprecedented current-carrying capabilities in high-temperature 
superconducting wires. Since superconducting wire is the main component 
of all superconducting cables, products and systems, the price drop 
projected by the Second Generation technology is highly significant and 
important to successful commercialization.
    Transformer development is being carried out by the team of 
Waukesha Electric Systems, Intermagnetics General Corporation, 
Rochester Gas and Electric, Rensselaer Polytechnic Institute, and the 
Oak Ridge National Laboratory. This team has conducted a series of 
reference designs concentrating mostly on a 30-MVA, 138-kV/13.8kV 
transformer which is representative of a class expected to capture 
about half of all U.S. power transformer sales in the next two decades. 
According to industry experts, Japan and Europe are somewhat ahead of 
the United States in transformer development.
    The United States HTS electric motor team is headed by Reliance 
Electric with American Superconductor Corp as the HTS coil supplier and 
manufacturer. Also on this team are Centerior Energy (a utility 
company) and Sandia National Laboratory. ``In February 1996, Reliance 
Electric successfully tested a four-pole, 1800 rpm synchronous motor 
using HTS windings operating at 27K at a continuous 150kW output. The 
coils . . . achieved currents of 100A . . . , 25 percent over the 
initial goal of 80 A.'' This program has now been extended to ``develop 
a pre-commercial prototype of a 3.7MW HTS motor''. The demonstration of 
this motor will be an important milestone in the commercialization 
process, since it will provide a measure of efficiency, reliability, 
and projected costs and benefits.
    Generator efforts in the United States have recently begun with a 
team headed by General Electric. The efforts here, again, appear to be 
behind those in Japan. In Japan, funds expended on HTS design, 
development, and demonstration exceed those in the United States. This 
Japanese, heavily funded effort involves 16 member organizations with 
representation from the electric utilities, manufacturers of electric 
power equipment, research organizations, manufacturers of HTS wire and 
tape, refrigeration and cryogenic suppliers, and independent research 
institutes.
    Fault Current Limiters represent a new class of electric utility 
equipment with many attractive properties. This type of equipment may, 
in fact, be a market leader, since its properties appear to provide 
substantial potential cost savings to electric utilities as well as 
containing power outages. This type of equipment is only possible using 
superconducting technology.
    Exciting developments have taken place in the field of underground 
HTS cables for transmission and distribution. In the United States, two 
teams are pursuing two different technical concepts, but each team is 
led by a powerhouse electrical cable manufacturer; Pirelli North 
America, and Southwire Co. First design cables are now under test in 
practical applications. Worldwide, about 10 superconducting electric 
power cable demonstrations are now underway, in various stages of 
completion.
                              the benefits
    Dramatic cost and energy savings are projected when the candidate 
systems and products from superconducting technology are fully 
implemented, with incremental benefits accruing from the time of 
technology readiness and commercial introduction to the time of full 
market penetration. When fully implemented into the electric generation 
and utilization sectors of our economy, superconducting technology is 
expected to save $8 billion per year in retail value of presently lost 
electricity, lost due to transmission and distribution. An additional 
$8 billion per year can be saved with the installation of 
superconductive transformers and electric motors. Yet another $1 
billion or so can be saved by full implementation of HTS generators. 
This totals fully implemented benefits of $17 billion per year from 
full implementation of HTS technology in presently envisioned 
equipment. Oak Ridge National Laboratory (ORNL) experts and studies 
carried out by Energetics, Inc. indicate that HTS underground cable 
savings would be in the range of 125,000 kWhr per mile, per year. At 
the present average rate of 6.89 cents per kWhr, this corresponds to 
retail level monetary savings of $8,612.50 per mile per year. These 
savings will flow directly into reductions in taxpayer electric bills, 
under a competitive electricity delivery environment.
                    effects of fiscal year 2004 cuts
    As is well known, the Department of Energy, for fiscal year 2004, 
elected to fund the Superconductivity program at $32 million, even 
though the final, Conference version of the fiscal year 2004 
appropriations bill ``urged'' a funding level of $48 million. This 
decision has been devastating to the program and the industry, and if 
it isn't corrected, the damage to the program will be such that it will 
take many years to recover. This type of action must absolutely be 
avoided in the future.
                           national security
    Above ground transmission lines are vulnerable to terrorist attack, 
as well as severe weather. High Temperature Superconductivity would 
allow transmission lines to be placed underground with very large 
capacity increases per cross section. This also allows for a more 
environmentally effective use of the surface land. Higher national 
security and better environmental posture: a good combination.
    There are Defense applications of this technology, enabling in 
nature, applying to directed energy weapons. Exact applications are 
sensitive in nature, but it is important to note that the benefits from 
success in this technology will apply to many cross sections of the 
American economy and infrastructure.
    In conclusion, Mr. Chairman, I thank you for the opportunity to 
present this testimony. Major efforts in this technology are now 
underway in China, South Korea, Japan, and a number of European 
countries, as well as the United States. It is very important that we 
make every effort to be ahead of the rest of the world in this 
technology, and for that reason, I ask that the committee provide an 
appropriation of $49 million for the Superconductivity R&D program for 
fiscal year 2005.
                                 ______
                                 
     Prepared Statement of the Solar Energy Industries Association
    The Solar Energy Industries Association represents photovoltaic, 
concentrating solar power, and solar thermal manufacturers, 
distributors, contractors, and installers nationwide. I am writing to 
request research funding of $100 million for photovoltaics, $20 million 
for Concentrating Solar Power, and $5 million for Solar Heating and 
Lighting, as well as potential future Federal procurement programs. 
This is a substantial increase over current funding levels, but in line 
with funding proposed in the conference Energy Bill, as supported by 
SEIA.
                             photovoltaics
    Our industry is at a critical decision point. While clean energy 
industries soar worldwide, the United States is increasingly left 
behind. Worldwide solar production in 2003 was more than 760 million 
watts, up from just over 550 million in 2002. However, the United 
States produced just 109 megawatts--the first U.S. production decline 
in recent memory. We must stop this trend, before we become dependent 
on importing yet another source of energy.
    The overall industry is supercharged; world PV production is now 
doubling almost every 2 years. Bell Labs produced the first watt of 
commercial PV in 1954, and we expect to produce more than one billion 
watts in 2004. However, increasingly, that production occurs in Japan 
and Germany. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Leaving aside environmental and energy security concerns, this is a 
major issue. The Renewable Energy Policy Project estimates that each 
megawatt of solar produced supports 35.5 jobs over 10 years--more than 
any other energy source. At that rate, a solar industry which continues 
to grow at current rates would support more than 100,000 jobs by 2020; 
an industry half the size of General Motors. Many of these are very 
high value-added manufacturing jobs, with major manufacturing in TN, 
NJ, MI, IL, MA, OH, MD, WA, DE, CA, and elsewhere. Federal R&D has a 
real impact on where these plants develop. My members tell me that the 
opportunity to participate in DOE's world-class research is one of 
their primary considerations when deciding where to locate 
manufacturing.
    Other nations have noted this industry's potential, and are 
coupling incentive programs with increasingly aggressive research 
funding. However, while the photovoltaics industry has more than 
doubled in size since 2000, U.S. research funding for photovoltaics has 
remained essentially flat; this makes even less sense when you consider 
the program's impressive results. The DOE PV research program has been 
a major reason why solar manufacturing prices have dropped by more than 
half in the last 10 years alone. (Below--DOE's PV Roadmap is now 
predicting that solar electricity will be available for less than $.08/
kWh within the next 10 years.) These innovations occur in a competitive 
cost-sharing environment that ensures rapid development of technologies 
that would not likely emerge otherwise. As a result of this excellent 
work, PV electricity is now cost-competitive in a growing number of 
markets for homes, businesses, and remote applications alike--the 
number and size of these markets will only increase as costs continue 
to fall.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Continuing advances in crystalline silicon technologies could bring 
prices down by half again, while DOE's Systems-Driven Approach squeezes 
optimum efficiency and reliability out of every part of the solar 
system, from panels to connectors to inverters. Meanwhile, the Thin 
Film Partnership is beginning large-scale commercialization of their 
products, which use much less raw material and more rapid continuous-
line production processes. Equally exciting are the ``generation beyond 
next'' nanostructured and organic solar cells being developed by many 
domestic companies and labs--these flexible cells offer the possibility 
of manufacturing millions of watts of solar on machines similar to 
today's printing presses, out of chemicals we currently use to make 
paint and toothpaste.
    The 2003 Peer Review of DOE's Photovoltaics subprogram, assembled 
by a team of eminent scientists and researchers including a retired 
Scientific Advisor for Exxon Corporate Research, heaped praise upon the 
program's achievements, noting ``The role of the laboratories in the 
projects reviewed has been outstanding in terms of quality of science, 
technology and engineering; relevance to national needs and DOE 
mission; and programmatic performance, management and planning.'' 
However, they felt the need to note that DOE is now in the position of 
having to choose between research and basic equipment needs:

    ``Equipment and facilities are aging and failing at the 
laboratories . . . Funds for personnel and current research are being 
cannibalized to sustain equipment that should have been replaced long 
ago . . . An exceptional research capability at both Sandia and NREL is 
at risk in the immediate future unless DOE develops a strategy for 
dealing with these ongoing strains . . . the panel heard frequent 
references to specific equipment and facilities that were:
  ``--Aging and less capable than new equipment.
  ``--Failing from lack of maintainability.
  ``--Being kept in operation at the expense of funds to support staff 
        patent applications, conferences and publications.
    ``It appears that the operating budgets at NREL and Sandia are 
being partly cannibalized to keep basic equipment operating.'' 
(Emphasis added.)

    The current fiscal year 2005 administration request for the 
photovoltaics program--ca. $75 million--is insufficient to support the 
research needs of the evolving technology and growing industry behind 
these programs. If we are to meet DOE's goal of PV-generated 
electricity for $.06/kWh by 2020, funding needs to be increased 
substantially. SEIA requests $100 million for the photovoltaics program 
in total.
                       concentrating solar power
    CSP systems currently produce 354 MW of clean, reliable, and 
relatively inexpensive power in the California desert--enough for ca. 
120,000 homes. New companies are now entering this market with newer, 
more refined, and more sophisticated technologies. Early construction 
has begun for another 50 MW plant in Nevada, and a 1 MW plant in 
Arizona. Other project sites are in early negotiations now, and the 
Western Governor's Association has stated that they support further 
developing this resource. Recently, New Mexico Governor Bill Richardson 
announced he plans to use $3 million in capital outlay funds to attract 
concentrating solar power plants to his State.
    A recent ``due diligence'' review of the CSP program, conducted by 
third party consultants Sargent and Lundy under the auspices of the 
National Research Council, found that ``CSP technology is a proven 
technology for energy production, there is a potential market for CSP 
technology and that significant cost reductions are achievable assuming 
reasonable deployment of CSP technologies occurs.'' The 
administration's own budget document for 2003 states:

    ``Large-scale CSP technologies have been operating successfully in 
the California desert for 15 years. Over this time the cost of these 
systems has decreased by a factor of 3 . . . they are currently the 
least expensive source of solar electricity. Recent technology 
advancements . . . (have) revitalized the CSP industry and placed them 
in a position to play a major role in near-term green power 
opportunities, both domestically and overseas, as costs are projected 
to drop into the 6 to 8 cents/kWh range.''

    Given this degree of support and promise, a closeout budget request 
(ca. $2 million) is unjustifiable. The funding rollercoaster for the 
CSP program has damaged its ability to make long-term investments and 
retain high quality staff. Laboratory staff has been reduced by 70 
percent, a staggering loss of knowledge and expertise. Priceless 
equipment goes unused or will be soon dismantled.
    Funding of $20 million would allow the Department of Energy to 
revitalize this program, maintaining an ability to validate technology 
and components as well as lowering operations and maintenance costs in 
a stable environment. We expect that CSP plants could generate massive 
amounts of electricity for prices in the neighborhood of $.07 to $.09/
kWh by the end of the decade. (For instance, using CSP on less than 
one-quarter of 1 percent of Arizona's land area could meet the State's 
entire electrical needs.) Given the growth potential of this industry 
and the very strong international interest in these technologies, it 
seems a small price to pay.
    We also note with interest the provision of the recent conference 
Energy Bill that provides substantial research support for using 
Concentrating Solar Power as a source of new hydrogen fuel. Solar will 
undoubtedly be one of the critical cornerstone technologies of the 
hydrogen economy, giving us the ability to produce zero-emissions motor 
fuels when and where we want them. Concentrating Solar Power offers two 
unique opportunities in this regard; conventional electrolysis of water 
to generate hydrogen, and, unique to solar, inexpensive thermochemical 
processes that use a direct catalytic conversion.
            solar heating and lighting/zero energy buildings
    SEIA also strongly supports the Solar Buildings projects, including 
the visionary Zero Energy Buildings Program. The multi-year goal of ZEB 
is to allow widespread adoption of zero energy residences by 2010 and 
commercial buildings by 2015. This would slow and eventually eliminate 
new buildings' consumption of our finite energy sources. Builders 
around the country are increasingly developing new construction 
techniques and materials, and including solar technologies which will 
achieve zero finite fuel source energy consumption. For these programs 
we request $8 million in funding, and we support the administration's 
attempts to move this program into its logical niche in the Interior 
appropriations budget, where partnerships with DOE's Buildings program 
could make the most of relevant equipment and expertise. A different 
program, formerly filed under the ``solar buildings'' heading, is Solar 
Heating and Lighting. Solar water heating technologies are utilized 
around the world in quantities far exceeding those in the United 
States. Such systems can significantly reduce electricity and natural 
gas consumption. Solar water heating technologies are already 
ubiquitous in many other countries, thereby saving other energy sources 
for higher value purposes.
    Within this program, emphasis is placed on reducing the cost of 
solar water heating by using lightweight polymer materials to replace 
the heavy copper and glass materials in today's collectors. The goal is 
to complete R&D on new polymers and manufacturing processes to reduce 
the cost of solar water heating to 4 cents/kWh by the end of 2004. We 
recommend that this program be funded explicitly at the $5 million 
level.
                         future appropriations
    While they are not yet law, we would like to draw the 
subcommittee's attention to two areas of the proposed energy bill as 
supported by SEIA (both H.R. 6 and the new S. 2095). Sec. 205 would 
authorize substantial purchases of photovoltaics on the part of the 
Federal Government, driving down costs nationwide and giving the 
government a good long-term energy investment. Sec. 902 would cost-
share the installation of renewable energy systems in State or local 
buildings, improving the energy independence and financial situation of 
State and local governments with new clean energy devices.
                               conclusion
    Solar energy's benefits to the Nation are far too numerous to list 
here comprehensively. However, we cannot mention enough that as a long-
lived source of renewable energy, solar enables us to make more of our 
energy at home, rather than being forced to acquire it overseas or from 
volatile fuel markets. Modular and simple to install, it can provide 
quick answers to grid congestion or supply inadequacy, while 
sidestepping environmental and NIMBY issues. The high coincidence of 
solar panels' peak output with daily peak demand makes them an 
attractive solution for load pockets or seasonal demand spikes, 
avoiding the dirtiest and least efficient conventional generators.
    Increased investment in solar also ties us more closely to a source 
of energy that can be used anywhere in the Nation, and which becomes 
less expensive, not more, every single year. These are nontrivial 
considerations when the Chairman of DuPont recently declared that high 
natural gas costs will prompt the company to shift its ``center of 
gravity'' overseas, and when the Conference Board, the Chicago Fed, and 
Federal Reserve Chairman Greenspan all publicly cite volatility and 
escalation in energy costs as a major uncertainty as well as a drag on 
economic growth.
    Expanded use of renewable energy is also a key recommendation of 
the report on mitigating the natural gas market crisis, as issued in 
September 2003 by the Secretary of Energy's National Petroleum Council 
(NPC). The NPC report set as its number one recommendation to ``Improve 
Demand Flexibility and Efficiency'' with an emphasis on the use of 
renewable fuels and technologies for power generation.
    Clean energy is the most likely next tech boom, and other nations' 
research and incentive spending shows that they are very much aware of 
this fact. As Business Week correctly observed in their March 22 issue, 
economically viable solar power could drive a transformative ``job 
boom'' in the coming century, maintaining American leadership in the 
world economy as did the automobile and the commercial aircraft earlier 
this century. I urge the subcommittee to make the most of this historic 
opportunity.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    The American Society of Plant Biologists (ASPB) is a non-profit 
society of nearly 6,000 scientists. My name is Mary Lou Guerinot, 
President of ASPB and Professor at Dartmouth College. ASPB urges the 
subcommittee to support the fiscal year 2005 budget request of the 
Department of Energy of $228,422,000 for the Chemical Sciences, 
Geosciences and Biosciences Division of the Office of Basic Energy 
Sciences. This represents an increase of $8.8 million or 4 percent.
    The Biosciences program within the Chemical Sciences, Geosciences 
and Biosciences Division supports fundamental research needed to 
develop future biotechnologies related to energy. The supported 
research focuses on the biological mechanisms occurring in plants and 
microorganisms.
    Plants and microbes fit readily into the energy context by virtue 
of serving as renewable resources for fuel and other fossil resource 
substitutes, as vehicles to restore previously disrupted environmental 
sites, and as potential components of industrial processes to produce 
new products and chemicals in an environmentally benign manner.
    The Biosciences program is devoted to the fundamental science 
underlying the use of biological systems to produce and conserve 
energy.
    Biosciences research on plants and microbes opens the opportunity 
to synthesize an almost limitless variety of energy-rich organic 
compounds and polymers. DOE's biosciences fundamental research could 
lead to higher quality plant products, more environmentally benign 
products and a reduction in the increasing demand for imported 
petroleum.
    The DOE Office of Science, Office of Basic Energy Sciences' 
Division of Chemical Sciences, Geosciences and Biosciences is a 
competitive grants program in which awards are made based on merit. The 
Division and its Biosciences program select the best research proposals 
as determined in a process of peer review. Leading researchers at 
universities throughout the Nation are funded by the Biosciences 
program.
    The Biosciences program currently supports research in the 
following areas:
Plant Science
  --Structure and function of the plant cell wall (cellulose, lignin, 
        hemicellulose, and protein)
  --Biophysical and biochemical mechanisms of photosynthesis
  --Plant primary and secondary metabolism
  --Genetic and biochemical mechanisms of plant growth and development
  --Bioenergetics, ion uptake, and other membrane-related phenomena
  --Arabidopsis genome sequencing
  --Functional plant genomics
Fermentation Microbiology
  --Bioenergetics and metabolic properties of anaerobic microbes
  --Degradation of lignin, cellulose, and hemicellulose
  --Biochemistry, genetics, and physiology of microbes that metabolize 
        one and two carbon compounds
  --Mechanisms of plant symbiotic and pathogenic interactions
  --Functional microbial genomics
Extremophilic Organisms
  --Biochemistry, genetics and physiology of hyperthermophilic microbes
  --Mechanisms of life under extreme conditions, temperature, salt, pH, 
        etc.
  --Metabolism of inorganic compounds
Biomaterials and Biocatalysis
  --Biosynthesis of novel materials
  --Catalytic antibodies
  --Structural and kinetic characterization of energy-related enzymes
  --Bioadhesion
    The Biosciences program has sponsored many leading research 
efforts. For example, Biosciences program grant support led to a 
breakthrough in cellulose biosynthesis research. Plant cell walls are 
the major energy component of renewable biological resources. Cellulose 
is the major constituent of the plant cell wall and represents the most 
abundant biopolymer on earth.
    Dr. R. Malcolm Brown, Jr. and colleagues at the University of Texas 
at Austin gave the first experimental confirmation of an important 
structure involved in cellulose biosynthesis. This work featured a 
combination of molecular biology and immunocytochemistry techniques. 
This research provides an exciting springboard for future applications 
in the efficient design of specific complex carbohydrates and other 
renewable carbon resources.
    As another example, research sponsored earlier by the Biosciences 
program led to new findings on the capture of energy from 
photosynthesis. This research led to the presentation to Biosciences-
program-grantee Dr. Paul Boyer of the shared award of the 1997 Nobel 
Prize in Chemistry (biochemistry). Photosynthesis is nature's way of 
utilizing sunlight to produce chemical energy and to bring carbon 
dioxide into biological organisms. Increased knowledge in this area 
could lead to a better understanding of how to manage carbon dioxide in 
the atmosphere. Further research in this area could also contribute to 
development of alternative energy sources.
    At the latter part of the 19th Century, people throughout the world 
were dependent upon plants and other contemporaneous biological sources 
for the production of organic materials. Plants and animals provided 
the only sources of fibers, coatings, lubricants, solvents, dyes, 
waxes, fillers, insulation, fragrances, detergents, sizing, wood, 
paper, rubber and many other types of materials. In 1930, fully 30 
percent of industrial organic chemicals were still derived from plants.
    The discovery of extensive petroleum reserves and advances in 
chemistry and petroleum engineering resulted in a major shift to 
reliance on fossil sources of organic feedstocks such as petroleum. 
These developments also led to the development of petroleum-based 
materials, such as inexpensive plastics, with properties that could not 
be duplicated at the time by abundantly available natural materials.
    Advances in modern plant research made possible by support from the 
Biosciences program can result in a shift toward use of feedstocks from 
domestically grown plants for chemical products. Plant-produced 
products can provide the chemical industry with much greater diversity 
than is available from the comparatively limited structures found in 
crude oil.
    Knowledge gained from Biosciences-supported research is leading to 
enhanced plants that will provide the feedstocks for new types of 
polyurethane, new biodegradable lubricants and superior quality nylon 
having stronger and more flexible fibers. The United States produces 
nylon, polyurethane and other plastics to supply multi-billion dollar 
markets. Genetically modified crop production of nylon alone could 
create over $2 billion in new income for America's growers.
    Plants are a major source of renewable and alternative fuels in the 
United States. Greater knowledge of the basic biology of plants will 
lead to further economies in domestic production of renewable fuels.
    The science community deeply appreciates the continued strong 
support of the subcommittee for innovative research on plants and 
microbes sponsored by the Chemical Sciences, Geosciences and 
Biosciences Division.
                                 ______
                                 
    Prepared Statement of Southeastern Federal Power Customers, Inc.
    Mr. Chairman and members of the subcommittee, on behalf of the 
Southeastern Federal Power Customers (``SeFPC'' or ``Customers''), I am 
pleased to provide testimony in reference to the administration's 
fiscal year 2005 budget request for the Department of Energy and 
related Federal Power Marketing Administrations (``PMAs''). My 
testimony will focus primarily on the budget request for the 
Southeastern Power Administration (``SEPA''). Among other issues, we 
wish to emphasize that the proposed changes in SEPA's Puchased Power 
and Wheeling (``PP&W'') budget would have a negative impact on Federal 
preference power customers throughout the Southeast.
    SEPA purchases, transmits, and markets the power generated at 
Federal reservoirs to municipal systems, rural electric cooperatives, 
and other wholesale customers throughout the Southeast. The SeFPC has 
enjoyed a long and successful relationship with SEPA that has greatly 
benefited the approximately 5.8 million customers that are SeFPC 
members. As the subcommittee is aware SEPA markets the energy and 
capacity that is generated from the Federal reservoir projects in the 
Southeast. The SeFPC represents some 238 rural cooperatives and 
municipally owned electric systems in the States of Alabama, Georgia, 
Mississippi, Kentucky, North Carolina, South Carolina, Florida, 
Virginia, and Illinois, which purchase power from SEPA. In some cases, 
SEPA supplies as much as 25 percent of the power and 10 percent of the 
energy needs of SeFPC customers.
   administration's proposal to zero out purchased power and wheeling
    The administration has proposed the elimination of all Federal 
funding for PP&W by the end of 2004. The President's proposal would 
reduce PP&W funding for SEPA by 100 percent in the upcoming fiscal 
year, from the current level of $34.5 million to the proposed level of 
$0. This proposal is very troubling to the SeFPC. The failure to fund 
these important programs under SEPA's jurisdiction could have dire 
consequences for the Federal power program in the Southeast and Federal 
preference power generally.
    If the President's proposal becomes law, the power supply for the 
not-for-profit distributors and their customers throughout the 
Southeast will be severely disrupted. SEPA's customers also will likely 
lose the benefits of long-term contractual arrangements for 
transmission and purchased power. Because SEPA does not own its own 
transmission lines, the loss of PP&W appropriations will force us to 
arrange our own transmission services, including delivery services from 
SEPA projects. Also, elimination of SEPA's purchased power funds will 
force us to buy our power from sources other than SEPA at higher 
prices, which will be passed directly to our customers.
      proposal would yield no cost savings for federal government
    It is important to note that the President's proposal would yield 
no cost savings for the Federal Government. The use of PP&W revenues is 
a discretionary function with no budgetary impact. PP&W funds are 
repaid annually by preference customers. Moreover, if PP&W funds are 
eliminated, SEPA's annual return to the U.S. Treasury of roughly $155 
million would likely be reduced significantly.
    Thank you in advance for considering our comments on the 
President's proposed fiscal year 2005 budget for SEPA.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities throughout the United 
States (all but Hawaii). Collectively, public power utilities deliver 
electricity to one of every seven electric consumers (about 40 million 
people), serving some of the Nation's largest cities. However, the vast 
majority of APPA's members serve communities with populations of 10,000 
people or less.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2005 funding priorities within the Energy and Water 
Development Subcommittee's jurisdiction.
          renewable energy production incentive program (repi)
    The Department of Energy's REPI program was created in 1992's 
Energy Policy Act (EPAct) as a counterpart to the renewable energy 
production tax credits made available to for-profit utilities. EPAct 
authorizes the Department of Energy (DOE) to make direct payments to 
not-for-profit public power systems and rural electric cooperatives at 
the rate of 1.5 cents per kWh (now closer to 1.8 cents when adjusted 
for inflation) from electricity generated from solar, wind, geothermal 
and biomass projects. According to DOE sources, in order to fully fund 
all past and current REPI applicants, $60 million would be needed for 
fiscal year 2005. Despite the demonstrated need, however, DOE has again 
asked for only $4 million for fiscal year 2005, citing budgetary 
constraints.
    Approximately 25 percent of electric utility customers are served 
by not-for-profit public power systems and rural electric cooperatives. 
Fully funding REPI is an issue of comparability for the communities 
served by these systems. For example, in 2000, for-profit utilities and 
private developers received about $58 million in renewable energy tax 
credits for wind power alone. The same year, REPI subscribers received 
only $3.99 million for renewable energy projects of all types. While 
APPA supports increasing renewable energy use throughout the utility 
sector, our member utilities simply must receive comparable federally 
sanctioned incentives to help in that effort.
    We believe Congress was committed over a decade ago to removing 
economic barriers to enable all communities to benefit from the 
production of more renewable and clean energy. We also believe that 
Congress is equally committed today--not only to producing more 
renewable energy, but also to diversifying America's portfolio of 
fuels, decreasing our reliance on foreign sources of energy, and 
reducing greenhouse gas emissions. In fact, under a fully funded REPI 
program, close to 60 million metric tons of carbon equivalent could be 
reduced through the development of existing landfills into landfill-
gas-to-energy projects. In order to ensure that these efforts and other 
renewable energy goals are achieved throughout the electric utility 
industry, Congress must provide an increase for REPI.
                       renewable energy programs
    As is demonstrated by our strong support for REPI, APPA believes 
that investing in energy efficiency and renewable energy programs is 
critical. We urge the subcommittee to support adequate funding to 
ensure that renewable energy usage continues to increase as part of the 
portfolio of fuel options available to our Nation's electric utilities.
            federal power marketing administrations (pma's)
Purchase Power and Wheeling
    We urge the subcommittee to authorize appropriate levels for use of 
receipts so that the Western Area Power Administration (WAPA), the 
Southeastern Power Administration (SEPA) and the Southwestern Power 
Administration (SWPA) can continue to purchase and wheel electric power 
to their municipal and rural electric cooperative customers.
    The fiscal year 2005 DOE budget proposes to eliminate the ability 
of WAPA, SEPA, and SWPA to use receipts--which do not score in the 
Federal budget process--to provide these services to their customers. 
Although appropriations are no longer needed to initiate the purchase 
power and wheeling (PP&W) process, the subcommittee continues to 
establish ceilings on the use of receipts for this important function.
    The PP&W program is important because hydroelectric generation and 
customer use are rarely in exact balance--both vary from hour-to-hour 
and day-to-day. The PMA's often make purchases in the spot market to 
``firm'' the resource when generation is less than the amount 
contracted for delivery. Additionally, in low-water years, the PMA's 
often purchase additional power to fulfill their contracts with 
customers. The PMA's then must negotiate to transmit this power to 
their customer--often over non-Federal transmission lines (wheeling is 
the charge that the PMA's pay to move electricity over a non-Federal 
transmission line). For individual PMA customers--many of whom are the 
distribution utility of very small towns--to be forced to perform these 
purchase power and wheeling functions would be extremely inefficient, 
and would almost certainly result in rate increases for the retail 
customers of these small utilities.
    The PP&W arrangement is effective, has no impact on the Federal 
budget, and is supported by the PMA customers who pay the costs. 
Therefore, we request that the subcommittee authorize the use of 
receipts in fiscal year 2005 as follows:
  --Western Area Power Administration (WAPA).--$227.6 million 
        authorization needed in the fiscal year 2005 bill.
  --Southeastern Power Administration (SEPA).--$32.7 million 
        authorization needed in the fiscal year 2005 bill.
  --Southwestern Power Administration (SWPA).--$2.9 million 
        authorization needed in the fiscal year 2005 bill.
Security Costs
    We urge the subcommittee to reaffirm the Federal Government's 
responsibility to pay the costs of increased security measures at 
Federal, multi-purpose facilities and delivery systems and include 
language to ensure that such costs are non-reimbursable.
    Following the September 11, 2001 attacks, the U.S. Bureau of 
Reclamation moved aggressively to strengthen security measures at 
Federal dams throughout the West, including such facilities as Hoover, 
Grand Coulee and Glen Canyon dams. These multipurpose facilities 
provide important flood control, water storage for irrigation, 
municipal and industrial uses, power generation, recreation and 
environmental mitigation benefits, and are a linchpin of the regional 
economy.
    To date, funds appropriated in fiscal year 2003 and fiscal year 
2004 for anti-terrorism/site security measures at Bureau of Reclamation 
facilities have been treated as non-reimbursable pursuant to an 
administrative determination. This decision found that counter-
terrorism protections are not considered normal operation and 
maintenance activities and that the national security interests 
justifies making the expenditures a Federal responsibility.
    This determination is also consistent with how similar costs were 
treated in the aftermath of the attacks on Pearl Harbor in World War 
II. To ensure that the costs of increased security at Federal 
facilities continue to be treated as a non-reimbursable Federal 
expenditure, we request that you include the following language in the 
fiscal year 2005 Energy and Water Appropriations bill:

    ``For fiscal year 2005 and each fiscal year thereafter, the 
increased costs of ensuring security of Bureau of Reclamation and Corps 
of Engineers dams and the Federal power marketing administrations in 
the aftermath of the events of September 11, 2001, shall be non-
reimbursable and provided through appropriated funds.''

Animas-La Plata
    The Colorado Ute Settlement Act Amendments of 2000 (Title III, 
Section 301(b)(10), Public Law 106-554, December 21, 2000) authorized 
development of the Animas-La Plata Project to satisfy water right 
claims of the Southern Ute and Ute Mountain Tribes in southwest 
Colorado (known collectively as the ``Colorado Ute Indian Tribes.'') 
The project requires construction of a reservoir, pumping plant and 
appurtenant facilities to provide water supply and delivery of 
municipal and industrial water and other benefits to the Tribes.
    In order to provide power from the Colorado River Storage Project 
(CRSP) to the Durango Pumping Plant, transmission facilities will need 
to be constructed, operated and maintained by the Western Area Power 
Administration. Because these transmission facilities are associated 
with the satisfaction of the Tribes' water rights claims, all amounts 
expended for their construction, operation and maintenance should be 
considered non-reimbursable and non-returnable. If Congress does not 
clarify that these costs are non-reimbursable and non-returnable, CRSP 
power customers run the risk that the costs of the transmission 
facilities and services will be shifted to them, despite the fact that 
they receive no benefit from them.
    WAPA will be responsible for the construction, operation and 
maintenance of these transmission facilities, and requires additional 
appropriations in the amount of $10,000,000 in fiscal year 2005 to meet 
the construction timetable established by the Bureau of Reclamation, 
the project manager. WAPA, the Bureau of Reclamation, the Colorado 
River Energy Distributors Association, the water users, the Colorado 
Ute Indian Tribes and APPA all support the inclusion of the following 
language in the fiscal year 2005 Energy and Water Development 
Appropriations bill:

    ``For carrying out the functions authorized by title III, section 
302(a)(1)(E) of the Act of August 4, 1977 (42 U.S.C. 7152), and other 
related activities including conservation and renewable resources 
programs as authorized, including official reception and representation 
expenses in an amount not to exceed $1,500, $183,100,000 to remain 
available until expended, of which $170,756,000 shall be derived from 
the Department of the Interior Reclamation Fund: Provided, That all 
authorities and future contributions described in Section 402, 
subparagraph (b)(3)(B) of the Reclamation Projects Authorization and 
Adjustment Act of 1992 previously assigned to the Secretary of Energy, 
Western Area Power Administration, shall be transferred to the 
Secretary of the Interior, Bureau of Reclamation: Provided further, 
That of the amount herein appropriated, $10,000,000 shall be available 
until expended on a nonreimbursable basis to the Western Area Power 
Administration to design, construct, operate and maintain transmission 
facilities and services for the Animas-La Plata Project as authorized 
by sections 301(b)(10) of Public Law 106-554.''
                  storage for high-level nuclear waste
    Since 1982, the Nation's electricity customers have contributed $22 
billion to the Nuclear Waste Fund to finance centralized Federal 
management of spent nuclear fuel used for commercial purposes. We 
therefore support the administration's efforts to finalize the location 
of a permanent storage site at Yucca Mountain, Nevada.
    The President requested $880 million for fiscal year 2005 for the 
nuclear waste repository at Yucca Mountain. While we support the 
President's budget request of $880 million, if legislation is not 
enacted to take $749 million of the requested funds ``off-budget'' as 
the administration assumes, we hope that resources are available to the 
subcommittee to adequately fund Yucca, but not at the expense of other 
valuable programs, such as the Renewable Energy Production Incentive 
and other programs mentioned in this statement.
                  advanced hydropower turbine program
    APPA supports the administration's budget request of $6 million for 
the Advanced Hydropower Turbine Program for fiscal year 2005. This 
program is a joint industry-government cost-share effort to develop a 
hydroelectric turbine that will protect fish and other aquatic habitats 
while continuing to allow for the production of emission-free 
hydroelectric power.
    During the next 15 years, 220 hydroelectric projects will seek new 
licenses from the Federal Energy Regulatory Commission (FERC). Publicly 
owned projects constitute 50 percent of the total capacity that will be 
up for renewal. Many of these projects were originally licensed over 50 
years ago. Newly imposed licensing conditions can cost hydro project 
owners 10 to 15 percent of power generation. A new, improved turbine 
could help assure that any environmental conditions imposed at 
relicensing in the form of new conditioning, fish passages or reduced 
flows are not accomplished at the expense of emission-free, renewable 
energy production. This is particularly important given the 
increasingly competitive market in which electric utilities operate 
today. Flow levels will affect the economics of each of these projects 
and many will be unable to compete if the current trend toward flow 
reduction continues.
              federal energy regulatory commission (ferc)
    The Federal Energy Regulatory Commission (FERC) has requested $210 
million for fiscal year 2005 for its overall operations. APPA supports 
this request. The FERC is charged with regulating certain interstate 
aspects of the natural gas, oil pipeline, hydropower, and electric 
utility industries. Such regulation includes issuing licenses and 
certificates for construction of facilities, approving rates, 
inspecting dams, implementing compliance and enforcement activities, 
and providing other services to regulated businesses. These businesses 
pay fees and charges that cover most of the cost of the government's 
operations.
              navajo electrification demonstration program
    APPA supports full funding for the Navajo Electrification 
Demonstration Program at its $15 million authorized funding level for 
fiscal year 2005 and for each succeeding year of its authorization 
(through 2006). The purpose of the program is to provide electric power 
to the estimated 18,000 occupied structures in the Navajo Nation that 
lack electric power.
    The Navajo Nation is served by the Navajo Tribal Utility Authority 
(NTUA), an APPA member. NTUA provides electric, natural gas, water, 
wastewater treatment, and photovoltaic services throughout the Navajo 
Indian Reservations in the States of Arizona, New Mexico and Utah. 
Fully funding the Navajo Electrification Demonstration Program will 
significantly improve the quality of life for the people of the Navajo 
Nation.
             national climate change technology initiative
    APPA supports the administration's efforts to promote greenhouse 
gas reductions through voluntary programs and investments in new 
technologies. We therefore support DOE's request of $3 million for 
fiscal year 2005 to spur innovation of technologies that will reduce, 
avoid, or capture greenhouse gas emissions.
                                 ______
                                 
     Prepared Statement of the Biomass Energy Research Association
    This testimony pertains to the fiscal year 2005 appropriation for 
biomass research, development, and deployment (RD&D) conducted by the 
Department of Energy's (DOE) Office of Energy Efficiency and Renewable 
Energy (EERE). Separate statements will be submitted in support of 
biomass RD&D performed under the Interior and Related Agencies Bill by 
EERE, and on forest biomass production research performed by the U.S. 
Department of Agriculture Forest Service (USDAFS).
    BERA recommends appropriations of $92,500,000 for biomass RD&D in 
fiscal year 2005 under EERE's Biomass and Biorefinery Systems program 
and Hydrogen Technology program as follows:
  --$2,000,000 for Feedstock Infrastructure R&D.
  --$26,000,000 for Platforms R&D: Thermochemical Conversion 
        ($13,000,000) and Bioconversion ($13,000,000).
  --$19,000,000 for Utilization of Platform Outputs, Integration of 
        Biorefinery Technologies at PDU and pilot scales: 
        Thermochemical Conversion ($9,000,000) and Bioconversion 
        ($10,000,000).
  --$39,000,000 for State-Industry Partnerships: Biorefinery Systems 
        Development ($34,000,000 demonstration facilities) and State & 
        Regional Partnerships (SRP, formerly the Regional Biomass 
        Energy Program, RBEP) ($5,000,000).
  --$6,500,000 for biomass-related projects under Hydrogen Technology.
    On behalf of BERA's members, I would like to thank you, Mr. 
Chairman, for the opportunity to present the recommendations of BERA's 
Board of Directors for the high-priority projects and programs that we 
strongly urge be continued or started. BERA is a non-profit association 
based in Washington, DC. It was founded in 1982 by researchers and 
private organizations that are conducting biomass research. Our 
objectives are to promote education and research on the production of 
energy and fuels from virgin and waste biomass that can be economically 
utilized by the public, and to serve as a source of information on 
biomass RD&D policies and programs. BERA does not solicit or accept 
Federal funding for its efforts.
    The level of earmarks in the last few years has resulted in 
premature reductions of scheduled programs by EERE. BERA respectfully 
asks the subcommittee to carefully consider the impacts of all earmarks 
on EERE's RD&D. If they are for projects that are not included in DOE's 
formal funding request, BERA urges that they be add-ons to the baseline 
funds rather than deductions. In fiscal year 2004, about 35 percent of 
the appropriation for EERE's RD&D is provided as earmarked funds. 
EERE's planned objectives are therefore extremely difficult or 
impossible to achieve because the appropriation provided for fiscal 
year 2004 is only about 7.5 percent more than the baseline funding 
requested.
    The original goal of the Biomass and Bioproducts Initiative (BBI) 
created as a result of ``The Biomass Research and Development Act of 
2000'' and Title IX of the Farm Bill was to triple the usage of 
bioenergy and biobased products. Congress has provided annual funding 
for the BBI since fiscal year 2000. A strategic plan was developed by 
the multi-agency Biomass Research and Development Board (BRDB), co-
chaired by the Secretaries of Energy and Agriculture, to achieve this 
goal. Its achievement is necessary because of environmental and energy 
security and supply issues, and our increasing dependence on imported 
oil. We must determine whether practical biomass systems capable of 
displacing much larger amounts of fossil fuels can be developed. For 
example, biomass energy consumption in 2002 was about 1.66 million 
barrels of oil equivalent (BOE) per day. BERA strongly urges that the 
BBI be continued in fiscal year 2005 at the funding level recommended 
by BERA for the cost-shared demonstration projects shown in the table 
on page 3. The highest priority should be given to this program 
component.
           program integration, coordination, and management
    For several years, BERA has urged that all biomass-related research 
funded by DOE should be coordinated and managed at DOE Headquarters so 
that the program managers are heavily involved in this activity. We are 
pleased to note that this process, which began in fiscal year 2002, has 
continued in fiscal year 2004. BERA congratulates DOE on the progress 
made in restructuring the program and its management. BERA also 
congratulates DOE and USDA for the cooperation and joint coordination 
of the programs of each department to increase the usage of 
agricultural and forestry biomass for the production of much larger 
amounts of affordable fuels, electricity, and biomass-derived products 
than have been realized in the past. These efforts are expected to help 
facilitate the transition of waste and virgin biomass in the United 
States into major sources of renewable energy, fuels, and chemicals.
    However, without full incorporation of the BBI into DOE's and 
USDA's biomass research programs, the time table for this transition 
will be stretched out for several decades and possibly never happen 
except to a very limited extent for niche markets. Large, strategically 
located, energy plantations are ultimately envisaged in which waste 
biomass acquisition and virgin biomass production systems are 
integrated with conversion systems and operated as analogs of petroleum 
refineries to afford flexible slates of multiple products from multiple 
feedstocks. Unfortunately, relatively large amounts of capital and 
inducements are required to convince the private sector to get involved 
in developing even modest size projects in the field. So to help 
implement this essential program, BERA includes the BBI as a line-item 
in its annual testimony.
    BERA also continues to recommend that implementation of the BBI 
should include identification of each Federal agency that provides 
funding related to biomass energy development and each agency's 
programs and expenditures, as is done by the DOE and USDA today. This 
is an on-going activity that should be expanded to include other 
agencies and departments to help fine-tune the critical pathways to 
program goals. Continuous analysis of the information compiled should 
enable the coordination of all federally funded biomass energy programs 
through the BRDB to facilitate new starts focused on high priority 
targets, and help to avoid duplication of efforts, unnecessary 
expenditures, and continuation of projects that have been completed or 
that do not target program goals. Full implementation of the BBI will 
enhance the value of the Federal expenditures on biomass research to 
the country in many different ways.
                          bera recommendations
    BERA's recommendations consist of a balanced program of mission-
oriented RD&D on conversion research and technology transfer to the 
private sector. Advanced conversion processes and power generation 
technologies, alternative liquid transportation fuels, and hydrogen-
from-biomass processes are emphasized. Biomass production RD&D for 
energy uses is expected to be done by the USDA.
    BERA continues to recommend that at least 50 percent of the Federal 
funds appropriated for biomass research, excluding the funds for scale-
up projects, are used to sustain a national biomass science and 
technology base via sub-contracts for industry and universities. While 
it is desirable for the national laboratories to coordinate this 
research, increased support for U.S. scientists and engineers in 
industry, academe, and research institutes that are unable to fund 
biomass research will encourage commercialization of emerging 
technologies and serious consideration of new ideas. It will also help 
to expand the professional development and expertise of researchers 
committed to the advancement of biomass technologies.
    Although progress has been made, EERE has terminated research in 
several critical thermochemical and microbial conversion areas. BERA 
believes that a balanced program of high-priority research should be 
sustained and protected, so we continue to recommend both a diversified 
portfolio of research and an appropriate amount of funding for scale-up 
without diminishing either EERE's R&D or scale-up programs. BERA's 
specific dollar allocations are listed in the table on page 3. 
Additional commentary on each program area is presented on pages 3, 4 
and 5. Other mission-oriented biomass RD&D programs are funded through 
EERE's Industrial Technologies Program by the Interior and Related 
Agencies Bill. DOE's basic research on biomass energy outside of EERE 
by the Office of Science, which supports academic research, should be 
designed to complement EERE's mission-oriented biomass RD&D and the 
BBI.
 allocation of appropriations recommended by bera for fiscal year 2005
    BERA recommends that the appropriations for biomass RD&D in fiscal 
year 2005 be allocated as shown in the accompanying table. For fiscal 
year 2005, EERE has again incorporated revisions in nomenclature and 
has zeroed-out, consolidated, or moved some programs within EERE. So 
our recommendations are generally listed in the same order as the 
funding requests under EERE's headings and program area titles except 
several program areas are included that are either new or that BERA 
recommends be restored to maintain a balanced program. Note that the 
recommended budgets for the demonstration projects do not include 
industry cost-sharing, which is required to be a minimum of 50 percent 
of each project cost. BERA recommends that funds for the BBI be used 
for these scale-up projects after evaluating the projected contribution 
of each project to the BBI's goals. New projects should not be started 
until this is done.

----------------------------------------------------------------------------------------------------------------
                                                                                      Recommended Budget for
   Office of Energy Efficiency and Renewable              Program Area           -------------------------------
                    Energy                                                           Research        Scale-Up
----------------------------------------------------------------------------------------------------------------
Biomass/Biorefinery Systems:
    Feedstock Infrastructure..................  Harvesting Equipment/Storage/         $2,000,000  ..............
                                                 Logistics.
    Platforms R&D.............................  Thermochemical Conversion:
                                                  Advanced Combustion & Controls       2,000,000  ..............
                                                  Oxygenates from Syngas........       4,000,000  ..............
                                                  Liquid Fuels from Pyrolysis...       4,000,000  ..............
                                                  Chemicals from Syngas &              3,000,000  ..............
                                                 Pyrolysis.
                                                Bioconversion:
                                                  Pretreatment and Hydrolysis...       4,000,000  ..............
                                                  Organisms and Enzymes.........       4,000,000  ..............
                                                  Fermentation (Ethanol)........       4,000,000  ..............
                                                  Fermentation (Methane)........       1,000,000  ..............
Utilization of Platform Outputs...............  Integration of Biorefinery
                                                 Technologies:
                                                  Thermochemical Conversion:
                                                    Small Modular Power           ..............      $2,000,000
                                                 Generation \2\.
                                                    Biomass Cofiring Power        ..............       2,000,000
                                                 Generation \2\.
                                                    Oxygenates and Mixed          ..............       5,000,000
                                                 Alcohols \2\.
                                                  Bioconversion:
                                                    Ethanol from Cellulosics \2\  ..............       5,000,000
                                                    Value-Added Products \2\....  ..............       5,000,000
State-Industry Partnerships...................  Biorefinery Systems Development:
                                                 \3\
                                                  Design Optimization,             \3\ 1,000,000  ..............
                                                 Efficiencies.
                                                  Product Slates, Economics,       \3\ 1,000,000  ..............
                                                 Markets.
                                                  Siting, Acquisition,             \3\ 2,000,000  \3\ 20,000,000
                                                 Construction.
                                                  Operations....................  ..............  \3\ 10,000,000
                                                State & Regional Partnerships...               0       5,000,000
                                                                                 -------------------------------
      Subtotal................................  ................................      32,000,000      54,000,000
                                               =================================================================
Hydrogen Technology \1\.......................  Thermal Processes (Reforming)...         500,000       1,000,000
                                                Photolytic Processes (Algae)....       1,000,000  ..............
                                                Innovative Conversion Processes.       4,000,000               0
                                                                                 -------------------------------
      Subtotal................................  ................................       5,500,000       1,000,000
                                                                                 -------------------------------
      Totals..................................  ................................      37,500,000      55,000,000
                                                                                 ===============================
      Grand Total.............................  ................................  ..............     92,500,000
----------------------------------------------------------------------------------------------------------------
\1\ BERA's recommendations pertain only to the biomass-based portion of Hydrogen Technology.
\2\ BERA's recommendations should be used for scale-up at the PDU and pilot-plant scales, preferably with
  industry cost-sharing.
\3\ All demonstration projects should be cost-shared with industry and state participation.

    Feedstock Infrastructure, Harvesting Equipment, Storage, and 
Logistics.--DOE terminated biomass production research a few years ago 
and is concentrating on infrastructure development, including novel 
systems for collecting agricultural residues, the analysis of 
sustainable feedstock systems, and regional and national cost-supply 
relationships. In fiscal year 2005, EERE plans to continue work on the 
harvesting and logistics roadmap, the sustainability roadmap, and 
policy considerations, and is expected to include work on one-pass 
harvesting systems for wheat straw and corn stover, innovative 
densification and storage systems, and regional modeling that 
integrates economic and environmental considerations. BERA recommends 
that EERE continues to develop the feedstock infrastructure, while the 
USDA Forest Service initiates and continues RD&D on woody biomass for 
energy.
    Platforms R&D, Thermochemical Conversion.--Continuation of 
thermochemical conversion R&D to develop advanced biomass combustion 
and gasification methods could have environmental and economic benefits 
that can lead to significant growth in power generation from waste 
biomass and combined energy recovery-disposal methods for certain kinds 
of high-moisture waste biomass such as biosolids (municipal sewage), 
and for MSW, agricultural residues, and wood wastes. Most of this 
research has been phased out by EERE. Completion of the development of 
medium-Btu biomass gasification technologies is also an essential 
component for the production of fuel gases including synthesis gas 
(syngas) and hydrogen, power, and chemicals. BERA recommends 
restoration of this R&D with the goal of developing the next generation 
of advanced combustion and gasification processes for power generation.
    Several thermochemical conversion methods are available for 
liquefaction of waste and virgin biomass feedstocks to afford storable 
liquid fuels and chemicals. Included among them are the catalytic 
conversion of syngas from biomass to liquid products such as ethanol, 
mixed alcohols, and other oxygenates; the catalytic hydrogenation of 
biomass and biomass derivatives such as natural oils and waste 
triglycerides for the direct production high-cetane diesel fuels; and 
biomass liquefaction under supercritical conditions of pressure and/or 
temperature in aqueous media. These technologies offer a wide range of 
options for liquefaction of all categories of waste and virgin biomass. 
Note also that syngas production from biomass is established 
technology, and that several processes are commercially available. For 
several years, BERA has recommended that EERE support thermochemical 
liquefaction processes. This should have been a key component of EERE's 
research, but has been a minimally funded R&D effort, particularly when 
compared with the effort expended on other conversion technologies. It 
is noteworthy that EERE has significantly increased this activity for 
fiscal year 2005.
    The pyrolysis of biomass, or its thermal decomposition in the 
absence of oxygen, yields a large number of gaseous, liquid, and solid 
products. Hardwood feedstocks were used commercially until the 1930's 
to manufacture fuel gases, solvents, chemicals, fuel oils, and 
charcoal. Because of the continuously increasing prices of natural gas 
and crude oils, a few small-scale commercial biomass pyrolysis systems 
have recently been installed and operated under innovative conditions 
that increase product flexibility to yield cost-competitive products. 
BERA recommends that R&D on both waste and virgin biomass pyrolysis be 
added to EERE's program to help perfect advanced processes. It is 
encouraging to note that pyrolytic oils have been added to EERE's 
project roster for fiscal year 2005. All of the basic data compiled at 
DOE on biomass pyrolysis in the 1970's and 1980's should be reexamined 
in this work.
    BERA urges that thermochemical conversion R&D for both biomass 
liquefaction and gasification processes be restored, expanded, and 
continued and be given a higher priority by EERE.
    Platforms R&D, Bioconversion.--The goal of achieving efficient 
hydrolysis of low-cost cellulosic feedstocks to obtain the sugars and 
of simultaneous conversion of the resulting pentoses and hexoses to 
fermentation ethanol requires the use of special processes for 
producing genetically engineered organisms and cellulase systems at 
acceptable costs and performance on a commercial scale. Research by 
industry and academe should continue to perfect these technologies for 
incorporation into the overall conversion systems used for these 
processes. This will ensure that the best possible skills and 
technologies are brought to bear.
    Methane fermentation (anaerobic digestion) is unique in that it 
produces methane, the major component in natural gas, at high 
concentrations in the medium-Btu product gas from a full range of 
virgin and waste biomass. DOE has terminated most of this research, 
which can lead to advanced waste disposal-energy recovery processes as 
well as the alleviation of numerous environmental problems encountered 
during waste treatment in urban communities and agricultural 
facilities. This research should be restored.
    Bioconversion is useful for converting a variety of biomass and 
derivatives to a wide range of commodity or high-value organic 
chemicals and polymers. The use of selected microbial populations is in 
fact the only practical route to certain types of chemicals and 
polymers. An exploratory program to advance this technology is a 
natural adjunct to DOE's on-going Bioconversion R&D. BERA recommends 
that part of this research effort should focus on this field.
    Utilization of Platform Outputs, Integration of Biorefinery 
Technologies, Thermochemical Conversion and Bioconversion.--BERA 
recommends that this effort utilize the best available information 
produced by the Platforms R&D programs for testing, confirming, and 
perfecting the conversion technologies at the PDU and pilot-plant 
scales shown in the table on page 3. This will generate the information 
needed to support the design, construction, and operation of 
demonstration facilities under State-Industry Partnerships, Biorefinery 
Systems Development (see following section).
    Commentary on the value of intermediate scale process R&D is in 
order. For example, several projects performed at semi-commercial plant 
scales or that involved modules of commercial plants have been funded 
to develop processes for converting low-cost cellulosic feedstocks to 
fermentation ethanol. Unfortunately, the results of this effort have 
not led to operating systems despite the excessive time and relatively 
large budgets that have been provided to conduct the work. It is 
apparent that although the science is feasible, the scale-up projects 
have not yet been successful. But it is still important to 
commercialize this technology to help reduce the cost of fermentation 
ethanol. Intermediate-scale projects such as those conducted at the PDU 
and pilot-plant scales can more readily focus on efficient development 
of the critical information and operating data needed to overcome or 
eliminate existing scale-up barriers. It is also essential that 
integrated feedstock acquisition-biorefinery systems be designed and 
built using this information for demonstration in the field on a 
sustainable basis. The pathways to successful development of these 
systems are in hand now. They should be implemented.
    State-Industry Partnerships, Biorefinery Systems Development.--
Overall, this program component should focus on the ultimate objective 
of sustainable operation of biorefineries integrated with biomass 
acquisition systems in relatively large field demonstration facilities 
(energy plantations). This effort should address siting, plant design, 
financing, permitting, construction, environmental controls, waste 
processing and disposal, and sustained operations; feedstock selection, 
transport, storage, and delivery; all waste disposal and emissions 
issues; and storage and delivery of the salable products to market. 
BERA recommends that industrial partners and States be carefully 
selected for participation in this cost-shared program. This work 
should be given the highest priority. BERA recommends that the funds 
for the BBI provided by Congress should be used for this effort. Long-
range planning is essential to ensure that each project has a high 
probability of success and lays the groundwork for continued 
installation of similar systems by the private sector. Since only a 
minimal effort has been conducted to date in the United States on this 
type of program, BERA recommends that the first demonstration facility 
target the acquisition of waste and/or virgin biomass feedstocks for 
conversion into electricity, liquid and gaseous fuels, and chemicals. 
Existing moderate- and large-scale facilities from terminated and 
continuing EERE projects, such as biomass cofiring, gasification, 
liquefaction, and fermentation, should be carefully examined to 
determine whether one or more are suitable for these projects. The 
partnerships should be in place at the start of each demonstration 
project.
    State and Regional Partnerships (Formerly Regional Biomass Energy 
Program).--The Regional Biomass Energy Program (RBEP) was a model 
outreach program for more than 20 years. No other DOE program had the 
information transfer role, capabilities, level of experience, or 
widespread networks of the RBEP, nor has there been a partnership 
program so closely affiliated with the highest levels of State and 
regional government energy organizations. DOE has replaced the RBEP 
with a new program, State and Regional Partnerships (SRP), that will 
involve collaboration with States on technology transfer, research, 
development, field testing, and other needed efforts to overcome market 
barriers. BERA feels that RBEP can provide a strong foundation for the 
SRP, and that adequate funding should be provided to sustain the new 
SRP because of the history and successful track record of the RBEP.
    Hydrogen Technology.--Research on the thermal reforming of biomass 
and on splitting water with algae, should be continued. In addition, 
innovative conversion methods such as the use of anaerobic digestion 
under ambient conditions and catalytic and non-catalytic thermochemical 
gasification under certain operating conditions that minimize methane 
formation while maximizing hydrogen formation should be studied. These 
technologies may lead to low-cost hydrogen production methods.
                                 ______
                                 
      Prepared Statement of the American Museum of Natural History
              about the american museum of natural history
    The American Museum of Natural History (AMNH) is one of the 
Nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' It is renowned for its exhibitions and 
collections of more than 32 million specimens and cultural artifacts. 
With nearly 4 million annual visitors--approximately half of them 
children--its audience is one of the largest and most diverse of any 
museum in the country. Museum scientists conduct groundbreaking 
research in fields ranging from all branches of zoology, comparative 
genomics, and bioinformatics to earth, space, and environmental 
sciences and biodiversity conservation. Their work forms the basis for 
all the Museum's activities that seek to explain complex issues and 
help people to understand the events and processes that created and 
continue to shape the Earth, life and civilization on this planet, and 
the universe beyond.
    More than 200 Museum scientists, led by 46 curators, conduct 
laboratory and collections-based research programs as well as fieldwork 
and training. Scientists in five divisions (Anthropology; Earth, 
Planetary, and Space Sciences; Invertebrate Zoology; Paleontology; and 
Vertebrate Zoology) are sequencing DNA and creating new computational 
tools to retrace the evolutionary tree, documenting changes in the 
environment, making new discoveries in the fossil record, and 
describing human culture in all its variety. The Museum also conducts 
undergraduate, graduate, and postdoctoral training programs in 
conjunction with a host of distinguished universities.
    The AMNH collections are a major resource for Museum scientists as 
well as for more than 250 national and international visiting 
scientists each year. They often include endangered and extinct species 
as well as many of the only known ``type specimens,'' or examples of 
species by which all other finds are compared. Collections such as 
these are historical libraries of expertly identified and documented 
examples of species and artifacts, providing an irreplaceable record of 
life on earth.
    The Museum interprets the work of its scientists, highlights its 
collections, addresses current scientific and cultural issues, and 
promotes public understanding of science through its renowned permanent 
and temporary exhibits as well as its comprehensive education programs. 
These programs attract more than 400,000 students and teachers and more 
than 5,000 teachers for professional development opportunities. The 
Museum also takes its resources beyond its walls through the National 
Center for Science Literacy, Education, and Technology, launched in 
1997 in partnership with NASA.
       support for department of energy science mission and goals
    As one of the world's leading science organizations, DOE's primary 
strategic goals include maintaining a world class scientific research 
capability and protecting the Nation's security. Its science program 
supports fundamental research in energy, matter, and the basic forces 
of nature and the advanced computational tools critical to research. 
The American Museum shares DOE's fundamental commitments to cutting-
edge research and technology in support of science and education.
Genomic Science
    DOE's scientific leadership encompasses genomics research and 
advanced sequencing technologies. With the historic completion of the 
first draft of the human genome, work on the frontiers of genome 
science continues as a critical element of the DOE mission, not only by 
helping to protect against bio-terrorism but also by contributing to 
the broad goal of developing ``a fundamental, comprehensive, and 
systematic understanding of life.'' DOE focus areas include research in 
energy-related biology, comparative genomics, organisms' responses to 
biological and environmental cues, and experimental and computational 
approaches to predictive understanding of microbes and microbial 
communities. The Genomes to Life program is based on the understanding 
that genomes, especially those of the simplest organisms, provide a 
window into the basic mechanics of life. The program addresses energy, 
environmental, and national security needs and also promises advances 
in medical treatment.
    The American Museum is home to a preeminent molecular research 
program and is deeply engaged in genome research closely tied to DOE's 
mission areas and research priorities. In the era of genomics, museum 
collections have become critical baseline resources for the assessment 
of genetic diversity of natural populations. Studying genomic data in a 
natural history context makes it possible to more fully understand the 
impacts of new discoveries in genomics and molecular biology.
Frozen Tissue Collection
    The Museum offers unique research resources in support of its 
molecular program. It has expanded its collections to include 
biological tissues and isolated DNA preserved in a super-cold storage 
facility. Because this collection preserves genetic material and gene 
products from rare and endangered organisms that may become extinct 
before science fully exploits their potential, it is an invaluable 
research resource in many fields, including genetics, comparative 
genomics, and biodefense. Capable of housing 1 million specimens, it 
will be the largest super-cold tissue collection of its kind. Since it 
was launched 3 years ago, 22,000 specimens not available at any other 
institute or facility have already been accessioned.
Cluster Computing
    DOE science programs are committed to ``providing extraordinary 
tools for extraordinary science.'' The Museum, too, is a leader in 
developing computational tools, as parallel computing is an essential 
enabling technology for phylogenetic (evolutionary) analysis and 
intensive, efficient sampling of a wide array of study organisms. 
Museum scientists have constructed an in-house 700-processor computing 
facility that is the fastest parallel computing cluster in an 
evolutionary biology laboratory and one of the fastest installed in a 
non-defense environment. Their pioneering efforts in cluster computing, 
algorithm development, and evolutionary theory have been widely 
recognized and commended for their broad applicability for biology as a 
whole. The bioinformatics tools Museum scientists are creating will not 
only help to generate evolutionary scenarios, but also will inform and 
make more efficient large genome sequencing efforts. Many of the 
parallel algorithms and implementations (especially cluster-based) will 
be applicable in other informatics contexts such as annotation and 
assembly, breakpoint analysis, and non-genomic areas of evolutionary 
biology and other disciplines.
Institute of Comparative Genomics
    Building on its strengths in comparative genomics, and in concert 
with the scientific goals of DOE, in 2001 the Museum established an 
Institute for Comparative Genomics so as to contribute its unique 
resources and expertise to the Nation's genomic research enterprise. 
The Institute is positioned to be one of the world's premier research 
facilities for mapping the genome across a comprehensive spectrum of 
life forms.
    The Institute has already established a record of significant 
research achievements. These include obtaining a patent for an 
innovative approach to analyzing microarray data that will facilitate 
improved diagnoses of diseases such as cancer and development of drugs 
to treat such diseases; developing computational techniques to analyze 
chromosomal sequence data; building a comprehensive database of all 
known finished and incomplete genomes of microbial species; developing 
effective methods of culturing difficult to culture species as well as 
new methods for obtaining embryos for antibody staining; conducting 
whole genome analysis of disease causing microorganisms to understand 
the evolutionary changes that take place in a genome to make it more or 
less virulent; and developing phylogenetic techniques to advance 
understanding of bacterial genomics and the evolution of pathogenicity. 
Institute scientists have also won major grants to lead international 
research teams in assembling the ``tree of life.''
    The Institute's research programs are complemented by an ambitious 
agenda of genomics-related exhibitions, conferences, and public 
education programming, including the landmark exhibition, The Genomic 
Revolution in 2001. Education and afterschool programs introduce 
students to genome science, and the Museum has held several 
international conferences on important genomics topics: Sequencing the 
Human Genome: New Frontiers in Science and Technology, in Fall 2000; 
Conservation Genetics in the Age of Genomics in Spring 2001; New 
Directions in Cluster Computing in June 2001; and in 2002, an 
international meeting to examine current knowledge of life's history, 
Assembling the Tree of Life: Science, Relevance, and Challenges. The 
March 2004 symposium presents Expanding the Ark: The Emerging Science 
and Practice of Invertebrate Conservation.
    As it moves forward, the Institute, working in cooperation with New 
York's outstanding biomedical research and educational institutions, is 
focusing on molecular and microbial systematics, on constructing large 
genomic databases, and on expanding our understanding of the evolution 
of life on earth and the evolution of critical organismal form and 
function through analysis of the genomes of selected microbes and other 
non-human organisms. Development of Institute activities entails 
expanding expertise in microbial systematics and the molecular 
laboratory program that now trains dozens of graduate students every 
year; utilizing the latest sequencing technologies; employing parallel 
computing applications that allow scientists to solve combinatorially 
complex problems involving large real world datasets; and developing of 
K-12 curriculum materials, scientific conferences, and exhibits.
    As the foregoing makes clear, the research interests and expertise 
of DOE and the Museum are closely aligned in key areas pertinent to the 
agency's biological and environmental research, including comparative 
and microbial genomics, bioinformatics, and computational science. We 
are mutually committed to the importance to humans of nonhuman 
organisms' DNA sequences, to developing the computational tools to 
integrate and understand data, and to modeling complex biological 
systems. We seek a partnership with DOE to further these mutual goals, 
advancing projects such as the following:
  --New strategies for studying complex microbial communities.--
        Investigations into the molecular characterization and 
        phylogenic analysis of genes involved in biofilm formation to 
        offer new insights into the formation, properties, and 
        evolution of microbial communities.
  --New approaches to bioinformatics and algorithm development.--Using 
        statistical physics analogues to model NP-hard problems in 
        evolutionary tree construction in order ultimately to aid in 
        the design of novel approaches to long-standing biological 
        problems and generate new insights into the processes of 
        interest to DOE.
  --New strategies for characterizing microbial communities in 
        nature.--Analysis of samples of uncultured microbial 
        communities, stored in the Museum's frozen tissue collection at 
        temperatures that preserve nucleic acids and proteins, to 
        complement field analysis, and to provide access for the 
        scientific community to this information through the 
        collection's database and informatics tools.
    The Museum requests $3 million to partner with DOE and to employ 
the unique capacities of the Institute of Comparative Genomics for 
advancing shared research and education priorities in genomics science. 
The Institute's comparative and microbial research programs support 
DOE's biological and environmental research function (the BER account); 
and its diverse strengths and unique resources in comparative genomics 
will help to further DOE's goals for building a scientific research 
capacity to enable advances and discoveries in DOE science through 
world-class research. The Museum intends to support the Institute with 
funds from non-Federal as well as Federal sources and proposes to use 
the requested $3 million towards overall costs for the Institute's 
microbial genomics research program, including equipping the molecular 
laboratories to accommodate additional senior scientists, graduate and 
postdoctoral trainees; upgrading instrumentation with the latest high-
throughput technology; and scientific outreach and dissemination via 
website, online databases, and other means.
                                 ______
                                 
 Prepared Statement of the University of Medicine and Dentistry of New 
                                 Jersey
    The following is the testimony of the University of Medicine and 
Dentistry of New Jersey (UMDNJ), the largest freestanding public 
university of the health sciences in the Nation. The University is 
located on five State-wide campuses and contains three medical schools, 
and schools of dentistry, nursing, health related professions, public 
health and graduate biomedical sciences. UMDNJ also comprises a 
University-owned acute care hospital, three core teaching hospitals, an 
integrated behavioral healthcare delivery system, and affiliations with 
more than 200 health care and educational institutions State-wide.
    We appreciate the opportunity to bring to your attention our 
priority projects that are consistent with the biomedical research 
mission of the Department of Energy. These projects are State-wide in 
scope and include collaborations both within the University system and 
with our affiliates.
    Our first priority is the development of the Regional 
Biocontainment Laboratory at UMDNJ-New Jersey Medical School in Newark. 
The 2001 terrorist attacks on the United States, the release of anthrax 
through the United States mail, and the proliferation of biological 
weapons materials and technologies have resulted in an unprecedented 
sense of urgency for greater bioterrorism preparedness. In 2003 the 
NIH-National Institute for Allergy and Infectious Diseases (NIAID) 
selected the Northeast BioDefense Center (NBC), a consortium of 
research organizations spread across four States, as one of eight 
Regional Centers of Excellence for BioDefense and Emerging Infectious 
Diseases Research. Scientists at UMDNJ, along with researchers at 
Rutgers University and the Public Health Research Institute, are key 
partners in helping the NBC frame practical solutions to public health 
threats emanating from both bioterror and emerging infectious diseases.
    Following NIAID's designation of the Northeast BioDefense Center as 
a Regional Center of Excellence, UMDNJ-New Jersey Medical School was 
awarded almost $21 million from the NIH to build a 13,000-square-foot 
regional biocontainment (Bio Safety Level-3) laboratory at the 
International Center for Public Health (ICPH) in Newark, New Jersey. 
NIH views the construction of the regional biocontainment laboratories 
as critical components of the planned network of extramural Regional 
Centers of Excellence to accelerate research on the highly dangerous 
and infectious pathogens in the biodefense field.
    This new BSL-3 facility augments two other existing laboratory 
facilities at the ICPH and on the UMDNJ Newark campus, and once 
operational, will bring the total BSL-3 space in Newark to 21,500 
square feet, creating one of the largest focal points of containment 
space in the country. Of the 208 scientists participating in the NBC 
program, more than 50 percent work within 25 miles of Newark. The 
construction of the laboratory will allow a critical mass of biodefense 
scientists to be assembled in Newark, forming the heart of biodefense 
and infectious disease research in the region. The strategic location 
of the new laboratory is well suited to provide infrastructure support 
to regional public health agencies in the event of a national 
bioterrorism emergency. UMDNJ respectfully seeks $10 million in 
targeted appropriations to supplement the NIAID award as the received 
funds do not fully provide for the laboratory's construction.
    Our second priority is the development of the Child Health 
Institute of New Jersey at UMDNJ-Robert Wood Johnson Medical School 
(RWJMS) in New Brunswick. As part of the State's public higher 
education system, the medical school encompasses 21 basic science and 
clinical departments and integrates diverse clinical programs conducted 
at 34 hospital affiliates and numerous ambulatory care sites in the 
region. RWJMS ranks among the top one-third of medical schools in the 
Nation in terms of grant support per faculty member. It is home to The 
Cancer Institute of New Jersey, the only NCI-designated comprehensive 
cancer center in New Jersey; The Center for Advanced Biotechnology and 
Medicine; the Environmental and Occupational Health Sciences Institute, 
one of the leading environmental health programs in the country; and 
the Child Health Institute of New Jersey.
    The mission of the Child Health Institute is to build a 
comprehensive biomedical research center focused on the health and 
wellness of children. In this program, medical researchers direct 
efforts towards the prevention and cure of environmental and genetic 
diseases of infants and children at molecular and cellular levels.
    The Child Health Institute will be the cornerstone institution of a 
major research and clinical effort to understand, prevent and treat 
childhood diseases. It is integral to the long-term plan for the 
enhancement of research at UMDNJ-RWJMS in developmental genetics, 
particularly as it relates to disorders that affect a child's 
development and growth, physically and cognitively. The program will 
enable the medical school to expand and strengthen basic research 
efforts with clinical departments at the Robert Wood Johnson University 
Hospital (RWJUH) and, in particular, those involved with the new 
Bristol-Myers Squibb Children's Hospital at RWJUH, especially 
obstetrics, pediatrics, neurology, surgery and psychiatry. The 
construction of the Child Health Institute at RWJMS will fill a 
critical gap through the expansion, by new recruitment, of a 
intellectual base upon which basic molecular programs in child 
development and health will build.
    At the Child Health Institute, research will serve as the basis for 
new treatments, therapies and cures for such devastating and 
debilitating childhood syndromes as asthma, autism, diabetes, muscular 
dystrophy, birth defects and neuro-developmental disorders. Research 
will focus on the molecular and genetic mechanisms which direct the 
development of human form, subsequent growth, and acquisition of 
function. Broadly, the faculty and students will investigate disorders 
that occur during the process of development to discover and study the 
genes contributing to developmental disabilities and childhood 
diseases; to determine how genes and the environment interact to cause 
childhood diseases; and to identify the causes and possible avenues of 
treatment of cognitive disorders broadly found among conditions such as 
mental retardation, autism and related neurological disorders.
    Research at the Child Health Institute will focus on molecular 
mechanisms of early embryonic development, a natural, but vulnerable, 
water-based environment. Normal child development is a water dependent 
process, reflecting water quality, quantity and its ``management'' by 
cells and tissues. A critical component of the research infrastructure 
being developed within the Child Health Institute is an Imaging Core 
Facility. Through this facility researchers will be able to better 
visualize the dynamics of structures within cells and cells within 
developing tissues. Understanding these dynamics is crucial to 
expanding knowledge of the processes involved in embryonic and later 
development.
    The Child Health Institute of New Jersey builds on existing 
significant strengths in genetic, environmental, and neurosciences 
research within the UMDNJ-RWJMS and associated joint programs with 
Rutgers University and other research institutes. For example, the 
Environmental and Occupational Health Sciences Institute (EOHSI) is a 
National Institute of Environmental Health Sciences (NIEHS) recognized 
center of excellence which investigates environmental influences on 
normal and disordered functions; The Cancer Institute of New Jersey 
(CINJ), a National Cancer Institute-designated Comprehensive Cancer 
Center, studies disordered cell growth; and the Center for Advanced 
Biotechnology and Medicine (CABM) characterizes gene structure and 
function.
    The CHI will act as a magnet for additional growth in research and 
healthcare program development in New Jersey. The Institute will 
encompass 150,000 gross square feet and will house more than 40 
research laboratories and associated support facilities. Fourteen 
senior faculty will direct teams of M.D. and Ph.D. researchers, 
visiting scientists, postdoctoral fellows, graduate students and 
technicians, for a full complement of some 130 employees.
    Construction costs for the Institute are estimated to be 
approximately $72 million; approximately half of this figure is 
generally associated with local employment. At maturity, the Institute 
is expected to attract $7 to $9 million of new research funding 
annually. The Institute's total annual operating budget is projected to 
be $10 to $12 million, with total economic impact on the New Brunswick 
area projected to be many times this amount.
    The Child Health Institute has assembled more than $40 million to 
fund its building and programs through a strong partnership among 
private, corporate and government entities. The support of the Congress 
has resulted in more than $6 million in directed appropriations for the 
CHI over the past 4 years, including appropriations from this committee 
in fiscal years 2001 and 2002.
    We respectfully seek $2 million to complement support already 
received in Federal participation to further advance the development of 
the Child Health Institute of New Jersey. Requested funding will be 
utilized for the purchase of analytical equipment, including laser 
scanning and photon microscopes for the Imaging Core Facility within 
the Child Health Institute.
    Support is also requested in fiscal year 2005 to enable the 
Informatics Institute of the University of Medicine and Dentistry of 
New Jersey to recruit additional faculty and build core research 
facilities for modern drug discovery. This initiative will strengthen 
the University's graduate program in bioinformatics that is training 
the next generation of scientists in the field, and will accelerate the 
work of UMDNJ scientists to convert research findings into novel drug 
candidates.
    Bioinformatics is revolutionizing biomedical research by 
integrating mathematics, computer science, molecular biology and 
genetics. Scientists use bioinformatics to accelerate the discovery of 
new drugs and vaccines for the prevention and treatment of many 
diseases. The Informatics Institute was established in 2001 to 
strengthen informatics-driven activities at the University of Medicine 
and Dentistry of New Jersey and to forge new academic/industry 
partnerships in this emerging area. The University's first graduate 
program in bioinformatics, funded by a $2.3 million grant from the 
State of New Jersey, is helping to meet a critical shortage of skilled 
workers in bioinformatics and related disciplines.
    Academic collaborations already established by the Informatics 
Institute are advancing priority Federal goals in homeland security and 
the discovery of cures and treatments for major diseases. Partnerships 
forged by the Institute complement and enhance significant Federal 
resources that have strengthened UMDNJ's centers of excellence in 
biodefense and infectious disease research, cancer research and 
treatment, environmental health and toxicology, and biomedical polymer 
engineering.
    UMDNJ presently supports a broad array of research programs engaged 
in the discovery and characterization of potential drug targets (genes, 
proteins). However, the full value of these substantial research 
accomplishments is often lost, due to the absence of capacity for 
translating these targets into novel drug candidates. This capability 
can be provided only through major investment in resources for modern 
drug discovery: bioinformatics, computer-aided molecular modeling and 
design, medicinal chemistry, and high-throughput synthesis and 
screening of drug candidates. The opportunity is especially compelling 
in New Jersey, which is home for 15 of the world's largest 
pharmaceutical companies and more than 150 biotechnology companies and 
which ranks highest in per capita number of scientists and engineers in 
the Nation.
    The sustained growth of our graduate program and other informatics 
initiatives requires a major investment in computational facilities and 
the recruitment of additional bioinformatics faculty and staff. We 
respectfully seek Federal participation of $6 million in fiscal year 
2005 to recruit additional bioinformatics and medicinal chemistry 
faculty and postdoctoral researchers, and to build core research 
facilities for modern drug discovery.
    We thank this committee for its strong support of biomedical 
research and for the University's programs.
                                 ______
                                 
  Prepared Statement of the California Government and Private Sector 
   Coalition for Operation Clean Air's Sustainable Incentive Program
    Mr. Chairman and members of the subcommittee, on behalf of the 
California Government and Private Sector Coalition for Operation Clean 
Air's (OCA) Sustainable Incentive Program, we are pleased to submit 
this statement for the record in support of our fiscal year 2005 
funding request of $11,000,000 for OCA as part of a Federal match for 
the $180 million already contributed by California State and local 
agencies and the private sector for incentive programs. This request 
consists of $11,000,000 from DOE for alternative fuels and utility 
infrastructure funding.
    California's great San Joaquin Valley is in crisis. Home to over 
3.3 million people, its 25,000 square miles now has the unhealthiest 
air in the country. Even Los Angeles, long known as the smog capital of 
the Nation, can boast better air quality by certain standards. While 
peak concentrations of air pollutants are still greater in Los Angeles, 
for the past 4 years, the San Joaquin Valley has exceeded Los Angeles 
in violations of the ozone 8-hour Federal health standard.
    A combination of geography, topography, meteorology, tremendous 
population growth, urban sprawl and a NAFTA corridor of two major 
highways with over 5 million diesel truck miles per day, have collided 
to produce an air basin in which over 300,000 people, nearly 10 percent 
of the population, suffer from chronic breathing disorders. In Fresno 
County, at the heart of the San Joaquin Valley, more than 16 percent of 
all children suffer from asthma, a rate substantially higher than any 
other place in California. The extreme summertime heat creates smog 
even though smog-forming gases are less than half the amount in the Los 
Angeles basin. There is no prevailing wind to flush the natural 
geologic bathtub and, as a result, pollutants and particulates 
stagnate, accumulate, and create unhealthy air.
    Degradation of human health is not the only consequence of poor 
quality air. In December 2003, the San Joaquin Valley Air Pollution 
Control District Board decided to become the first Air District in the 
Nation to voluntarily declare itself an ``extreme'' non-attainment 
area. This designation, if approved by USEPA, will defer until 2010 the 
date for attainment of Federal standards of air quality, but comes at a 
cost of imposing permitting on thousands of more businesses and even 
further discouraging business expansion or relocation. More Valley's 
businesses will be required to obtain permits and comply with 
increasingly burdensome regulations imposed by Federal and State law 
and the Air Pollution Control District, resulting in added cost in 
compliance, reporting and record keeping. At the same time, the area is 
burdened by chronic unemployment rates of nearly 20 percent. 
Encouraging business expansion in or relocation to the San Joaquin 
Valley to combat unemployment will be extremely difficult in the face 
of such regulatory burdens.
    The San Joaquin Valley is home to the most productive agricultural 
land in the world. Over 350 crops are produced commercially on 28,000 
farms encompassing more than 5 million irrigated acres. While the 
agricultural industry has made great strides at considerable expense to 
replace old diesel engines and manage fugitive dust and other 
emissions, farming does contribute to the problem. However, it is a $14 
billion industry that forms the backbone of the Valley's economy, and 
its vitality is crucial.
    Industry alone is not the source of the Valley's poor air quality. 
Population growth rates exceeding those in the rest of the State and 
most of the Nation, in an area without effective mass transit, where 
cheap land has led to a landscape of suburbia and sprawl, results in 
excessive over-reliance on the automobile. Trucking has increased 
dramatically with the increase in population, and Federal free trade 
policies. Other factors such as fireplace burning in the winter, open 
field agricultural burning because of lack of sufficient alternatives, 
and wild fires resulting from lack of controlled burning in the nearby 
foothills and mountains all contribute to the problem.
    Despite the challenges listed above, much progress has been made. 
The State has spent nearly $80 million on improvement and compliance 
programs. Local government and private industry have spent over $100 
million on technology and compliance. As specific examples, over one-
half of the diesel operated irrigation pumps used by agriculture have 
been replaced with cleaner engines. The City of Tulare has converted 
its entire fleet of vehicles to natural gas as have several other 
private fleet operators. A $45 million federally financed comprehensive 
study of ozone and particulate matter is nearing completion. As a 
result, the number of 1-hour EPA health standard exceedences has been 
reduced by 40 percent since 1989.
    But much more needs to be done. The District estimates that daily 
emissions must be reduced by 300 tons to achieve attainment. There is 
no single or short-term quick fix. The entire Valley (an area the size 
of the State of Connecticut) is part of the problem and the entire 
Valley will need to be part of the solution.
    Operation Clean Air is a coalition of business, government, health 
care, and environmental groups throughout the eight-county San Joaquin 
Valley Air Pollution Control District. Its goal is to clean the 
Valley's air and increase its economic prosperity. The coalition seeks 
to catalogue efforts that have produced positive effects and identify 
those strategies that could produce even greater effects if supported 
by sufficient resources. At the heart of its efforts will be an array 
of sustainable, voluntary practices and activities that can and will be 
undertaken by all of the residents of the San Joaquin Valley, both 
public and private, to improve air quality.
    This unique public-private partnership has invested considerable 
resources in this project to date, and will continue to do so, but 
Federal funding is both imperative and justified to help address what 
is essentially an unfounded Federal mandate.
    For fiscal year 2005, our Coalition is seeking funding of 
$11,000,000 from the Department of Energy's (DOE) Energy Supply Program 
for the installation and operation of alternative fuels infrastructure 
throughout the San Joaquin Valley Air Basin. Infrastructure for both 
mobile and stationary engines is included and will allow for the 
accelerated introduction of alternatively fueled vehicles in municipal 
fleets, public school fleets, and private fleets as well as for 
stationary, agricultural irrigation pump engines in the rural areas. 
The widespread use of lower-emitting engines will provide significant 
improvement to air quality in the San Joaquin Valley while furthering 
the goals of the President's National Energy Policy, which recommends 
enhancement of the supply of reliable energy while protecting our 
environment. OCA believes, like DOE, that there is direct applicability 
of alternative fuel (e.g. natural gas) engine expertise to the 
development and deployment of hydrogen power systems. OCA wants to see 
the San Joaquin Valley as the first area in the Nation for hydrogen 
infrastructure development and hydrogen vehicle deployment. This is in 
direct alignment with the Secretary's long-term vision of a zero 
mission future, free of reliance on imported energy. Development of 
alternative fuel infrastructure will augment the low-emission vehicle 
program by providing much needed compressed natural gas (CNG) and 
liquefied natural gas (LNG) fueling facilities.
    Thank you very much your consideration of our requests.
                                 ______
                                 
           Prepared Statement of the University of Rochester
                                program
    DOE Inertial Confinement Fusion Program--DOE [National Nuclear 
Security Agency (NNSA)] Defense Programs for fiscal year 2005.
                               background
    The inertial confinement fusion (ICF) program is a key element in 
the Department of Energy's (DOE) Stockpile Stewardship Program (SSP) 
authorized by Public Law 103-160 to ``establish a stewardship program 
to ensure the preservation of the core intellectual and technical 
competencies of the United States in nuclear weapons.'' The OMEGA laser 
at the University of Rochester's Laboratory for Laser Energetics (LLE) 
is the principal laser research facility for the University and three 
national laboratories (Los Alamos, Sandia, and Livermore) for ICF and 
SSP experiments. LLE is the only facility that also trains significant 
numbers of graduate students in inertial fusion. The OMEGA laser, the 
highest-power ultraviolet fusion laser in the world, is the principal 
laser facility for SSP activities for DOE in fiscal year 2005 and for a 
number of years to come. The Secretary of Energy Advisory Board (SEAB) 
National Ignition Facility Laser System Task Force Report noted the 
importance of continuing scientific contact with ``. . . the laser-
based research at the University of Rochester.''
    LLE (since 1970) is the only ICF program that has been jointly 
supported by the Federal Government, State government, industry, 
utilities, and a university. LLE makes fundamental scientific 
contributions to the national program. The Laboratory transfers 
technology to the public and private sectors through the training of 
graduate students and interactions with industry and other Federal 
laboratories. The Laboratory also serves as a National Laser Users' 
Facility benefiting scientists throughout the country.
    The present primary mission of LLE's research is to validate the 
direct-drive option for ICF intended for use on the National Ignition 
Facility (NIF) in order to demonstrate ignition and energy gain. DOE 
proclaimed that OMEGA is also needed to meet mission-critical 
requirements for ignition on NIF, and to conduct experiments to support 
the SSP mission, including some that are classified, in collaboration 
with the national laboratories.
    The OMEGA laser at LLE is the only operating experimental facility 
that can demonstrate the scientific potential of direct drive to 
provide a modest- to high-gain energy option for the Nation. For fiscal 
year 2005 funds are also requested to continue construction of the 
extended performance capability (EP) to the OMEGA facility and funds to 
continue to develop petawatt technologies for the national program. DOE 
has approved the mission need and purchase of long-lead procurements 
during fiscal year 2003, and approval of the final design is expected 
during fiscal year 2004. The Congress provided $20,000,000 to continue 
the OMEGA EP project in the fiscal year 2004 Energy and Water 
Development Appropriation Act, which will significantly expand the 
research capabilities of the existing OMEGA facility. OMEGA EP provides 
the Nation with an enhanced capability to perform SSP experiments, to 
test high-gain ICF concepts, and to provide a premier high-intensity-
laser interaction facility for the United States. The University of 
Rochester is providing a new building ($20 million) for the OMEGA EP 
project at no cost to the government. Because the new cost-shared 
facility will keep the research at the LLE technologically current, LLE 
will be able to continue to be a national and world leader in its 
field, and serve as an important, cost-effective support facility to 
assure the success of the NIF. This represents an unusually successful 
partnership among the private sector, academia, and the State and 
Federal governments. The OMEGA facility will be the only large laser 
implosion facility for NNSA in the United States until at least 2008 
when NIF construction is completed.
                            requested action
    To provide the support for program deliverables and the operation 
and extension of OMEGA (for both ICF experiments and SSP experiments), 
and to maintain the related training programs at Rochester, a total of 
$69,469,000 for the University of Rochester for fiscal year 2005 is 
required. This amount includes $41,469,000 for operating funds and 
$4,000,000 for the OMEGA EP facility included in the administration's 
request, and an additional $21,000,000 for the OMEGA extended 
performance capability, and $3,000,000 for petawatt technology 
development required to maintain the cost and schedule of the project.
                               discussion
    Thermonuclear fusion is the process by which nuclei of low atomic 
weight such as hydrogen combine to form higher atomic weight nuclei 
such as helium. In this process some of the mass of the original nuclei 
is lost and transformed to energy in the form of high-energy particles. 
Energy from fusion reactions is the most basic form of energy in the 
universe; our sun and all other stars produce energy by thermonuclear 
fusion reactions occurring in their interior. Fusion is also the 
process that provides the vast destructive power of thermonuclear 
weapons. The most significant long-term potential commercial 
application of fusion is the generation of electric power.
    To initiate fusion reactions, the fuel must be heated to tens of 
millions of degrees. In stellar bodies, containment is possible because 
of the large gravitational force. On earth, two approaches are being 
investigated to demonstrate controlled fusion: magnetic confinement 
fusion and inertial confinement fusion (ICF). ICF involves the heating 
and compression of fusion fuel by the action of intense laser or 
particle beam drivers. There are two approaches to ICF, direct and 
indirect drive: indirect drive involves the conversion of beam energy 
to X-rays to compress a fuel capsule in an enclosure called a hohlraum; 
direct drive involves the direct irradiation of spherical fuel capsules 
by energy from a laser and may be more energetically efficient than 
indirect drive. For either approach, if very extreme density and 
temperature conditions are produced, it is possible to produce many 
times more energy in these fusion reactions than the energy provided by 
the drivers.
        omega extended performance (omega ep) facility at ur/lle
    The University of Rochester's Laboratory for Laser Energetics (UR/
LLE) is the lead laboratory for direct-drive inertial confinement 
fusion (ICF) and is the location of the OMEGA laser facility. Only 
three facilities, OMEGA at Rochester, Z at Sandia National Laboratory, 
and a few operating beamlines of NIF are available to conduct high-
energy-density physics experiments in support of the Nation's Stockpile 
Stewardship Program (SSP) and ICF. (In fiscal year 2003, over half of 
the OMEGA shots, 742, were for outside users, including 578 for the 
national laboratories.) OMEGA and the National Ignition Facility (NIF) 
under construction at the Lawrence Livermore National Laboratory are 
designed to support SSP and ICF by performing planar-target and 
spherical-implosion experiments at high laser irradiation intensities. 
Using high-energy, high-power lasers, a highly compressed core of 
deuterium-tritium fuel can be assembled that, with the full energy of 
NIF, will achieve controlled thermonuclear ignition and gain. (Ignition 
refers to initiating a self-sustaining fusion reaction, and gain refers 
to achieving more energy out of the reaction than was used to initiate 
it.)
    Three years ago UR/LLE proposed to construct a super-high-
intensity, high-energy laser facility. DOE has approved the mission 
need and purchase of long-lead procurements in fiscal year 2003, and 
approval of the final design is expected during fiscal year 2004. The 
Fiscal Year 2004 Energy and Water Development Appropriations Act 
provided $20,000,000 to continue this project. The project schedule and 
cost, based on actual funding received to date, are shown in the table 
below. The total cost ($82,000,000 in as-spent dollars) is unchanged 
from the previous request. The University of Rochester is providing a 
building, estimated to cost about $20,000,000 to house the new 
facility. The new building is under construction and is slated for 
completion by January 2005.
    OMEGA EP will significantly benefit SSP and ICF through the ability 
to produce intense photon, proton, and electron beams for radiography 
and by conducting experiments to test advanced computer codes relevant 
to nuclear weapons, basic science, and astrophysics. There are 
additional exciting basic science applications that enhance our 
national ability to attract and retain the scientific expertise 
required for the United States' nuclear weapons program in the future.
    Super high-intensity, high-energy laser sources will significantly 
advance ignition physics. Very high intensities allow the ICP and SSP 
programs to test advanced concepts that can increase the gain of an ICF 
target. During the past year, LLE scientists have examined using NIF 
for direct drive (laser light directly drives the target). Calculations 
indicated that the gain is potentially at least three times larger than 
can be achieved using indirect drive (conversion of laser light to X-
rays that drive the target). Since a conversion of laser light to X-
rays is not required for direct drive, the efficiency of the process is 
higher. With direct drive, the target absorbs about five times more 
energy, and it is this increased energy that is responsible for the 
higher gain.
    OMEGA EP, when completed, will support the SSP and ICF programs. 
Concomitantly, with the delay of the NIF this added capability would 
contribute substantially to the critical need to recruit and retain 
graduate students, postdoctoral associates, University faculty members, 
and national laboratory scientists in areas of national need.
    OMEGA is the only facility capable of assembling an highly 
compressed deuterium-tritium core from a cryogenic target; it is the 
only location where advanced concepts for ignition and gain can be 
tested. Other advantages include (1) operating synergies with OMEGA 
will reduce operating costs, (2) UR/LLE has an established scientific 
user base, and (3) UR/LLE has a proven track record of delivering 
similar-sized projects on time and on budget as well as operating and 
maintaining large-scale laser systems.
    The construction time line and cost for this extended capability is 
as follows:

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2004         2005         2006         2007
----------------------------------------------------------------------------------------------------------------
Design & Long Lead Procurement.................           13  ...........  ...........  ...........  ...........
Procurement and Assembly.......................  ...........           20           25  ...........  ...........
Integration & Commissioning....................  ...........  ...........  ...........           17            7
----------------------------------------------------------------------------------------------------------------

    Total Project Cost.--$82,000,000 (OMEGA EP) plus $20,000,000 
(building) plus $1,500,000 from New York State (auxiliary target 
chamber) equals $103,500,000. (This is for OMEGA EP, $82 million from 
the Federal Government, $20 million from the University, and $1.5 
million from New York State. Not included is the operating and research 
cost that are included in the administration's request annually.)

                        PREVIOUS FEDERAL FUNDING
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal Year 2004 Appropriation..........................     $63,132,000
Fiscal Year 2003 Appropriation..........................      47,878,800
Fiscal Year 2002 Appropriation..........................      34,693,000
Fiscal Year 2001 Appropriation..........................      33,150,000
------------------------------------------------------------------------

                            requested action
    To provide the support for program deliverables and the operation 
and extension of OMEGA (for both ICF experiments and SSP experiments), 
and to maintain the related training programs at Rochester, a total of 
$69,469,000 for the University of Rochester for fiscal year 2005 is 
required. This amount includes $41,469,000 for operating funds and 
$4,000,000 for the OMEGA EP facility included in the administration's 
request, an additional $21,000,000 for the OMEGA extended performance 
capability, and $3,000,000 for petawatt technology development required 
to maintain the cost and schedule of the project.
                                 ______
                                 
          Prepared Statement of the Energy Sciences Coalition
    Chairman Domenici, the Energy Sciences Coalition expresses its 
great appreciation for the leadership you have shown as chairman of the 
Energy and Water Development Appropriations Subcommittee. We applaud 
your vision of how the programs of the Department of Energy's Office of 
Science will lead to research discoveries and technological 
developments benefiting this and future generations. We are requesting 
$3.8 billion for the Office in fiscal year 2005.
    The Energy Sciences Coalition is a broadly based organization 
representing scientists, engineers and mathematicians in universities, 
industry, professional societies, and national laboratories. We share 
your belief that the research supported by the Office of Science has 
and will make significant contributions to our Nation's security and 
standard of living.
    The coalition supports the findings of several reviews of the 
programs of the Office of Science, and the pressing need to augment its 
funding. Last fall, Secretary Spencer Abraham's Advisory Board released 
a report on the department's science programs. This task force panel 
was chaired by MIT President Charles Vest, including the former 
president of the NASDAQ Stock Market; industry, university, and 
association CEOs; and senior policy analysts. Among their findings and 
conclusions are:

    ``America can be free, secure and economically strong in the 21st 
century only if we continue to excel in science and advanced 
technology.'' ``America can meet its energy needs if and only if we 
make a strong and sustained investment in research in physical science, 
engineering, and applicable areas of life science, and if we translate 
advancing scientific knowledge into practice.'' ``DOE science budgets 
have not received the priority merited by their importance to our 
Nation's future energy, security, and economy.'' ``The federal 
investment in physical science and engineering has been stagnant for 
over thirty years. During this same period, the Department's national 
laboratories have suffered from decay and deferred maintenance, and 
U.S. industry has largely phased out its basic research programs and 
organizations. As a result, the U.S. is no longer the clear leader in 
some important areas of science.''

    Groundbreaking research supported by the Office of Science is 
conducted in universities and other institutions across the United 
States.
    Our Nation benefits not only from the discoveries that will be made 
with this support, but also from the training of America's next 
generation of researchers. Such training will be instrumental in 
maintaining our Nation's technological superiority in the international 
marketplace. The Office of Science also plays an extremely important 
and unique role in the design, construction, and operation of large-
scale user facilities used by researchers supported by the Department 
of Energy, National Institutes of Health, and the National Science 
Foundation.
    Enclosed please find a copy of the Energy Sciences Coalition's 
fiscal year 2005 funding statement. After carefully considering the 
President's science goals in areas such as hydrogen energy, fusion, the 
human genome, climate change, and a review of the 20-year facilities 
and strategic plans, the Coalition recommends an increase in the budget 
for the Office of Science of not less than $350 million to a level over 
$3.8 billion.
    In closing, I again express the coalition's gratitude for the 
leadership that you and your colleagues have demonstrated in supporting 
the important work of the Office of Science. Please do not hesitate to 
contact me if the Coalition can be of any assistance.
    The Energy Sciences Coalition (ESC) supports the Department of 
Energy (DOE) Office of Science funding levels approved by both the 
House and Senate in their respective versions of the Energy Policy Act. 
These funding levels are easily justifiable given the tremendous 
scientific opportunities that currently exist, as well as the broad 
range of other science-related issues that the Office of Science is 
uniquely positioned to address. These opportunities, and the facilities 
and projects needed to achieve them, are well documented and outlined 
in both the Department's 20-year scientific facilities plan released in 
November 2003 and the Secretary of Energy Advisory Board's (SEAB) 
December 2003 report on DOE science.
    However, the Energy Sciences Coalition is also aware of the 
significant fiscal constraints facing the administration and Congress 
this year. Weighing the economic and national security value of 
investments in these science programs against current fiscal 
constraints, the Energy Sciences Coalition urges an fiscal year 2005 
increase of not less than $350 million for the DOE Office of Science, 
bringing the total DOE Office of Science budget to a level over $3.8 
billion. While significantly less than the fiscal year 2005 levels 
contained in the House and Senate passed energy policy bills cited 
above, this figure is similar to the funding levels these bills 
contained for fiscal year 2004.
    We believe that growth for the DOE Office of Science at a rate 
lower than 10 percent in fiscal year 2005 and in the next few years--a 
growth rate which is less than what is called for in the House and 
Senate authorization bills--will make it virtually impossible for the 
Department to move forward with the initiatives and recommendations 
outlined in the 20-year plan and by SEAB without severely damaging 
already existing and very successful DOE science programs.
            fiscal year 2005 esc funding statement endorsees
    American Chemical Society; American Institute of Physics; American 
Mathematical Society; American Physical Society; American Society of 
Agronomy; American Society of Plant Biologists; Association of American 
Universities; Battelle; Crop Science Society of America; Fusion Power 
Associates; General Atomics; Krell Institute; Massachusetts Institute 
of Technology; Michigan State University; National Association of State 
Universities and Land-Grant Colleges; North Carolina State University; 
Ohio State University; Optical Society of America; Princeton 
University; Purdue University; Society for Industrial and Applied 
Mathematics; Soil Science Society of America; Southeastern Universities 
Research Association; Stanford University; Stony Brook University; 
Universities Research Association, Inc.; University of California; 
University of Chicago; University of Cincinnati; University of Houston; 
University of Pittsburgh; University of Southern California; University 
of Tennessee; University of Washington; University of Wisconsin-
Madison.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university community involved in weather and climate 
research and related education, training and support activities, I 
submit this written testimony for the record of the Senate Committee on 
Appropriations, Subcommittee on Energy and Water Development.
    UCAR is a 68-university member consortium that manages and operates 
the National Center for Atmospheric Research (NCAR) and additional 
programs that support and extend the country's scientific research and 
education capabilities. In addition to its member research 
universities, UCAR has formal relationships with approximately 100 
additional undergraduate and graduate schools including several 
historically black and minority-serving institutions, and 40 
international universities and laboratories. UCAR's principal support 
is from the National Science Foundation (NSF) with additional support 
from other Federal agencies including the Department of Energy (DOE).
                         doe office of science
    We were extremely pleased to see the recommendations of the task 
force of the Secretary of Energy Advisory Board contained in the Final 
Report of the Task Force on the Future of Science Programs at the 
Department of Energy. The scientific community is aware that the report 
recommendation to strengthen the Federal investment in the physical 
sciences and advanced engineering research is supported by many members 
of Congress; it is a recommendation on which I am sure many 
subcommittee members would like to act.
    DOE is the largest Federal sponsor of basic research in the 
physical sciences, but the level of funding for DOE's core science 
programs has remained stagnant for years, while the number of 
``congressionally directed projects'' has increased. While many of 
these add-ons seem worthy, they are diverting DOE's base funding from 
peer-reviewed research programs that are planned well in advance to 
accomplish DOE's mission in service to the country and are competed 
among the country's top researchers.
    In the House Science Committee's recently released ``Views and 
Estimates'' for fiscal year 2005, the committee acknowledges the very 
difficult budget decisions Congress will have to make this year. 
However, as it has in past years, it criticizes the administration's 
budget request for DOE's Office of Science, calling it ``inadequate'' 
and ``dwarfed'' by support for the life sciences in recent years. Two 
bills, H.R. 34 and S. 915, authorize increased funding for the Office 
of Science, essentially doubling its budget. The conference report to 
H.R. 5, The Energy Policy Act of 2003, recommends that the Office of 
Science budget be funded at $4.2 billion, a 23 percent increase over 
the fiscal year 2004 amount.
    As you are well aware, a healthy science budget ensures a vital 
workforce, strong economy, and contributes directly to national 
security. The administration's fiscal year 2005 request cuts DOE's 
Office of Science by 2 percent. I urge the subcommittee to fund the DOE 
Office of Science at the level of the fiscal year 2004 Original 
Appropriation plus Adjustments, or $3.5 billion, at the very least, and 
to enable the agency to apply the entire appropriated amount toward 
planned agency research priorities. This level of research funding will 
critically augment and reinvigorate the work of researchers throughout 
the Nation.
                 biological and environmental research
    Within the Office of Science, the Biological and Environmental 
Research (BER) program develops the knowledge necessary to identify, 
understand, and anticipate the potential health and environmental 
consequences of energy production and use. These are issues that are 
absolutely critical to our country's well-being and security, yet the 
request of $496.6 million for BER research is down over 29 percent from 
the fiscal year 2004 enacted level of $641.5 million. This reduction 
eliminates over $80.0 million worth of ``extra projects'' funded last 
year.
    Peer-reviewed university research programs play a critical role in 
the BER program involving the best researchers the Nation's 
institutions of higher learning have to offer, and developing the next 
generation of researchers. Approximately half of BER basic research 
funding supports university-based activities directly and indirectly. 
All BER research projects, other than those in the ``extra projects'' 
category, undergo regular peer review and evaluation. In step with the 
recommendation made above for the Office of Science, I urge the 
subcommittee to fund Biological and Environmental Research at the level 
of the fiscal year 2004 Original Appropriation plus Adjustments, or 
$641.5 million, and to enable BER to apply the entire appropriated 
amount toward planned agency research priorities that are peer-reviewed 
and involve the best researchers to be found within the Nation's 
university research community as well as the DOE labs.
                        climate change research
    Within BER, the Climate Change Research long-term goal is to 
deliver improved climate data and models for policy makers to determine 
safe levels of greenhouse gases for the Earth system. This work is 
critical to the health of the planet. The extremely important target 
capability for fiscal year 2005 is to enable studies of the 
interactions between the carbon cycle and climate and between secondary 
sulfur aerosols and climate. The Climate Change Research Request of 
$142.9 million is flat with the fiscal year 2004 Original Appropriation 
level. I urge the subcommittee to fund Climate Change Research at a 
level that is consistent with the request for BER stated above.
    Climate Change Research is composed of several programs of great 
importance to the atmospheric sciences community and the Nation. 
Climate and Hydrology contains Climate Modeling which develops the best 
coupled atmospheric-ocean general circulation models, and Atmospheric 
Radiation Measurement (ARM) Research which contributes to our 
understanding of the processes that control solar and thermal infrared 
radiative transfer through clouds and at the earth's surface. ARM 
supports a number of scientific ``Fellows,'' making an important 
contribution to the development of the next generation of climate 
scientists. Both Climate Modeling and ARM are programs that are of 
critical importance to the Nation's overall climate change research 
efforts. Climate and Hydrology receives a 0.6 percent increase in the 
fiscal year 2005 request. I urge the subcommittee to fund Climate and 
Hydrology at a level that is consistent with the request for BER and 
Climate Change Research stated above.
    Also within Climate Change Research, Atmospheric Chemistry and 
Carbon Cycle is a program that includes Atmospheric Science, the work 
of which is essential for assessing the effects of energy production on 
air quality and climate through the quantification of the impacts of 
energy-related aerosols on climate. This work will be closely linked 
with the ARM program described above. I urge the subcommittee to fund 
Atmospheric Chemistry and Carbon Cycle at a level that is consistent 
with the request for BER and Climate Change Research stated above.
                 global change education program (gcep)
    Within the Climate Change Research program, the Global Change 
Education Program funds the DOE's Summer Undergraduate Experience and 
Graduate Research Environmental Fellowships, as well as positions in 
the Significant Opportunities in Atmospheric Research and Science 
(SOARS) program, which is managed by UCAR. The DOE education programs 
are not slated to receive an increase, which has been the case for many 
years. DOE participation in the multi-agency funded SOARS program has 
been eliminated completely by BER program managers because of funding 
issues.
    The lack of ethnic diversity among advanced-degree atmospheric 
science graduates is well documented. SOARS is a model mentoring 
program, which received the prestigious Presidential Award for 
Excellence in Science, Mathematics, and Engineering Mentoring in 2001. 
Now in its eighth year, SOARS provides a unique, 4-year experience for 
underrepresented students interested in graduate work in the 
atmospheric and related sciences. If funding for the Climate Change 
Research Program does not increase over the fiscal year 2005 requested 
level, underrepresented students will be turned away from this 
invaluable SOARS experience.
             advanced scientific computing research (ascr)
    DOE's ASCR provides advances in computer science and the 
development of specialized software tools that are necessary to 
research the major scientific question being addressed by the Office of 
Science. ASCR's continued progress is of particular importance to 
atmospheric scientists involved with complex climate model development, 
research that takes enormous amounts of computing power. By their very 
nature, problems dealing with the interaction of the earth's systems 
and global climate change cannot be solved by traditional laboratory 
approaches. The Intergovernmental Panel on Climate Change (IPCC) has 
begun work on its Fourth Assessment Report to be completed in 2007, and 
ASCR's contribution to this international document will be critical. In 
order to maintain our international leadership in advanced computing, I 
urge the subcommittee to provide ASCR with the requested level of 
$204.3 million.
                               conclusion
    On behalf of UCAR and the atmospheric sciences research community, 
I want to thank the subcommittee for the important work you do for U.S. 
scientific research. We appreciate your attention to the 
recommendations of our community concerning the fiscal year 2005 budget 
of the Department of Energy. We understand and appreciate that the 
Nation is undergoing significant budget pressures at this time, but a 
strong Nation in the future depends on the investments we make in 
science and technology today.
                                 ______
                                 
         Prepared Statement of the Southern States Energy Board
    Mr. Chairman, the Southern States Energy Board (SSEB) is pleased to 
provide this statement for the record to the U.S. Senate Appropriations 
Subcommittee on Energy and Water Development as it considers fiscal 
year 2005 funding for the U.S. Department of Energy (DOE), Office of 
Energy Efficiency and Renewable Energy (EERE), and specifically related 
to the biomass/biofuels fiscal year 2005 budget request. SSEB governors 
recommend that the Congress appropriate $5,000,000 to the State/
Regional Biomass Partnership and direct the Department to work with 
regional governors' organizations, specifically the Southern States 
Energy Board, the Coalition of Northeast Governors Policy Institute, 
the Council of Great Lakes Governors and the Western Governors' 
Association, to make the Partnership even more successful.
    This line item, which would continue an appropriation that has 
appeared in every Federal budget since fiscal year 1983, is for the 
purpose of promoting economic development by fostering the use of 
biobased products and bioenergy, and takes advantage of and sustains 
existing networks and infrastructure developed throughout the Nation by 
the regional governors' organizations.
    The Board commends Congress for restoring $3,000,000 to the U.S. 
DOE Regional Biomass Energy Program (RBEP) in the Fiscal Year 2003 
Omnibus Bill and $2,000,000 in the Fiscal Year 2004 Energy and Water 
Development Appropriations bill. In addition, the Board wishes to 
commend the administration for reinstating the State/regional biomass 
partnership in the fiscal year 2005 budget request. SSEB and other 
regional governors organizations received new cooperative agreements 
for the fiscal year 2003 funding on March 2, 2004.
    Energy independence is a critical element in the administration's 
Energy Policy and can be significantly enhanced by developing viable 
domestic alternative energy sources. Funding for the State/regional 
biomass partnership greatly enhances the States' ability to participate 
in the development of biomass energy markets.
    As the precursor to the State/Regional Biomass Partnership, the 
Regional Biomass Energy Program was created by Congress in 1983 under 
the Energy and Water Development Appropriations bills Public Law 97-88 
and Public Law 98-50. The enabling legislation instructed DOE to design 
its national program to work with States on a regional basis, taking 
into account regional biomass resources and energy needs.
    The five regional partnerships, working with representatives in all 
50 States, Puerto Rico and the Virgin Islands, and hosted primarily by 
regional governors' organizations (Southern States Energy Board, 
Coalition of Northeastern Governors, the Council of Great Lakes 
Governors and the Western Governors' Association) are recognized 
nationally for their combined experience related to biomass 
technologies and policies. SSEB and other regional governors' 
organizations hosting State/regional biomass energy partnerships are 
critical to DOE for formulating policies and facilitating private 
sector deployment of advanced energy technologies and practices into 
target markets.
    Beyond the potential economic development benefits, participating 
States gain the opportunity to strengthen and integrate the work of 
energy, agriculture, forestry, environmental and other State agencies. 
Where issues are the same among several States, strategies can be 
developed to address these issues across State borders. Examples 
include the development of similar State legislative actions, working 
with the private sector with multi-State locations, and multi-State 
training and outreach to economize resources.
    In the past, the southern States have participated in this strategy 
through the Southeastern Regional Biomass Energy Program (SERBEP) which 
has provided over $5.8 million in project funds since 1992 with a cost-
share of over $21 million by leveraging State and private funding for 
technology development and deployment. In 1999, SSEB was selected as 
the ``host organization'' for the SERBEP and received funding through a 
5-year cooperative agreement.
    SSEB is an interstate compact organization with enabling 
legislation in each member State, covering the 16 States plus Puerto 
Rico and the U.S. Virgin Islands, all members of the Southern Governors 
Association. To assure broad based representation, SSEB is governed by 
a board composed of the governor and a member of the House and Senate 
from each member State and a Federal representative named by the 
President under Public Law 87-563 and Public Law 92-440. Over the years 
of administering the SERBEP, SSEB has created awareness and support for 
bioenergy/biobased products in the executive and legislative branches 
of State government, improved the effectiveness of State/regional 
biomass activities, provided more formal interaction between the States 
and improved policy development and coordination in particular.
    We urge Congress to include this modest but vital appropriation in 
the fiscal year 2005 Energy and Water Development Appropriations bill 
to protect the Federal Government's 20-year investment in State/
regional biomass activities, and to continue the promotion of the 
strong Federal interest in viable and growing biobased products and 
bioenergy.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM), the largest single 
life science organization in the world, with more than 43,000 members, 
appreciates the opportunity to provide written testimony on the fiscal 
year 2005 budget for the Department of Energy (DOE) science programs. 
The ASM represents scientists working in academic, medical, 
governmental, and industrial institutions worldwide. Microbiological 
research is focused on human health and the environment and is directly 
related to DOE programs involving microbial genomics, climate change, 
bioremediation, and basic biological processes important to energy 
sciences.
                         doe office of science
    The scientific enterprise and the overall economy continue to 
benefit enormously from investments in the basic sciences made by the 
DOE Office of Science. The DOE Office of Science, the Nation's primary 
supporter of the physical sciences, is also an essential partner in the 
areas of biological and environmental science research as well as in 
mathematics, computing, and engineering. Furthermore, the Office of 
Science supports a unique system of programs based on large-scale, 
specialized user facilities that bring together working teams of 
scientists focused on such challenges as global warming, genomic 
sequencing, and energy research. The Office of Science is also an 
invaluable partner in certain scientific programs of the National 
Institutes of Health (NIH) and the National Science Foundation (NSF) 
and supports peer-reviewed, basic research in DOE-relevant areas of 
science in universities and colleges across the United States. These 
cross-disciplinary programs contribute enormously to the knowledge base 
and training of the next generation of scientists, while providing 
worldwide scientific cooperation in physics, chemistry, biology, 
environmental science, mathematics, and advanced computational 
sciences.
    The Office of Science will play an increasingly important role in 
the administration's goal of U.S. energy independence in this decade. 
Many DOE scientific research programs share the goal of producing and 
conserving energy in environmentally responsible ways. Programs include 
basic research projects in microbiology, as well as, extensive 
development of biotechnology-based systems to produce alternative fuels 
and chemicals, to recover and improve the process for refining fossil 
fuels, to remediate environmental problems, and to reduce wastes and 
pollution.
    The administration's proposed budget for fiscal year 2005 includes 
$3.4 billion for the Office of Science, representing a decrease of $68 
million compared to fiscal year 2004. The 2 percent cut proposed for 
fiscal year 2005 for the Office of Science is a significant departure 
from the congressionally authorized level of $4 billion. The proposed 
budget for Biological and Environmental Research (BER) in fiscal year 
2005 is $502 million or $140 million below fiscal year 2004. The 
proposed budget for Basic Energy Sciences (BES) in fiscal year 2005 
would provide $1.06 billion, representing an increase of $53 million, 
or 5.2 percent, over the prior year.
             biological and environmental research programs
    DOE is the lead Federal agency supporting genomic sequencing of 
non-pathogenic microbes through its Genomics: GTL Program. This 
sequence information provides clues into how we can design 
biotechnological processes that will function in extreme conditions and 
potentially solve pressing national priorities, such as energy and 
environmental security, global warming, and energy production. The 
administration has requested $67.5 million for fiscal year 2005, 
compared to funding of $63.5 million for fiscal year 2004. These 
requests include a $4 million increase for research on function and 
control of molecular-scale machines for energy and environmental 
applications, as well as $5 million for Project Engineering and Design 
of the first Genomics: GTL project, the Facility for Production and 
Characterization of Proteins and Molecular Tags.
    In view of the valuable insights and tremendous practical potential 
from microbial genomic sequencing, the ASM recommends that Congress 
provide an additional $25 million for the GTL Program in fiscal year 
2005. ASM believes that these additional funds will be vital if DOE's 
role in this science frontier is to expand.
                       ber genomics: gtl program
    Since microbes power the planet's carbon and nitrogen cycles, clean 
up our wastes, and make important transformations of energy, they are 
an important source of biotechnology products, making DOE research 
programs extremely valuable for advancing our knowledge of the non-
medical microbial world. Knowing the complete DNA sequence of a microbe 
provides important keys to the biological capabilities of the organism 
and is the first step in developing strategies to more efficiently 
detect, use, or reengineer that microbe to address an assortment of 
national issues. The DOE Genomics: GTL genomic sequencing program has 
an important impact on nearly every other activity within BER. In 
addition to this program itself, a substantial portion of the DOE Joint 
Genome Institute's (JGI) sequencing capacity continues to be devoted to 
the sequencing of microbial genomes as well as DNA in mixed genomes 
obtained from microbial communities dwelling within specialized 
ecological niches. As part of these efforts, DOE continues to complete 
DNA sequences of genomes in microbes with potential uses in energy, 
waste cleanup, and carbon sequestration.
    About 40 percent of the JTI capacity is dedicated to serving direct 
DOE needs, primarily through the Genomics: GTL program, while the 
remaining 60 percent of this capacity serves as a state-of-the-art DNA 
sequencing facility for whose use scientists submit proposals that are 
subject to merit review. These sequencing projects will be conducted at 
no additional cost for the extramural scientific community. These 
efforts are expected to have a substantial impact on the BER 
Environmental Remediation Sciences program, reflecting the fact that 
much of this program is focusing on the use and role of microbes in 
environmental remediation. In addition, the Genomics: GTL program will 
continue to have a major impact on the BER Climate Change Research 
program because of the role microbes play in the global carbon cycle 
and the potential for developing biology-based solutions for 
sequestering carbon.
    The ASM applauds DOE's leadership in recognizing this important 
need in science and endorses expansion of its microbial genome 
sequencing efforts, particularly in using DNA sequencing to learn more 
about the functions and roles of the preponderance of microorganisms 
that cannot yet be grown in culture. The ASM also sees this program as 
the basis for an expanded effort to understand more broadly how genomic 
information can be used to understand life at the cellular and higher 
levels, and thus urges Congress to fully support this exciting program.
                       environmental remediation
    The overall goal of the DOE Environmental Management Science 
Program (EMSP), which was transferred from Environmental Management to 
the BER program, is to support basic research that improves the science 
base underpinning the clean up of DOE sites. Traditional clean up 
strategies may not work or be cost effective for many of the challenges 
that could prevent the successful closure of DOE sites. The EMSP, 
through its support of basic research, aims to develop and validate 
technical solutions to complex problems, providing innovative new 
technologies to overcome major obstacles that lead to future risk 
reduction and cost and time savings. It is the intent or the 
expectation of the EMSP that the basic research projects funded are 
directed toward specific issues and uncertainties at the DOE cleanup 
sites.
    DOE bioremediation activities are centered on the Natural and 
Accelerated Bioremediation Research (NABIR) program, a basic research 
program focused on determining how and where bioremediation may be 
applicable as a reliable, efficient, and cost-effective approach for 
cleaning up or containing metals and radionuclides in contaminated 
subsurface environments. In the NABIR program, research advances will 
be made from molecular to field scales; on genes and proteins used in 
bioremediation and in overcoming physicochemical impediments to 
bacterial activity; in non-destructive, real-time measurement 
techniques; on species interaction and response of microbial ecology to 
contamination; and in understanding microbial processes for altering 
the chemical state of metallic and radionuclide contaminants. NABIR 
activities have a substantial involvement of academic scientists.
    Additional EMSP research efforts will focus on contaminant fate and 
transport in the subsurface, nuclear waste chemistry and advanced 
treatment options, and novel characterization and sensor tools. In 
addition, studies on bioremediation of organic contaminants are 
conducted in EMSP, complementing EMSP projects will continue to be 
funded through a competitive peer review process. The most 
scientifically meritorious research proposals and applications will be 
funded based on availability of funds and programmatic relevance to 
ensure a complete and balanced research portfolio that addresses DOE 
needs. Research will be funded at universities, national laboratories, 
and at private research institutes and industries. This research will 
be conducted in collaboration with the Office of Environmental 
Management. Funding is reduced to increase research at and development 
of Field Research Centers through the NABIR program.
    The administration's proposed budget for Bioremediation research, 
including the NABIR program, is $105 million, a $2.8 million decrease 
compared to fiscal year 2004. The ASM considers these DOE environmental 
remediation programs to be of considerable importance, and recommends 
that funding for fiscal year 2005 be increased by an additional $5 
million.
                        climate change research
    The ASM is pleased to see the administration's support of Climate 
Change Research continue in its fiscal year 2005 budget. The ASM 
endorses the President's proposed $143 million budget for fiscal year 
2005, which is about equivalent with levels in fiscal year 2004. The 
Climate Change Research subprogram seeks to apply the latest scientific 
knowledge (i.e., genomic, new computational methods) to the potential 
effects of greenhouse gas and aerosol emissions on the climate and the 
environment. This program is DOE's contribution to the interagency U.S. 
Global Change Research Program proposed by President Bush in 1989 and 
codified by Congress in the Global Change Research Act of 1990 (Public 
Law 101-106). This program is vital if science is to advance its 
understanding of the radiation balance between the surface of the Earth 
and the uppermost portions of the atmosphere and how this will affect 
the planet's climate and ecosystems.
    The Ecological Processes portion of the subprogram is focused on 
understanding and simulating the effects of climate and atmospheric 
changes on the biological structure and functioning of planetary 
ecosystems. Research will also identify potential feedbacks from 
changes in the climate and atmospheric composition. This research is 
critical if we are to better understand the changes occurring in our 
ecosystems from increasing levels of atmospheric pollutants.
    The ASM urges Congress to support this important research within 
the Office of Science budget. The Climate Change Research subprogram is 
a key component in developing more accurate climate modeling and 
ecosystem data, and promises to yield new technologies to address 
future climate shifts.
                          basic energy science
    The administration's requested funding for the Office of Basic 
Energy Sciences (BES) for fiscal year 2005 is $1.06 billion, 
representing an increase of $53 million over fiscal year 2004. This 
program is a principal sponsor of fundamental research for the Nation 
in the areas of materials sciences, chemistry, geosciences, and 
biosciences as it relates to energy. Program initiatives include 
microbiological and plant sciences focused on harvesting and converting 
energy from sunlight into energy feedstock such as cellulose and other 
products of photosynthesis, as well as how those chemicals may be 
further converted into energy rich molecules such as methane, hydrogen 
and ethanol. Alternative and renewable energy sources will remain of 
strategic importance in the Nation's energy portfolio, and DOE is well 
positioned to advance basic research in this area. The advances in 
genomic technologies have given this research area a tremendous new 
resource for advancing the Agency's bioenergy goals.
                 new technologies and unique facilities
    New technologies and advanced instrumentation derived from DOE's 
expertise in the physical sciences and engineering have become 
increasingly valuable to biologists. The beam lines and other advanced 
technologies for determining molecular structures of cell components 
are at the heart of current advances to understand cell function and 
have practical applications for new drug design. DOE advances in high 
throughput, low cost DNA sequencing; protein mass spectrometry, cell 
imaging and computational analyses of biological molecules and 
processes are other unique contributions of DOE to the Nation's 
biological research enterprise. The budget request for the DOE 
Nanoscale Science program includes an increase of $8.7 million to a 
level of $211 million for fiscal year 2005. Furthermore, DOE has unique 
field research facilities for environmental research important to 
understanding biogeochemical cycles, global change and cost-effective 
environmental restoration. In short, DOE's ability to conduct large-
scale science projects and draw on its unique capabilities in physics, 
computation and engineering is critical for future biological research.
    The ASM strongly supports the basic science agenda across the 
scientific disciplines and encourages Congress to maintain its 
commitment to the Department of Energy research programs. Such 
commitment will help maintain U.S. leadership in science and 
technology.

                                                             SCHEDULE OF FEDERAL AWARDS 2004
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                Grants       Receipts or                      Grants
 Federal Grantor/Pass-through Grantor/Program Title     Cost     Federal      Program or    Receivable 1/1/    Revenue    Disbursements/  Receivable 12/
                                                       Center  CFDA Number   Award Amount        2004        Recognized    Expenditures       31/2004
--------------------------------------------------------------------------------------------------------------------------------------------------------
MAJOR PROGRAMS:
    Resident Postdoctoral Research..................      783       93.283     $999,381.00      $89,902.49  ............  ..............      $89,902.49
                                                     ---------------------------------------------------------------------------------------------------
      Total Major Programs..........................  .......  ...........      999,381.00       89,902.49  ............  ..............       89,902.49
                                                     ===================================================================================================
OTHER FEDERAL ASSISTANCE:
    HHS:
        NIGMS-MARC..................................      789       93.88       431,300.00  ..............  ............  ..............            0
        Environmental Micoorganisms.................      694       93.856       10,000.00  ..............  ............  ..............            0
        DNA Repair and Mutagenesis..................      457       93.393       25,000.00  ..............  ............  ..............            0
        Summer Institute............................      848       93.856       24,000.00          532.99  ............  ..............          532.99
        Conf Biofilms...............................      425       93.121       25,000.00       25,000.00  ............  ..............       25,000.00
        Environmental Pathogens.....................      694       93.856       10,000.00  ..............  ............  ..............            0
        Microbial Triggers of Disease...............      666       93.855        5,000.00  ..............  ............  ..............            0
        Candida and Candidiasis.....................      434       93.121       10,000.00  ..............  ............  ..............  ..............
    National Science Foundation:
        Plant Biotechnology.........................      678       47.074       15,000.00  ..............  ............  ..............            0
        Pathogens...................................      697       47.074      110,000.00       33,608.72  ............  ..............       33,608.72
        Sub Contract BioSciEd Net...................      787       47.076      100,000.00       30,838.75  ............  ..............       30,838.75
        Beyond Microbial Genomics...................      691       47.074       15,000.00  ..............  ............  ..............  ..............
    U.S. Department of Energy:
        DNA Repair and Mutagenesis..................      457       81.049       20,000.00  ..............  ............  ..............            0
        Prokaryotic Development.....................      472       81.049       10,000.00  ..............  ............  ..............            0
        Geobiology..................................      675       81.049       15,000.00  ..............  ............  ..............            0
        Microbial Ecology and Genomics..............      676       81.049       25,000.00  ..............  ............  ..............            0
        Multicellular Cooperation...................      671       81.049       15,000.00  ..............  ............  ..............            0
        Systems Microbiology........................      691  ...........       10,000.00        6,461.06  ............  ..............        6,461.06
    USDA:
        Conference Salmonella.......................      421       10.206       10,000.00       10,000.00  ............  ..............       10,000.00
        Pre-harvest Food Safety.....................      663       10.001        5,000.00        5,000.00  ............  ..............        5,000.00
        Pre-harvest Food Safety.....................      663       10.2         25,000.00       19,350.00  ............  ..............       19,350.00
        Pre-harvest Food Safety.....................      663       10.206       10,000.00        7,000.00  ............  ..............        7,000.00
        Conf Salmonella Pathogenesis................      421       10.206       10,000.00  ..............  ............  ..............            0
    EPA:
        Microbial Eolocy............................      676       66.5         20,000.00  ..............  ............  ..............            0
        Infectious Disease GI Tract.................      670       66.606       50,000.00  ..............  ............  ..............            0
        PO HHS/FDA Pre-harvest Food.................      663  ...........       10,000.00       10,000.00  ............  ..............       10,000.00
        PO US Dept of Army..........................      475  ...........       10,000.00  ..............  ............  ..............            0
                                                     ---------------------------------------------------------------------------------------------------
          Total Other Awards........................  .......  ...........    1,025,300.00      147,791.52         $0.00          $0.00       147,791.52
                                                     ===================================================================================================
          Total Federal Awards......................  .......  ...........    2,024,681.00      237,694.01          0.00           0.00       237,694.01
--------------------------------------------------------------------------------------------------------------------------------------------------------

           Prepared Statement of the Nuclear Energy Institute
    On behalf of the nuclear energy industry, I thank you for your 
support of nuclear technology-related programs in the Energy Department 
(DOE) and your oversight of the Nuclear Regulatory Commission (NRC) for 
fiscal 2004.
    The Nuclear Energy Institute is responsible for developing policy 
for the U.S. nuclear industry. NEI's 270 corporate and other members 
represent a broad spectrum of interests, including every U.S. energy 
company that operates a nuclear power plant. NEI's membership also 
includes nuclear fuel cycle companies, suppliers, engineering and 
consulting firms, national research laboratories, manufacturers of 
radiopharmaceuticals, universities, labor unions and law firms.
    My statement for the record addresses three key points for your 
consideration this year:
    (1) Congress should reclassify the Nuclear Waste Fund, reorienting 
it to its original purpose and ensuring adequate funding for the Yucca 
Mountain repository project.
    (2) Increased research and development (R&D) on advanced nuclear 
technology is essential to maintain America's leadership role in 
commercial nuclear technologies.
    (3) The NRC's budget and staffing should be reassessed in light of 
current trends.
    I also will discuss briefly several important programs that the 
nuclear energy industry supports, including research into the health 
effects of low levels of radiation.
           congress should reclassify the nuclear waste fund
    The Nuclear Waste Fund was established in 1982 as a separate 
account in the Federal treasury. However, congressional efforts to 
control deficit spending in the 1980's and 1990's changed the status of 
the fund. Currently, Congress funds the used fuel programs within the 
confines of the discretionary spending allocation for the Energy and 
Water Development Appropriations bill. As a result, annual 
appropriations for Yucca Mountain and related programs have been 
reduced $723 million below DOE's budget requests in the past 11 years--
significantly hampering DOE's progress toward accepting the Nation's 
used nuclear fuel. Funding shortfalls in past years have forced DOE to 
defer important programs, including procuring transportation containers 
for used reactor fuel; acquiring transportation and logistics services; 
creating the final grant process for providing emergency responder 
assistance; developing a transportation infrastructure in Nevada; and 
working with regional, State, tribal and local representatives on 
transportation planning.
    The industry urges Congress to reclassify the Nuclear Waste Fund 
this year, as proposed by the president's fiscal 2005 budget and 
introduced as H.R. 3981, to prevent future funding shortfalls for Yucca 
Mountain. The Nuclear Waste Fund has three unique characteristics that 
justify modifying the current budget rules governing its use in this 
way:
  --The Federal Government is obligated by law and contracts signed 
        with electric companies that operate nuclear power plants to 
        implement the used fuel management program.
  --The fund is intended to cover the entire cost of the Federal 
        Government's commercial used fuel management program over 
        several decades.
  --The disposal of used nuclear fuel from commercial reactors is 
        financed entirely through a fee established by Federal law and 
        paid by consumers of electricity generated at nuclear power 
        plants.
  industry supports budget request of $880 million for yucca mountain
    The industry greatly appreciates the House for its report language 
emphasizing the need for early action on infrastructure development for 
the used nuclear fuel disposal program. The committee's direction 
resulted in an announcement by DOE on preferences for rail transport in 
Nevada and should lead to a record of decision on route selection this 
year.
    Last year, the H.R. 6 conference report endorsed the highest level 
of funding for Yucca Mountain to date. At $580 million, DOE could 
address many technical challenges necessary for submitting an 
application to the NRC by December for a license to construct the 
repository.
    NEI recognizes the challenge that the committee faces in fiscal 
2005, based on assumptions included in the budget request on this issue 
and urges the committee to make allocations under section 302(b) of the 
Budget Act consistent with fully funding the administration request of 
$880 million for Yucca Mountain. Absent sufficient funding in fiscal 
2005, the industry does not believe the program will meet key 
milestones for accepting used fuel in 2010, and these potential delays 
will result in higher costs for the program and increased liabilities 
to the government.
    Although the repository program is the foundation of our national 
policy for managing used nuclear fuel, the nuclear industry also 
recognizes the value in researching emerging technology for used 
reactor fuel treatment and management. Such farsighted programs will 
allow our Nation to remain the world leader in nuclear technologies. 
However, technologies like transmutation--the conversion of used 
nuclear fuel into a smaller volume of less toxic materials--still 
require a Federal repository for disposal of the radioactive by-
products generated from the process.
    research and development of new nuclear energy systems necessary
    The industry supports increased funding for fiscal 2005 for DOE's 
R&D programs for the development of new nuclear energy systems. The 
nuclear energy industry urges the committee to approve at least $60 
million for the Nuclear Energy Technology (NET) program. Within the NET 
program, $10 million should be earmarked for the early site permit 
process as requested by DOE. This is an important component of the 
revised NRC licensing process for new nuclear power plants passed by 
Congress in 1992, and testing is already under way. An additional $50 
million should be used to begin a 6-year, cost-shared program to test 
the combined operating and construction license process for new nuclear 
plants, based on the industry's response to a DOE solicitation that 
will be awarded this year. DOE should support deployment of proven 
generation III-plus technology for this program.
    The industry believes that the government has an early role in 
bringing advanced reactor concepts, known as Generation IV reactors, to 
the marketplace. NEI urges your support for a next-generation nuclear 
plant at the new Idaho National Laboratory, funded through the 
Generation IV Nuclear Energy Systems Initiative program. The industry 
also supports the Nuclear Hydrogen Initiative at $9 million.
    Although DOE continues to fund the International Nuclear Energy 
Research Initiative (I-NERI), the domestic version of this program, 
NERI, has been terminated and a new initiative has been proposed. We 
believe the current program fills a vital need identified in a 1997 
report by the President's Council of Advisers on Science and Technology 
(PCAST) and endorsed by the energy secretary's Nuclear Energy Research 
Advisory Committee. We do not support the change for NERI. Rather, the 
industry believes this collaborative program between national 
laboratories, industry and universities should be continued at $7 
million for fiscal 2005.
    PCAST also recommended another R&D initiative--the Nuclear Energy 
Plant Optimization (NEPO) program--to produce additional amounts of 
affordable energy from America's 103 commercial reactors. Through NEPO, 
DOE has been working with the nuclear industry and DOE's national 
laboratories to apply new technology to nuclear and non-nuclear 
equipment. The industry encourages the committee to allocate $10 
million for the NEPO program to help fund important research on 
materials management issues at nuclear power plants, including improved 
availability and maintenance at nuclear plants; technology to predict 
and measure the extent of materials degradation from plant aging; 
introducing new materials in a cost-effective manner to mitigate 
materials effects; and as an underpinning to both the applied materials 
and technology development and deployment activities, advanced research 
tools and the evolving knowledge of materials properties. DOE has 
proposed no funding for the program in fiscal 2005 despite the obvious 
benefits that the national laboratories can bring to bear on these 
issues.
    The industry also requests $27.5 million for DOE's University 
Support Program, which supports vital research and educational programs 
in nuclear science at the Nation's colleges and universities. With 
nuclear plant license renewal continuing at a brisk pace and the 
industry considering plans for new nuclear plants, demand for highly 
educated and trained professionals will continue. NEI encourages the 
committee to consider a new $2 million program within the Office of 
Nuclear Energy, Science and Technology to support universities that 
have undergraduate and graduate programs in health physics. The 
industry's most recent human resources survey reveals an increasing 
demand for health physics professionals. This need will become acute in 
the next few years when many will retire.
              nrc budget and staffing should be reassessed
    Our Nation's focus on security has led to significant security 
enhancements at nuclear power plants. Nuclear power plant security was 
among the most robust in the industrial sector before the Sept. 11, 
2001, terrorist attacks, and our facilities are even more secure today. 
By year's end, our industry will have invested an additional $1 billion 
over the past 2 years in security-related improvements, such as 
fortified perimeter security, improved background checks and tighter 
access control and detection ability at our plants. The nuclear energy 
industry has added one-third more security officers, for a total of 
7,000 well-trained, armed security officers at our 67 nuclear power 
plant sites. The industry will continue to make these investments and 
improvements to enhance private industry's best security program.
    The NRC's proposed fiscal 2005 budget totals $670.3 million, an 
increase of $44.2 from the fiscal 2004 budget, and the highest ever for 
this agency. Fiscal 2005 is an appropriate time for the NRC to review 
its budget and resource allocations in light of current demands and 
other resources available. The industry's 103 commercial reactors are 
operating at world-class levels of safety and reliability. Nearly 75 
percent of the reactors have the NRC's highest safety performance 
indicator in all categories, and most of the others have only a single 
indicator in the next lower level. The excellent safety record of U.S. 
nuclear power plants lays the groundwork for refining regulatory 
oversight based on performance and safety insights. Additionally, 
insights from the reactor oversight process indicate that several major 
regulations for power reactors are not providing a significant safety 
value. A disciplined review of the regulatory process should be 
undertaken to focus on the more probable, safety-significant events 
rather than highly unlikely events.
               industry support for additional activities
    Nuclear Nonproliferation.--The industry supports the disposal of 
excess weapons-grade nuclear materials through the use of mixed-oxide 
fuel in reactors in the United States and Russia.
    Low-Dose Radiation Health Effects Research.--The industry strongly 
supports continued funding for the DOE's low-dose radiation research 
program.
    Nuclear Research Facilities.--The industry is concerned with the 
declining number of nuclear research facilities. We urge the committee 
to fully fund the request for a DOE lead lab in Idaho for nuclear 
energy research and development.
    Uranium Facility Decontamination and Decommissioning.--The industry 
fully supports cleanup of the gaseous diffusion plants at Paducah, KY; 
Portsmouth, OH; and Oak Ridge, TN. Commercial nuclear power plants 
contribute more than $150 million to the Decontamination and 
Decommissioning Fund for government-managed uranium enrichment plants 
each year. Other important environmental, safety and/or health 
activities at these facilities should be paid for out of general 
revenues.
    International Nuclear Safety Program and Nuclear Energy Agency.--
NEI supports the funding requested for the DOE and NRC's international 
nuclear safety programs. They are programs aimed at improving the safe 
commercial use of nuclear energy worldwide.
    Medical Isotopes Infrastructure.--The nuclear industry supports the 
administration's program for the production of medical and research 
isotopes.
                                 ______
                                 
         Prepared Statement of the Society of Nuclear Medicine
    The Society of Nuclear Medicine (SNM) appreciates the opportunity 
to submit written comments for the record regarding funding for a 
National Isotope Program in fiscal year 2005. SNM is an international 
scientific and professional organization founded in 1954 to promote the 
science, technology and practical application of nuclear medicine. Its 
14,000+ members are physicians, technologists and scientists 
specializing in the research and practice of nuclear medicine.
    To that end, SNM advocates the creation of a National Isotope 
Program to ensure consistent radioisotope research and production 
programs as isotope availability is crucial to nuclear medicine 
procedures and innovation in this field. The Society stands ready to 
work with policymakers at the local, State, and Federal levels to 
advance policies and programs that will that our Nation have a steady 
supply of isotopes for the advancement of nuclear medicine research.
                       what is nuclear medicine?
    Nuclear medicine is a medical specialty that involves the use of 
small amounts of radioactive pharmaceuticals, called ``Radiotracers'' 
or ``Tracers,'' to help diagnose and treat a variety of diseases. These 
tracers are detected by special types of cameras that work with 
computers to provide nuclear medicine physicians and the patient's 
doctor precise pictures of the area of the body being imaged. It is a 
way to gather medical information that may otherwise be unavailable, 
require exploratory surgery, or necessitate more expensive diagnostic 
tests.
    Nuclear medicine procedures, such as PET (positron emission 
tomography) and SPECT (single-photon emission tomography), often 
identify abnormalities very early in the progression of a disease--long 
before some medical problems are apparent with other diagnostic tests. 
This early detection allows a disease to be treated early in its course 
when there may be a more successful prognosis.
    An estimated 16 million nuclear medicine imaging and therapeutic 
procedures are performed each year in the United States. Nuclear 
medicine procedures are among the safest diagnostic imaging tests 
available. The amount of radiation from a nuclear medicine procedure is 
comparable to that received during a diagnostic X-ray.
    Some of the more frequently performed nuclear medicine procedures 
include:
  --Bone scans to examine orthopedic injuries, fractures, tumors or 
        unexplained bone pain.
  --Cardiac scans to identify normal or abnormal blood flow to the 
        heart muscle, measure heart function or determine the existence 
        or extent of damage to the heart muscle after a heart attack.
  --Breast scans which are used in conjunction with mammograms to more 
        accurately detect and locate cancerous tissue in the breasts.
  --Liver and gallbladder scans to evaluate liver and gallbladder 
        function.
  --Cancer imaging to detect tumors and determine the severity 
        (staging) of various types of cancer.
  --Treatment of thyroid diseases and certain types of cancer.
  --Brain imaging to investigate problems within the brain itself or in 
        blood circulation to the brain.
  --Renal imaging in children to examine kidney function.
    funding cuts and program restructuring threaten nuclear medicine
    The Nation needs a consistent, reliable supply of isotopes for 
medical, security, space power, and research uses. Today, new isotopes 
for diagnostic and therapeutic uses are not being developed, critical 
isotopes for national security are in short supply, and demand for 
isotopes critical to homeland security exceeds supply. Additionally, 
the national isotope infrastructure is chronically under funded at the 
DOE.
    New science, such as molecular nuclear medicine, is emerging that 
will require reliable supplies of isotopes. By abandoning isotope 
research at the DOE, innovative medical research progress into 
radiopharmaceuticals will be lost, and the medical community will not 
benefit from valuable discoveries for the diagnosis and treatment of 
millions of Americans.
    Isotopes for research & development (R&D) at reasonable prices are 
not available due to declining resources and policy change in the DOE 
Isotope Program. The DOE program and its resources have been declining 
for two decades, and recent policy changes by DOE have significantly 
worsened the situation and are impeding the development of new isotope 
applications. Recently DOE eliminated all R&D funding for DOE 
applications and production. Lost opportunities to develop new advanced 
technologies through isotope research will have major impacts on 
pressing needs of the United States in health care and national 
security.
    The Advanced Nuclear Medicine Initiative (ANMI) at the DOE fostered 
peer-reviewed nuclear medicine research studies that advanced medical 
and clinical research and practice in this important area of medicine. 
The program was funded at $2.5 million in fiscal year 2000, 2001 and 
2002. By abandoning this program in fiscal year 2003, innovative 
medical research progress into radiopharmaceuticals was lost.
    Also, the fiscal year 2003 budget instituted an upfront payment 
policy for development and production of radionuclides for treatment or 
research. This restructuring severely hampered researcher's ability to 
obtain essential radioisotopes by imposing a much higher cost on 
researchers, and created a difficult payment situation, since 
researchers often cannot commit outlays until grants are issued and 
funds are received, with the end result being an adverse effect on 
public health. A resulting crisis in the availability of isotopes 
constrained existing nuclear medicine procedures and had a chilling 
effect on research into new procedures to diagnose and treat serious 
and life-threatening diseases, such as cancer.
    Additionally, relying on foreign sources for radioisotopes severely 
hampers researcher's ability to obtain essential radioisotopes. Because 
no commercial isotope-producing reactors exist in the United States, 
there is a strong dependence on foreign sources for reactor-produced 
radioisotopes. The U.S. facilities for reactor-produced isotopes are 
limited to DOE and university reactors, primarily at the University of 
Missouri Research Reactor Center (MURR). The resulting crisis in the 
availability of isotopes will constrain existing nuclear medicine 
procedures and will have a chilling effect on research into new 
procedures to diagnose and treat serious and life-threatening diseases, 
such as cancer.
    Decline in nuclear and radiochemistry education is not being 
addressed to avoid impacts on radioisotope production and applications 
R&D. A recent survey with 19 universities found a continuation of a 
long-term decline in the number of graduate programs, graduate 
students, and faculty in the United States in nuclear and radiochemical 
fields. Currently, there are 5-10 U.S. Ph.D. graduates in these 
research fields each year while the projected demand in the near future 
at the DOE and within the nuclear medicine community will be several 
hundred Ph.D.'s. In the past, foreign graduates have solved the 
shortage of nuclear scientists. However, because of a worldwide decline 
in the number of young scientists in the field, foreign graduates are 
not available to address the shortage.
                 creation of a national isotope program
    Congress should realign isotope resources to create the National 
Isotope Program to produce essential isotopes, reestablish R&D for 
production and isotope applications, establish nuclear technology 
education activity, and support isotope production infrastructure of 
new and existing facilities.
    Major components of a National Isotope Program include:
  --Establishment of a national program to meet the national need for 
        isotopes. The program should be supported at the Secretary of 
        Energy level with the program director reporting at a high 
        level in DOE;
  --Collaboration with R&D, medical, and industrial users to assess 
        isotope needs and transfer technologies to accelerate 
        applications;
  --Facilitation of the transfer of commercially viable isotope 
        programs to the private sector;
  --Investment in R&D to improve isotope production, processing, and 
        utilization;
  --Continuously monitoring the isotope needs of researchers and 
        clinicians;
  --Establishment of an education program to ensure that the next 
        generation of nuclear and radiochemists are trained and 
        available to support the Nation's needs; and
  --Upgrade the capability at the University of Missouri and other 
        existing facilities that produce isotopes.
    A National Isotope Program will continue innovation in nuclear 
medicine to meet the health care needs of the Nation. To that end, SNM 
advocates the allocation of $25 million in fiscal year 2005 for the 
creation of the National Isotope Program.
                               conclusion
    The Society of Nuclear Medicine once again stands ready to work 
with policymakers to advance policies that will reduce and prevent 
suffering from disease for all Americans, while ensuring an adequate 
nuclear medicine workforce. Again, we thank you for the opportunity to 
present our views on funding for nuclear medicine workforce and 
research related programs and stand ready to answer any questions you 
may have.

</pre></body></html>
